<html>
<title> - REAUTHORIZATION OF TEA-21</title>
<body><pre>[Senate Hearing 107-668]
[From the U.S. Government Printing Office]


                                               S. Hrg. 107-668, Part II

 
                       REAUTHORIZATION OF TEA-21

=======================================================================

                             FIELD HEARINGS
                        AND ROUNDTABLE SYMPOSIA

                               BEFORE THE


                    SUBCOMMITTEE ON TRANSPORTATION, 
                   INFRASTRUCTURE, AND NUCLEAR SAFETY

                                AND THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION


                                   ON

      REVIEW OF PROPOSALS TO REAUTHORIZE PUBLIC LAW 105-178, THE 
         TRANSPORTATION EQUITY ACT FOR THE TWENTY-FIRST CENTURY

                               ----------                              

                             MARCH 15, 2002
                              MAY 10, 2002
                             JUNE 14, 2002
                        AUGUST 8, 2002--RENO, NV
                    AUGUST 20, 2002--MONTPELIER, VT

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works

                   REAUTHORIZATION OF TEA-21, PART II



90-854              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                                               S. Hrg. 107-668, Part II

                       REAUTHORIZATION OF TEA-21

=======================================================================

                             FIELD HEARINGS
                        AND ROUNDTABLE SYMPOSIA

                               BEFORE THE


                    SUBCOMMITTEE ON TRANSPORTATION, 
                   INFRASTRUCTURE, AND NUCLEAR SAFETY

                                AND THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

      REVIEW OF PROPOSALS TO REAUTHORIZE PUBLIC LAW 105-178, THE 
         TRANSPORTATION EQUITY ACT FOR THE TWENTY-FIRST CENTURY

                               __________

                             MARCH 15, 2002
                              MAY 10, 2002
                             JUNE 14, 2002
                        AUGUST 8, 2002--RENO, NV
                    AUGUST 20, 2002--MONTPELIER, VT

                               __________

  Printed for the use of the Committee on Environment and Public Works



              COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS\1\

                      one hundred seventh congress
                  JAMES M. JEFFORDS, Vermont, Chairman
MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ARLEN SPECTER, Pennsylvania
JON S. CORZINE, New Jersey           PETE V. DOMENICI, New Mexico
                 Ken Connolly, Majority Staff Director
                 Dave Conover, Minority Staff Director
                                 ------                                
   Subcommittee on Transportation, Infrastructure, and Nuclear Safety

                      HARRY REID, Nevada, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
BOB GRAHAM, Florida                  JOHN W. WARNER, Virginia
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    LINCOLN CHAFEE, Rhode Island

\1\Note:  During the second session of the 107th Congress, 
    Senator Ben Nighthorse Campbell of Colorado resigned from the 
    committee, and on April 23, 2002, Senator Pete V. Domenici of 
    New Mexico was appointed to fill the vacancy.

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 15, 2002
                    SURFACE TRANSPORTATION RESEARCH
                           OPENING STATEMENTS

Jeffords, Hon. James M., U.S. Senator from the State of Vermont..    11
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........    22

                               PANELISTS

Bernstein, Scott, Surface Transportation Policy Project..........    14
Carlson, David B., National Asphalt Pavement Association.........    17
Deakin, Professor Elizabeth, University of California at Berkeley     9
Eighmy, Dr. Taylor, Director, Recycled Material Resource Center, 
  University of New Hampshire....................................    14
Judycki, Dennis C., Federal Highway Administration, Director of 
  Research, Development and Technology...........................     5
Riva, Val, American Concrete Pavement Association................    12
Ryan, Michael M., PennDOT, AASHTO Representative.................    23
Skinner, Robert E., Executive Director, TRB......................     6
Tarnoff, Dr. Philip J., Institute of Transportation Engineers 
  Representative.................................................    20
Walton, Michael, University of Texas.............................     8
White, Dr. Chelsea C., Georgia Tech, ITS America Representative..    19
Womack, Dr. Kevin, Fellow, Committee on Environment and Public 
  Works..........................................................     1
Wright, Mr. Frederick (Bud), Federal Highway Adminstration, 
  Executive Director.............................................     3
                                 ------                                

                              MAY 10, 2002
             OPERATIONS AND SECURITY IN METROPOLITAN AREAS
                           OPENING STATEMENTS

Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    45
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..    48
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........    44

                               PANELISTS

Bennis, Richard, Associate Undersecretary for Maritime and Land 
  Security, Transportation Security Administration, Washington, 
  DC.............................................................    53
Edelman, Matthew, Executive Director, TRANSCOM, Jersey City, NJ..    53
Goldstein, Jack, Senior Vice President, Science Applications 
  International Corporation, on behalf of ITS America............    56
Hungerbeeler, Henry, Director, Missouri Department of 
  Transportation, Jefferson City, MO.............................    49
Johnson, Dr. Christine M., Program Manager, Operations Director, 
  ITS Joint Program Office, Federal Highway Administration, 
  Washington, DC.................................................    47
Lockwood, Steve, Vice President, Parsons Brinckerhoff, on behalf 
  of Institute of Transportation Engineers.......................    55
Miller, Dr. William D., Executive Director, Oklahoma Aeronautics 
  and Space Commission, Director of Transportation Security Task 
  Force to Governor's Security and Preparedness Executive Panel, 
  Oklahoma City, OK..............................................    57
Njord, John, Executive Director, Utah Department of 
  Transportation, Salt Lake City, UT.............................    50
Snow, Jacob, General Manager, Regional Transportation Commission 
  of Southern Nevada, Las Vegas, NV, on behalf of the Association 
  of Metropolitan Planning Organizations.........................    52
Tinklenberg, Elwyn, Commissioner, Minnesota Department of 
  Transportation, St. Paul, MN...................................    51
                                 ------                                

                             JUNE 14, 2002
                         TRANSPORTATION SAFETY
                           OPENING STATEMENTS

Reid, Hon. Harry, U.S. Senator from the State of Nevada..........   118

                               PANELISTS

Haifley, John, Fellow, Committee on Environment and Public Works.    96
Hamberger, Edward, President and CEO, Association of American 
  Railroads Washington, DC.......................................    99
Hamilton, Wendy, National President, Mothers Against Drunk 
  Driving Irving, TX.............................................   102
Hill, D.B., III, President, D.B. Hill Contractor Inc., Little 
  Rock, AR Chairman, Workzone Safety Committee, Associated 
  General Contractors............................................   103
Holmes, Brian, Executive Director, Maryland Highway Contractors 
  Association, on behalf of American Road and Transportation 
  Builders Association...........................................   101
Holst, Kathleen, President, American Traffic Safety Services 
  Association Romeoville, IL.....................................   104
Roberts, Tricia, Director, Delaware Office of Highway Safety 
  Dover, DE, on behalf of the National Association of Governors' 
  Highway Safety Representatives.................................   100
Walsh, William, Associate Administrator for Plans and Policy, 
  National Highway Traffic Safety Administration, Washington, DC.    98
Warner, Bruce, Director, Oregon Department of Transportation 
  Salem, OR, Chairman, Standing Committee on Highway Traffic 
  Safety, American Association of State Highway and 
  Transportation Officials.......................................    97
Wright, Hon. Frederick (Bud), Executive Director, Federal Highway 
  Administration, Department of Transportation...................    96

                          ADDITIONAL MATERIAL

Statement, Mothers Against Drunk Driving.........................   129
                                 ------                                

                       AUGUST 8, 2002--RENO, NEV
   WESTERN TRANSPORTATION NEEDS AND THE FEDERAL LANDS HIGHWAY PROGRAM
                           OPENING STATEMENTS

Reid, Hon. Harry, U.S. Senator from the State of Nevada..........   145

                               WITNESSES

Burdette, Robyn, Chairwoman, Summit Lake Paiute Tribe, 
  Winnemucca, NV.................................................   169
    Prepared statement...........................................   196
Carano, Gary, Nevada Resort Association, Reno, NV................   158
    Prepared statement...........................................   195
Krause, Greg, Executive Director, Washoe County Regional 
  Transportation Commission, Reno, NV............................   153
    Prepared statement...........................................   188
Milton, Hon. John H., III, Commissioner, Humboldt County, 
  Winnemucca, NV.................................................   168
    Prepared statement...........................................   195
Palma, Juan, Executive Director, Tahoe Regional Planning Agency, 
  Zephyr Cove, NV................................................   156
    Prepared statement...........................................   190
Peters, Hon. Mary E., Federal Highway Administrator, U.S. 
  Department of Transportation, Washington, DC...................   147
    Prepared statement...........................................   175
Stephens, Hon. Thomas, Director, Nevada Department of 
  Transportation, Carson City, NV................................   151
    Prepared statement...........................................   180
    Policy resolution, Western Governors Association.............   184
Warner, Hon. Bruce, Director, Oregon Department of 
  Transportation, Salem, OR......................................   165
    Prepared statement...........................................   191

                          ADDITIONAL MATERIAL

Statement, Navajo Nation.........................................   199
                                 ------                                

                    AUGUST 20, 2002--MONTPELIER, VT
         TRANSPORTATION NEEDS OF SMALL TOWNS AND RURAL AMERICA
                           OPENING STATEMENTS

Jeffords, Hon. James M., U.S. Senator from the State of Vermont..   205

                               WITNESSES

Adler, Thomas, Northeast Transportation Institute and Museum, 
  White River Junction, VT.......................................   225
    Prepared statement...........................................   241
Bruhn, Paul, Preservation Trust of Vermont, Burlington, VT.......   229
    Prepared statement...........................................   248
Burton, Raymond S., Executive Councilor, Woodville, NH...........   218
Jackson, Hon. Michael, Deputy Secretary, U.S. Department of 
  Transportation, Washington, DC.................................   207
    Prepared statement...........................................   232
Mazza, Hon. Richard, Chairman, Vermont Senate Committee on 
  Transportation, Colchester, VT.................................   222
    Prepared statement...........................................   240
Pembroke, Hon. Richard, Chairman, Vermont House Committee on 
  Transportation, Bennington, VT.................................   219
    Prepared statement...........................................   238
Ricker, Debra, Associated General Contractors of Vermont, Barre, 
  VT.............................................................   227
    Prepared statement...........................................   245
Searles, Hon. Brian, Secretary, Vermont Agency of Transportation, 
  Montpelier, VT.................................................   214
    Prepared statement...........................................   236
Sternberg, Matthew, Executive Director, Rutland Redevelopment 
  Authority, Rutland, VT.........................................   231
    Prepared statement...........................................   251

                          ADDITIONAL MATERIAL

Memorandum, Patricia Crocker, Vermont Public Transportation 
  Association....................................................   256
Statements:
    Carter, Stephanie, Vermont Department of Tourism and 
      Marketing..................................................   257
    Maguire, Meg, Scenic America.................................   259
    Rohe, Debbie, Scenic Michigan................................   262
    Tracy, Mary, Society Created to Reduce Urban Blight..........   258


                         TEA-21 REATHORIZATION

                              ----------                              


                         FRIDAY, MARCH 15, 2002

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The roundtable symposium was convened at 9:30 a.m. on 
Friday, March 15, 2002, in room 406, Senate Dirksen Building, 
Washington, DC.

                    SURFACE TRANSPORTATION RESEARCH

    Present: Senators Jeffords and Reid.
    Staff present: Jeff Squires, Mitch Warren, Ruth Van Mark, 
Megan Stanley, Larry Vigil, Ted Michaels, John Anderson, and 
Kevin Womack [moderator].
Panelists
    Dr. Michael Walton, University of Texas
    Mr. Robert E. Skinner, Executive Director, TRB
    Professor Elizabeth Deakin, University of California at 
Berkeley
    Dr. Taylor Eighmy, Director, Recycled Material Resource 
Center, University of New Hampshire
    Mr. Scott Bernstein, Surface Transportation Policy Project
    Mr. Val Riva, American Concrete Pavement Association
    Mr. David B. Carlson, National Asphalt Pavement Association
    Dr. Chelsea C. White, Georgia Tech, ITS America 
Representative
    Dr. Philip J. Tarnoff, Institute of Transportation 
Engineers Representative
    Mr. Michael M. Ryan, PennDOT, AASHTO Representative
    Mr. Dennis C. Judycki, Federal Highway Administration, 
Director of Research, Development and Technology
    Mr. Frederick (Bud) Wright, Federal Highway Adminstration, 
Executive Director

STATEMENT OF KEVIN WOMACK, FELLOW, COMMITTEE ON ENVIRONMENT AND 
                          PUBLIC WORKS

    Dr. Womack. Good morning everyone, we would like to welcome 
you to this research round table. My name is Kevin Womack. I am 
a fellow with the majority staff of the Environment and Public 
Works Committee. I will be moderating this discussion today. I 
would just like to welcome all of you, and I appreciate all of 
you coming.
    We expect some Senators to come in shortly, or at some 
point in time during our discussion. When they do, we will 
allow, if it is during opening statements, the person to 
complete their opening statement. Then we will allow the 
Senators to make their remarks. They may stay for a few minutes 
or have to go off to a vote. It's a bit hectic around here 
these days.
    But we are looking forward to that. I think they feel this 
is a very important activity, and I know that some of them want 
to be here. So we look forward to that. In particular, Senator 
Jeffords, I believe, will be here.
    What I would like to do is, I will go around and briefly 
introduce the participants. Then I'll give a couple of remarks 
on our goals and objectives, the format of how we're going to 
do this, a few instructions, and then we'll get started.
    To my immediate left, we have Mr. Bud Wright from the 
Federal Highways Administration. He is the Executive Director. 
We have Mr. Dennis Judycki, who is the Director of the Research 
and Development Program at Federal Highways, out at the Turner 
Fairbank facility.
    We have Mr. Bob Skinner, the Executive Director of the 
Transportation Research Board; Dr. Michael Walton from the 
University of Texas; and Professor Elizabeth Deakin from the 
University of California Transportation Research Center.
    We have Mr. Val Riva from the American Concrete Pavement 
Association; Dr. Taylor Eighmy, the Director of the Recycled 
Material Resource Center at the University of New Hampshire.
    We have Mr. Scott Bernstein, who is representing the 
Surface Transportation Policy Project; Mr. David Carlson from 
the National Asphalt Pavement Association; Dr. Chip White from 
Georgia Tech University, representing ITS America; Dr. Philip 
J. Tarnoff, representing the Institute of Transportation 
Engineers; and Mr. Michael Ryan, who is representing the AASHTO 
Group, and he is from PENNDOT. We appreciate all the panelists 
being here today.
    On the staff side, we have myself and Mr. Squires, who will 
be coming with Senator Jeffords; Mr. Mitch Warren and Ms. Ruth 
Van Mark from the Environment and Public Works Committee staff; 
and Mr. Jensen, as well, from Senator Smith's office; and Mr. 
Michaels from Senator Chafee's office. So that's who we have at 
the table right now.
    The objective of this discussion is to provide information 
to the EPW committee staff. We are not having a research 
hearing, so we are doing this round table discussion in lieu of 
that.
    The idea is to get direction and priorities out in the air 
and discussed among people who are significant stakeholders and 
leaders in the surface transportation research industry to help 
us develop the research title in the upcoming reauthorization 
bill.
    This is a key part of the title. It is a key effort, and 
very important to the development of our transportation system. 
So that's our fundamental goal, as we go through this 
reauthorization, to use information gathered through this round 
table to be able to develop that in a progressive manner.
    As far as the format is concerned, what we will do is, we 
will begin with the panelists. We will allow each panelist a 3-
minute opening statement. I would ask you not necessarily to 
read what you've submitted in writing, because if you do that, 
many of those will be much more than 3 minutes; so summarize, 
please.
    We've got the timers out, so you'll know when your time is 
up. You know, we're not going to shut you off at 3 minutes if 
you're in the middle of an important statement. We would like 
to have you say at about 3 minutes.
    We will go around to the panelists, and then we will start 
and allow each of the staff members to ask a question, and kind 
of circle through the staff in doing that.
    The objective here is not to make this a question and 
answer session. I'm hoping that the questions will spur 
discussion among the panelists, so that we don't have to keep 
spurring you on to make comments. With this group, I'm sure 
that's not going to be a problem. But I just want to let you 
know that we're hoping the questions will just spur discussion.
    We're planning on running until about 11:30, so we have a 
couple of hours to do that, and I believe that's it. I guess 
one last request is that if you have something to say, signal 
me in a manner so that I can call on you by name, so that that 
will make it easier for our transcriptionist.
    This will be transcribed, and a name before a speaker helps 
the transcriptionist accomplish that task. So I will try to 
keep my head up and pay attention who would like to be heard 
from next.
    With that in mind, I guess we'll go ahead and begin. We'll 
start with Mr. Bud Wright from the Federal Highways 
Administration, and then we'll just proceed from him around the 
table.

   STATEMENT OF FREDERICK (BUD) WRIGHT, EXECUTIVE DIRECTOR, 
  FEDERAL HIGHWAY ADMINISTRATION, DEPARTMENT OF TRANSPORTATION

    Mr. Wright. Thank you, Kevin.
    As Kevin noted, my name is Bud Wright, the Executive 
Director of the Federal Highway Administration. Accompanying me 
today is Dennis Judycki, FHWA's Director of Research, 
Development, and Technology at the Turner Fairbank Highway 
Research Center.
    We're pleased to be a part of this discussion, and working 
with you and the rest of this important constituency, to 
improve surface transportation research. Kevin, we just want to 
say that we very much appreciate the leadership of the Senate 
Environment and Public Works Committee staff and members in 
putting together this important forum.
    Research and technology are key to meeting the challenge 
before us, maintaining a high quality transportation network, 
while achieving goals to increase safety, ensure national 
security, improve mobility, and promote environmentally 
responsible and efficient project delivery.
    We must keep our infrastructure secure, and we must 
strengthen our commitment to reducing highway fatalities and 
injuries, even as we squeeze additional capacity from the 
system.
    FHWA has recently developed a new mission and role 
statement that recognizes the importance of research and 
technology. Among the key elements of that new mission is to be 
innovators for a better future. We know we must invest in and 
conduct transportation research on behalf of our partners and 
stakeholders, and we are taking very serious actions to 
corporately raise the bar on surface transportation research 
and the delivery of technology and innovation.
    While TEA-21 provides funds for surface transportation 
research, technology and deployment, and training and 
education, it's important to know that funding for FHWA 
research and technology activities were reduced under TEA-21 
from the level available under ISTEA. This decrease in funding, 
coupled with substantial increases in earmarks and 
designations, diminished the FHWA's ability to carry out a 
national highway research agenda.
    We believe, and our many partners support the fact that a 
reduced Federal role means a diminished national perspective, 
and a loss in efficiency. Moreover, these factors jeopardize 
FHWA's ability to remain effective in carrying out carefully 
conceived multi-year research and technology deployment plans.
    FHWA, AASHTO, and TRB created the National Highway Research 
and Technology Partnership in 1999. This partnership developed 
a draft national R&T agenda that is unprecedented in scope and 
focuses on safety, infrastructure renewal, operations and 
mobility, planning and environment, policy analysis, and system 
monitoring. FHWA, the States, academia, and private industry 
will carry out the research needs identified by this 
partnership cooperatively.
    Working through our partnership, FHWA has made significant 
progress in advancing research and delivering technology and 
innovation to our stakeholders. For example, the investment in 
safety research and technology initiatives has led to safety 
infrastructure improvements that have produced a three to one 
return in benefits.
    It is estimated that the Highway Pavement Design Guide that 
is being developed by the National Cooperative Highway Research 
Program with long-term pavement performance data will result in 
pavement rehabilitation savings of $1 billion per year.
    In the environmental area, as a result of our investment of 
$3.9 million over 9 years in noise model research, States and 
local governments will be able to save more than $19 million 
annually.
    Significant progress has been made in ITS deployment, 
including a 37 percent increase in the number of freeway miles, 
with real-time traffic data collection technologies; and an 83 
percent increase in travel or information dissemination.
    But much remains to be done. One of the keys to the success 
of our transportation programs is assuring that we have a well 
developed work force for the future. Much of America's surface 
transportation program work force is expected to retire in the 
next 5 years. The efforts of our National Highway Institute, 
the Local Technical Assistance Program Centers, the Eisenhower 
Fellowships Program, and the University Transportation Centers 
are intended to address this critical issue.
    In conclusion, the Federal Surface Transportation Research 
Program can play a key role in our ability to address the 
significant transportation challenges that face the Nation 
today.
    I would like to now turn to Denny Judycki, also 
representing FHWA.
    Dr. Womack. Mr. Judycki?

     STATEMENT OF DENNIS C. JUDYCKI, DIRECTOR OF RESEARCH, 
 DEVELOPMENT, AND TECHNOLOGY, FEDERAL HIGHWAY ADMINISTRATION, 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Judycki. Thank you, Kevin.
    Good morning. It's good to be with everyone and provide 
some additional thoughts from the Federal Highway 
Administration.
    Understanding the environment within which surface 
transportation research is undertaken is central to us, clearly 
stating the Federal Highway Administration's mission and fully 
appreciating the partnerships that we're going to be hearing 
more about today.
    The Surface Transportation Research Program is truly a 
national program, not just a Federal one; and we must continue 
to advance that philosophy.
    The Federal Highway's role in R&T is actually a multiple 
one of providing leadership for a national program, formulating 
a vision for the future, conducting research, supporting and 
facilitating research by our partners, and stimulating and 
encouraging innovation development and deployment.
    Federal Highways is a partner in a collaborative 
decentralized national R&T endeavor, which includes the State 
Planning and Research Program, the National Cooperative Highway 
Research Program, the University Research and Education 
Programs, and industry research, just to mention some of the 
principal organizations.
    We are working very hard to create a more cohesive program 
of research and technology, which seeks to involve all of those 
partners in addressing national research priorities.
    The Federal Highways R&T Program focuses intermodally, as 
Bud suggested, on a broad array of priority needs, to advance 
the state-of-the-art and put innovation into practice.
    It's really a broad array ranging from the physical 
sciences, such as pavement and bridges, to freight, to general 
traffic flow, to air quality, to economic impact analysis, to 
support public policy, and the sharing of innovative practices 
in areas such as finance and contracting.
    You've heard and you'll hear more about our role in 
conducting gap filling, stakeholder-driven, and longer-term 
research on emerging issues; but just as important is our 
leadership role in facilitating the needs of our partners.
    The recently re-engineered Transportation Pool Funding 
Program is but one example, which consists of approximately $40 
million of Federal highway-lead and $50 million of State-lead 
research, which is mutually identified multi-state research 
needs, that comprise that pool-funded program.
    We're making available today actually two handouts that I 
would like to draw to your attention. One is a 2001 Local 
Technical Systems Report, and the other is the Federal Highway 
Research and Technology Initiatives Report, which we will make 
available after today's session.
    These summarize our R&T budget distribution, the priority 
areas within Federal Highways of the research and technology 
program; the research innovation delivery that's under way; 
examples of results from the program, as well as what we should 
be anticipating for future research.
    Finally, authorization has given us the opportunity to sit 
around the table today, and we'll be working together in the 
future. We should be guided by what TEA-21 has taught us. There 
have been successes and there are some opportunities.
    I think I would just quickly point to a couple of the 
successes. The program framework, for instance, I think, was 
well established and has worked well. The resulting national 
R&T partnership initiative that was led by Federal Highways, 
AASHTO, and TRB has been a true success.
    In fact, we have delivered; whether it's the ITS Program or 
the Highway Research Program. We have generally delivered 
products, and technology has been deployed, and in fact, a 
professional work force has been trained in priority areas.
    But there are some opportunities that we should include on 
the list. We should be moving away from Federal programs that 
are overly focused on short-term applied needs, which has 
impeded us in addressing the emerging issues in a timely 
fashion.
    More could also be done in moving market-ready technology 
and innovation into practice and encouraging industry 
partnerships, as well as product commercialization, which is 
the most difficult part, I think, of the innovation process.
    Finally, even with the national leadership, we must have 
the flexibility to step up to the plate and provide what is 
expected from us by our partners, to assure that research and 
technology investments in high priority areas are able to be 
addressed.
    Thank you very much, and I look forward to the discussion 
following the statements.
    Dr. Womack. Thank you.
    Mr. Skinner?

    STATEMENT OF ROBERT E. SKINNER, EXECUTIVE DIRECTOR, TRB

    Mr. Skinner. Thank you very much, and good morning to all 
of you.
    Let me start by re-emphasizing a point that Denny just 
made, about the decentralization of our surface transportation 
system. It's incredibly decentralized in this country, and we 
know that we have 35,000 units of government that are 
responsible for highways in this country.
    Given that, I'd argue that we need to have a research 
program that is also de-centralized, to an extent, that has 
significant components with different institutional homes, so 
that we can exploit the necessary connections between those 
different institutional actors, and exploit the comparative 
advantages that these different institutions have and bring to 
research.
    As a result, we've done this, to a large degree, and we 
have a fairly messy and complicated research structure. It's 
quite a contrast to the Department of Defense, for example.
    But I would argue, this is a good thing, and we've already 
ticked off some of the components. We have the individual State 
DOT research programs. We have pooled fund initiatives that 
Denny mentioned where multiple States work together. We have a 
national program, a National Cooperative Highway Research 
Program, where all of the States pool money for work of common 
interests.
    We have university programs, which combine research needs 
with attracting new talent and skill development. We have 
occasional strategic research programs like the Strategic 
Highway Research Program that the 1987 Act implemented. I'm 
sure today we'll hear about additional proposals for the 
future.
    Let me, at this point, shift gears and focus specifically 
on the Federal role. The Federal Government has been 
instrumental in creating and encouraging a number of the 
research initiatives that have taken place over time elsewhere.
    I'm going to draw upon a recent TWP report that 
specifically looks at the Federal role in highway research and 
technology. Let me acknowledge that that committee was chaired 
by Dr. Mike Walton, who is sitting next to me. That committee 
completed its work and published a report last Fall. I have 
copies of it, if any of you at the end would like to see it.
    It looked specifically in the beginning at the research 
agenda, and concluded that the Federal Highway Administration 
had not given enough attention to fundamental long-term 
research in its program, and recommended that a quarter of its 
research resources should be devoted to that area. One-half of 
the research resources should go to gaps not addressed by other 
programs and emerging national issues.
    Then the final quarter of research and technology resources 
ought to go to mission-oriented research at the Federal Highway 
Administration, policy and regulation development and the like, 
tech transfer, field applications, education and training, and 
tech support.
    They also recommended greater stakeholder involvement 
throughout the research project and the research programs at 
the Federal Highway Administration, all the way from initial 
problem identification through implementation of research 
results.
    The program, to the maximum extent possible, should be 
based on open competition, merit review, and systematic 
evaluation of outcomes. Those are the best methods that we know 
to ensure a quality research product.
    If FHWA's research program can be reformed along these 
lines then that, of course, requires actions by them, as well 
as the Congress. The committee supported a significant increase 
in funding. If it was not possible to do that, it recommended 
that stakeholders work with the Congress to explore other 
mechanisms for accomplishing these same goals.
    Then last, there were several other recommendations that 
I'll just briefly mention: a continuation of the State planning 
and research program, which is very, very important. They 
endorsed the Future Strategic Title Research Program, which I 
think you'll hear more about later, and they supported 
continuation of the University Transportation Centers Program, 
and urged that, again, open competition, merit review, and 
stakeholder involvement be features of those programs, as well.
    I'll conclude right at this point, and I'll look forward to 
your questions later. Thank you.
    Dr. Womack. Thank you.
    Dr. Walton?

STATEMENT OF DR. MICHAEL WALTON, PROFESSOR, UNIVERSITY OF TEXAS 
                           AT AUSTIN

    Dr. Walton. Kevin, thank you and good morning.
    First of all, let me express our appreciation to the 
committee for convening this event. We sincerely appreciate it, 
and thank the members of the staff for being here and 
participating, as well. We look forward to the discussion.
    My name is Mike Walton. I'm with the University of Texas at 
Austin. I hold faculty positions in engineering in the LBJ 
School of Public Affairs.
    I'm here this morning to speak to you about a new 
initiative, the Future Strategic Highway Research Program. As 
you know, that was called for in TEA-21. It asked the NRC, or 
the National Research Council, through the academies and TRB, 
to convene a study group to determine the goals, purposes, and 
research agenda for projects, administrative structure, and 
physical needs for a new F-SHRP initiative, building on the 
previous success of F-SHRP in the past, but looking at it in a 
broader context.
    The effort that was undertaken was to probably convene the 
most extensive outreach program which I have experienced in my 
career, and include numerous items of input from groups across 
the country, some from outside the country, as well, who had 
participated in previous programs.
    From that, we were able to develop Special Report 260 
entitled, Strategic Highway Research: Saving Lives, Reducing 
Congestion, Improving Quality of Life. It recommends the 
establishment of a Future Strategic Highway Research Program, 
comprised of four strategic areas, which I would like to 
quickly identify with you.
    First is renewal; accelerating the renewal of America's 
highways. The research goal in the renewal area is to develop a 
consistent systematic approach to performing highway renewal 
that is rapid, causes minimum disruption, and produces long-
life facilities.
    Now what does that mean? It means, get in, get out, and 
stay out, basically, on our highway. We think that is an 
important objective, and one that we heard a great deal from 
the constituent groups who participated in the discussion.
    Safety is the second area, making a significant improvement 
in highway safety. The research goal in the safety areas is to 
prevent or reduce the severity of highway crashes through more 
accurate knowledge of cause factors that create the crashes, 
and the cost effectiveness of selected counter measures in 
these factors.
    This is a substantial opportunity and goal in which, again, 
we figured, to the extent of the input we received and the 
severity of the problem, that this is a major initiative, where 
we need if not a significant improvement, perhaps a quantum 
leap, if you will.
    Reliability is the third area, providing a highway system 
with reliable travel times. The goal in this area of 
reliability is to provide highway users with reliable travel 
times by preventing and reducing the impact of non-reoccurring 
incidents.
    The fourth area is in capacity. Providing highway capacity 
in support of the Nation's economic environmental and social 
goals. The research goal in the area of capacity is to develop 
approaches and tools for systematically integrating 
environmental, economic and community requirements into the 
analysis, planning, and design of new highway capacity; a 
substantial objective.
    Some of these projects or topics are obviously not new; but 
in essence, we are looking at resources that could be brought 
to bear that would provide us the opportunity of leaping beyond 
the incremental approach to the particular issue.
    Special Report 260 provides a strategic direction and a 
conceptual design for F-SHRP. Additional detailed planning is 
currently underway. It is funded and supported by AASHTO and 
FHWA. Under the NCHRP Program, that area is intended, or that 
initiative is intended to flesh out, if you will, these four 
strategic areas, and build a research program behind that.
    The Secretary of Pennsylvania DOT, Brad Mallory, is 
chairing this oversight panel, and we now have over 100 members 
of the highway and transportation community participating in 
the development of those plans and programs.
    There is a list of those who are participating in this 
initiative, at least on the oversight committee, attached to 
our report. Kevin, we look forward to further discussion when 
we have the opportunity.
    Dr. Womack. Thank you.
    Professor Deakin?

    STATEMENT OF ELIZABETH DEAKIN, PROFESSOR, UNIVERSITY OF 
                     CALIFORNIA AT BERKELEY

    Ms. Deakin. Thank you. I'm Elizabeth Deakin. I'm a 
professor at the University of California, Berkeley, where I 
have faculty appointments in actually four different groups, in 
city and regional planning, and then affiliate appointments in 
civil engineering, urban design, and energy and resources.
    In addition to chairing one of the 10 regional 
transportation centers established under the UTC Program, for 
the last couple of years, I have been serving as the chair of 
the Surface Transportation Environmental Cooperative Research 
Advisory Board, which was established, as you know, under TEA-
21, through a call to the Secretary of Transportation, to 
establish a board to look into the needs for research in 
transportation, energy, and the environment.
    The Board has 17 members. The members draw from a very 
broad range of disciplines and backgrounds. We include State 
DOT representatives, metropolitan planning organization 
representatives, people from environmental organizations, and 
academics.
    We started our work by looking at what the State and 
Federal agencies that carry out transportation environmental 
research were doing. One of the complications, of course, with 
this area is that there is not just DOT doing research, and 
State DOTs doing research, but research also extends into the 
Environmental Protection Agency, the Department of Energy, 
Housing and Urban Development, Agriculture, Interior. Lots and 
lots of different agencies do research on transportation and 
the environment.
    We also held a workshop in which we invited over 100 people 
to participate and help us identify research needs and discuss 
what the current research issues were. We based our work on 
that input that we got.
    One of the findings that I think is most important for this 
committee is that it was very clear that research and 
transportation in the environment has been under-funded for a 
very, very time. Because it has been under-funded, there is a 
gigantic backlog of research needs in this area.
    The research that is going on, and there is important 
research going on, is mostly focused toward the short-term, 
immediate needs the agencies that are carrying out that 
research.
    While that is very important for the agencies to do, the 
people who testified to us and our own committee membership 
identified that a real problem was that there isn't any long-
term focus, and there is not a long-term strategic plan, to go 
beyond the issues that are mitigating environmental problems as 
they arise, to really looking at the fundamental causes of 
those environmental problems, and finding ways to avoid those 
problems.
    So the need that we've identified is for a really 
systematic research program that can look at both short-term 
and longer-term transportation, environmental, and energy 
research issues, and get beyond short-term issues, while those 
are important things to address; but to also look at the 
longer-term more fundamental issues, where we really think we 
will find a big payoff.
    An investment in that kind of long-term focused strategic 
research is something that we think we really need to do, and 
we need to do quite soon, because we have got a lot of catching 
up to do in this areas.
    The committee's report, which is in this form right now, a 
pile of draft chapters, will be out in about a month, I 
believe, or at least we're hoping that that's the schedule we 
can keep to. The report's reviews are being completed right 
now. The response to reviewers are basically done.
    We had 11 reviewers on this report, which I think might be 
a record for the Transportation Research Board. It is many 
times the typical number of reviewers.
    There were three overall reviewers, and then an additional 
eight reviewers who looked at specialty areas of the individual 
chapters, in addition to the National Academy of Sciences 
Monitor and reviews by senior administrators and staff at the 
TRB itself. So it will be a very carefully reviewed report, 
when it is finally issued.
    The findings that we've made or that we need to do research 
are in six basic areas. Those areas are the relationship 
between transportation and human health; the relationship 
between transportation and natural ecology, natural systems; 
environmental and social justice issues; emerging technologies 
and the role that they might play in addressing transportation 
energy and environmental issues; land use and transportation; 
planning and performance measures. So those are the six areas.
    In each of those areas, the report provides an initial 
agenda of research topics, where we think research can 
profitably be done. It will give us both short-term payoffs and 
longer term benefits.
    In addition to looking at those particular issues, the 
committee thought quite hard about what the best way of 
organizing this research would be. We recognize, of course, 
that we do have this multitude of existing research 
institutions.
    But having looked at those institutions, we also concluded 
that because we've had such a backlog and such a need for 
environmental research, we need a cooperative research program 
for transportation and the environment, that could be a 
partnership of public and private actors and the nonprofits, 
who are very interested in this topic, as well, where they 
could pool resources and try to address some of the conflicts 
that arise over transportation, energy, and environmental 
issues in a dispassionate way by having an independent 
organization that would be able to look at that.
    So another recommendation we make, in addition to doing 
research on these six topic areas, is that we establish a new 
cooperative research program on transportation and the 
environment.
    I would also like to say just a couple of words about the 
University Research Program, since I am director of one of 
those centers. The University Research Program grew under both 
ISTEA and TEA-21 from the 10 regional centers that we started 
with in 1987, to 33 centers now. The rest of the centers were 
earmarked centers, identified specifically in legislation.
    We believe all the centers have found ways to be productive 
and to produce important products, but we also think that the 
centers are quite under-funded, at this point.
    The 10 regional centers, in particular, haven't had a raise 
since 1987. We are operating on the same budget that we had in 
1987, or actually a reduced budget, because we are now subject 
to Federal budgeting rules, so we have had reductions in the 
amount of funding that's actually provided to us.
    That has made it extremely difficult for us to carry out 
the role of education and research that we think is so 
important. It was said earlier that we need to be producing new 
researchers for our programs in transportation, and we think 
the University Program is the way to do that. We produce 
students. That's one of our primary products. But we need 
funding to be able to do that.
    We have been successful so far, and we think we could be 
more successful in the program were funded at a higher level. 
Thank you.
    Dr. Womack. Thank you, Professor Deakin.
    We would like to turn the time now over to Senator Jeffords 
and welcome him.

         OPENING STATEMENT OF HON. JAMES M. JEFFORDS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Jeffords. I want to thank you all for coming. This 
is a very important meeting, as far as I'm concerned. I 
appreciate the participation.
    We are beginning the undertaking of the daunting task of 
preparing a new transportation authorization bill. The research 
title within that bill is a key component to the future 
performance of our highway system. I am pleased that in lieu of 
a research hearing, we have been able to put together this 
discussion today.
    My thanks go to the panelists, and I appreciate your 
willingness to share both your knowledge and your time with us. 
It is extremely important as we move forward on this 
legislation.
    I am a firm believer in the need for research. It is 
through research that we would be able to take the demands that 
are placed on our surface transportation system and improve our 
performance.
    The use of new materials, construction methods, and 
technologies will help us rebuild our aging infrastructure with 
a modern and more durable one.
    In Vermont, at the University of Vermont, we have a project 
underway that is investigating the use of new wireless 
technology to ascertain the integrity of the highway 
structures. It is my hope that in some small way my State is 
playing a role for the advancement of highway efficiency and 
performance.
    It would be through the application of technologies that we 
will increase the efficiency and safety of our surface 
transportation system.
    Research can also help us better manage and operate the 
system. Our roads and bridges are stronger and last longer, 
thanks to the quality of research we've had in the past. I 
believe that system efficiency and operational performance can 
realize similar benefit through research.
    So please keep this in mind when you discuss things today, 
and I look forward to your results, especially if you are going 
to solve other problems.
    Dr. Womack. We hope so.
    [Laughter.]
    Dr. Womack. Thank you, Senator. You are certainly welcome 
to stay with us as long as your schedule would allow. We 
appreciate you coming.
    Senator Jeffords. I will be able to stay for a while, so go 
right ahead.
    Dr. Womack. All right, thank you.
    Mr. Riva?

 STATEMENT OF VAL RIVA, AMERICAN CONCRETE PAVEMENT ASSOCIATION

    Mr. Riva. Senator and members of the panel, I was going to 
say this anyway before Senator Jeffords arrived, but I think it 
is more appropriate now, even so.
    This is the fourth Federal highway bill that I'm going to 
be working on, in various capacities. I cannot recall a time 
when either this committee or any committee in the House of 
Representatives has put research and development at the 
forefront of the legislative process, as you have today.
    Given the size of the Federal Aid Highway Program, I think 
that it's not only appropriate, but it's putting the entire 
agenda in a very appropriate order; and that is, to assess what 
needs to be done in the future, in conjunction with what's 
being done in the core program areas. So I applaud you for 
doing that.
    I have a lengthy statement, so I won't even both to go 
through most of that. I would also like to thank the Iowa State 
Research Center. They have traveled here without any budget, as 
I understand it, to be here today, and Debra Larsen and Dale 
Harrington, who is the Director of it.
    I have a couple of just very basic points, and I will keep 
to my 180 seconds. The American Concrete Pavement Association, 
and that's the first and only time I will mention concrete 
pavement in this whole presentation, believes in a couple 
things. That is that effective research has a couple of key 
components.
    One, it must be useful. We believe strongly it should be 
applied research, with a goal of promoting cost effective, 
durable, and safe pavements. We believe that it should be 
without regard to the type of pavement, even though there are 
only two types, since you can put down concrete and asphalt.
    We also agree on something that Mr. Bud Wright from Federal 
Highways pointed out. That is that education and knowledge 
transfer is absolutely critical.
    Many of our students coming out of undergraduate, civil 
engineering programs have very little knowledge of what it is 
to specify or to understand the different kinds of pavement. 
They can only get that later on in their programs. In some far-
reaching programs, they may have an in-depth indoctrination, if 
you will, on that, but that is not often the case.
    We believe that's something that should be addressed, 
because these are the individuals that will be going to work 
for the Department of Transportation and other sectors that 
will have a pivotal role.
    We also believe that the best research is going to be 
conducted in a cooperative effort between the public and the 
private sector, in academia, and the State DOTs. To our mind, 
this makes the best of not only maximizing intellectual 
capital, but also leveraging the scarce resources that 
undoubtedly will come into play.
    We don't believe that any entity has absolutely the best 
and only solution to an issue. We find that if you clearly 
define and delineate the objectives that a research program 
has, then the best way to go about that is to bring those 
individuals to those parties together in an open, competitive 
process, and let them get to work.
    We, ourselves, have been involved in an entity called the 
Innovative Pavement Research Foundation, which we believe has 
brought some of those key issues to the front.
    We also believe that future research should not only be 
applied, but it should focus on pavement replacement, and 
upgrading the congested facilities we have in this country. I 
think it stands to reason that the amount of new construction, 
in many cases, is going to be hampered.
    Therefore, we have to find ways to make better due with the 
existing facilities that we have, construct the work faster; do 
so in a way that's environmentally sensitive; and do so in a 
way that changes or reduces the disruption and inevitable 
delays that come about as a result of construction.
    We also think that in terms of even more specifics, that we 
should focus on the materials that are used, without regard to 
the type, again, the education aspects; and with always a mind 
to environmental mitigation.
    In conclusion, I urge you to draw strongly from Government, 
from academic, from industry, in a partnership that draws the 
best from each one of those sectors.
    Thank you, that's all I have for now.
    Dr. Womack. Thank you, Mr. Riva.
    Dr. Eighmy?

  STATEMENT OF DR. TAYLOR EIGHMY, DIRECTOR, RECYCLED MATERIAL 
          RESOURCE CENTER, UNIVERSITY OF NEW HAMPSHIRE

    Dr. Eighmy. I'd like to thank the Senator and the committee 
staff for the opportunity to be here today, and to participate 
in this discussion.
    My name is Taylor Eighmy, and I direct the Recycled 
Materials Resource Center at the University of New Hampshire. 
It's a partnership with the Federal Highway Administration to 
promote the wise use of recycled materials in the highway 
environment.
    My written testimony that I provided has a number of 
specific concrete ideas for research needs that were developed 
out of many stakeholder meetings that have taken place over the 
last year or two, so I'm not really going to touch base on 
those.
    I want to give you four take-home messages for today. They 
are really related to barrier reduction about using recycled 
materials in the highway environment.
    The first take-home point is that this research on recycled 
materials is going to require strategic partnerships. The 
second one is that these research activities have to be linked 
to the highway community. You have to put useful information 
and tangible products in the hands of decisionmakers.
    These research activities not only must produce more basic 
knowledge, but these tangible products that must also evolve 
have to be things like material specifications; performance 
specifications; best practices; guidance; evaluation 
methodologies; particularly to predict long-term performance of 
recycled materials; policy analysis as research; and 
demonstration projects. Demonstration projects are a great way 
to, pardon the bad pun, go out and kick a tire, so that people 
can understand that a proposed material in a new application 
can work.
    My last take-home message to you all is that a measurement 
of research success needs to be put in terms of actual use of 
the product by the highway community, particularly the State 
DOTs. Although I will mention, I think it is interesting to 
note that our center also feels that one of our principal 
clients, in addition to the State DOTs, is also the State EPAs. 
You can't ignore them in the recycled materials arena.
    But the notion here is that if you want to measure return 
on investment, you have to look at the use of the product. 
Thanks.
    Dr. Womack. Thank you, Mr. Eighmy.
    Mr. Bernstein?

  STATEMENT OF SCOTT BERNSTEIN, SURFACE TRANSPORTATION POLICY 
                            PROJECT

    Mr. Bernstein. That's a hard act to follow.
    Good morning, and let me echo my thanks to the committee 
and the staff for putting this together. I'm Scott Bernstein. 
I'm President of the Center for Neighborhood Technology in 
Chicago, a nonprofit community development and public interest 
engineering group.
    It is my privilege to be a cofounder of the Surface 
Transportation Policy Project, a coalition of 800 
environmental, economic development, business, and community 
interests around the country, who came together back in 1990 to 
help articulate a vision for transportation that works for 
people in communities.
    As we've thought about the challenge, in the letter 
inviting us, on the successes and failures of research under 
TEA-21, the principal that we identified is that the stated 
purposes of ISTEA and TEA-21 should really be what guides the 
federally supported research information and research and 
development agenda. Just to re-articulate, those purposes are 
intermodalism, economic efficiency, environmental quality, and 
equity.
    We took a review of the expenditures and the activities 
against those principles. I want to address really briefly this 
morning five gaps or challenges that we think are there, and 
hopefully boil this down in under 3 minutes to three 
recommendations.
    The first of those gaps is in the area of transparency; the 
ability to actually see how our resources are being used. By 
analogy in another field, the Home Mortgage Disclosure Act and 
the Community Reinvestment Act require lenders to disclose sort 
of the origin and destination, if you will, of depositors' 
money on a community by community basis.
    This has been going on since 1975, and every day in 
America, hundreds of thousands of people log on to the Internet 
or walk into their institution, and they can find out where 
their money is, and where it's getting reinvested in.
    The lending institutions have not only gotten used to this, 
but the Federal Reserve Bank found that the best performers in 
being transparent in America turn out to be the most profitable 
in America, as well. So it works. They actually open up the 
system and, if you will, take an eye glass to how our resources 
are being used.
    If we take a look at the financial management information 
system of DOT, as an example of what that eye glass looks like 
for transportation expenditures, it's inpenetratably dense.
    We have staff here who can speak to it, if you have 
questions. But every 2 years, we go through an amazing activity 
to de-code that and make it publicly available. If the codes 
don't correspond to functions, activities, or outcomes, it's 
impossible to do a good tracking system.
    We ought to be able to do better. That's an example, and 
there are many other information systems that we think could be 
similarly re-engineered.
    The second is that good data should support good science 
and good decisions, but bad data is going to work the other 
way. The National Personal Transportation Survey is the only 
national source of data on travel demand.
    We all depend on it for input into our metropolitan and 
State models and programming activities. It's supposed to be a 
representative survey. If you take a close look at who's 
actually surveyed, it's mostly a middle class survey.
    You don't know how higher income people are traveling; but 
more importantly, it's a telephone-based survey, and it misses 
many, many low income people; people living in group quarters. 
It misses the institutional population, living at colleges and 
universities. As a result, it undercounts, for example, transit 
users by a significant degree.
    It's been stated that this is a money problem, but we don't 
think so. We think there are ways to include that sort of data 
collection. We think that it inadvertently also leads to the 
labeling of people who don't have cards as autoless households, 
to use a phrase from an annual report put out by one federally 
supported researched.
    That doesn't help us make decisions, particularly for a 
population where now the overwhelming majority of Americans 
live in metropolitan areas, and are trying to articulate 
transportation choices.
    The third area has to do with inner city travel. The 
recently released American Travel survey focuses on long-
distance travel. It's interesting that it does state that 81 
percent of trips over 100 miles are taken by car. Only 16 
percent are taken by aviation, 2 percent by motor coach, and a 
half percent by train.
    We are fascinated by the 81 percent, and think this ought 
to be taken into account, as we think about intermodalism; but 
more importantly as we think about security investments, in 
light of September 11th.
    Every day, it seems Congress is being asked to consider 
very significant expenditures for transportation security. The 
data on the actual security events, over a 40 year period, 
seems to show that there is less likelihood of attack with 
surface transportation; and in particular, with mass transit, 
than with aviation. This strikes me as a strategic issue for 
the committee to want to think about.
    Then there are the values of fixing it first and thinking 
about the economic impact on households. The longer things 
last, the more it's worth. When the useful life of highways was 
adjusted in the GDP accounts from 60 to 45 years, the value of 
the United States dropped in those GDP account by $140 billion. 
This is just an example of how much this is worth.
    In Northeastern Illinois, the agencies there, the MOP and 
the COG, found that since the passage of TEA-21, the amount of 
money spent on the program, totally going to fix-it-first 
activities, preservation and maintenance, increased from 55 to 
80 percent, with a new impact of billions in one region alone. 
But they had to dig that information out.
    It strikes me as a performance indicator for what is 
effectively a fix-it-first bill, that we ought to be getting 
that kind of information.
    Finally, on household economics, it seems that where you 
live really makes a difference. If you have one car instead of 
two, or two cars instead of three, there's an enormous economic 
impact on households and users.
    There is no program to speak of on user economic impacts 
that is anywhere within the Department of Transportation. There 
is a chapter on economics in the Bureau of Transportation 
Statistics Report. They don't seem to be directly funded to 
even consider this. If people aren't the end users of the 
system, then who are?
    So our three recommendations are that first, information 
and research should be less modally and technology-oriented and 
more end-use oriented. This was one of the promises of creating 
Bureau of Transportation statistics. They hardly get enough 
funding to do a respectable job in this.
    The second is that information and research should be 
approached as a comprehensive effort involving both the Federal 
Government and other sectors. That's the only way to get on top 
of this and to address the funding problems that many people 
have spoken to here.
    If I can contrast with this year's Welfare Reform Bill, 
close to $100 million was spent by the Federal Government and 
by foundations in the United States, to get ready with an 
information set, so that the authorizing and appropriating 
committees would have the information needed for a good debate.
    The feedback we're getting is that it's really paying off. 
There's time to actually put together that kind of partnership 
here and we ought to think about it.
    Finally, the data collection should really be structured to 
answer the kinds of critical questions that users are really 
posing, so that the transportation investigations that result 
really meet end-use community needs.
    Walter Lippman once noted that democracy means paying 
attention. Every day in America, every week, there are 
thousands of organizations who have taken the choice to get 
increasingly involved in planning the future of their 
transportation system, despite the availability of the quality 
data they need.
    I think we owe it to them to put together the support 
structure, so that we get the best bang for the buck here, and 
meet that challenge.
    Thank you very much, and we'd be happy to answer any 
questions.
    Dr. Womack. Thank you, Mr. Bernstein.
    Mr. Carlson?

   STATEMENT OF DAVID B. CARLSON, NATIONAL ASPHALT PAVEMENT 
                          ASSOCIATION

    Mr. Carlson. Thank you.
    Thank you for providing this excellent forum on the 
Reauthorization of the Surface Transportation Research Program. 
I ought to mention that our company from Iowa does both 
concrete and asphalt work, but I'm here today representing the 
National Asphalt Pavement Association.
    NAPA represents companies that manufactures hot mix 
asphalt, used in the construction of roads, streets, highways, 
parking lots, airports, environmental, and recreational 
facilities.
    In short, Mr. Chairman, NAPA recommends Congress authorize 
a multi-year asphalt pavement research and technology program, 
managed by the Federal Highway Administration, with oversight 
input from members of the American Association of State Highway 
and Transportation Officials, AASHTO, and the hot mix asphalt 
industry.
    Our national highway system, as established by an Act of 
Congress in 1956, has now reached its maturity. President 
Eisenhower would be astonished to learn that 45 years later, 
the National Highway System would carry 200 million passenger 
vehicles, and 3.4 million trucks and buses.
    The volume of freight transported over highways is expected 
to double in volume over the next 20 years. This trend will 
maintain three decades of growth, as vehicle miles traveled 
increased 143 percent, and vehicle miles traveled logged by 
trucks, in particular, increased 225 percent. Yet, over the 
same period, miles of roadway increased only 6 percent.
    These divergent factors have led to serious congestion on 
our Nation's highways. The roads are handling more vehicles 
than the pavements were designed to handle.
    The results of highway congestion are often tragic, with 
more than 40,000 deaths per year, and three million injuries 
resulting from traffic accidents. The fact is that our national 
highway system is outdated and breaking down from overuse. 
Unless we plan effectively and use our highway dollars wisely, 
there is a real potential for an increase in the number of 
highway deaths.
    Mr. Chairman, there is clearly a need to increase Federal 
funding to prevent the deterioration of our road system and 
provide for growing needs. In addition, NAPA strongly believes 
that there is a fundamental need to invest in research and 
development.
    Funding a focused, multi-year national research program 
would pay huge dividends to the public, resulting in highways 
that are safer and environmentally friendly, designed for 
perpetual use, and repair projects that are quick and reduce 
traffic congestion.
    Highway research is an ongoing need. Exciting opportunities 
exist to improve pavement performance, develop better methods 
of maintenance and rehabilitation, and optimize resources 
through recycling and speed of construction.
    The hot mix industry believes a new approach to designing 
highways is needed that takes into consideration not just the 
thickness of the pavement, but the combination of materials 
used to construct an optimal pavement structure, a perpetual 
pavement.
    A perpetual pavement is designed as an asphalt that is 
designed to last longer than 50 years without requiring 
reconstruction, with only occasional surface renewal. Examples 
of long-life hot mix pavements exist around the country.
    Criteria needs to be developed so that the selection, 
design, and construction of perpetual pavements becomes a 
conscious process. A federally funded and managed hot mix 
research program could develop the very tools that highway 
designers and contractors need to build perpetual pavements.
    New and improved pavement technologies and materials can 
also achieve significant long-term savings. The total 
replacement value of the Nation's highways and bridges is 
estimated to be $3 trillion. If research can improve the 
performance and durability of roads and bridges just by 1 
percent, the direct savings would be in billions.
    NAPA recommends that Congress authorize and fund an asphalt 
pavement research and technology program in the next 
Transportation Reauthorization Bill. Furthermore, NAPA believes 
the Federal Highway Administration is best suited to manage the 
APRT Program with oversights that include AASHTO and the hot 
mix industry as equal partners.
    The APRT Program should be funded at $25 million annually, 
and focus on fundamental, long-term research aimed at achieving 
breakthroughs in our understanding of hot mix pavement 
materials, design, and performance. Such research should also 
be aimed at addressing research gaps, and not addressing other 
highway R&D programs, as well as emerging issues with national 
implications.
    In order to ensure the APRT Program is responsive to the 
major stakeholders in highway innovation, the oversight 
structure should include an Executive Committee consisting of 
HMA pavement experts from FHWA, State Departments of 
Transportation, and the hot mix industry, each having an equal 
voice.
    The Executive Committee would provide oversight and input 
in support of an APRT program. Research advisory committees 
would be formed to guide research projects and consider 
research initiative studies.
    I would be pleased to answer any questions you may have. 
Thank you.
    Dr. Womack. Thank you, Mr. Carlson.
    Dr. White?

 STATEMENT OF DR. CHELSEA C. WHITE, GEORGIA TECH, ON BEHALF OF 
                          ITS AMERICA

    Dr. White. Thank you, Kevin, for the opportunity to 
participate in this round table.
    I'm Chip White, a member of the ITS America Board of 
Directors and a Professor at Georgia Tech. I'm testifying on 
behalf of ITS America, a non-profit 501-C3, which has over 600 
member organizations from the public, private, and academic 
sectors, representing some 60,000 individuals worldwide. ITS 
America is also a utilized Federal advisory committee to U.S. 
DOT.
    Let me now briefly mention the work needed to continue our 
efforts to build on the ISTEA and TEA-21 investment in ITS 
research and deployment, in order to fully realize the benefits 
of ITS technologies.
    Regarding security, last September 10, ITS America last 
testified before this committee on the oversight of the Federal 
ITS Program.
    The following day, traffic operation centers in Northern 
Virginia and in New York City, which were designed to monitor 
traffic flows and respond to crashes, provided the 
communications needed for effective evacuations and the 
efficient management of emergency response personnel. Without 
ITS systems in place, these evacuations would have certainly 
been slower and less orderly.
    ITS America's Homeland Security Task Force has recommended 
that in reauthorization, we focus attention on a variety of 
security-related applications of ITS, including planning for 
evacuations and quarantining, traffic surveillance and incident 
detection, emergency communications hardening and redundancy, 
and asset tracking for commercial vehicles, transit systems, 
and cargo.
    More broadly and in compliance with TEA-21, ITS America has 
recently released the National Transportation Systems Program 
Plan, which outlines a vision for ITS research and deployment 
over the next 10 years. Besides creating a transportation 
system that is well protected and secure, this plan proposes 
advancing ITS to improve safety, enhance sufficiency, increase 
mobility, and improve the environment.
    In order to meet these goals, the 10 year program plan 
proposes focusing the Federal ITS Program on four areas: an 
integrated network of transportation information that involves 
the instrumentation of major intersections and roads, as well 
as data collection from commercial vehicles, transit, and rail; 
advance crash avoidance technologies, such as collision 
avoidance and adaptive cruise control; automatic crash and 
incident detection, notification, and response; advanced 
transportation management systems that enable area-wide 
surveillance and detection; and operational responses to 
traffic flow changes.
    In conclusion, ITS technologies hold the promise of 
continuing to provide our citizens with the most secure, the 
safest, and the most efficient transportation system in the 
world. ITS America looks forward to working with you to design 
the research and deployment programs that will help keep this 
promise. Thank you.
    Dr. Womack. Thank you, Dr. White.
    Dr. Tarnoff?

STATEMENT OF DR. PHILIP J. TARNOFF, ON BEHALF OF THE INSTITUTE 
                  OF TRANSPORTATION ENGINEERS

    Dr. Tarnoff. Thank you and good morning. I also would like 
to express my appreciation for the opportunity to participate 
in this round table.
    I'm Phil Tarnoff. I'm the Director of the Center for 
Advanced Transportation Technology at the University of 
Maryland. I'm here today representing the Institute of 
Transportation Engineers.
    ITE firmly believes that the Federal Government must 
continue to play a strong leadership role in the coordination 
and pooling of resources for research and development that cuts 
across systems and modes. In order to ensure the maximum 
benefit to the traveling public, the results of this research 
must be made available as quickly as possible, for application 
nationwide.
    In reflection of that, ITE has prepared six major 
recommendations on research that we feel strongly should be 
incorporated into the revised Surface Transportation Bill.
    The first recommendation deals with the Future Strategic 
Highway Research Program, F-SHRP, that was described so capably 
by Mike Walton earlier. This funding should be provided through 
a one-quarter of 1 percent take-down of Federal Highway Funds, 
which would be approximately $450 million to $500 million, over 
the life of the bill, and support the four key program goals, 
as Mike described them, of renewal, safety, reliability, and 
capacity.
    ITE's second recommendation is to increase funding for the 
Transit Cooperative Research Program, TCRP, from $8.25 million 
per year, which has not increased since 1993 and, in fact, has 
decreased slightly, to a level of $15 million in fiscal year 
2004, and ensure that future increases are proportional to 
increases in Federal transit allocations.
    A third recommendation is, we feel that there is a need for 
a much more focused research on intersection safety 
countermeasures. Currently, 44 percent of all accidents 
nationally occur at intersections. So it makes perfect sense to 
provide this focused emphasis.
    In November, 2001, ITE hosted an intersection safety 
conference with the Federal Highway Administration and other 
transportation organizations. I have brought a preliminary 
draft of the conference findings for your review.
    I would want to say that the transportation professionals 
who participated in that conference identified the need for 
additional data regarding human operations and design factors 
that lead to increased intersection safety. These issues are 
described in the detailed statement that we're providing.
    The fourth recommendation is that the Secretary of 
Transportation initiated a study through the National Academy 
of Science to identify the best practices of incorporating 
operations and safety into the planning process. Currently, 
these activities are under-represented in the planning process, 
and additional emphasis is needed.
    In 2001, ITE, as a member of the National Steering 
Committee on Transportation Operations, hosted the National 
Summit on Transportation Operations with Federal Highways. I 
have also brought findings of this conference for staff 
reviews.
    Issues related to transportation systems integration and 
management, jurisdictional cooperation and communication, 
implementation of performance measures, and data collection 
were identified by summit participants, and could greatly 
benefit from research and best practices.
    The fifth recommendation is to continue to fund the ITS 
research and deployment program, focusing on traffic management 
center operations, traffic incident management, traffic signal 
system management, public transit management, and advanced 
travel information systems. While significant progress has been 
made, there is a continuing need for additional research focus 
on these areas.
    Improved technology is needed in response to increasing 
travel demands, and the resulting degradation in safety and 
increased congestion. The public is demanding improved 
transportation reliability, and so research is essential in 
this area.
    The sixth recommendation is to support the findings of the 
Transportation Research Board's Special Report 261, prepared by 
the Research Technology Coordinating Committee of the National 
Research Counsel. I believe Bob Skinner mentioned this. We 
believe that investments in transportation research lag 
significantly those made by most other sectors of the U.S. 
economy.
    As a result, the transportation community cannot take 
advantage of the many technological improvements emerging from 
the fields of information technology, materials, reliability, 
and operations research.
    In addition, and possibly more significant, it is difficult 
for universities and other research organizations to attract 
the best talent needed to address the needs of this community, 
because of these funding shortages.
    So in conclusion, ITE strongly believes that these 
recommendations are instrumental to ensuring the future safety, 
reliability, and security of the transportation system. ITE 
appreciates the opportunity to share our views, and looks 
forward to working with you in the future.
    Dr. Womack. Thank you, Dr. Tarnoff.
    We'd like to welcome Senator Reid, who has joined us, and 
turn the time over to him for a few remarks.

             OPENING STATEMENT OF HON. HARRY REID, 
             U.S. SENATOR FROM THE STATE OF NEVADA

    Senator Reid. I apologize for being late and for having to 
leave early. The Senate is still in session, and we have some 
things that I need to be working on there.
    Let me just say though that I really support Chairman 
Jeffords in this symposium, this task force, or we can call it 
whatever we want. But it's really, I think, the future of how 
we need to do things here in the Senate.
    We have been doing things the same way since I came here 20 
years ago, and I think we need to change. That was done, I bet, 
many, many years before I got here. That is, we have hearings, 
we have panels, and everyone talks for a few minutes. Senators 
come in and out; mostly out.
    I think we need to do more things like this. While we may 
not want to admit it, we here in the Senate are not really as 
in tune with the issues as they are in the House. House members 
are very limited in their jurisdiction. If you serve on the 
Transportation Committee on the House, you spend a great deal 
of time working on transportation issues.
    Here in the Senate, we are a jack of all trades and a 
master of none. We depend very, very heavily on our staff. 
That's not the way it is in the House. That's why, when we go 
to conference, even though I'm probably giving away some trade 
secrets here, we have to have our staff with us because we, a 
lot of times, don't know what's going on.
    We want our staffs to be well equipped to do this. That's 
what this hearing is all about, this symposium, so that one of 
the most important aspects of transportation, and that is 
research, gets a full airing; and these staff people who are so 
good, and have devoted their lives to public service, are able 
to better understand the research aspect of this, and then give 
it to us.
    I've been chairman of this committee on two separate 
occasions, and now I'm the chair of this subcommittee dealing 
with transportation. I've talked to Mitch Warren, my clerk on 
this most important subcommittee, and we're going to attempt to 
do things like this in the future, in addition to our standard 
regular hearings.
    We also, I think, are going to look to maybe developing 
some task forces, composed of people just like this hearing, 
people from the academic world, people from government 
agencies, advocacy groups, people from the private sector, and 
get them together.
    Then we could have a hearing where a couple of people with 
majority views, and if there are minority views, could report 
to us on what we should do in a certain area. So we are looking 
at different ways to accomplish the goal that we're trying to 
meet, and that is to have a better transportation system in 
this country.
    We all share a goal of building a more durable, safer and 
efficient service transportation system; but having said that, 
it's not easy.
    So thank you all very much for being here. Understand that 
Senator Jeffords and I weren't planning on spending a lot of 
time here. We will, of course, spend time with our staffs. I 
had a good briefing with Dr. Womack and Mitch Warren yesterday, 
talking about this and the other things that need to be done in 
this area.
    I am grateful to you for being here, and want you to be as 
free and open as you can be, because we need to come up with a 
good bill next year. Thank you.
    Dr. Womack. Thank you, Senator Reid. We appreciate you 
coming.
    Mr. Ryan?

   STATEMENT OF MICHAEL M. RYAN, PENNSYLVANIA DEPARTMENT OF 
              TRANSPORTATION, ON BEHALF OF AASHTO

    Mr. Ryan. Good morning and thank you, Dr. Womack, for the 
opportunity to testify or to present the American Association 
of State Highway and Transportation Officials' viewpoints on 
research.
    I'm Mike Ryan. I'm the Deputy Secretary with the 
Pennsylvania Department of Transportation, responsible for 
highway administration.
    I think we all agree that the innovation or the process of 
innovation involves four activities: the research, the 
technology transfer of that research, the training of 
individuals to implement the results of that research, and the 
education of people to do the research.
    While we discuss the various aspects and components of that 
activity or those activities, the fact remains that 
transportation demands are increasing on our system.
    There is more traffic out there. There are more passengers 
wanting to use transit systems and aviation. There's heavier 
vehicles, and our infrastructure is aging. I think we generally 
agree that no bill is necessarily the option or the solution to 
this dilemma.
    Meanwhile, we need to search for new materials, new 
technologies, new practices and new policies to help us better 
cope with the demands on our transportation system.
    As we have put together AASHTO's Research Reauthorization 
Report, I believe two themes have generally emerged. The first 
one is the need for enhanced fundamental, long-term higher risk 
research. We need to do essentially more of that type activity.
    You don't have to look far to find successes in the recent 
past: the Strategic Highway Research Program in the late 1980's 
and early 1990's. I can tell you from our perspective in 
Pennsylvania, Super Pave is doing a great job in helping us 
come up with pavement designs to resist the heavy loads of 
trucks.
    On pavement preservation, we have found micro-surfacing and 
things like Novachip that can give us durable thin pavements 
that can be economical and cost effective over a shorter period 
of time. We have changed our concrete pavement design to have 
90 degree joints at 20 foot spacing, as a result of the data 
that we collected from LTPP.
    In the areas of winter services, we have essentially 
revolutionized our work in that arena, just in the last five to 
10 years. Roadway weather information systems are providing 
real time data to our customers out there.
    Pre-wetted salt is reducing the demands on the amount of 
salt. Anti-icing is helping us take care of critical bridges in 
Pennsylvania. Zero velocity spreaders are enabling us to get 
over our system a lot quicker and using less material, which 
can be environmentally friendly.
    Another example is in the area of ITS. You've heard 
testimony today about easing congestion and saving lives. 
Essentially, what we are doing is talking to our customers in 
real time, and providing them with the information that they 
need to navigate our system.
    The second theme that has emerged in developing our report 
is the need to do more aggressive training, technology 
transfer, and education. AASHTO supports the UTCs. We believe 
that the future of research is training students that can do a 
job and do the kinds of fundamental long-term, high risk 
research that we're looking for. That's our investment in human 
capital.
    We also support training such as NHI and NTI, and the LTAP 
process, where we convey the knowledge and the results of 
research over to the local governments.
    We also support international scans. Recent scans in the 
area of truck size and weight, intermodal freight movement, and 
recycling of materials have all brought back good ideas from 
other countries, and enabled us to enhance our knowledge in 
those areas. I think there are opportunities to continue on.
    Following ISTEA, I think you've heard today that we've done 
a lot. F-SHRP has been developed as a way to save lives and 
improve the quality. We support that.
    We are very hopeful that F-SHRP will be like SHRP was. 
Granted, it's a series of rifle shots. Some will hit their 
target and some will not. But essentially, when you invest in 
long-term, high risk research, that's the chance that you take.
    The National R&T Partnership was a great effort. It was a 
bottom-up approach, a voluntary approach, an inclusive 
approach. We now have a huge catalog of desires in the research 
arena on a national basis.
    If we were to fund all of those recommendations, it would 
probably cost us about $700 million per year. That is certainly 
much larger than we believe we can afford. But the fact is that 
we used expert stakeholders, partners, to help put together 
that program, and it represents a great menu for future 
research.
    We also are anxious for the TRB Environmental Cooperative 
Research Program. We think in the environmental area, from the 
State's perspective, we need to save time. We need to enhance 
the quality of life, as we pursue transportation improvements, 
and we need to build trust with the resource agencies out 
there.
    In the area of FHWA, the RTCC Report finds that the FHWA is 
best suited to be that vehicle to provide the long-term, high 
risk type research. That's going to require changes, and we've 
been hearing from the FHWA a willingness to outreach to our 
partners and our stakeholders, to be more inclusive in that 
effort. We're pleased by that approach.
    Finally, I haven't said anything about State research at 
the SPNR level. We are very happy with the amount of applied 
research that is occurring at the State level now. We are not 
necessarily asking for increased funding, but just to maintain 
that program, because that's essential for the States in order 
to solve their day-to-day problems.
    We have taken a stab, for the first time, at recommending 
funding. The last page of my five page presentation, Table 1, 
has specific recommendations to target dollars for the various 
programs that we've looked at.
    We've tried to be very inclusive, in that we wanted to 
include all the programs, all the research programs, that were 
contained in TEA-21. So in essence, it's a one-stop shop, in 
terms of research recommendations.
    If you look at the dollars and totaled them, and they are 
not totaled because it is still a draft report, it represents 
about 2.5 percent, assuming a $30 billion a year program. If 
you add in State and local funding, that percentage drops to 
well less than a half of a percent, on a national basis. So 
research is not occupying a very big part of our overall 
program.
    We also support in there several new programs that have 
been testified about here this morning: environmental quality, 
the Cooperative Research Program. We think we need research in 
the area of airport operations and motor carrier safety. Those 
were not necessarily mentioned today.
    I just would like to conclude by saying that AASHTO, in and 
of itself, is a customer of research. We are not into research, 
ourselves. We believe that from that vantage point or that 
perspective, we can be fairly objective in the programs and the 
suggestions that we're representing.
    So with that, I conclude my comments, and I will take any 
questions later on. Thank you.
    Dr. Womack. Thank you, Mr. Ryan.
    We'll begin the round of questions with the staff members. 
So we'll turn the time over to Mr. Squires for his questions.
    Mr. Squires. Thank you, Kevin.
    I'm sorry that I arrived late and didn't have a chance to 
hear introductions or introduce myself. I'm the Senior Policy 
Advisor to Senator Jeffords on transportation, and with the 
majority staff at EPW, and am working with my colleagues on the 
reauthorization effort.
    Let me begin by thanking Kevin for his hard work in pulling 
together today's event. I think the results speak for 
themselves. This is a wonderful turnout, and I thank all of you 
for assisting us.
    I was formerly with the Vermont Agency of Transportation, 
and your comments, Mr. Ryan, on advances in winter maintenance 
certainly resonate. Certainly, just in the brief time that I 
was working there, I could see giant leaps; and boy the 
customers in Vermont certainly appreciated that.
    I have a question, as a good and loyal staff person, to 
advance the charge that Senator Jeffords extended, where he 
talked about research to help us better manage and operate the 
system.
    My question is this. Can and will our research program do 
for operations and performance what it has done for the 
system's physical properties? What steps should we be taking in 
our work on the research title, to ensure that we achieve that 
objective?
    Mr. Wright. Well, I'll take a shot at that, Jeff, starting 
the discussion, if that's OK.
    Dr. Womack. Mr. Wright?
    Mr. Wright. Absolutely, there are substantial advances that 
could be made, and on which there is already some basic 
research being undertaken.
    An example of an area that the Federal Highway 
Administration and others have been very actively engaged in 
has to do with work zones and work zone operations. We know 
that incidents, and work zones being among those, are one of 
the major causes of delay on our highway systems, and 
congestion on our highways systems.
    We have done a great deal in recent years to try to get at 
the root of those incidents, and to help States and other local 
practitioners construct better work zones and understand what 
the consequences of certain techniques would be.
    We have developed a tool called ``Smart Zone,'' which 
actually allows a planner to determine whether or not a 
particular work zone model or design will work effectively, 
what the cues are likely to be, what transportation 
alternatives would make sense.
    We are also working very hard in the area of improving work 
zone safety. For example, we are currently in the midst of a 
variable speed limit pilot in work zones. So that is one 
example.
    We certainly see the potential for there to be vast 
improvements, and would most definitely see a Federal research 
agenda for the future, focusing very directly on operations.
    Dr. Womack. Dr. Walton?
    Dr. Walton. Mr. Squires, as you may have noted, F-SHRP has 
a component that deals with reliable travel times. It aims 
exactly at that particular issue. It's intended not only to be 
a compliment to the current programs that are under way, that 
Bud just described, but also they fall within the ITS arena.
    But it is intended to hit on those areas where we think 
technology and its application can have a substantial benefit 
to be able to determine reliable travel times. That is the key, 
the predictable estimate, that has a bearing on economic 
productivity, as well as safety. I suspect the ITS people will 
have a comment, as well.
    Dr. Womack. Dr. Tarnoff?
    Dr. Tarnoff. I think the direct answer to your question is 
resoundingly, yes. I think it can have a tremendous impact.
    I also think that it's important that we look at it from 
the broadest sense; in the sense of management of incidents, 
which is what Dr. Walton just mentioned, in terms of being able 
to improve travel reliability.
    But anybody that has ever traveled the Capitol Beltway and 
seen the sign that said, ``congestion ahead,'' and didn't know 
what to do about it, knows that there is significant room for 
improvement.
    Right now, the degree to which we manage traffic falls 
short of where we'd like to be, for a variety of reasons. Some 
of that is just shear investment in capital facilities required 
to do that; but also, there is a lack of knowledge, in terms of 
how best to manage traffic, where to put the traffic, what to 
tell people, and how they respond to it. There is a broad range 
of issues.
    In the areas of reoccurring congestion, there is 
significantly more we could do, as well. Again, if you are 
satisfied with the traffic signal operations in the Washington, 
DC. area, you're probably in the minority. While some of that, 
again, is a question of investment in improved operations, 
there is significant research that could be done to improve 
that. We can talk about that as long as you like.
    Dr. Womack. We'll go to Dr. White and then Mr. Ryan.
    Dr. White. Certainly, an enabler of good management is good 
information, good real-time information. I think Dr. Walton and 
Dr. Tarnoff were also referring to the importance of the 
information infrastructure that would provide the information, 
if it's done right, and the proper kinds of information is 
provided to decisionmakers, like drivers and so forth.
    This is one of the essential aspects of the ITS America 
Program, and the ITS program for the infrastructure in 
providing the proper kind of real-time information to provide 
management decisions with the right kinds of information.
    Dr. Womack. Mr. Ryan?
    Mr. Ryan. In the area of operations, I would like to 
comment on two things. From a motorist inconvenience 
perspective, we've got to find ways to do more work that 
minimizes the inconvenience to the traveling public; whether it 
be asphalt or concrete, but we've just got to be able to 
maintain and upgrade our systems, and minimize their 
disruption.
    People are not very patient today, and their frustration 
leads to the kind of things that Bud mentioned in terms of 
accidents in work zones. So we've got to find operationally a 
way to do our maintenance repairs, replacement, and 
rehabilitations without disruption the traffic.
    The second area, I think, is 40,000 people are losing their 
lives on highways across the country. That's not an acceptable 
statistic. We've got to find ways through research, I think, to 
bring that number down, to get a positive trend, in terms of 
reducing the number of fatalities that are occurring on our 
highway transportation systems.
    Dr. Womack. Let me just make a comment. I think we all 
agree that the intelligent transportation systems will play a 
role in the operations and management arena.
    As we discuss ITS, there are two terms that are often used, 
and I'd like to get definitions for these terms for staff and 
other purposes.
    We often talk about ITS infrastructure and integration. So 
if somebody would like to take a crack at defining those two 
terms for us; and then a brief summary in terms of where we are 
in our national system, with respect to integration and 
infrastructure.
    Dr. White?
    Dr. White. Let me take a crack at that one, Kevin.
    Let me just see if I can at least start off by describing 
what constitutes an integrated network of transportation 
information.
    It would certainly involve the instrumentation of major 
intersections, and these would be loops in the road, cameras on 
poles, that would be able to sense the position of vehicles in 
real time.
    This is the kind of information that gets fed back to the 
traffic operations centers that would allow for green and red 
light switches to be placed in a good sequence, in order to 
maximize or at least enhance mobility.
    This instrumentation would be on primarily major 
intersections, as we've already heard the importance of 
intersections in the role of safety; and on roads, both 
freeways and arterials, in both urban and rural areas.
    Admittedly, the impact that we're seeing in some of the 
studies that we've performed at the University of Michigan, 
where I was before I went to Georgia Tech, is the impact of 
this kind of information can be very significant in urban 
areas, and perhaps less so in rural areas.
    But such an integrated network of transportation 
information would also include data collection from commercial 
vehicles; routing information, for example, for HAZMAT, and 
there are a lot of security implications in that; as well as 
transit and freight and passenger rail.
    So let me stop there, at least in giving some indication of 
what an integrated network of transportation information would 
look like.
    Dr. Womack. How about infrastructure?
    Dr. Tarnoff?
    Dr. Tarnoff. I would define the infrastructure as being the 
set of equipment; communications; computers; field equipment 
including signals, signs, weather sensors, that make up the 
total system that's required to manage traffic. I think that's 
probably the briefest definition.
    I have one other comment on integration, I think, from a 
very simplistic point of view. Historically, in this business, 
agencies have tended to install systems independently from 
agencies in neighboring jurisdictions. Even within a given 
agency, a particular function has been implemented and 
operated, completely independent from another function.
    To be specific, I'll use my example of freeways and 
signals. I have other examples, by the way. I'm not stuck on 
this.
    But if in traffic, there's an incident on a freeway, say, 
on 95, what happens to the traffic that leaves the freeway and 
tries to travel along the adjacent arterials that are 
signalized? Is the signal timing adjusted automatically?
    Historically, those two systems are operated independently 
and, in many cases, by different organizations. So the answer 
is, no. If you leave a freeway due to an incident, you're stuck 
in heavier traffic on the arterial. That's where integration 
becomes very important, where things are operated to complement 
each other. Dr. Womack. Thank you.
    Mr. Bernstein?
    Mr. Bernstein. On both of these questions, I would just 
like to add the perspective that what you're measuring makes a 
difference.
    If you care mostly, for example, about work trips, you're 
going to focus on peak time congestion. The NPTS seems to show 
consistently, every time it's taken, an increase in the number 
of non-work trips. There are at least as many people concerned 
about getting to school, shopping, or what have you, as there 
are about free flow of traffic on the freeways.
    So it seems that some of the comments, particularly that 
Betty made, about the environmental research, when she alluded 
to land use, are relevant here. It would seem that in the long 
run, operations would be easier if travel demand was reduced 
for certain purposes, in that there may be some ways of doing 
that, that have to do with structural improvements in city 
suburbs and towns.
    Since the legislation has incentives for that, perhaps we 
could fine tune this a little bit, to get a bigger bang for the 
buck.
    The other comment that I have is that this integration that 
you alluded to, I think, needs a little more focus on non-
motorized transportation, as well. While none of the numbers 
necessarily by mode add up to very much, compared to the 
overwhelming volume of passenger vehicle traffic, the growth is 
significant in every one of them: in walking, in biking, in 
mass transit use, which has consistently increased its share 
over the last several years.
    In the most recent census data, and I don't know if FHWA 
has been looking at some of the ``how people get to work'' data 
that showed up in that recently, but I'm very impressed by the 
growth in every one of the non-motorized categories.
    Even in Atlanta where we're working, there's a whopping 
shift in the number of people sharing cars, walking, biking, 
use on the mass transit there. We would feel better if, when 
these comments are made about integration and ITS and setting 
strategic research goals, that the examples given were about 
more than managing the free flow on the major Federal highways.
    Dr. Womack. Professor Deakin?
    Ms. Deakin. I'd like to add that we need to pay attention 
to the planning processes. Because one of the difficulties that 
we're seeing, even in a State like California, that's invested 
not only a lot of Federal money, but a lot of its own money, in 
new technologies, is that implementation is very spotty.
    There are reasons for that. Some of them have to do with 
inter-governmental relations and learning how to work in new 
kinds of partnerships, that TEA-21 and ISTEA before it called 
for, and we think, rightly so.
    But there's still work to be done on those partnerships and 
those planning processes, taking into consideration a broader 
range of issues in putting those things together. So that's 
another area of research that really is necessary.
    We need to integrate thinking about operations and safety 
and pedestrians and transit and automobiles all together in 
this planning process from the beginning. Right now, too often, 
we think of ITS or safety as things we do afterwards. We come 
and try to slap them in to fix a problem that has arisen, and 
that's a whole lot harder than if we integrated them into the 
planning process to begin with.
    Dr. Womack. Thank you.
    OK, Mr. Warren?
    Mr. Warren. Thank, Kevin, I'm Mitch Warren with the 
committee majority staff.
    I thank you all for coming today. As Senator Reid indicated 
in his comments, this is sort of an experiment. We're trying to 
do things a little bit differently, and see if we might be able 
to get a little more substance out of a round table discussion, 
or a research symposium like this, than we might get out of a 
traditional hearing.
    I think it's working well. Kevin Womack has done a great 
job of implementing it, and I appreciate all of you being here, 
again.
    My question relates to what somebody said earlier. I think 
it was Dr. Walton, referring to ``get in/get out and stay 
out.'' I would like to focus for a second on the ``stay out'' 
part of it.
    My question is simple. I want to get a little bit of a 
historical perspective on what kind of progress we've made in 
pavement research, as we look toward the future.
    Over the past 20 or 30 years, have we improved the way our 
roads worked? Do they last longer now than they used to? Do 
they require less maintenance and rehabilitation than they did 
20 or 30 years ago? What progress have we made, and where might 
we be able to go in the future, with some additional research?
    Dr. Womack. Dr. Walton, do you want to start?
    Dr. Walton. Actually, I would yield to the others who are 
here. I'm interested in their comments on this, as well.
    Dr. Womack. Mr. Carlson; Mr. Riva?
    Mr. Riva. I think clearly this ties into the earlier 
question that was asked by Mr. Squires. We talked about in 
terms of planning and a lot of very important issues. But the 
bottom line is, what you're really paying for is for pavements 
that will last, and pavements that will do so in a manner 
that's not only cost effective, but more importantly, as a safe 
surface for as long as possible.
    Ultimately, you have a $180 billion Federal Aid Highway 
Program today. I would think one of the primary objectives that 
you can have on this committee, which is why I commended the 
work done by not only Kevin Womack, but the leadership, in 
putting this together, is putting at the forefront, which is 
perhaps the most important issue, and that is the contour of 
the Federal Aid Highway Program surfaces, when you get right 
down to it.
    Now admittedly, there's an awful lot more that goes into a 
Highway Bill than just surface. But it is truly, you know, one 
of the most, if not the most, important component.
    I can speak to the concrete side, and I know that Dave 
Carlson will speak to the asphalt side; but we have one 
overriding objective. We have a $25 million research 
cooperative effort; not only with the Federal Highway 
Administration, but one that's almost the same size, with the 
Federal Aviation Administration.
    It has exactly that one objective, in which the money, by 
the way, is split 50/50 with the agencies, but also involving 
on every task that's selected, academia, the State Departments 
of Transportation, the Federal Highway Administration, and 
industry.
    I could not have summed it up any better than what Dr. 
Walton did; and that is to provide something to the people, who 
are ultimately paying, the taxpayer, that inconveniences them 
the least possible way; but also provides them a road surface 
that keeps its characteristics for as long as possible.
    Speaking from my very parochial viewpoint, concrete 
certainly has come a long way. I think we had a good head-start 
in doing so, but even more so in the future. We're looking at 
not just the traditional full-depth concrete on 12 inches 
thick, that goes on forever; but also solutions for street and 
local roads, for intersections. These are intersections that 
can be rebuilt over a weekend, and be brought back on line by 
Monday, so to speak, with work starting on a Thursday or a 
Friday.
    We've done that in Seattle, Washington, and other areas. So 
that's the epitome, really, of applied research. We have 
pavements today that are like ultra white toping, that uses 
recycled, get this, ``rugs,'' for example, for fiber mesh.
    We are also promoting and have effectively done so, the use 
of steel slag in fly ash from coal production. We find that 
they make tremendous, what is called, ``cementicist'' 
materials; concrete being a combination of cement, what I call 
Evian water, and an aggregate. That's about as much as I know 
about concrete, and I've got my experts behind me.
    But the bottom line is, every thing we do is to provide 
something that not only keeps the cost down, but provides a 
road surface that will be here way beyond the next one or two 
Highways Bills that are coming up. I think our design specs are 
well meeting that.
    Dr. Womack. Mr. Carlson?
    Mr. Carlson. I would throw in some comments about the 
asphalt industry. Super Pave and the SMA things that we've done 
have completely changed the way we operate.
    It was a cooperative effort of the contractors, the 
agencies, and the research that led to the development of those 
processes. It has improved the quality of the roads. I think 
we've gotten excited, because this is just the tip of the 
iceberg of what we think we can accomplish, given that research 
and combined working together.
    Being a contractor, and I think I'm the only contractor 
here, I feel rather out of place. But the field has changed, 
and the contractors are now responsible for more and more and 
more things. So that training and that knowledge has to be 
passed on to the contractors and to their personnel, in order 
for us to produce the continual higher quality product that 
we're required to produce.
    So I think that the research that we're doing is extremely 
important. NAPA has put up hard dollars for our end-cap 
facility down in Alabama at Auburn University. We understand 
the importance of research and the importance of producing high 
quality pavements. Like I said before, we've just touched the 
tip of what we can possibly accomplish.
    Dr. Womack. Mr. Judycki?
    Mr. Judycki. I would like to just pick up on that, because 
obviously, our customers do know whether or not they're having 
a smooth ride, and whether or not the pavement in their 
neighborhood is being reconstructed every 5 years, rather than 
the longer term.
    You know, I think if there's one area, and picking up on 
what Mr. Carlson said, that we've had some tremendous successes 
that we can point to, and it is what we've done, the pavement 
side, the cooperative efforts, that have been underway and 
that, in fact, still continue.
    I think it is fair to say that industry completely changed 
the way it has done business. It's not only a follow-up to the 
technical work that's been done on pavements; for instance, in 
the first SHRP; but also the work that we've collectively done 
on international scans, in bringing knowledge back home, and 
applying it to our research and environment.
    At the same time, looking to the future, because it was 
critical that we look through the LTP Program, to the future, 
as to what we were going to build into the design of pavements 
in the future; and anybody that thinks that the LTP Program is 
just a 20 year program, that's not true.
    In fact, there are spin-offs right now that are changing 
the 2002 Design Guide that will be coming out that, in fact, is 
estimated that will have benefits to States, and about $1 
billion a year, possibly, just because of the design 
improvements. So there's been significant improvements.
    What we need to look toward, I think, in the future, is 
something even more significant. That is, if we are going to 
make real improvements, what should the next generation 
pavement look like?
    What should we be thinking about, instead of talking about, 
gee, we need to go to a 50 year pavement? What is the 100 year 
pavement? As somebody said earlier, what is the perpetual 
infrastructure like, and what research needs to go into 
accomplishing that?
    Certainly, some of the breakthrough technologies that the 
future SHRP is looking toward are critical for us to address 
right up front.
    Dr. Womack. Mr. Bernstein?
    Mr. Bernstein. I have just a couple of comments. We endorse 
the idea strongly of things lasting longer. The question is, 
how long might they last, just to pick up on the last comments.
    My understanding is, the Appian Way was built 2,000 years 
ago, and it's still mostly in use. When the designer of the 
Golden Gate Bridge was asked by Wall Street what should the 
useful life be; how long will this last, he said, forever.
    I'm not suggesting that all roads will live forever. But it 
seems to me our research ought to be able to tell us, first of 
all, what the distribution of service life actually is, by type 
and by location, and in a real time basis.
    I can't get that information currently. I think you might 
have a lot of it, but it's not on the website. I think it would 
help in decisionmaking, if that was available. If it's an 
average of 45 years, there's going to be a distribution around 
that. I suspect where people are least happy is where it's not 
lasting as long, and there's too much premature paving that has 
to go on.
    This leads to a second point. Couldn't we have more 
research on the value of continuous maintenance on the roads, 
in terms of the ability of deploying what we know to actually 
do that life extension and get the benefits?
    Again, I haven't heard anything about that; but there's a 
difference between getting the life extension by continuous 
renewal, if you will, to get your perpetual pavement, you know, 
versus making sure the next road is always better than the last 
road.
    Then, I guess, the third thing has to do with the value of 
information to your State and local partners. The Federal 
Government, and I can't remember the percentage, funds 
something like one dollar out of four, I think, when you count 
the cost to State and local government.
    Here you have an asset that just came along, which we 
mentioned in the testimony. The new Government Accounting 
Standards Board, Standards Statement 34, requires starting this 
year, for State and local government to consistently report the 
valuation and the condition, narratively, of their existing 
capital assets.
    For those of you who don't know, GASBI, as it's called, is 
the sister organization of the Financial Accounting Standards 
Board. They took this action because you couldn't compare any 
two statements from year to year, or between agencies, and be 
sure that there was a correct valuation.
    We did a rough anecdotal survey, and found service lives 
for similar pieces of infrastructure, ranging from 10 to 100 
years. This doesn't make sense.
    So I think there could be a role here for the Federal 
Government in codifying some of what's in the GASBI standards 
which, right now, are voluntary.
    No. 2 would be providing technical assistance to State and 
local government, so that high performance real-time reporting 
gets married at the State and local level, with the direction 
that we're all advocating that Federal reporting go in here. 
This would give a set of incentives on the State and local 
level, to marry what comes into performance and accountability 
reporting, out of TEA-21.
    So that's a different sort of idea. It's informational, 
again, but it's a way of motivating the State and local 
partners that are part of this equation to do better in the 
same way.
    Dr. Womack. Thank you.
    Mr. Judycki, and then we'll go to Mr. Skinner.
    Mr. Judycki. I would just add one thought. That is, as we 
look at whether it's the info-structure or the infrastructure 
that, in fact, a good pavement, a good infrastructure, has a 
lot more to do with it than the research of the components that 
make it up. It has a lot to do with financing. It has a lot to 
do with contracting practices and procedures.
    So I think that, again, what I referred to earlier, that 
toughest part of the innovation process, of delivering 
innovation and technology, once you have the research deserves 
a lot of attention. We need to pay attention to that, that most 
difficult part of putting innovation into practice.
    Dr. Womack. OK, we'll go to Mr. Skinner and then Mr. Ryan.
    Mr. Skinner. I think we have made a lot of progress in 
pavements over the years. But what is happening is, our system 
is very stressed. We increasingly need to raise the bar. That 
is, in part, why we have an emphasis on the ``get in, get out, 
stay out,'' because we can't afford to disrupt our highways the 
way we used to, when we reconstruct.
    That's why we have to have greater attention to operations, 
because we need to operate these things more efficiently, as 
opposed to the laissez faire attitude that we've had in the 
past.
    We need more attention to intermodal, to options, to 
environmental impacts, to community compatibility, because the 
system is stressed, and all of those concerns are greater now. 
So we've had success, but the expectations have gone up, 
commensurate with that success.
    Dr. Womack. Thank you.
    Mr. Ryan?
    Mr. Ryan. Yes, Mr. Skinner just touched on the point that I 
wanted add. That is, I think the ``get out, stay out'' part is 
a two-prong approach. I think you've heard a number of examples 
of successes, in terms of being able to stay out, Super Pave, 
denser concrete, thicker pavements, and things of that nature. 
I think we can work toward a 50 or 100 year pavement design.
    But I think just as critical to that strategy is the 
strategy of being able to maintain the system timely and with 
the least disruption to the traffic. So it's really a two-
pronged approach; not just building something and walking away 
for 100 years, and then coming back and doing that again.
    I think what we've got to develop is a system that has 
components that you can routinely maintain and continue to 
preserve that pavement, that infrastructure over a period of 
time, and do it with minimal disruption to the traffic.
    Dr. Womack. Thank you.
    Ms. Stanley?
    Ms. Stanley. Thank you.
    I have two questions in regard to F-SHRP, directed to Dr. 
Walton and those around him, especially Bud Wright.
    The first has to do with what I want to echo as the major 
problem of over 40,000 highways deaths every year; and the need 
to do something about that, and not just say that something 
needs to be done, but to actually do something about it.
    So I want to ask how these safety prongs of the F-SHRP 
proposal will identify or will be conducting research in areas 
that are already not being done. I know the National Highway 
Traffic Safety Administration concentrates on vehicle design 
and safety features of that, and also on driver behavior, and 
our laws mandate seat belt use, and drunk driving laws and 
things like that, having to do with vehicle behavior.
    But knowing that roads are carrying more vehicles than the 
pavement or the geometrics were designed to carry, how is this 
hopeful piece of F-SHRP going to address design improvements, 
perhaps, or in other areas so we can improve crashes on these 
systems?
    Then second, how will F-SHRP encompass other de-centralized 
efforts in research that is already going on, so that other 
research program funds perhaps are going to be decreased or 
otherwise encompassed into these F-SHRP proposals, especially 
perhaps some of the environmental research areas that Professor 
Deakin was referring to, so that we can decrease some of those 
amounts by virtue of investing in F-SHRP?
    Dr. Walton. Well, certainly, Megan, on the first question, 
the safety issue is one that we heard a great deal about in our 
outreach activities. It's one that we struggled immensely with.
    In essence, the notion is that we truly do not understand 
the cause of a crash or an accident. The data over the years 
has just not been substantial enough or sustained in its 
collection and analysis to allow us to understand that 
particular issue.
    So while there have been other efforts, and clearly, there 
are efforts now, not only within NTSHA, but within other groups 
as well, trying to deal with components of this issue, we have 
yet to be able to set up a comprehensive way of looking at that 
particular item, what actually caused the crash, and then what 
then are some of the countermeasures that we hope can deal with 
those.
    So that's a substantial effort, and it's a considerable 
debate. In fact, at this particular point in time, with that 
identified as one of the four areas and, in fact, safety being 
one that we felt perhaps strongest about, there has been a 
panel formed that will build on not only the National 
Partnership Forum Panel on Safety that existed and went through 
an elaborate hearing process; but we will take that information 
and deliberation that we had in SHRP, and begin to lay out the 
framework for this comprehensive element of the SHRP program.
    Through that and over the next year or so, and I believe 
that's the schedule, I think we'll have the opportunity to be 
able to become very crystal clear on what the work program 
components of that element are, and how they will impact the 
targeted opportunities that we feel are there.
    Everyone that we talked to and heard from stressed the 
importance of a better understanding of the crash causation, 
before you can deal with effective counter-measures.
    So that's the essence of the program. We have some 
tremendous people who have signed up to participate in that 
particular initiative. They are experts in their field, who 
have long experience in this particular effort, and have nailed 
this as the principal way to approach this problem.
    Indeed, with 43,000 deaths, we accommodate that. We don't 
like that, but it's accommodated. I hesitate to use this, but 
in essence, if we had an aircraft crash every day, we would not 
tolerate that. But that's the equivalent to what we're talking 
about, a 737 every day. We cannot afford that.
    So how do you deal with that? You come back to, what are 
some of the fundamental reasons for the crashes? We do not 
know, after all the time and energy over the years. We do not 
know some of the fundamental causes.
    Now there are companion programs that go along with this 
that will be integrated into that activity. There is a lot of 
work in the intelligent vehicle initiative, for example, and 
within the ITS community, that are looking at, again, some of 
the safety issues associated with vehicle design and 
components. We have ongoing extensive programs within Federal 
Highway and others that are focused on how you make the 
infrastructure safer and so forth, and it is the integration of 
those activities.
    But this particular element leaps beyond, and we think it 
is essential to our understanding. That was the message we 
heard. That is why it is so important, and that's why it is 
targeted as the priority element within the program.
    Now the second element, and I guess you are talking about a 
rising tide or a lowering tide or an even tide, and how do you 
deal with the position of the ships?
    Well, in essence, that's a priority among those who have 
the opportunity to allocate resources, quite frankly. The 
previous SHRP program was, in my view, labeled a success. It is 
not envisioned to be a long term continuing effort.
    This particular program is envisioned, let's say, as a 6-
year program, with ``x'' amount of dollars, predicated on the 
same formula that the previous SHRP program was predicated 
upon. It was a bottoms-up effort, as opposed to a top-down, 
where the previous SHRP program was very targeted. It focused 
on a limited activity. It was felt that that was a strategic 
success, perhaps.
    This time, we want to make sure that it was open to a 
broader forum and a broader audience, and bring it from the 
bottom up. That's why you have four components that reach into 
a wide range of compelling issues, quite frankly. Some deal 
directly with areas that Betty spoke to. But I think there is a 
complementary program there.
    To be honest, there are so many complimentary research 
programs that are being proposed, and all are worthy in their 
own nature. But in this particular case, we feel that we've 
laid out a framework. We have constituent support, for the most 
part. In other words, the AASHTO community has endorsed this 
program. It is behind it. It came out of the Partnership Forum 
discussions.
    So in essence, if it is successful, it will come from the 
SPR Program. It is up to that program to assess how they wish 
to allocate their resources, and I think they are in the 
process of doing that.
    I am reminded that when SHRP started back in 1987, I think 
the NCHR Program was under $10 million, or maybe about $8 
million. Now the NCHR Program is probably around $30 million. 
So in essence, it gives you some notion of how everything has 
increased over time, and how the priority of resources have 
been allocated.
    Again, there are many noteworthy programs. We just felt 
that this is a unique opportunity, make a stab, and come back 
to it. We hope that over a 6-year period, we can make a quantum 
leap in these particular areas that is above and beyond what 
might be accomplished through an incremental research program.
    Dr. Womack. We need brief comments. We've got still two 
more questions to get to with Ms. Van Mark and Mr. Jensen. So 
we'll go to Professor Deakin first.
    Ms. Deakin. I just wanted to add that we coordinated the 
work of the Advisory Board with the R&T partnership. I think we 
agree that they don't overlap in a way that's negative in any 
way, and we think they're very complimentary.
    The F-SHRP program is a little more short-term focused, and 
more focused toward providing tools and techniques. I think the 
Advisory Board supports that kind of work, as well, but would 
like to see more of the Advisory Board Cooperative Research 
Program be established to do longer-term work, to try to get 
away from so much mitigation and toward more basic 
understanding and new methods altogether for handling these 
things. So I think they'd be a nice compliment.
    Dr. Womack. Mr. Bernstein?
    Mr. Bernstein. Just briefly, and I wouldn't disagree with 
Dr. Walton very much, but I think we might know some of the 
causes of what's going on, and perhaps some clues.
    Concerning your comment about the need to coordinate 
research, perhaps if we approach this the way the insurance 
industry was approaching it, by determining what we know about 
growth in congestion, or growth in trucks on the road, or 
growth in goods movement, or some of the other likely culprits, 
we may end up with a richer solution set on the safety front.
    So I would echo a call for some alignment, an aligning 
mechanism in the oversight of whatever program comes out of 
this. Because the critical need in addressing the 40,000-plus 
traffic deaths is to be able to move in real time. I mean, you 
can't wait 20 years to answer a question like that, and then 
come up with a satisfactory answer.
    When I was a young community organizer, we organized on the 
West Side of Chicago a workable streets project, because people 
thought they did know the causes of some of these things. We 
filled potholes and we put in early traffic calming devices. We 
convinced the City Council to change parking and the direction 
of the streets.
    Then in those high accident neighborhoods, morbidity and 
mortality from traffic accidents, for awhile while we could 
keep it up, would go down.
    I suspect that how we talk about this is very important, in 
terms of having a credible response and a supportable response. 
We think there needs to be more research. But it's not just the 
amount of money; it's how well you aim that.
    Dr. Womack. Briefly, Mr. Ryan?
    Mr. Ryan. Yes, I just wanted to add an observation. I 
certainly concur with Mr. Bernstein, that in a localized area, 
you can deal with a lot of issues in terms of trying to 
identify it. But when you look at the big picture, we still 
have 40,000 deaths a year, that is not significantly moving up 
or down. I think to be able to make that quantum leap, we need 
to do the kind of things that F-SHRP is suggesting.
    Dr. Womack. Thank you.
    Ms. Van Mark?
    Ms. Van Mark. First off, thank you all for coming and 
taking time out of your busy schedules. I especially appreciate 
the delegation here from Iowa.
    [Laughter.]
    Ms. Van Mark. If we were going to give a prize for the 
furthest traveled, I bet you'd get it. Thank you very much for 
coming.
    I've heard some conflicting messages today, and I'm hoping 
you'll be able to help me sort it through. Then I have a 
comment on what I perceive as a solution, and I would like you 
to comment on it.
    We heard from Federal Highways that we have a lot of 
diverse research going on and we are spreading out our research 
dollars very thin.
    I think a couple of other people inferred that in their 
statements, that we have a lot of research to do, we have 
limited dollars, but it seems like our research isn't focused. 
It's spread out over a lot of different entities. Yet, at the 
same time, I heard from several of you that the University 
Research Program is very important.
    Now being a political person by nature, I can tell you 
right now that the set-up now of the University Research Center 
begs for Congress to do exactly what you're telling us you 
don't want us to do, which is to spread your research dollars 
thin.
    In my Senator's home State of Oklahoma, we would love to do 
transportation research, and I assure you, whatever we come up 
with will be brilliant.
    [Laughter.]
    Ms. Van Mark. Now whether or not it fits in a comprehensive 
poll is another question. But when a university comes to a 
member's office and says, I want $1 million to do research on 
whatever their wonderful idea is, our goal in life is to get 
that $1 million. But are we taking that $1 million away from 
something that could actually benefit the Nation as a whole?
    So my question to you is, is there any value in trying to 
do directed research for these universities; in other words, 
taking maybe the six areas that Professor Deakin identified in 
environmental transportation, and asking universities to 
compete for research in those areas?
    So while we aren't saying which university does what, we're 
kind of focusing our research dollars in an area that we've 
identified as important.
    Dr. Womack. Mr. Wright?
    Mr. Wright. I have comment, that I think you are right on 
one point, and it's something that we strongly believe in. That 
is that all that is going on in research and technology in the 
country needs to be a part of a national plan.
    Certainly, we believe the Federal Government has a role in 
helping to lead and guide what that national plan would be; but 
there will always be the many partners helping to carry that 
out.
    One of the concepts that has been espoused with regard to 
the University Transportation Centers is the notion of centers 
of excellence, where it can be known that a particular 
institution has expertise in an area of research, and that 
where there is an element of a national plan that relates to 
that sort of expertise, then the University Transportation 
Center can offer that service.
    So I think there is a way to better integrate what is 
occurring today with University Transportation Centers into a 
national research agenda. We believe it would be important to 
try to reinforce that with legislative provisions, as we move 
forward in reauthorization.
    Dr. Womack. Professor Deakin?
    Ms. Deakin. Yes, the University Transportation Centers 
Program is a program that I think has done a lot of good. One 
of the ways it has done that in research is that it gives 
faculty members who are associated with the centers, which is a 
large number of faculty members, the opportunity to identify 
research topics that perhaps haven't come to the attention of 
Federal or metropolitan organizations.
    So there is a lot of research that's generated that's 
valuable through universities that wouldn't otherwise be even 
thought about. It's a way of creating new ideas.
    That said, every University Center has a theme, and I think 
that does sort of focus their research on particular areas 
where they have expertise on their faculties, and they are able 
to do that.
    The other thing University Centers do is they educate huge 
numbers of students. We'd like to tell people that we think our 
most important product is actually our students who are coming 
out of the transportation centers.
    We also think our research is good, but we think out 
students are marvelous. We spread them around the country, to 
Texas and all kinds of places. So they are out there in other 
parts of the country, doing good work, as well.
    That said, I would say if they are a big enough program, 
and there is enough money to go around, probably every State in 
the country probably has some people in transportation who are 
very good at doing research, and would be able to produce good 
products.
    So we support having competitive research programs, where 
everybody can bid on them, too. FHWA does that now, and we 
would like to see more of that kind of research go on, as well.
    Dr. Womack. Mr. Riva?
    Mr. Riva. If you would indulge me, I have someone who is 
from the university setting, Dale Harrington. Our initiative 
has taken into account a lot of universities, the University of 
Texas and others. I think the Iowa State Research Center has 
done excellent work. If you would indulge me, I would like for 
Dale Harrington to just briefly explain what they do.
    Dr. Womack. OK, briefly, please.
    MR. HARRINGTON. I appreciate your comments about Iowa very, 
very much. Our center is a year and-a-half old. Our partnership 
with the Federal Highway Administration industry through the 
innovative Pavement Research Foundation is unprecedented.
    I mean, I would have never expected this. I think that the 
Federal Highway Administration and the partnership that they 
have with the industry is just unbelievable. What we seem to 
lack is a partnership between other universities to work with 
us.
    I received calls within the last 3 weeks from the 
University of Texas, Texas A&M, Wisconsin, Northwestern, 
Purdue, CTL, which is a consulting firm, to partner with us on 
research along with industry, and to educate our students.
    So we must continue on with the partnerships and the 
dollars associated between industry, and particularly between 
the Federal Highway Administration and industry, and bring in 
and encourage through the programming, other universities to 
work together; because what hurts Iowa ought to hurt Kansas, 
and what hurts Kansas ought to hurt California. We must think 
of it in those terms.
    Our research facilities cannot keep up with the demand of 
educating our students without the proper dollars, to be able 
to do the research that we need to accomplish that. We simply 
have to worry about each other. The only way we can do that is 
through partnerships with each other.
    Dr. Womack. Thank you.
    Mr. Carlson, quickly?
    Mr. Carlson. I would just like to comment, the $25 million 
program that we're promoting is exactly what you're asking for. 
The national program should be administered by the Federal 
Highway Administration, and the universities can compete for 
the work that needs to be done.
    I think if you have separate earmarks, it re-dilutes the 
program. So I think you are better off to have it all funded 
through the Federal Highway Administration than try to do it 
separately, and have the little earmarks for research, because 
there's no organized controlled focus that way.
    Dr. Womack. Mr. Ryan?
    Mr. Ryan. Yes, just quickly, from AASHTO's perspective, and 
the State Departments of Transportation, the value that the 
UTCs bring to the table is the fact that they are developing 
students, undergraduates and graduate students, to do future 
long-term high risk research. So that's the real value that we 
think that they bring to the table, and that's why we support 
the UTC Program.
    We also believe, again, that the FHWA is the best vehicle 
to administer the long-term, high risk nationwide research that 
needs to be done. So that's the distinction that we see.
    Dr. Womack. Mr. Jensen?
    Mr. Jensen. Thank you.
    I'll say, to start out, thank you everyone one for coming. 
This is certainly very helpful. But I will say it would have 
been much more helpful to have more time for a give and take 
between staff and the experts. I hope that we can do this 
again.
    I spent about 2 hours reading the materials, and would have 
found it much more helpful to be able to ask more than 2 
minutes worth of questions. I do have questions that I would 
like answered, because notwithstanding the universal chorus 
that we've heard today, this is going to be a very 
controversial subject next year for reauthorization.
    In that regard, I'd like to express agreement with 
something, Dr. Eighmy, that you had in your written testimony 
which is that, ``An increase of $35 billion per year for total 
capital investment for roads and about $17 billion a year for 
bridge upgrade and maintenance is needed each year, for the 
next 20 years, to rectify the situation.''
    I agree with that, and anybody that expects that that's 
going to be funded does not have a good grasp on reality. Every 
penny that we don't spend on that, and do spend on research, is 
a value judgment that is going to be controversial; and every 
penny that we spend on research is money that does not go into 
concrete paving.
    That reality is going to be where we have our debate, and I 
would love to engage you in that debate and in that inquiry, 
some time in the next year.
    Given the lateness of the hour, I'm just going to ask them 
one question. I hardly know where to begin, but since I'm an 
alumnus of Cal-Berkeley, and since they're playing tonight, I 
will ask you, Professor Deakin, who is going to win--no.
    [Laughter.]
    Mr. Jensen. You mentioned that we need research and 
environmental and social justice issues. I work for a 
conservative Republican. What do you want me to tell him, 
because I am going to go back and tell him what was said today, 
is a good example of a program in that area that he can 
support?
    Ms. Deakin. Basically, we're having litigation and we're 
having arguments that are holding up projects. They are 
disagreements about what projects we ought to be investing in; 
disagreements about whether projects are being invested in 
fairly, that aren't productive. They are productive, in part, 
because we don't have agreement on what the basic issues are, 
in some of these things.
    There are issues, for example, about whether adverse 
impacts that are being felt on particular neighborhoods are 
intentional or unintentional. There are issues about how to 
resolve those impacts in a fair way and who ought to pay for 
them.
    Those are research questions that I think are addressable, 
and would solve a lot of problems and save us time and save us 
money, if we could reach some agreements on what are the right 
way to deal with those issues. We haven't really done that, 
yet. So that's just begging to be addressed.
    Maybe we can begin to put some of those things to rest and 
say, OK, we've settled on a way that we can agree to deal with 
those kinds of issues and move ahead.
    So that's where I would think we could do some good 
research. If we would do research on that topic, we ought to be 
able to find some solutions that will work for everybody.
    Mr. Jensen. I'm not sure I understand you. Is that a 
litigation solution?
    Ms. Deakin. No, no, I'm saying that the situation we're in 
now is, we have litigation; we have project delays; we have 
conflicts among people; we have decisionmakers who aren't sure 
which way to go at the metropolitan level, at the State level, 
because they are being pulled in different directions by 
different people, commenting on what impacts the projects are 
having.
    The more information we have, and the better strategies we 
have for planning those projects so we avoid adverse impacts to 
begin with, that would be my first thing, to try to figure out 
how to avoid getting into these issues. It's always harder to 
fix them after you've done them, than to avoid them in the 
first place.
    If we can have projects where everybody says, that's a fair 
project; that's a fair decision process; that's a fair way to 
get public involvement; we're doing a good job in our planning 
processes in doing that, we'll all be happier. We'll save time 
and we'll save money.
    I think my AASHTO colleagues would agree with that. We 
don't need to get into those fights, but we need some help in 
figuring out how to avoid those fights and how to do the right 
thing in these situations. I think we can do it, but I think we 
need to do some research to be able to figure out how to do 
those things.
    Mr. Jensen. Thank you.
    Dr. Womack. Thank you, Professor Deakin.
    We're past our time, so we're going to wrap this up. I, 
again, appreciate everybody's participation today.
    I think we kind of are perhaps beginning a new way of doing 
these things, as Senator Reid said. It would be nice to proceed 
in this manner in the future, and be able to spend more time 
together in resolving these issues all across the board in the 
Reauthorization Bill.
    Again, thank you all for participating, and we appreciate 
you coming.
    [Whereupon, at 11:55 a.m., the panel meeting was 
concluded.]


                         TEA-21 REATHORIZATION

                              ----------                              


                          FRIDAY, MAY 10, 2002

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    A roundtable symposium was convened to discuss improving 
metropolitan transportation performance and security. The 
meeting was held in 406 Dirksen Senate Office Building, Friday, 
May 10, 2002, at 9:30 a.m.

             OPERATIONS AND SECURITY IN METROPOLITAN AREAS

    Present: Senators Reid, Bond, and Jeffords.
    Staff present: Mitch Warren (moderator), Jeff Squires, J.C. 
Sandberg, Megan Stanley, Ruth Van Mark, and Lauren Jones. Staff 
representing committee members: Ann Loomis for Senator Warner 
and Caroline Berver for Senator Graham.
Panelists
    Dr. Christine M. Johnson, Program Manager, Operations 
Director, ITS Joint Program Office, Federal Highway 
Administration, Washington, DC.
    Mr. Henry Hungerbeeler, Director, Missouri Department of 
Transportation, Jefferson City, MO.
    Mr. Elwyn Tinklenberg, Commissioner, Minnesota Department 
of Transportation, St. Paul, MN.
    Mr. John Njord, Executive Director, Utah Department of 
Transportation, Salt Lake City, UT.
    Dr. William D. Miller, Executive Director, Oklahoma 
Aeronautics and Space Commission, Director of Transportation 
Security Task Force to Governor's Security and Preparedness 
Executive Panel, Oklahoma City, OK.
    Mr. Jacob Snow, General Manager, Regional Transportation 
Commission of Southern Nevada, Las Vegas, NV, on behalf of the 
Association of Metropolitan Planning Organizations.
    Mr. Matthew Edelman, Executive Director, TRANSCOM, Jersey 
City, NJ.
    Mr. Steve Lockwood, Vice President, Parsons Brinckerhoff, 
on behalf of Institute of Transportation Engineers.
    Mr. Jack Goldstein, Senior Vice President, Science 
Applications International Corporation, on behalf of ITS 
America.
    Mr. Richard Bennis, Associate Undersecretary for Maritime 
and Land Security, Transportation Security Administration, 
Washington, DC.

             OPENING STATEMENT OF HON. HARRY REID, 
             U.S. SENATOR FROM THE STATE OF NEVADA

    Senator Reid. If I could get everyone's attention, we will 
get started here. I appreciate, first of all, everyone being 
here. We will turn this over to Senator Bond in just 1 second. 
Your participation today in this Symposium on Operations and 
Security in Metropolitan Areas is very much appreciated.
    This is a second in a series of these roundtable 
discussions, which represent a new way of doing business for 
the Committee on Environment and Public Works.
    How this came about is Senator Baucus, who was the full 
committee chair, and I have been the chairman of the committee 
on two separate occasions, and we talked about a different way 
of gathering information.
    We have traditionally, in the House and the Senate, done 
our hearings behind us, where witnesses come in, and we will 
have a Senator breeze in and out once in awhile. That is the 
way we have always done things. There really has not been an 
opportunity for a good exchange.
    So I came up with this idea, and we are going to try this. 
This format allows a much more in depth discussion of critical 
issues than would be possible in a traditional format.
    Although I do not like to acknowledge this, especially with 
my colleague next to me, Senators know a little bit about a lot 
of things. We do not much about any one thing. As a result of 
that, we have to rely very heavily on our staffs. I have served 
in the House, and with members of the House, and their 
jurisdiction is quite limited, in most respects. So they are 
really knowledgeable about a few different areas.
    That is why, when we go to conference, we always make sure 
our staff people are real close to us, because the staff 
members usually know more than we know.
    This is an opportunity for you to have an in depth 
discussion with each other and the staff people that really get 
all this done anyway.
    I serve on a number of committees, this one and 
Appropriations and a number of other committees. The staff are 
the ones that give me the information. So I want you to know 
that this is a new format. We hope it works. Your input is 
critical.
    Jacob, I would like to thank you for being here today. 
Jacob Snow is the Executive Director of the Southern Nevada 
Regional Transportation Commission. That is the entity that 
takes care of rapidly growing Southern Nevada/Las Vegas. It has 
been a tremendously difficult job.
    Just to indicate some of the problems we have, we have the 
sixth largest school district in America. We built, in 1 year, 
18 new schools, just to keep up with the growth, and multiply 
that times the problems we have with roads and the millions of 
visitors we have every year. It makes Jacob's job very 
difficult.
    The subcommittee held a hearing in September on Intelligent 
Transportation Systems. This hearing left little doubt that the 
technology exists to improve the management of our road 
systems.
    The next step is to ensure that this technology is 
deployed, and that a commitment is made to focus on resources 
operating regional transportation systems.
    This represents a new mandate for many highway departments 
and metropolitan planning organizations, and requires that new 
stakeholders be identified, and that someone be held 
accountable for the performance in our transportation 
infrastructure.
    Too often, the focus is on the condition of the 
infrastructure, rather than performance. Maintaining our 
infrastructure will always be our central mission, but a new 
commitment to operations and management is essential for 
reduced congestion in metropolitan areas. Transportation is too 
important to our economy and our quality of life for us not to 
make this commitment.
    A new focus on the operations and management of the system 
has been an added benefit of improving the security of our 
transportation infrastructure. The same technology that 
provides the information needed to manage our system also helps 
to monitor the system for security purposes, to ensure that 
emergency personnel can get to the destination, and improve 
incident response and emergency evacuation.
    As the Environment and Public Works Committee proceeds with 
reauthorization, TEA-21 will be looking for new and creative 
solutions to our transportation problems. Improved management 
of the system and accountability for performance must be part 
of that solution.
    Again, I appreciate your participation.
    Senator Bond?

        OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Senator Reid, and I 
appreciate the candor, my good friend. It is always somewhat 
humbling to go into a conference with the House. Those poor 
guys and gals do not have anything better to do, than to get to 
learn one subject very carefully.
    [Laughter.]
    Senator Bond. I commend you for the roundtable format. We 
have been doing that for about 3 years now, in the Small 
Business Committee. To be quite honest, we could not get 
Senators to show up for Small Business Committee hearings. But 
we found that the roundtable format really does give an 
opportunity to share views, challenge views.
    I hope that you will feel free, if you have a disagreement 
to, in a courteous, civil way, of course, unlike the way we 
normally handle it on the Senate floor, if you will express 
that, it will be very helpful.
    That kind of discussion, we have found to be very useful to 
staff. As the chairman, I used to sit in on those a good bit of 
the time.
    My main purpose here is to introduce our Director from the 
Missouri Department of Transportation, Henry Hungerbeeler, who 
oversees the work of 6,000 employees; and maintains the State's 
transportation system, 32,000 miles of highways; and State 
support of aviation rail transit and port systems. He has been 
there since 1999.
    On the national level, he is here today as a member of the 
Board of Directors of AASHTO, and member of AASHTO's Standing 
Committee on Administration, and chairman of the AASHTO Public 
Affairs Subcommittee.
    In September, he was named National Chair of the Task Force 
on Transportation Security for AASHTO, which is continuing to 
review security and emergency preparedness issues relating to 
bridges, tunnels, and other facilities critical to the Highway 
Transportation System and National Defense.
    He has a very impressive background. He served the Nation 
for 30 years in the Air Force, before retiring with a rank of 
Colonel. He has done an excellent in a very tough time in 
Missouri, and I will not bother you with the problems that he 
is having is Missouri. I sure wish I was back there to deal 
with the funding shortfalls that Missouri is having.
    But having made that introduction, I am going to impose 
upon my colleagues and my friends here to take a brief moment 
to highlight an issue of particular importance in the 
discussion of transportation and security in major metropolitan 
areas.
    Senator Reid and I were just discussing it. A major 
newspaper, for some reason, with a major reputation for 
accuracy, discussed it at length on Sunday. I do not mind if 
they disagree with me on the policy, but it does bother me when 
they make up the facts and leave out relevant facts.
    So just to set the record straight, we are talking about 
our waterway transportation system. The Missouri and 
Mississippi Rivers join right at St. Louis. We need to 
recognize, even if others do not, the fact that efficient water 
transportation is very important.
    One medium size tow on the Mississippi takes 870 trucks off 
the road. That is two diesel engines, versus 870. That is less 
highway congestion, less fuel burned, improved safety, cleaner 
air, in the ozone non-attainment area of St. Louis, and less 
highway wear and tear. That is one of the things that is 
killing us in Missouri, on I-70.
    With more efficient options being very critical for our 
shippers, in a growing and competitively international 
marketplace, sometimes the winner is the country that gets the 
product there most reliably and most economically.
    On the Missouri River, water transportation is an insurance 
policy against high rates from the railroads. Recent studies 
show the presence of water transportation competition saves 
shippers, including farmers, over $200 million a year.
    In closing, I thank Director Hungerbeeler and the other 
panelists for being here today, and helping us move forward. If 
you want to know more about how water transportation can lessen 
the wear and tear on the roads, the Director can talk about 
that, as well.
    Thank you very much, Henry.
    Senator Reid. We appreciate your, as a member of the 
committee, being here. What you did not say is that the reason 
you came is that you are the only one who can pronounce his 
name.
    [Laughter.]
    Senator Bond. Henry; it is very easy to say.
    [Laughter.]
    Senator Reid. What we would like is for everyone to give a 
statement, and we would like you to hold that statement to 3 
minutes.
    Each of you should know that here is the staff about which 
I bragged about a little earlier. These men and women are 
extremely well educated, and have the experience to be on this 
committee. Without embarrassing any of them, these jobs are 
very, very competitive, and they do great work for the 
Senators.
    So you are going to be in good hands. I have to go up to 
the Senate at 10 o'clock this morning, and I will get a report, 
hopefully early next week from my staff, as to how this 
symposium has gone.
    So feel free to say anything that you think that will help, 
because this information will be given to all the members of 
the subcommittee, and eventually the members of the committee, 
in drafting the new bill next year for highway transportation.
    So which way to you want to start, Mitch?
    Dr. Johnson?

  STATEMENT OF CHRISTINE JOHNSON, PROGRAM MANAGER, OPERATIONS 
      DIRECTOR, ITS JOINT PROGRAM OFFICE, FEDERAL HIGHWAY 
                         ADMINISTRATION

    Ms. Johnson. Mr. Chairman and members of the subcommittee, 
I do appreciate this opportunity, and the opportunity for the 
roundtable, to discuss how operational and technological 
initiatives can support both a secure and a reliable 
transportation system, as well one that is safe and efficient.
    Congestion and security are issues at the forefront of many 
State and local transportation officials. A primary message 
that I want to communicate today is that two investments offer 
very high leverage in contributing to the solution of both 
problems: security and congestion.
    The two investments are first, an investment in monitoring 
technology that yields real-time information on traffic speed 
and volume; on incident details, large incidents and small 
incidents; transit and emergency response fleet location or 
fleet management; weather data; and emergency evacuation 
details.
    The second investment is an investment in institutional 
infrastructure that routinely brings together transportation, 
public safety, and emergency managers to collaborate on 
planning for response to routine traffic incidents and to major 
emergencies; to develop methods for communicating and sharing 
information among themselves, with the media, and with the 
public.
    We have proposed a minimum set of information requirements 
that should be expected of a modern surface transportation 
system. These are detailed in my written testimony. Suffice it 
to say, right now, we estimate that only about 25 percent of 
our highways in major metropolitan areas are capable of 
producing even a portion of this information. Clearly, there is 
much progress that needs to be made in even these minimum 
goals.
    Within the department, we have numerous efforts underway to 
advance better security and better management of our surface 
transportation system, and these are also detailed in my 
testimony.
    Let me conclude with this observation. Our nation right now 
is focused on security. We are all investing, in one way or 
another, in prevention technology and the planning that is 
necessary, in the event of an emergency.
    If our national strategies are effective and we do not have 
to respond to a national attack in the next one or 2 years, our 
plans and our newly formed security partnerships will 
inevitably atrophy, unless they are regularly used on a day-to-
day application to smaller crisis; whether that crisis is an 
overturned tanker on a freeway system, or the evacuation of a 
football stadium at the end of a game.
    We tend to respond better in a true, large emergency, if we 
are used to using the technology, every single day, and our 
relationships are well oiled, because we talk to each other on 
a day-to-day basis.
    I want to thank the committee for this opportunity, and I 
am ready to both answer questions and engage in the dialog.
    Mr. Reid. Dr. Johnson, you set a very good example. I 
forgot to mention that we have a timer up here, and everyone 
can see it here, or I hope they can. If everyone would stick to 
that as closely as possible, we would appreciate it.
    Before we get to Henry, we are going to hear from the full 
committee chairman. Senator Jeffords is here.
    Senator Jeffords?

         OPENING STATEMENT OF HON. JAMES M. JEFFORDS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Jeffords. Thank you very much, Mr. Chairman. I 
appreciate this opportunity, and welcome you here to 
Washington. This is an extremely important issue which we are 
discussing, and I am pleased with the turn-out, and look 
forward to listening.
    I want to welcome you all, in taking the time to help us in 
our efforts to reauthorize the Nation's Surface Transportation 
Program. You are all making an important contribution, and we 
very much appreciate it.
    Today, you will exchange ideas on operations in the 
security metropolitan areas. These related topics are 
particularly timely.
    With limited financial resources and physical constraints 
that make our roadway's expansion impractical, improvement 
operations will play an increasingly important role in the 
future of our highway program. In fact, I believe that the 
operations, maintenance, and the system preservation will be 
core of the program going forward.
    The need for a focus on security is apparent. The Nation's 
infrastructure is a tempting target. It must be hardened, and 
at the same time, our transportation system is vital in times 
of emergency, from an act of nature or manmade.
    We will listen carefully to what you say. This new 
symposium or roundtable format generates an impressive record 
which, in turn, will support our work on the next 
authorization.
    So, again, I thank you for your time and consideration. I 
know that this is going to be a most productive morning, and we 
are pleased to have you all here.
    Senator Reid. Thank you, Mr. Chairman.
    Henry?

STATEMENT OF HENRY HUNGERBEELER, DIRECTOR, MISSOURI DEPARTMENT 
                       OF TRANSPORTATION

    Mr. Hungerbeeler. Thank you, Mr. Chairman, Senator 
Jeffords, Senator Bond; I want to thank Senator Bond for his 
kind introduction.
    This morning, I will offer suggestions based on recent 
security experiences in Missouri, as well as for the country, 
as a whole, based on my position as the chair of the National 
Task Force.
    I am pleased to report that our Task Force has two early 
products, which we will send to the States early next week, a 
guidebook for vulnerability assessment, as well as a guidebook 
for emergency response. We will leave these copies here for you 
to look at.
    We all know that transportation is a fundamental asset in 
our American way of life, and absolutely necessary in times of 
emergency. Everyone relies on it every day, and in times of 
disaster, it will play a huge role in how well we respond and 
survive.
    Every other component of emergency response relies largely 
on the ability to transport people and goods quickly. Without a 
functioning transportation network, other emergency response 
plans cannot work.
    My personal conclusion is that there is really no new 
requirement out there now that we did not know on September 
10th. What has changed is that security has become a higher 
priority, and must be accelerated.
    While the emergency management community has the starring 
role on many of these matters, the State Departments of 
Transportation are critical members of the supporting cast. 
Together with first responders, they must face certain key 
issues.
    Some of these issues can be addressed through the TEA-21 
reauthorization. Some, we think, need to be addressed as part 
of funding acts for fiscal year 2003 and beyond, by the Office 
of Homeland Security and the Federal Emergency Management 
Agency.
    As the 50 States examined the security issue on the 
Nation's highway system, we focused on four aspects: defense 
mobilization needs, protection of highways assets, the 
capabilities of the system for emergency response and special 
needs associated with the movement of goods.
    AASHTO's Board of Directors has approved the policy 
position to recommend Office of Homeland Security and the 
Federal Emergency Management Agency support for those purely 
security-related costs that States will incur, and Highway 
Trust Fund support through reauthorization for those needs that 
serve multiple purposes, such as surface transportation, 
emergency response capabilities for major incidents on or off 
the transportation system.
    AASHTO will provide you copies of our policy position, so 
in the interest of time, I will not go into detail, at this 
point.
    Thank you very much.
    Senator Reid. Thank you very much.
    We will now hear from the Honorable John Njord, Utah 
Department of Transportation in Salt Lake.

STATEMENT OF JOHN NJORD, EXECUTIVE DIRECTOR, UTAH DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Njord. It is my pleasure to be here today. Thank you 
very much for this opportunity.
    Growth: urbanization of the West is a very big issue for 
those of us that live in the West, and it is our experience in 
the West that we are experiencing massive growth, which places 
a huge demand upon the transportation system. We have a growth 
rate, over the past 10 years in Utah, of 30 percent, which has 
been a huge demand on us, as a department.
    As a result of this, we decided to aggressively pursue ITS 
technologies on our transportation system, and over the last 
several years, we have invested over $120 million in deploying 
an intelligent transportation system in our State.
    The Traffic Operations Center in Salt Lake City was 
launched in 1999. It covers the entire Salt Lake area, which 
the bulk of the population of the State of Utah is centered 
around that urbanized area.
    There are about 2.2 million people that live in Utah. 
Approximately 76 percent of those people live right near the 
Salt Lake City area. We have targeted some ITS applications in 
the rural part of our State, and have deployed some of those so 
far.
    Utah's ITS system, and we call it Commuter Link, is a 
system that includes closed circuit television cameras; 
congestion sensors; road pavement condition sensors; 511 
traveler information, which by the way, is the first voice 
activated traveler information system in the country, and is 
very successful and a key player in the success we had in the 
Olympic Games.
    We have also got an award-winning web site, which during 
the Olympic Games received 74 million hits during the month of 
February. There is an incredible amount of traffic taking place 
on that particular site.
    A key component of the success of a traveler information 
system is coordination with other agencies. The Traffic 
Operations Center that we have in Salt Lake City houses the 
highway patrol dispatch, which has strengthened the 
relationship between the Department of Transportation and 
public safety officials, in order to make the system overall 
work better.
    Some of the benefits of ITS we have seen already in our 
part of the country. We have seen a decrease in the amount of 
congestion on our roadways, as a result of the reconstruction 
of the I-15 project, as well as the deployment of ITS. We have 
seen a delay of approximately 30 to 40 percent on the freeway 
system. We have also seen a reduce of delay on surface street 
by up to 20 percent.
    Now the goal of Commuter Link is to reduce overall delays 
by 20 percent by reducing the secondary impacts of congestion, 
of accidents, and that type of thing.
    We have seen a lot of success, and we need Federal support, 
and we are here ready to discuss what kind of Federal support 
in the future. I appreciate this opportunity. Thank you.
    Senator Jeffords. Thank you very much.
    Please proceed, Mr. Tinklenberg.

    STATEMENT OF ELWYN TINGLENBERG, COMMISSIONER, MINNESOTA 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Tinklenberg. Thank you, my name is Elwyn Tinklenberg. I 
am the Commissioner of the Minnesota Department of 
Transportation, and I have been serving as the leader of 
AASHTO's effort to define reauthorization proposals for ITS 
operations.
    Mr. Chairman, 2 weeks ago, I had the privilege of 
participating in the University of Minnesota's first James L. 
Oberstar Forum on how we will or should respond to 
transportation long-term, after 9/11.
    One panel that I was asked to moderate included the U.S. 
DOT Administrators of Special Programs, NTSA, Federal Aviation 
Administration, and the Commandant of the U.S. Coast Guard.
    I asked them what they believed was the one thing, if they 
could focus on one thing, that they would change first. They 
all said communications.
    That was an important insight, and I think it goes to the 
heart of the discussion you are leading today concerning 
operations and security. Fundamentally and broadly based, it is 
an issue of communication.
    Certainly, it involved the obvious things, making sure that 
our emergency responders can talk to each other, but it goes 
well beyond that, as well. On the operations side of our 
transportation systems, for example, it means better 
communication between those systems and management, and 
adjusting the focus of our development plans, so that they 
incorporate enhancement of that capability.
    This might include the strategic deployment of advanced 
sensing technology within our highways and transit 
infrastructure, as well as on board our vehicles, which will 
help us communicate in real time with those systems: the use of 
cameras and digital imaging systems that can help us manage and 
protect vulnerable infrastructure; and advanced signal 
integration systems that can quickly respond to the needs of 
changing demand or emergency conditions.
    These and other ITS technologies are the direct outgrowth 
of the policies and financial resources you have made available 
in ISTEA and TEA-21. When they are combined with other 
communications improvements between us and our customers, like 
511 and C-vision, and improved variable message capabilities, 
they are providing powerful and cost-effective tools, to help 
us meet the mobility challenges of the 21st Century.
    In doing so, they are also supporting the transformation of 
State DOTs, themselves. While their traditional focus on 
building, replacing, and rehabilitating infrastructure remains 
a critical part of their mission, DOTs are fast becoming 
mobility managers, whose goal it is to effectively manage 
multi-modal and inter-modal transportation systems to optimize 
the customers' traveling experience.
    Empowered by ITS technology, State DOTs are assuming an 
increasingly operations orientation in order to make the best 
use of existing transportation infrastructure and preserve or 
improve system performance.
    To that end, we think there are three broad areas that must 
be addressed in reauthorization. First, reauthorization should 
incorporate policy initiatives that strength ITS development 
and deployment. Many of these initiatives will require a 
combination of legislative, regulatory, and administrative 
actions.
    Second, reauthorization should provide financial support 
for ITS deployment. AASHTO supports the continuation of the 
current ITS deployment program at a level of funding of about 
$142 million per year for advancement of these initiatives.
    Third, reauthorization should support critical research and 
development. This funding should be in the range of $125 
million per year.
    Again, Mr. Chairman, I want to thank you and the committee 
for this opportunity. At the appropriate point, I would be 
happy to answer any questions.
    Mr. Warren. Thank you.
    Mr. Snow?

      STATEMENT OF JACOB SNOW, GENERAL MANAGER, REGIONAL 
TRANSPORTATION COMMISSION OF SOUTHERN NEVADA, LAS VEGAS, NV, ON 
      BEHALF OF THE ORGANIZATION OF METROPOLITAN PLANNING 
                         ORGANIZATIONS

    Mr. Snow. Thank you, Mr. Chairman, my name is Jacob Snow. I 
am the General Manager of the Regional Transportation 
Commission of Southern Nevada. I am here testifying on behalf 
of the Association of Metropolitan Planning Organizations, of 
which I am a member of their Policy Committee.
    I was very impressed, listening to John's statistics about 
growth in Utah. I believe it was 30 percent in the last 10 
years. Not in an attempt to ``one-up'' you in any way, but in 
Las Vegas, we have had 100 percent growth in the last 10 years, 
and in the four decades previous to that, we had 100 percent 
growth. So we have some tremendous challenges.
    My Board told me that they wanted to appoint a group of 
community stakeholders to address growth in transportation in 
Las Vegas, and come up with a plan to make sure we could hold 
congestion in check.
    We appointed that group. After a year and-a-half of work, 
they recommended an $8 billion program, where we would raise 
taxes locally to that level, to fund new capital improvements, 
mainly street and highway infrastructure.
    When we finally convinced them that that was not a 
realistic approach, we had to think more intelligently, if you 
will excuse the pun. We had to get the benefit of $8 billion 
worth of infrastructure, at a cheaper cost.
    So we turned to intelligent transportation systems, and we 
came up with a program where we would expand our freeway 
management system, and our arterial management system, and we 
would leverage the new commuter choice benefits that we have 
available to us now.
    When we included those elements in the program, we were 
able to come up with a program of $2 billion worth of capital 
investment, and $762 million worth of investment in ITS, and we 
have the same benefit as an $8 billion approach.
    So we would suggest to the group that, indeed, that 
increased emphasis on ITS, that Senator Jeffords spoke about, 
will be more and more important to the success of the overall 
functioning of our national transportation system.
    To summarize AMPO's position, we encourage the development 
of a performance-based management and operations element of our 
regional transportation plans. We encourage DOT and the Office 
of Homeland Security, to assist in funding needed info-
structure, to provide data that will assess the system's 
effectiveness.
    We hope to accomplish this among all 340 MPOs and the new 
ones that are on their way, but we desperately need adequate 
funding to support this planning effort.
    Currently, the Secretary of Transportation may authorize up 
to 1 percent of the overall transportation program to 
metropolitan planning. AMPO believes that this should be 
increased to 2 percent, to ensure adequate funding growing MPO 
responsibilities.
    We are fortunate, in Nevada, in working with our State 
Department of Transportation, that they allow us to program 
flex funds; namely, STP and CMAQ money, in support of ITS 
operations.
    This is not the case in many areas around the country. 
Those types of flex funds need to be sub-allocated to MPOs, so 
that the local officials, dealing with the local transportation 
problems, can come up with the solution to those local 
problems.
    Finally, it is at the MPO where local elected officials 
work with professional staff to decide cooperatively on a 
region's transportation priorities.
    Thank you very much.
    Mr. Warren. Admiral Bennis?

STATEMENT OF ADMIRAL RICHARD BENNIS, ASSOCIATE UNDER SECRETARY 
    FOR MARITIME AND LAND SECURITY, TRANSPORTATION SECURITY 
                         ADMINISTRATION

    Admiral Bennis. Good morning, as a matter of introduction, 
I am the new Associate Under Secretary for Maritime and Land 
Security at the Transportation Security Administration, and I 
am the leader of a very small group at the moment, but we are 
growing.
    The focus at TSA, obviously, has been on aviation security. 
Our focus is going to be on the security of passengers and 
cargo movement throughout the maritime and land modes, to 
include maritime, rail, highway, mass transit, and I have also 
got aviation cargo, and even pipeline, as that is a cargo, as 
well.
    I just want to say, it is a real pleasure to be here. It is 
a great opportunity for me to establish some relationships with 
all the folks in the room. I salute your efforts. They have 
been and continue to be exceptional, and I look forward to 
working with you in the future.
    Thank you.
    Mr. Warren. Mr. Edelman?

  STATEMENT OF MATTHEW EDELMAN, EXECUTIVE DIRECTOR, TRANSCOM, 
                        JERSEY CITY, NJ

    Mr. Edelman. Good morning, and thank you for inviting 
TRANSCOM to today's session. As a coalition of 18 agencies in 
the New York, New Jersey, and Connecticut region, TRANSCOM has 
seen the value of transportation information to the public 
safety community, particularly after the tragic attacks of 
September 11th.
    We are honored to have public safety agencies in our 
membership: NYPD, New Jersey State Police, New York State 
Police, as well as the Port Authority of New York and New 
Jersey, whose own police force suffered such tremendous losses 
on that date.
    Through ITS technology, the quality and quantity of 
information that transportation agencies can make available to 
each other and to the police has constantly been improving. The 
week of the attack, as a ban on single occupancy autos in parts 
of Manhattan took effect, ITS technology was used by three key 
Hudson River crossings.
    With little precedent for predicting the effects of these 
restrictions, they were able to use these systems to react in a 
measured way to the changes in demand. On the day of the 
attack, bus operators were able to use our multi-agency video 
network to make the best use of their resources.
    TRANSCOM also used the I-95 Coalition's network to advise 
drivers throughout the Northeast, linked to a massive 
deployment of traveler information systems, to avoid the entire 
New York area.
    But a regional approach to operations and security is not 
only about technology. It is about working relationships among 
organizations and individuals. After the attack, many seemingly 
intractable inter-agency conflicts were resolved effectively 
through quick conference calls of transportation police 
professionals, who already knew and trusted each other.
    We are also learning that we do not always need two 
different networks of transportation information: one for 
operations and one for public safety. We are tying police 
agencies into our video network, and our regional ITS 
architecture, the new backbone of our information sharing 
network.
    We have also learned, as transportation professionals, that 
much of this flow to police agencies can be one way. While 
their missions are different from ours, we can provide them 
with transportation information that helps them to fulfil their 
responsibilities, and we are proud to do so.
    Looking to the future, I want to emphasize the need to fund 
ongoing operations and maintenance costs of ITS systems. As 
these systems become more effective, demand for them will grow 
and, correspondingly, so will these costs.
    Currently, our member agencies pay for most of our 24/7 
base operation costs. They are hard pressed to meet a wide 
range of needs, and are finding it challenging to fund the 
operation and maintenance of ITS.
    While these costs are eligible for Federal funding, the 
need to compete with other priorities may not leave sufficient 
funding for regional operations.
    Thank you again, and I look forward to this morning's 
discussion.
    Mr. Warren. Thank you.
    Mr. Lockwood?

     STATEMENT OF STEVE LOCKWOOD, VICE PRESIDENT, PARSONS 
   BRINKERHOFF, ON BEHALF OF THE INSTITUTE OF TRANSPORTATION 
                           ENGINEERS

    Mr. Lockwood. Good morning, and thank you for the 
opportunity to provide the Institute of Transportation 
Engineers' perspective on transportation systems management and 
operations.
    My name is Steve Lockwood. I am Senior Vice President of 
Parsons Brinckerhoff, a member of ITE, and Vice Chair of the 
National Dialogue on Transportation Operations Steering 
Committee.
    ITE is a 16,000 member educational and scientific 
association of traffic and transportation engineers, 
transportation planners, and other professionals responsible 
for meeting society's needs for safe and efficient surface 
transportation.
    ITE has been involved in facilitating an important national 
initiative, the National Dialogue on Transportation Operations. 
The focus is on how to improve the transportation service 
available from the existing system, in the relative short run 
at low cost and without major construction efforts, using new 
technology concepts and appropriate institutional arrangements, 
that will maximize customer focus on systems performance.
    This initiative is sponsored by FHWA, managed by ITE, and 
involves many of the Nation's key transportation-related 
interest groups, several of which are here today.
    The vision of the dialog is to bring the system to a point 
where it is managed and operated so that its performance 
exceeds normal customer expectations. The focus is on 
integrated systems and services that preserve and improve 
customer-related performance.
    In October of this year, the Dialogue held a National 
Summit on Transportation Management and Operations in Columbia, 
Maryland, attended by over 250 professionals in academia, 
transportation, and State and local government.
    The summit reached consensus on the need for increased 
focus on transportation system management, the importance of 
focusing on activities with measurable performance improvement 
value, the value of promoting improved inter-agency 
coordination, the importance of creating linkages between the 
capital planning process and planning for management 
operations, and the relevance of system operations in 
supporting whole and security initiatives.
    Participants felt that the Federal Government can play a 
key role in several ways: accelerating the evolution of 
incorporating systems management into State and local agency 
decisionmaking by clarifying support of Federal policy; 
supporting a higher priority for performance-oriented 
improvements; provision of appropriate funding flexibility; and 
promoting stronger operations-oriented planning and multi-
jurisdictional partnerships at the regional level.
    ITE has provided recommendations more fully developed in 
the written statement, and I would be happy to expand on the 
National Dialogue and ITE's recommendations during the open 
discussion.
    Thank you.
    Mr. Warren. Thanks.
    Mr. Goldstein?

  STATEMENT OF JACK GOLDSTEIN, SENIOR VICE PRESIDENT, SCIENCE 
   APPLICATIONS INTERNATIONAL CORPORATION, ON BEHALF OF ITS 
                         INTERNATIONAL

    Mr. Goldstein. Thank you for the opportunity to be here 
today to represent ITS America in this important discussion.
    The central theme of my message to you today is that the 
same ITS technologies that are today being deployed as 
operations tools to improve system performance in metropolitan 
areas can be used and, in fact, are being used to enhance the 
security of the Nation's surface transportation system.
    I want to focus on two points out of my written remarks 
that I have given you. One is the need for a focus on 
operations and the role of ITS in operations; and second, the 
relationship of ITS technologies with security applications.
    First of all, with respect to operations, systems 
operations and management of the existing capacity offers both 
short-term and long-term strategies to improve the flow of 
people and goods throughout the transportation system.
    Enhancing system performance, however, is predicated on the 
ability of skilled transportation professionals to collect, 
analyze, and archive data about the performance of the system, 
during the hours of peak use.
    With this data, traffic operators have the ability to 
respond to incidents, adverse weather, or other capacity-
constricting events now with respect to the role of ITS in 
operations.
    Intelligent transportation systems are the tools of the 
traffic operators. Traffic management systems, incident 
management systems and travel information systems are among the 
ITS tools that traffic operators use to manage a metropolitan 
area's transportation system, and manage it at its optimal 
efficiency.
    Now in order to bring these improvements to the entire 
Nation, ITS America proposes the creation of a national 
transportation information network, which will link all 
existing and future metropolitan and rural transportation 
systems in the Nation into an integrated, yet distributed, data 
network. The network will collect information on system 
performance through a variety of technologies.
    Let me shift now for a moment to security in ITS 
technologies. Research indicates that 58 percent of 
international terrorist attacks in 1998 were on transportation 
targets; and of these 92 percent were on surface 
transportation.
    The important point is that the same ITS technologies that 
serve to improve operational efficiency also serve to protect 
both critical transportation infrastructure and people who 
travel on it.
    In conclusion, ITS technologies and services play a 
critical role in improving system operation and performance, 
while at the same time, enhancing the security of our surface 
transportation system.
    With these duo purposes in mind, ITS America urges the 
Congress to redouble its commitment to ITS operations and the 
reauthorizations of TEA-21.
    Thank you very much.
    Mr. Warren. Thank you.
    Dr. Miller?

 STATEMENT OF WILLIAM D. MILLER, EXECUTIVE DIRECTOR, OKLAHOMA 
      AERONAUTICS AND SPACE COMMISSION, OKLAHOMA CITY, OK

    Mr. Miller. Thank you for the opportunity to be with you 
today. In the lexicon of the warrior, we are faced with what is 
called ``defender's disadvantage.'' We must defend against all 
possible attacks, while the terrorist only has to find one 
weakness in our system.
    We are confronted with the momentous task of securing the 
Nation's transportation infrastructure. An effort of this 
magnitude, which involves every level of Government, the 
private sector, and private citizens, requires the addressing 
of a number of issues.
    We appreciate the opportunity to discuss with you today the 
Oklahoma Department of Transportation efforts and thoughts on 
improving operation of our metropolitan transportation systems, 
while enhancing emergency response procedures, in the security 
of our transportation infrastructure.
    Since September 11th, it is imperative that our Nation 
develop and implement a clearly defined Homeland Security 
Program, that incorporates a comprehensive assessment of 
national threats and risks, and that clearly articulates, 
roles, responsibilities, and accountabilities.
    We must, as a Nation, review our policies on immigration 
and the security of our borders. Our seaports and our airports 
need particular attention.
    The Oklahoma Department of Transportation is working on and 
has completed a variety of transportation enhancement 
initiatives, and we look forward to this symposium as a vehicle 
to achieve increased effectiveness and security in our 
transportation systems.
    As the transportation leadership for this Nation, we are 
charged with developing a vision that includes national, State, 
and local objectives, that develop and ensure effective and 
efficient technologies, management systems, and security for 
our transportation systems. We must identify the essential 
elements that constitute every level of Government strategies 
for an effective and secure system.
    We are fortunate that intelligent transportation system 
technologies can be a powerful tool in aiding first responders 
and traffic managers, while assisting the efforts to secure our 
transportation infrastructure.
    The Oklahoma Department of Transportation has implemented a 
multi-phase ITS integration program that will include the 
design and completion of a fiber optic communications backbone, 
capable of integrating a myriad of ITS components, enhance 
security and preparedness, establish a network for information 
and data sharing across and between jurisdictions.
    Our program will link and integrate our department, State, 
Federal, military and local agencies into a common 
communication backbone, capable of multi-user, multi-point 
interface that will facilitate the rapid real-time sharing of 
information.
    We support a multi-agency approach to developing solutions 
to these difficult issues of operations, management, and 
security, and pledge our support and efforts to that end.
    Thank you.
    Mr. Warren. Thank you, and thanks again to everyone for 
being here. I will quickly review the agenda, before we get 
into the next section of the discussion, which is going to be 
the staff questioning.
    Each staff member here is going to get 8 minutes to ask 
questions. We can ask it any way we like; if it is directed at 
individual people, or to open it up for the whole group for 
discussion. After that, we will take a 5-minute break, and then 
come back for a general panel discussion, where panelists can 
ask questions of each other. Staff can ask follow-up questions, 
if necessary.
    We will try and keep control of that, and keep that more 
like Phil Donahue than Jerry Springer, if we can.
    [Laughter.]
    Mr. Warren. Then we will wrap it up, once that discussion 
begins to die out, or we get to the point where we are kicked 
out of this room at 12:30.
    We have food and drink behind us to keep everyone awake, so 
feel free to grab some coffee or juice or donuts or bagels, now 
or during the 5 minute break.
    I will start off, but if each person could just briefly 
introduce themselves, before you ask your questions. One more 
thing, this is all for the record. So before you speak if you 
could just quickly say who you are, so that the transcript can 
reflect that.
    I will begin. We have had a lot of examples so far, and I 
will ask this, and I will start with Dr. Johnson, but I will 
open it up to everybody. It is sort of a multi-part question.
    We have heard a lot of examples about different operations 
or initiatives around the Nation. Many areas have implemented 
their own initiatives, but how do you take it to the next step?
    How do you bring it all together in a comprehensive 
metropolitan operations program? Who plays the central 
coordinating role? Who is accountable for the performance of 
the system, and who brings together the multiple jurisdictions 
and agencies, who need to be part of a comprehensive operations 
initiative?
    Is it the State DOT; is it the Metropolitan Planning 
Organization; is it a separate organization like TRANSCOM? 
Where should that take place? Is an actual physical operations 
center needed to bring together all the relevant parties?
    Ms. Johnson. That is a lot of questions.
    [Laughter.]
    Mr. Warren. That is.
    Ms. Johnson. I am sure you would like a clear, definitive 
answer to the ``who does it'' and ``who brings them together'' 
questions. We would have two.
    I cannot remember, and I know Matt participated in the 
discussion. It was nine to 12 months in panel discussions, 
trying to answer that question.
    What we ultimately came up with is, yes we need that kind 
of a table. We need a regional table that has, at minimum, the 
transit agencies at the three levels of Government; 
transportation and transit; public safety and emergency 
management. But it will be done differently in different 
regions.
    We have begun to explore what we need. It is sort of an 
incentive or a catalyst to say, and so, get on with it; but 
allowing that flexibility to occur.
    Do they need to have a physical structure? No, we do not. 
We have examples without physical structures. They can, I think 
be very successful with a distributed structure, but the people 
have to meet and get along, and figure out ways to share 
information.
    But you can have a virtual collaboration, as long as you 
are wired to each other and capable of sharing information with 
one another, and you are meeting and collaborating. So it does 
not have to be bricks and mortar that brings you together.
    I think the third question was, and what are the next steps 
in the ITS piece of it. The thing that I have suggested in my 
own testimony is, in sorting through all the possible next 
steps, we have come down to two very high leverage ones that we 
think will lead to others, on their own.
    The first is, it has been called, I think by ITS America, 
an information network, an info-structure. I think each of them 
have their own words, but we are talking about the same thing.
    Getting a minimum set of information being produced about 
the surface transportation system; there are lots of ways of 
doing it. But that minimum set of information is required, and 
so it is going after that. The second investment is investing 
in that regional table.
    Mr. Warren. Does anyone else want to jump in?
    Mr. Edelman?
    Mr. Edelman. Looking at the first issue of how one starts a 
regional operations initiative, I would agree that there cannot 
be a ``one size fits all'' approach; that looking at the 
experience, we see the leadership and the interest and the 
motivation is truly different, from region to region.
    I will give you three examples. In the Bay area, much 
leadership in that area has come from the MPO, the Metropolitan 
Transportation Commission. In the Buffalo area and in Southern 
Ontario, it has come from the State DOT, working with 
administrative transport.
    In our region, it started with operating people, who saw an 
need, in terms of massive construction projects that were 
taking place, and with all these jurisdictions, nobody was in 
charge.
    They realized that if coordination was going to take place 
to serve the public, that we had to face the fact that nobody 
would ever be in charge, perhaps, but we could have a means of 
coordinating with each other and, in effect, having that 
regional benefit.
    Now in terms of our region, we had a gentleman named Lew 
Gamseni, who was the Deputy Executive Director of the Port 
Authority, a large transportation and multi-modal agency.
    He was, to use a term coined by my colleague, John Corbin 
from Wisconsin DOT, an entrepreneurial bureaucrat. He was 
someone who was in the region, who had the vision, who realized 
there had to be another way of doing things.
    So that is where it started, with senior operating people 
who said, we have to coordinate on a regional basis to get 
these benefits.
    In terms of the physical location, again, ``one size does 
not fit all.'' We have seen distributed networks. We have seen 
everybody in one facility, such as in Houston.
    We have a facility which ties in other facilities. It is 
relatively small, in terms of the late shifts, perhaps two 
people. But what we do find is, if you have a distributed 
network, you need human beings to absorb that data, to react to 
it, to question it, and then to implement it.
    So the systems make us smarter and give us better data, but 
we still believe that if you do not necessarily have a physical 
presence, you have to have human beings who are entrusted with 
absorbing that data and reacting to that data. It is their job.
    The final thing, in terms of future growth, everyone has 
said it, and we have seen 22 percent numbers. There are just 
geometric expansions and benefits with every additional mile of 
instrumentation you add.
    You have a link, you get smart. You have many links, you 
have a corridor. You have parallel corridors, you have a 
region. And every time the ability we have to manage the system 
and help our customers, it expands significantly.
    Mr. Warren. Anyone else; Mr. Lockwood?
    Mr. Lockwood. I think I am going to sort of restate what 
has been said, in a slightly different nature. But based on the 
dialog that has occurred among a wide range of interest groups 
on this topic, I think one this that the national dialog very 
much exposed is the need for a broad consensus on the nature of 
the enterprise itself; in other words, within the metropolitan 
area, what is it that we are talking about, because there a 
fair amount of confusion and misunderstanding.
    But once the notion is understood that we can substantially 
improve the performance of the existing system and should do so 
is excepted, and we are doing that on a regional basis, along 
with the consequent need to focus on performance and the 
information needed to talk about performance and use 
performance, then the institutional response within a region or 
at the State level, in terms of the participation and the 
leadership and so on, will emerge, depending on kind of the 
legacy of relationship in institutions that are already there.
    As I think both Christine and Matt have said, there is no 
single model. But essential to move ahead is to get this sort 
of common understanding of what one is talking about, and every 
region will do it in a way that is appropriate to its 
circumstances.
    Mr. Warren. Thank you.
    I will now turn it over to Ruth Van Mark.
    Ms. Van Mark. First off, I welcome all of you to our 
symposium this morning. I want to especially welcome the folks 
from Oklahoma.
    I have to kid my colleague here from Nevada, that once 
again, Oklahoma is on the cutting edge of technology. You 
stepped right there and you have pulled together something that 
is going to help the State, not only for security, but for 
traffic management.
    One of the themes that I keep hearing throughout today's 
discussion and earlier discussions that we have had with some 
operations folks, is that communication and building of 
relationships among various agencies, to facilitate that kind 
of communication.
    I am curious to maybe discuss in greater detail exactly 
what were the events that triggered either the discussions 
initially for the communities that do have somewhat of an 
advance ITS operation. I am assuming for Utah, it was the 
Olympics, although maybe you were well on your road toward 
that, even if you had never had the Olympics. TRANSCOM said it 
was an enterprising bureaucrat, which we all wish we had those 
types of people.
    But what types of things can the Federal Government do, and 
specifically can we do in our next bill, that would trigger or 
encourage or incentivize communities to do what you have 
started to do, for those that have done it?
    Mr. Njord. I appreciate the opportunity to answer that. The 
advance traveler information system that we have in Utah was 
not developed specifically for the Olympic Games. The impetus 
behind developing such a system really evolved out of the 
serious growth that we are experiencing and the extreme 
congestion that we had on our system.
    We recognized very clearly that we could not, and I hate to 
almost say this, completely build our way out of the congestion 
that we were experiencing. We had to have a combination of 
expansion, as well as optimization of the system.
    Now you ask the question, what can the Federal Government 
do to help incentive folks to engage in that same type of 
activity? I think that there are many things that can be done. 
There are many lessons that can be learned from one State to 
another, as they engage in dialog and talk about things, 
lessons learned, what was successful, what was not successful.
    I cannot tell you how much we learned from Atlanta, when we 
deployed our system. We actually entered into an agreement with 
Atlanta, wherein they gave us all of the software that they 
produced for their traffic operations center. It was nearly an 
$8 million investment on their behalf.
    They gave it to us. We used that software and enhanced it 
and, in fact, have given pieces back to them, to enhance their 
system. So here are two States cooperating, one with another, 
in order to have a better product.
    I think the Federal Government can help us in initiating 
those types of partnerships and other things, not to be too 
long winded, here.
    Ms. Van Mark. It would seem to me that now as metropolitan 
areas plan their major transportation system, one component now 
has to be ITS, I guess technology, to be redundant.
    How do we then encourage people to include that in their 
planning. Dr. Miller, you mentioned that that is what Oklahoma 
is doing. As you move forward, is ITS just automatically an 
item that you consider, and then how do you pool various groups 
together, in order to implement that?
    Mr. Goldstein. First, back to John, with your software 
issue, that has become a very important topic to many of the 
States, and we hope to come to you and to Georgia, in an effort 
to share that software and acquire it from you.
    All this kind of took place because of the ITS meeting that 
was in Long Beach, California, 2 weeks ago, where we had 
opportunities to share those particular things, and find out 
about this software. It is going to be wonderful.
    Ruth, to address your question, typically, what we have 
looked at, in surface transportation, has been condition and 
performance. Condition, typically, you know, is what the road 
surface is like. Performance has not really been anything that 
most DOTs have looked at, over the course of the last couple of 
decades.
    Now we have added lanes of traffic, but not until recently, 
when the technologies have become available, have we been able 
to address the performance side of this transportation concept.
    Here in Oklahoma, Ruth, basically what we do is meet with 
the various governmental entities, whether we are talking about 
sister State agencies, or more to the point, meeting with our 
municipalities, and talking about what concepts, technologies, 
are going to become available through this system; and then 
figuring out a way that the municipality can join on to what we 
are calling our TRANSNET in Oklahoma.
    Clearly, our initial focus is in our large metropolitan 
areas. That is where the build-out is going to occur. But we 
are also sharing this with our rural areas, too, to give them 
an opportunity to look at how they would tie into the TRANSNET 
system.
    I think that ITS is really the first opportunity to take a 
real hard look at performance issues, principally because of 
ITS technologies.
    Ms. Van Mark. Well, am I hearing that the role that the 
Federal Government has to play in this is the gathering of 
information and the depository of information?
    Mr. Goldstein. I think so. I think what was brought about a 
few minutes ago, looking at exactly what are the improvements 
that we want, and what are the notions of what ITS is.
    If you talk to 10 different people, and you will get 10 
different answers as to what ITS is. That may not be a bad 
thing, because every State is a little bit different and, you 
know, what Jacob requires in Southern Nevada may not be 
necessarily what Oklahoma requires out in its rural areas, in 
terms of what the notion of ITS will do.
    Mr. Tinklenberg. Could I respond--El Tinklenberg from 
Minnesota--there are, as Dr. Johnson mentioned earlier, a 
couple of things, in terms of supporting a minimum level of 
information that is gathered by the system; that there is a 
capability within our systems in the metropolitan areas to 
gather and generate a certain amount of base data from our 
systems; and I think that expectation should be there.
    The development of that capability has been quite slow and 
very sporadic around the country. I think supporting that would 
be an important initiative.
    In doing that, I think the Federal Government also needs to 
look at, for example, the cost of that setup in how we do 
procurement. Obviously, procurement of ITS systems is very 
different from the general procurement of a construction 
project or things like that.
    I think right now the rules kind of assume a building 
process. I think as we look at more and more ITS installations, 
some changes in those procurement processes are necessary.
    The other thing is maintaining the flexibility, so that 
regions can use dollars from different programs within the 
transportation authorization, to allow them to fund some of 
these kinds of initiatives.
    I think that is going to be very important. Being able to 
accelerate and streamline that procurement process, that 
development process for the States or the regions is going to 
be important, as well.
    Mr. Edelman. On the question of incentivizing, what can the 
Federal Government do, to bring about cooperation, we have 
found, with all the parts in our regional coalition, and not 
just in our region, there is just a natural conflict between 
the financial interests of each individual agency, and the 
collective interest.
    There is just going to be that natural tension. One of the 
ways to incentivize it is have a separate pool of money for 
regional organizations.
    In the early days, our chairman was actually, when 
confronting another member for dues, some $50,000, that 
potential member said, ``That $50,000 could go into repairing a 
guardrail, and that guardrail could save a life.''
    That argument made it very hard for us to talk about the 
regional interest. But there is a regional interest, as we have 
shown. And I think trying to eliminate some of that financial 
tension between the parts and the whole would help.
    Ms. Johnson. Ruth, if I could, I would like to give you 
three examples, just to go back in history, that I think would 
help you in your deliberations.
    The Federal Highway Administration did a major campaign in 
the 1990's for incident management, and to do incident 
management, you need to bring at least some of those same 
people that we are all talking about together. They went all 
across the country and set up those tables.
    In sort of going back and doing some evaluation, we found 
that many of them had disappeared, because the champion had 
been promoted, retired, et cetera.
    Two other examples, then, that I would contrast that to, 
and those were sort of jawboned in place, would be actually 
TRANSCOM, and I know that same entrepreneurial bureaucrat. I 
cannot quite remember the amount of money that the Port 
Authority of New York and New Jersey agreed to put up, 
basically, to support the whole, when the parts did not see it 
in their best interests.
    But for a period of four or 5 years, they said, this is 
important for the region, and so we will pay everyone's dues to 
at least put a couple of staff members together to regularly 
convene you in a meeting.
    The other example I would point to, that has stayed in 
place, is the I-95 Coalition. While the department abhors the 
congressionally designated projects, that has been a 
congressionally designated project, primarily for the purpose 
of ITS.
    But I would argue that they have stayed together and 
expanded extraordinarily, the work they are doing together, 
because there is a small amount of money coming in, that holds 
the table together. Now they are working far beyond that 
earmark, at this point. And that would be worth looking at.
    Ms. Van Mark. I think I have eaten into Jeff's time, so I 
apologize, Jeff.
    Mr. Squires. That is quite all right. I thought it was 
stimulating stuff that we were hearing.
    Well, thank you, my name is Jeff Squires. I am the 
transportation senior policy advisor for Senator Jeffords, with 
the committee. I also want to share in welcoming all of you 
here to Washington, and express my appreciation.
    I also want to commend Mitch and Ruth and J.C. and Lauren, 
who just left the room and will now miss this, and Duane, for 
their good work in organizing today's session.
    As Senator Reid said, these are pretty valuable 
opportunities, and the logistics of organizing one of these is 
daunting, but I think it is well worth the investment in time 
and effort that was made.
    My question goes to the readiness of operations technology. 
One of the issues that we will address during reauthorization 
will be the programmatic treatment of ITS deployment.
    Today, deployment is included in the research title. In a 
sense, it is in the R&D phase, research and development phase. 
Some believe that the time has come to move it out of research, 
either into a new program category, or into one or more of the 
core program categories, as an eligible activity.
    To me, the question comes down to readiness. If we extend 
the R&D analogy to that of a consumer product, then I would 
envision two main criteria that should guide our thinking.
    One, does the product have sufficient reliability? Does it 
work? Have we gotten the bugs out of the product? Two, is there 
a market for the product? Can it compete in the market place? 
Is it, in fact, a better mouse trap?
    So my question to the panel is basically, are operations 
technologies, or ITS technologies, ready to move out of R&D? 
Are they sufficiently proven, and can they deliver sufficient 
benefit to compete with conventional build responses?
    I guess I would like to first target the question to our 
panelists from the Departments of Transportation and from the 
Metropolitan organizations; the people who make programming 
decisions. If those of you could respond first to this, and 
then perhaps the others who were in the groups that talked 
about technology.
    Henry?
    Mr. Hungerbeeler. I would be happy to give a brief 
response. Yes, I think certain parts of it are ready to move 
out of R&D. There will be a continuing need for R&D, of course. 
But we have some systems that are deployed, and certainly, we 
ought to expedite that deployment. A lot things that are 
capable of being deployed simply have not been, because of the 
lack of funding.
    Mr. Njord. Certainly, I think that we have witnesses in our 
State that this stuff is ready for prime time, Jeff. There is 
no question in my mind that it is ready for prime time, and 
that it is ready to be something much more than what it is, 
today.
    One of the things that we struggle with in the Federal 
program is deploying the systems in a rapid fashion. We had to 
put together a great deal of infrastructure for the Olympic 
Games. We had approximately 5 years to do it.
    In putting that together, there were many pieces of it that 
we clearly knew that using the Federal program would never get 
it done. Of the $120 million that we have spent on ITS 
deployment so far, most of it has been State-funded; about 73 
percent of it.
    The reason for that, in many cases, is because we knew the 
Federal program would be so difficult to get through, that it 
was much easier just to do it with our own funds.
    If you want an example, just in summary, CMAQ funds. There 
is no bigger ``bang for the buck'' than ITS technology in 
reducing congestion and increasing air quality. Yet, CMAQ funds 
can still only be used for 3 years' worth of operation. After 3 
years, you have to find some other funding source. We think 
that that needs to change.
    Mr. Tinklenberg. We, as many in the room know, had the 
opportunity to do a major study of our ramp meter system, which 
is one of the components of our traffic management.
    Mr. Squires. Elwyn, let me tell you, my family is from 
Minnesota. My father is, as a person who drives a car, of 
course, an expert on this subject.
    [Laughter.]
    Mr. Tinklenberg. There are many in Minnesota.
    Mr. Squires. He followed your work carefully.
    Mr. Tinklenberg. Some of them, unfortunately, have radio 
programs.
    [Laughter.]
    Mr. Tinklenberg. But one of the things that we discovered 
in that study, and I will just give you a few statistics, and 
this is from the summary of the findings, crashes increased by 
26 percent when metered freeways and ramps in the peak period, 
when the meters were turned off.
    Rear end crashes increased by 25 percent. Freeway travel 
times increased by an average of 22 percent when meters were 
turned off. That is the travel time, and the amount of time you 
spent on the freeway increased.
    Freeway travel times decreased by an average of 14 percent 
when the meters were turned off. The big one, and we do a lot 
of customer surveys, and in one of them, the customers say 
constantly, we want a smooth, safe, predictable trip. The 
reliability of travel time, the buffer time, decreased by 91 
percent, when the meters were turned off.
    These are real benefits; and when we get to, as Dr. Miller 
said, performance measurements, and really doing more in terms 
of measuring the performance of our systems, I think we are 
going to see more and more that these technologies are mature 
enough to make real substantive differences on the system.
    Our calculation was that it provides annual benefits. The 
ramp metering system itself provides annual benefits of about 
$40 million to our system. The cost of developing the system 
and operating the system is about $2.8 million per year. So 
there is a huge cost benefit relationship, as well.
    Mr. Squires. If I could ask a quick question, before we 
move down the line, notwithstanding John's concerns about just 
working through any Federal process takes a long time, can you 
respond to a congestion or traffic flow challenges more rapidly 
through technology deployment than through a build solution?
    Mr. Tinklenberg. I believe so. Again, it goes back to, I 
think there are some changes in the procurement process that 
need to be made, and some streamlining that is appropriate to 
ITS technology and the development of that technology, that are 
different from building another lane.
    But I think you can respond much more quickly, and with 
less disruption. If you go into a major freeway in a 
metropolitan area, and have to start buying right-of-way, the 
impact of that is enormous. Whereas, if you start wiring it, or 
providing the technology, it is much, much less noticeable.
    Mr. Warren. Jacob?
    Mr. Snow. For the record, this is Jacob Snow.
    Certain parts of the ITS infrastructure, I think, are 
definitely proven to be more specific signal controllers; 
particularly from a security standpoint.
    Previously, in Las Vegas, we had a centralized 
architecture, where everything was in one place. If you had a 
backhoe dig up a cable, the system would go down. We are much 
more vulnerable to disruptions of that sort.
    Now, with the advance signal controllers that we have, 
where the intelligence is actually located in the traffic 
signal itself, if there is a disruption somewhere else, we can 
still keep those signals in step with each other.
    What we see the role of the Federal Government doing, to 
kind of move back toward Ruth's question, is to function as a 
clearinghouse and as a repository of best practices for ITS, 
and with more funding, have agencies compete for those 
demonstrably effective ITS technologies in performance.
    One specific measure that we are doing with our bus fleet, 
because we are also the transit operator, as well as the MPO, 
people do not believe that our buses can keep up with regular 
traffic.
    Well, I am here to tell you that our buses run as many red 
lights as anybody else out there, and we can go as fast as any 
of the other vehicles on the freeway system.
    [Laughter.]
    Mr. Snow. We have satellite GPS-equipped transceivers on 
all 400 of our vehicles. We are using those satellites to keep 
track, real time, on our street and highway and arterial 
network in the valley.
    We can test different signal parameters, real time, to 
actually measure their performance. We have an embryonic 
performance measurement system going with that as the basis for 
it, and we plan on expanding that.
    So there are definitely demonstrable ways where ITS is 
definitely out of the research category, although we need to 
continue research and development.
    But we also look, and we would agree with John, to CMAQ 
money and, indeed, STP money needs to be broken loose, to be 
programmed at the MPO level, to be eligible for these 
activities; and we need to do that in a more aggressive 
fashion.
    Mr. Goldstein. My name is Jack Goldstein, and I want to 
speak wearing two hats. Let me speak for ITS America and then I 
want to comment on El Tinklenberg's report, with respect to 
procurement, wearing my private sector hat. So let me first 
make a couple of comments about deployment.
    I think it is very critical to continue the deployment of 
ITS, in several ways. There are many widgets out there now that 
are performing at a very, very satisfactory way.
    First, you need wider distribution of those existing 
capabilities. Second, there are things are the drawing board 
ready to be deployed, that need to be pushed to be deployed, to 
enhance that is already out there, and to spread the word more 
widely across.
    Third, you need to keep the R&D effort going, to keep 
things in the pipeline, and very importantly, to keep the 
private sector involved, to keep things moving along, to keep 
their R&D programs going, to come up with those innovative 
ideas that will give you the next generation of good things 
that are going to make a difference for the people that are 
operating the State systems.
    Now let me wear my private sector hat. What El Tinklenberg 
said is absolutely correct. The procurement process has to 
change in order to keep the private sector interested in being 
involved in this whole arena of ITS.
    Some things just do not lend themselves to fixed price, low 
bid procurements. Software development, which is critical to 
all of these ITS things that we are talking about, falls into 
that category.
    Having had experience with trying to develop software under 
a contract that is the same as for pouring concrete along the 
road, believe me when I tell you, that is very, very difficult, 
and impedes, in many ways, good private sector companies from 
wanting to stay involved in the industry, because it is a very, 
very risky business to the bottom line. Thank you.
    Mr. Warren. It would be better if we can keep it to about 
30 second, so we can move on to Megan's questions. I would like 
to hear from the Oklahoma perspective.
    Mr. Surrett. I am Mitch Surrett. I am counsel to the 
Secretary of Transportation in Oklahoma. I will make a real 
quick point.
    This is something we experienced. We received $3 million 
last year in ITS funding, and we went to actually implement 
some of the ideas we had in the programs we were pursuing. It 
was integration funds which we could not use for deployment of 
some of the systems we wanted to use.
    So I would say flexibility in the funds you receive is very 
important to us in Oklahoma, and probably to some of the other 
States. That would be all I wanted to say.
    Ms. Stanley. I am Megan Stanley. I am the general counsel 
for the Republican staff of the committee. I would like to 
allow a couple more questions to Jeff's questions, because I 
think those are key; especially talking about the technology, 
and then also talking about moving it from the research title 
to perhaps some of the core programs.
    So I know Steve Lockwood and Matt Edelman wanted to respond 
to that, so please go ahead.
    Mr. Lockwood. I will just make a brief point. This is Steve 
Lockwood, and I am associating myself with the previous 
comments, which I certainly agree with.
    Just to generalize a bit, implementing ITS in management 
operations, the technology dimension is part of the cultural 
change challenge that everybody is struggling with at the 
Federal, State, and local level, in both the public and private 
sectors.
    Many of the technologies and systems that are essential to 
get a grip on these issues evolve at a relatively rapid pace, 
compared to those technologies that are the traditional 
transportation technologies.
    The institutional arrangements, which include procurement, 
the development of standards, the allocation of funds, how one 
thinks about programming for incremental upgrades and so on, is 
simply not part of our culture. Heroic efforts have been made 
in many corners of Federal and State, to deal with these 
issues.
    You can see here and there, innovative procurement 
approaches, some of which do exist, and have been very 
successfully used, dealing with the issues that Jack referred 
to.
    The standards efforts that FHWA has led have been very 
important and continue to be important, in terms of upgrading 
and maintaining standards, because the technologies changes, 
and the research and development efforts, as well.
    The way of thinking about the technology, and the way it 
permeates all the institutional and administrative 
arrangements, has not quite sort of been institutionalized. I 
think we know what many of the answers are, and I think there 
are some significant legislative issues, some of which may 
simply be clarification, a distinct from the needs for change 
in law.
    Mr. Edelman. This is Matt Edelman. As to the question, Mr. 
Squires, of ``ready for prime time,'' we see the assistance in 
prime time every day. We see an extraordinary contrast between 
those corridors and facilities that are instrumented with ITS 
technology, and those that are not.
    In some of the corridors where, for instance, we are using 
probe technology to instrument it, where we have this 
instrumentation, we detect that everybody responds far faster.
    The quality of travel time that we can give to the public, 
which is ultimately what we think they want; the travel time 
information that can go on that variable methods sign is 
precise and it is exact.
    The ability to help bus operators with this information, in 
terms of re-routing and re-deployment is precise. It is exact.
    For construction zone management, it makes those people out 
in the field, with all the pressures they are under, respond 
more effectively.
    Contrast that to the many corridors where we are not 
instrumented, and it is sort of aggressive ``shoe leather data 
grubbing.'' A well meaning member, maybe from another agency, 
calls from an interstate run by a DOT. Something is wrong. 
Well, we did not hear anything; we will check.
    You call a DOT. Maybe the DOT regional office does not have 
it. Maybe they will call the office at the Headquarters.
    Maybe, in turn, someone will call the local police. Maybe 
someone will call and say, well, there is a construction crew 
here, we have their number in the trailer.
    That process, however aggressively we do it, can take from 
5 minutes to forty minutes. So we see it every day, how much 
better we can serve the public, when we have this kind of 
information from ITS.
    Mr. Miller. This is Bill Miller from Oklahoma. I just had a 
point for Admiral Bennis. When we started looking at security 
of our airports, we were fortunate in that we were able to 
bring in a Washington, DC.-based security firm, to look at some 
general aviation security issues.
    The guidance that we gave them was that they were going to 
have to utilize ITS technologies, as the foundation upon which 
to build this security plan, minus a couple of biometric pieces 
that we put in it.
    So what we intend to do is take these ITS technologies, Mr. 
Johnson, and extend them beyond surface transportation, into 
all realms: rail, waterways, transit. It turned out, and we put 
a 5-year tag on it, also, to look at what the lifespan on it 
would be.
    It was expensive, Admiral, there is no doubt about that. 
But we felt like we could get a pretty good product with this. 
The part about it is this airport sat right in between; on the 
west side was the interstate highway, and on the east side was 
one of two major rail corridors, running through the State or 
Oklahoma.
    So we took a very modal look at this particular instance, 
and it worked out, primarily using ITS technologies. Thank you.
    Ms. Stanley. My next question is for Mr. Njord. 
Congratulations on the successful Olympic Games. I know that 
you had a lot of challenges in completing the I-15 project. But 
I was very impressed by the statistics that you said, about 
reduced congestion in that corridor, to both the structural 
improvements to I-15 and the ITS improvements.
    Can you, perhaps attribute to either of those components, 
and give us a little idea about the challenge of that project; 
what it entailed; and how those two components work together, 
to contribute to the reduced congestion?
    Mr. Njord. I would be happy to try. Thank you for the 
compliment. It was quite an experience to go through both the 
reconstruction of I-15, and then also to stage the Olympic 
Games.
    When we began the construction of the I-15 project, we had 
some very serious deficiencies, both structural and 
operational, along the I-15 corridor. We had a lot of accidents 
that were taking place there, and a lot of people were losing 
their lives along the I-15 corridor.
    It is interesting that through the four and-a-half year 
period of time that we were building the project, the project 
took on an Olympic name. It was the Salt Lake Luge.
    [Laughter.]
    Mr. Njord. That was indicative of the barriers that we 
placed upon the entire corridor. Once you got inside the luge, 
you could not get out of the luge.
    We literally shut down miles of connecting roads to the 
project. But that enabled us, really, to complete the project 
in a very short period of time; a very large $1.6 billion 
project in four and-a-half years.
    We decided, from the very start, that we would implement 
the latest and greatest ITS technology in the project, and that 
it would be incorporated in every element of that particular 
project; which, by the way, once again, like the ITS 
deployment, was largely State funded--approximately 88 percent 
State funded.
    We deployed ITS technologies along the entire corridor; 
fiber optic cables and enough to expand into the future. We 
have got 200 cameras that are out there, giving us real time 
information, full motion, tilt, pan, zoom, information.
    I mentioned the statistic that we had 74 million hits on 
our website during the month of February. In a regular week, we 
have about one and-a-half million hits on our website. We 
believe the reason that they go to the website is because they 
get good, accurate real time information.
    We have a system where folks can be paged on their pagers 
or their cell phones, to tell them about their commute ride on 
the way home or on their way to work. That gives them real time 
information about what is taking place out there.
    We are continuing to expand the system. Right now, we are 
in the process of integrating all the construction plans that 
all the entities have on all of the various facilities that are 
built by either local or State or utilities, et cetera.
    We are putting all of that information together in one 
site, so that we can once again, as others have communicated 
here, we need to be able to communicate that.
    I think it was you, Matt, that said, we have got to be able 
to communicate to our customers what is happening on all the 
system, not just the system that we own. We talk about how 
important it is to collaborate and to cooperate, one with 
another, in order to make our customers satisfied with what we 
are doing.
    Ms. Stanley. To clarify, you described the ITS component, 
and what was the structural component of the I-15 corridor 
project?
    Mr. Njord. Well, I-15, it is 17 miles long, and the portion 
that we were constructing, it was three lanes in each direction 
when we started. It is now five to six lanes in each direction, 
plus an HOV lane, plus an auxiliary lanes.
    We reconstructed 142 bridges, depending on how you count 
it. I am always interested to talk to our structural engineers. 
It is 142 to 156.
    [Laughter.]
    Mr. Njord. I think now how can we build that many bridges 
and not know how many bridges it is. But apparently, where 
bridges come together and go apart, there are discrepancies 
about, is that a bridge or not a bridge.
    But there were a lot of physical impairments along that 
corridor. There was one bridge that I called the sacrificial 
bridge. It was a steel structural bridge, that got hit about 
four or five times a year.
    We always left that bridge just a little bit low, because 
we knew if they did not hit that bridge, they would hit the 
next bridge, which was much more critical to us. So we kept it 
artificially low, just so we could make sure we would catch 
everybody.
    [Laughter.]
    Mr. Njord. So all those structural deficiencies have been 
taken care of. We have a system now that is very safe. In fact, 
the accident rate has decreased incredibly along the corridor, 
as well as the death rate, which is even more important to me.
    Mr. Lockwood. This is Steve Lockwood. I just wanted to add 
a comment about I-15, which I think illustrates an important 
component about the notion of systems management and 
operations.
    In addition to the application of technology and design 
standards, one of the other key features of the project was its 
accelerated process, which was accomplished by design build and 
program management.
    Within the context of a management and operations 
perspective, that the department brought to bear, essentially 
saying, look, instead of disrupting people for, you know, 12 
years or whatever it would have been, we are going to 
concentrate the action and maintain traffic in a very effective 
way, over the shortest possible period of time.
    That is a point of view that is customer-oriented, and is 
part of the new mind set of management and operations. So it is 
not just an ITS issue or a technology issue. It is everything 
that owners do, that departments do, is infused with this 
notion of customer convenience. So it affects other things like 
procurement, like how design and construction is done, and so 
on.
    Ms. Stanley. I have one last point. Would it be fair to 
say, though, that you used 88 percent State funds, because a 
greater Federal contribution to the project would have actually 
caused more delay in the accelerated procurement and design 
build and construction processes that you were trying to 
accomplish?
    Mr. Njord. We would have gladly accepted more Federal 
funding. In fact, on the I-15 project, we followed all the 
Federal processes. Once you put a dollar of Federal money into 
it, it all becomes Federal.
    I talk about the deployment of other projects within the 
area, that are ITS related, that were totally State funded. 
They were accelerated just because we had to have them 
accelerated.
    But the I-15 project was done as a Federal project. It was 
just that the percentages were reversed. It should have been 
the other way.
    Mr. Sandberg. My name is J.C. Sandberg, and I am counsel to 
the majority staff on the Environment and Public Works 
Committee.
    I wanted to tell Mr. Njord that I was an early participant 
in the Salt Lake Luge, when I was going to school in Utah, 
quite some time ago, and remember the Jersey barriers.
    I wanted to focus on security. One of the other hats I wear 
is helping the committee oversee the Federal Emergency 
Management Agency. We speak all the time with the first 
responder community.
    As many of you have mentioned today, security has become 
the buzzword, or the watch word, since the unfortunate 
incidents of September 11th. My question, I guess, would be how 
can we use operations to better enhance our communication 
between our first responders, to move people in times of 
disaster, and to increase both surveillance and monitoring 
capacity of incidents and of critical infrastructure.
    I guess I would like to start with Mr. Edelman. We have had 
a conversation about this, and if you could kind of talk about 
your experience, following September 11th, and how you used 
operations and ITS to evacuate and reroute traffic around the 
city.
    Mr. Edelman. The first thing that we realized, and we were 
starting to realize it prior to the attacks, and then it became 
very quickly confirmed afterwards, that those of us in the 
transportation community thought we had a big enough job 
creating systems to talk to each other, working with each 
other, toll authority to DOT, DOT to bus agency, bus agency to 
rail agency, et cetera.
    Then there was the realization, even prior to September 
11th, that we are creating these architectures to exchange 
information, largely among civilians; and that the police 
community was hungry for this information. The Emergency 
Management Committee was hungry for this information. They did 
not necessarily have the time or the resources to replicate 
these networks.
    So literally on that date and at that moment, we had to 
sort of redefine ourselves, from a transportation coalition to 
a transportation and emergency management and public safety 
coalition.
    As the information went out, in collective hourly sweeps, 
of what is going on across the region, as the demand for 
information was huge, and the amount of information was huge, 
DOT would call and say, could you add my emergency management 
unit to that information? A State police unit would say, would 
you add the following stations? It would grow and grown.
    Through the I-95 Coalition, DOT would say, throw on this 
State police, and it grew from 40 transportation agencies 
talking to each other, to literally hundreds of agencies, 
exchanging information on that day and the days afterwards.
    Just through the reality, the police wanted to know, and we 
thought, in your building coalitions, it is a big enough job to 
get transportation people to work with each other; go lightly 
with regard to police people; you have a big enough job; do not 
overstate it. They were hungry. They were open for it.
    What has been happening since is, for example, our video 
network, which we thought was a big enough deal to get 14 
transportation agencies to talk to each other; since September 
11th, we are installing that in Police Plaza with NYPD.
    Now what is done with that information, we do not have 
statutory to command evacuations, to lead evaluations. But what 
we do know is we are transportation people. We have an 
infrastructure here that police are hungry for it, and we make 
it available to them in any way.
    What they do with that information, sometimes they tell us 
and sometimes they do not. But as public servants, anything 
that we have invested in and anything we can share with them, 
we do, and that is growing and growing.
    With our regional architecture, it is the same thing. It is 
largely civilians, and the number of work stations that are 
going up to our police colleagues are growing and growing.
    Your actual question about what happened on that day, it is 
hard to give a short answer to that. What we can say, and more 
of this will hopefully come out with discussion, but empowering 
our police colleagues in any way when they made the difficult 
decisions of what you open and what you shut down, this was 
strengthened through this transportation information.
    I will give just one example, and I will yield. You had a 
bus terminal in western Midtown Manhattan, that had tens of 
thousands of people, in effect, trapped there. They could not 
get the buses in to take them home. They could not, because 
they were concerned about running them through a tunnel under 
the Hudson River.
    Everybody wanted to do the right thing, and the right thing 
was, get the buses one, one agency; open up the terminal, 
another agency; get the highway from the tunnel running, 
another agency; and secure it, another agency, in this case, a 
police agency.
    We had an early investment in ITC probe technology in that 
corridor. We knew what was going on. We knew what conditions 
were, and with the relationships that we had, we could open it 
briefly, and close it.
    But what was happening, everybody was making transportation 
demand decisions. The people are here, I want to open the 
terminal. The buses are here, I want to get them in.
    Everybody tied in through the ITS technology of the 
conference call button, to quickly figure out what was going 
on. We gave them the information and they made the decisions. 
They said yes; they said no; and when they said, sorry, it is 
not secured, cannot do it; you have got 30,000 people in there 
and you want to get them home, but you want to get them home 
alive, and we deferred.
    So we had the knowledge, they had the power, and it worked 
out very well.
    Mr. Sandberg. Mr. Hungerbeeler?
    Mr. Hungerbeeler. Thank you, Henry Hungerbeeler; certainly 
I agree with what Matt has said, and I compliment them on their 
response on September 11th.
    I think it may be a little known fact that, in many cases, 
transportation agencies are first responders. I mentioned 
earlier that the first responders did the starring role, and 
transportation is usually a supporting cast member.
    But this week, in the State of Missouri, we had over 100 
State highways closed due to flooding. In almost all cases, 
transportation was the first responder for that.
    We have had cases of train derailments, where 
transportation has not only been the first responder, but the 
one who first realized there had been a train derailment, and 
called the traditional first responders.
    There is universal agreement with the traditional first 
responders, that we need a better communication system, so that 
we can all talk together and coordinate together. I am talking 
about a tactical system, a radio system. Certainly, the 
coordination and communications at the ops center level are 
needed, as well.
    We are all working ont those things, but we would like to, 
I think, suggest that the Federal Government could help in that 
regard through funding, for example, that comes from Homeland 
Security or FEMA.
    Mr. Tinklenberg. This is El Tinklenberg from Minnesota. I 
want to reinforce that we have developed transportation 
operations communication centers around the State, where we 
have a joint dispatching center for our own vehicles, and for 
the highway patrol vehicles. So we have a communications link 
there that works very well for us.
    But we still have not developed the technology, especially 
in the out-start State portions of Minnesota, that allow us to 
speak to all of the emergency responders at the same time.
    You are carrying all kinds of different radios; one to talk 
to the county sheriff, and one to talk to the city police, and 
one to talk to fire department, and one to talk to EMS. That 
really needs to change.
    It is not just in terms of what we think now in terms of 
emergency response; but natural disasters, if we have a 
tornado, and we had this experience in Minnesota, where a whole 
bunch of people came, but they could not talk to each other, in 
coordinating the communication.
    That is why I mentioned earlier at this forum, each member 
of the U.S. DOT was there, responding with communication as 
being a central issue. I think the Federal role in helping us 
deal with that is a vital security interest.
    Mr. Sandberg. Ann?
    Ms. Loomis. Welcome, everybody, I am Ann Loomis, and I am 
with Senator Warner's office from Virginia.
    Virginia is pleased to be home to many Federal agencies, 
both military and just being a part of the Metropolitan 
Washington Region. Like many of you all, we struggle every day 
with congestion in major metropolitan areas.
    I want to be sure that I understood correctly your earlier 
remarks that of the changing culture within DOTs, that because 
of the resource demands of building new facilities or adding 
lanes to existing facilities, particularly if you are in a non-
attainment area, and the length of time it takes to implement 
those strategies, that perhaps over the past few years, there 
is a more growing investment and intention in ITS technologies, 
to improve your performance of your existing systems.
    It is those resource challenges that are getting you to be 
a little more inventive in looking at installing ITS 
technologies on existing facilities. Is that sort of the 
demands that you all are looking at? Mr. Goldstein?
    Mr. Goldstein. Ann, Jack Goldstein; you know, I want to 
comment, right here in Virginia, you had a classic example of 
how ITS can help on 9/11.
    When the Pentagon was hit, and they had to use ITS 
capabilities to actually re-deploy the traffic and, you know, 
under the good guidance of Tom Farley, whom I am sure you know 
in Northern Virginia, it was very, very successful.
    But part of your question relates to Jeff's question with 
respect to deployment, in a very important way. That is that 
ITS cannot only help on the major throughways, but can help on 
the arterials, as well.
    As you continue to deploy ITS and provide the funding for 
that deployment, in some way that clearly continues it along, 
it would have helped tremendously on 9/11, if once traffic was 
routed off of 95 and off of 66, if there had been some way to 
move it through the arterials in a much more efficient way.
    Ms. Loomis. Absolutely.
    Mr. Goldstein. I was one of those that was caught in the 
traffic. I am sure that several of you were the same way.
    There have been some examples, not entirely successful, of 
attempts at this. For example, the Smart Corridor Project out 
in California, was started after the earthquake back in Los 
Angeles, and it was an attempt to find a way, when a major 
throughway is down, like I-10 that goes through Santa Monica, 
to be able to move traffic off of the I-10 and through the 
arterials, using ITS to help speed the way through that. 
Hurricane evacuation in the Southeast is another example.
    So in my mind, when you think about continuing deployment, 
you have to think about how do you take what you have and do 
more and more with it, and the arterial deployment is one of 
those ways.
    Mr. Lockwood. This is Steve Lockwood. I want to make sure 
that you were not suggesting that there was a convention now, 
within the transportation arena, that resource shortages that 
most owners are feeling is somehow inexorably leading them to 
ITS, because I do not think that is the case.
    All owners of certainly State DOTs and major local 
governments, first of all, they have an enormous legacy project 
inertia; things that are in the pipeline, to which commitments 
have been made, and many of them have very big backlogs of 
projects that are important to those States.
    In addition to this, institutionally, given the stovepiping 
that exists in any large institution, in the absence of a very 
clear policy, and reorganization of priorities, focusing on 
management and operations, ITS projects and other kinds of 
management operations' investments are not likely to have the 
highest priority. That is just a practical reality that is 
faced virtually nationwide.
    I think the best expression of this is, with very few 
exceptions, State DOTs in particular and local governments, as 
well, do not have a line item in their budget that say ITS, or 
say systems management and operations.
    It is most often imbedded in other general activities or 
sometimes it is an earmarked program. So the challenge that we 
are facing here, in an environment of perpetual resource 
shortages, from the point of view of management, is actually a 
shift in policy and priorities, saying in that environment, we 
are going to look hard at where we get the best performance 
bang for the buck in a reasonable timeframe.
    But that is not the habit; that is not the convention, and 
we face an important uphill battle. Here is an area where I 
think Federal aid program leadership is important, to highlight 
the significance, to highlight the need to look at cost 
effectiveness and pay attention to performance.
    Ms. Loomis. Yes, Mr. Snow?
    Mr. Snow. This is Jacob Snow, for the record.
    Ann, sometimes the traditional approach of just adding 
capacity to deal with the congestion problem just is not 
feasible. You cannot get the right-of-way, or you may have some 
serious political problems.
    Ms. Loomis. Well, that is what I thought some DOTs were 
saying, that because of all those issues, particularly, if you 
are in a non-attainment area, that now you can see, you can 
more quickly implement some congestion relief through an ITS 
project, as opposed to a new capacity project.
    Is there more of a growing acceptance of looking at both 
ways to deal with congestion, as opposed to traditionally, it 
was new construction?
    Mr. Snow. A survey that we did, or I should not say we, but 
a survey that AMPO did, of people throughout the country, 
throughout the MPO planning process, indicated that there was 
higher preference for improving system management and 
operations, as opposed to adding capacity, which is certainly a 
new trend that we are seeing.
    In Las Vegas, we are going through somewhat of a minor 
freeway revolt. We have built our own beltway in that 
community, except for on the eastern part of the valley. To 
continue that beltway through, we would have to acquire 2,000 
homes. Despite the environmental disruption, the cost to do so 
is going to be prohibitive.
    The Mayor of the city of Las Vegas is on our board. He 
would go to meeting with me, and he is a very flamboyant 
individual. He would say, we have got good news and bad news. 
The good news is that the RTC has all the traffic signals 
synchronized. The bad news is that they are all red.
    [Laughter.]
    Mr. Snow. He always got a big laugh out of that. I never 
thought it was funny.
    [Laughter.]
    Mr. Snow. But it has become a populace issue that many 
politicians are now seizing saying, we have got to get these 
traffic signals synchronized and coordinated. It is now 
becoming a real popular political issue to look at ITS.
    Ms. Loomis. Yes?
    Mr. Hungerbeeler. This is Henry Hungerbeeler. I do not 
think there is any question but that we can implement ITS 
solutions that help us with our capacity problems, and we can 
do it faster and cheaper than we can with concrete and asphalt.
    I think it is imperative that we responsibly use the 
taxpayer dollars to get the maximum efficiency that we can from 
the existing system, before we expand the system further.
    Ms. Loomis. I have the red light, but I need to ask one 
more question, please. This is a more parochial question, that 
maybe Dr. Johnson and Admiral Bennis could comment on; and it 
sounds like, Mr. Edelman, you certainly have had extensive 
experience in this area.
    It is clear that ITS collects a lot of information. But I 
have greater interest in how we utilize that information. I 
know many of you have spoke about the need for greater 
coordination.
    Since September 11th, we have found nothing more 
challenging in this metropolitan area than coordination. You 
have two States, the District of Columbia, multiple local 
governments. You have a transit system. You have two commuter 
rail systems, and most importantly, you have the Federal 
Government.
    We are struggling with how to use the information that is 
collected from ITS, and to use our existing ITS systems to 
communicate to the population at large, if another major event 
unfortunately would occur.
    We find our greatest struggle is coordinating with the 
Federal Government. We have existing systems in place through 
OPM, that if you have a snow day, whether the Federal 
Government is closing or not, and that is a whole spider web of 
who has to call whom, before you decide that simple fact.
    But we are learning now, we have several MPOs in the 
region, under the umbrella of the Washington Council of 
Governments, and they are trying to coordinate who calls whom, 
and who makes some decisions about what happens.
    On September 11th, as many of you all will remember, 
incorrect information was, was the 14th Street Bridge open or 
closed? Was the subway system, WMATA, running or closed? The 
police were on the TV saying it is closed, and then the Mayor 
is on saying it is open. We realized, many people, you know, 
who has authority to make those decisions? Nobody could answer 
that. So we are all struggling now. I know the District of 
Columbia has a significant appropriation for coordination and 
evacuating plans, along with Virginia. But we find the Federal 
Government, one, not coming to the meetings; or two, coming and 
not offering to say what their role is.
    FEMA comes and says, well, we only play a role after the 
event happens. I did not know, Dr. Johnson, if you were 
participating in these meetings, or Admiral Bennis, if you are 
participating; and who decides if the Federal Government is 
open or closed; and how you communicate with everybody, to have 
rush hour trains run during the mid-day; all these are just 
types of coordinating examples.
    It sounds like, Mr. Edelman, you have been quite 
experienced within the Metropolitan Washington Area and in New 
York.
    Ms. Johnson. Well, I think you are describing what I would 
have described to exist in the New York/New Jersey region, 
prior to TRANSCOM being invented, in essence. We need, in this 
region, in my opinion, something very similar to TRANSCOM.
    Your direct question as to whether I am participating, the 
Federal Highway Administration, nor does DOT, have the 
authority to open and close things. I think that is OPM's 
responsibility.
    The appropriate entity to participate would be our division 
office, and I do not know the answer to that. What I will do is 
try to get back to you.
    Ms. Loomis. And Admiral Bennis, now in your new role, 
clearly, what the Federal Government decides to do in this 
region impacts greatly on the performance and the operations of 
our existing network. I know sometimes a Homeland Security 
officer goes to the meetings.
    I was just wondering, who is the right person in the 
Federal Government, to coordinate, and do you participate; or 
does your office participate?
    Admiral Bennis. As I said, we are small, but we will be 
participating, from this day on.
    I would like to add that I was in New York, and the work 
that community does up there is exceptional; with TRANSCOM, it 
is truly unique, the jointness of the Federal, the State, the 
local, in the New York area.
    I mean, you can go to any one of those Command Centers, any 
of the Task Forces, and they are all speaking together, talking 
together, working together. It is really a model that all 
communities should follow.
    The comment has frequently been made that they picked the 
wrong country and they picked the wrong city. New York was able 
to respond in a remarkable fashion.
    The Secretary of Transportation is shortly going to open 
his Transportation Information Operations Center, which is also 
going to bring together an awful lot of information from an 
awful lot of transportation modes.
    It is not just from the modal administrators; it is from 
the representatives out in the industry and in the community. 
It is something that we certainly need, an opportunity to bring 
together intelligence and information, and disseminate that 
rapidly to the appropriate people. I believe that is a step in 
the right direction, as well.
    Ms. Loomis. Thank you.
    Ms. Berver. Thank you, and welcome everybody, I am Caroline 
Berver, with Senator Graham of Florida's office.
    I have got a two part question, perhaps first for Dr. 
Miller and Admiral Bennis, and then anybody who would like to 
comment.
    Looking into the future, can you share your thoughts and 
the linkages or relationships between the various modes of 
transportation and national security? How does rail security 
affect highways and bridges, how do ports and cargo containers 
affect, airports, highways, and bridges, rail security, and 
then what kind of linkages there are there.
    Then from a policy perspective, are we better served as a 
Nation by developing one comprehensive transportation security 
plan, that covers all of those modes, or if this committee 
works on highways, bridges, tunnels, railways, and strengthens 
those, and cargo and port security goes for it, do we, just on 
an independent track, eventually reach the same level of 
national security, or is it better to try one more 
comprehensive plan with all of the modes? I would like to get 
your advice and comments on that.
    Admiral Bennis. I have organized my world in the 
Transportation Security Administration in an umbrella type of 
organization. Instead of having rail, highway, and maritime, 
whatever, we have broken it out by cargo, by passenger, by 
infrastructure.
    Because I believe we need the same level of security in an 
umbrella mode, as that individual or that cargo or container 
moves from Rotterdam to Rochester, or wherever it is moving 
from; and two, we should treat it the same as it crosses 
borders, as it crosses modes, as it goes from one mode to the 
next.
    Since 9/11, the modal administrators within the department 
immediately stepped up to the plate with some tremendous 
initiatives and some wonderful projects and vulnerability 
assessments of their modes. As they have done that, we hope to 
identify best practices, set industry standards, and set out 
from there.
    But my personal belief is that it works very well if you 
have an umbrella over the cargo and an umbrella over the 
passengers. There is no reason that we should look at the 
passenger on an airplane any different than a passenger on a 
4,000 passenger Staten Island ferry, or a passenger on mass 
transit in any of our cities.
    Ms. Berver. Is there anybody else that could add anything 
to that, on the linkages between the modes of transportation 
and security issues, that we could keep in mind?
    [No response.]
    Ms. Berver. I have one other question, with respect to ITS. 
we had talked about using that technology to respond to 
terrorist events or unpredicted events. Florida is heading into 
hurricane season. It will start next month.
    Dr. Johnson or Mr. Goldstein, you talked a little bit about 
using ITS for natural disasters like hurricanes. Are there 
things that you have on the horizon, that you are hoping to do, 
that would address perhaps mass evacuations, because of 
hurricane or other natural disasters?
    Ms. Johnson. We have just completed three or four workshops 
in the Southeast on evacuation, and both learned a great deal 
ourselves, for the next round.
    Hurricane Floyd set off a new relationship between DOT or 
FHWA and FEMA. So I could give you lots of information there.
    Now just following on, yesterday, as a matter of fact, we 
kicked off kind of a twin sister to those workshops, focusing 
specifically security. We will do another 10 of those in 
sequence, and then look to whether the investment is good, and 
continue that.
    But I just debriefed the individuals that were involved in 
that, and it really was successful. One of the things that came 
out, it was funny, we do not usually talk to these people, at 
least before we leave this workshop. We have an e-mail group, 
and it is those kinds of things that were coming out.
    Mr. Goldstein. This is Jack Goldstein. The only thing I 
would add to what Christine said is, again, back to this issue 
that I talked about. There are a lot of technologies out there 
right now that will permit a more orderly evacuation, with 
respect to routing, with respect to traffic control, with 
respect to flow; and those things are ready to be deployed. It 
just takes the resources to get them out there in the different 
States to deploy.
    I know that there have been several private sector/public 
sector interactions with respect to making the States in the 
Southeast aware of what is available, once the funding becomes 
available for deployment of those initiatives.
    It is not only traffic control. It is not only security, 
but it is hurricane evaluation, and all the other ancillary 
benefits that argue for this continued deployment. It goes back 
to the point I made, there are things out there and they need 
to be more widely spread. The new stuff needs to be deployed.
    What you do not want to do is lose the impetus that you now 
have, because there are things available to get out in the 
field.
    Mr. Lockwood. This is Steve Lockwood. Just to reinforce 
that point that several of us have made here, is the advantages 
of the kinds of technologies that are now called, somewhat 
annoyingly, info-structure, which we are growing to love to 
hate. These can serve multiple purposes, clearly, for 
conventional traffic management in a congestion or incident 
environment. Certainly, for hurricane evacuation and also for 
security-related events, there have been several studies of the 
application of ITS technology in hurricane evaluation settings. 
These are still inconclusive.
    But one component or one aspect or one conclusion that has 
been reached is, of course, it is not an inconsiderable 
undertaking; and that perhaps for hurricane evacuation alone, 
the justification would not be as strong as it is when you 
begin to look at the multi-purpose benefits of application, and 
that is where there really is a demand for resources.
    Many of the groups here around the table believe that an 
important part of the Federal aid program in reauthorization is 
to focus on those resource requirements for those multiple 
purposes.
    Mr. Edelman. This is Matt Edelman. I have one brief comment 
regarding future synergies between the transportation community 
and the emergency management community.
    In the months prior to 9/11, FEMA came to see us, to look 
at our regional ITS architecture and said, you know, this may 
be a means of disseminating information, before we have a 
duplicate investment.
    They were then kind enough to send one of our planner 
engineers down to Miami for a week-long evacuation planning 
workshop, relating to hurricanes. We learned a phenomenal 
amount; and after they learned about us, in terms of what we 
can do for information dissemination, we learned about them, 
and just how sophisticated they were, and the kind of tools 
that they can help us use.
    Ms. Van Mark. Dr. Miller, did you have something to add?
    Mr. Miller. Thanks, Ruth, just a question from Jacob and 
from John, in your preparations, did you do any type of 
computer-based simulations, to figure out what kind of bang you 
were going to get for the buck?
    Mr. Njord. Yes, in the years prior to the Olympics, in the 
years of planning, I used to tell our people, we are in the 
process of planning what will be an orchestrated disaster. We 
did a lot of simulations, to simulate what we thought would 
happen.
    But I think one of the things that we learned, and one of 
the things that I think is key to the effective implementation 
of an ITS system, is you have to start out with the premise 
that the customers that we serve are intelligent human beings; 
and that intelligent transportation systems, if we provide them 
good information, they will make intelligent decisions.
    We have seen that over and over, again. The campaign that 
we rolled out for the Olympics was a campaign that we called 
``Know Before You Go,'' and we asked people to know before they 
left their homes, what was going to take place; know before you 
leave your work; know before you go to the grocery store, 
before you pick up your children; know before you go.
    What we found is that if people know before they go, they 
will make good decisions. I think as long as we keep that in 
the back of our mind, that we have to give them good 
information, reliable information, they will make good 
decisions, if they know.
    Mr. Snow. Dr. Miller, this is Jacob Snow.
    We did utilize some systems dynamic modeling. We brought in 
experts from UNLV. The core of that was our trans-plan traffic 
domain and forecasting model; but, yes, we did use system 
dynamics modeling to come up with ``bang for the buck'' 
estimates.
    Mr. Warren. I have a couple of administrative items before 
the break. Somewhere around, there is a sign-up list for 
everyone to sign up, so that we can get you a transcript of 
this, once we get it back in a couple of weeks.
    I also wanted to reiterate Jeff's comments, since Lauren 
was out of the room, thanking Lauren Jones and Duane Nystrom 
for their help in putting this together.
    I think the one administrative mistake that we made was 
last night, Lauren and I came in here and decided to put 
everyone's name cards out, and did not take into account the 
humidity of the room. They all kind of melted over night. We 
came in and they were flat.
    [Laughter.]
    Mr. Warren. So Duane did some first aid and they are still 
drooping, but he got them back up a little bit.
    We have food here. I want to thank AASHTO for generously 
supplying the food. Take advantage of that during the break and 
we will see you in about 5 minutes.
    [Recess.]
    Mr. Squires. Before we really get rolling, I want to just 
share one thought. I have been thinking about this 
extraordinary figure of 74 million hits in the month of 
February, and I have concluded that 73 million of those were 
people ordering those blue USA berets.
    [Laughter.]
    Mr. Goldstein. From a Canadian country.
    Mr. Warren. Well, I guess we are still missing a couple of 
panelists, but we can get started. If everyone can remember to 
just say your name before you speak, so we can get you down on 
the transcript, that will be a big help.
    But I want to open it up to anybody from the panel, who 
might want to ask a question of another panelist, or make a 
comment, or take advantage of Admiral Bennis generously 
agreeing to be with us, to make suggestions as to how the 
Transportation Security Administration might be able to work 
with you on security issues.
    Ms. Van Mark. Following up on that, Mitch, and this is Ruth 
Van Mark, Admiral, your agency is somewhat of a mystery to all 
of us.
    [Laughter.]
    Ms. Van Mark. So we are very excited to see you here, and 
we are hoping you can help clear that up.
    But I noticed in some of the comments of our panelists, 
they were talking about communicating with the Homeland 
Security Office. Is it more appropriate that we should be 
directing our transportation security questions to you, or is 
Homeland Security the place we should be going?
    Admiral Bennis. It is two different worlds. It depends on 
what your focus is and what your question is. My mission, my 
focus, is very clearly delineated. I mean, if you are talking 
about passenger and cargo security, that is my world.
    The Office of Homeland Security, everyone is waiting and 
watching to see what they are about to build or recommend, as 
far as emerging or existing agencies. ut their primary focus is 
homeland security, border security, protecting our borders. 
Also, they look at areas of security that perhaps need a little 
guidance and direction.
    As I have met with those folks at OHS they, too, were 
pleased that we are standing up, the maritime and land side, of 
TSA. So it is very clear, you know. If you are talking 
passengers and cargo, that is my world.
    Mr. Hungerbeeler. Certainly, I have no expertise in either 
one of those, being from a State DOT, and this is Henry 
Hungerbeeler, for the record.
    But I think Homeland Security probably should be involved, 
to some extent, because of the overriding importance of 
transportation to our national security and to the economy of 
our Nation.
    We believe that because of some of the new expenses, if you 
would, of improving the overall security of our transportation 
system, things that are not necessarily related to our normal 
course of business, that perhaps there is room for some of 
those expenses to be covered through the Homeland Security 
budget. We believe that they should be involved to that degree.
    Otherwise, I mean, there are an awful lot of things that 
have direct security implications for what we are doing, but 
also have daily utility in the transportation system. I mean, 
the ITS is the perfect example.
    So for that reason, we also believe that we need, you know, 
significant increases in the next Reauthorization Act, just to 
help us with those things that do enhance security, but also to 
help us in our every day lives, as we transport ourselves and 
all the things that we use.
    Admiral Bennis. I concur fully, absolutely. I was focusing 
on what my world is; but I am a part of that world, as well. I 
mean, OHS has a huge responsibility. Certainly, they are part 
of everything.
    Ms. Johnson. I had wanted to make a comment. I think it was 
either Carolyn or Ann that was trying to raise the question, 
and explore to what extent State DOTs were being pushed into 
the use of ITS, because it was so hard to add capacity. I think 
that that is occurring.
    But the comment that I wanted to make is, that has been a 
historic perception of various operations activities; that is, 
that they are a substitute for capacity expansion. I would at 
least like to suggest in this discussion that operations need 
to be thought of as parallel to capacity expansion, and 
parallel to maintenance.
    We would not, any more, think about building a roadway 
system, and just totally writing off any maintenance to it. We 
assume that we have to maintain it, and we do not think of 
maintenance as a substitute for construction.
    In the same way, I would like to suggest that in densely 
populated, heavily used roadway systems, we now need to think 
of operating a roadway system as another component that we 
inherit when we build a road. It is just like we inherit the 
cost of maintenance, as opposed to a substitute for 
construction.
    Mr. Warren. Matt, and then J.C.
    Mr. Edelman. I would like to affirm that point with a 
specific example. I do not think that anything that we, as a 
coalition, have dedicated ourselves to, in terms of both the 
institutional and the technological changes needed for regional 
operations and for ITS, is meant to be a substitute for the 
politically painful, but sometimes necessary decisions that 
will have to be made by our leaders, with regard to adding 
capacity, at times, in a focused way, even in a region as 
congested as ours.
    One example is, one of our member agencies has been working 
on twinning a bridge. The original bridge, which is four lanes, 
was built in 1929. It serves the seaports on both sides of a 
river.
    Even if you did not have another vehicle of growth in 
demand in our region, just because of the goods movement issues 
alone, just because of the national security issues alone, in 
terms of having access to those ports, you would want to twin 
those bridges, and allow for 12 foot lanes, and allow for 
everything else that you need to do.
    It is a tough thing to do, and they are doing it, and they 
are having the courage to do it. I know, as Christine said, 
when they do it, they will make sure they have all the latest 
ITS and operations and management systems.
    But they still have to confront the painful situation of 
adding capacity; and I would not want what I do, in any way, to 
be seen as a substitute for that.
    Mr. Sandberg. Back to a few points that were made with the 
Homeland Security, I actually have sat in some of those 
meetings. As many of you have talked about, one of the big 
issues is the communications piece.
    I know that AASHTO has some ideas on the table. Let me just 
say that we are getting ready to try and authorize how this 
First Responder Grant Program is going to go forward, $3.5 
billion. I know a big piece of that, in several of the hearings 
that we have had, post-September 11th, has been the 
communications piece.
    So I welcome and offer that to you. We are very much open 
to suggestions that you may have about how we can effectively 
go about improving communications between the first responders, 
and tying that into improved operations systems.
    We look forward to any input that you would have, if not in 
this setting, then in papers that you might have drafted or 
through e-mail or phone conversations. But we very much look 
forward to any suggestions that you might have about that.
    Mr. Warren. John Njord?
    Mr. Njord. I just wanted to say my ``here, here'' to what 
Christine said. ITS, as wonderful as it is, is no substitute 
for infrastructure. The experience that we have had in our 
State has been, you have to have both of them.
    As a result of the success that we have seen on ITS, we 
have now made it a matter of course that any new project that 
we install includes all the latest ITS elements that we can put 
in there, in order to maximize the capacity of a particular 
facility.
    To your question, J.C., about integrating other groups into 
the ITS system, as I mentioned before, in our traffic 
operations center, we have highway patrol dispatch at that 
location, watching our cameras, and actually dispatching the 
highway patrol troopers; as well as our instant management 
teams from that particular location.
    That has been huge. It has been so important to the 
integration of what we have tried to do, as agencies together.
    I did also mention that it has been difficult to integrate. 
Well, it has not been difficult. We just have not accomplished 
it yet. We have not been able to integrate the emergency 
services people: the ambulances and those types of fire 
dispatch from that location.
    But it is interesting, when public safety officials sense 
what we have got, the information that we have got, they want 
it. I think, Matt, you mentioned that in your testimony, that 
once they see it, they want it, and they want to have access to 
that information. We have been very generous in providing that 
information to whomever can use it, to enhance their 
operations.
    Just before I took off on my plane yesterday to arrive here 
today, I was at the Utah Transit Authority main office, and 
they have all of our commuter-link technology right there. They 
have the camera linkage. They watch all of the light rail 
vehicles that are going in and out of the stations, and have 
used it, to a great degree, to maximize their system, as well. 
So sharing the information is really important.
    Mr. Warren. Mr. Hungerbeeler, did you have a comment?
    Mr. Hungerbeeler. Well, yes, this is Henry again, 
responding to J.C. We have been following your hearings and so 
forth and what you are doing.
    I think what I have been trying to say is that 
transportation, in a lot of ways, is like a public utility, you 
know, like safe water supply or electricity or something else, 
a sewer system. I hate to use that one.
    Mr. Warren. Yes, right.
    [Laughter.]
    Mr. Sandberg. Waste water.
    Mr. Hungerbeeler. But we are not appreciated until 
something goes wrong, you know. I mean, we are kind of taken 
for granted, until something goes wrong.
    Governor Holden in Missouri formed a security panel, which 
closely mirrored a lot of the things that have been happening 
at the Federal level.
    Of course, the first responders, the emergency services 
people, the public health people, and so forth, were the ones 
who had the most interest by everyone, by the public, by the 
Government, and every one. But they all readily agreed that 
they could do nothing without a functioning transportation 
system.
    So because we are taken for granted, I guess I just want to 
keep reminding you that as you do this, as you pass out that 
money, for example, for an improved communications system, 
remember that transportation needs to be a part of that system; 
that we need to be able to talk with those other players, so 
that we can all do our job properly.
    Mr. Edelman. Just to also follow through on the issue of 
communications, including the very literal of 
telecommunications costs, as it relates to these systems. This 
relates to some of our concerns for reauthorization and hopes 
that funds are available for long-term operation and 
maintenance.
    Much of operation and maintenance is communications costs. 
These costs are often higher than we had hoped. One reason they 
are higher is because the systems are useful. The only way not 
to have confronted this issue is for the systems to fail and be 
ignored. But because people use them, there are more 
communications costs and more utilization.
    Right now, as an example, one very small example, our video 
network, within the amount of the Federal grant, was of a scope 
that it did not initially include the NYPD installation that I 
talked about. That is something that is now not even a 
question, after 9/11.
    We are talking about thousands of dollars per year for 
installation. Why; because they use it and they value it. What 
is happening here, in terms of tying it to more first 
responders, and again, as I said, taking the transportation 
community's information and giving it to the public safety 
community, there will be a cost, which is the more that they 
buy in and the more work stations they have, and the more 
servers they have, and the more they consume it, someone is 
going to have to pay for it.
    We do not have it, yet, and we will be looking to the 
future for some solution.
    Mr. Warren. Christine Johnson, and then Jeff Squires.
    Ms. Johnson. A practical suggestion is, you may want to ask 
your grantees to at least acknowledge the transportation system 
architecture that most of the transportation folks have in 
place, so that there is a link between the architectures.
    Generally if you can at least get that far, you can go the 
next two levels in systems engineering, to ensure that there is 
some ability to communicate across the systems that have been 
developed.
    Mr. Warren. Are there any responses to that, before Jeff 
asks another one?
    [No response.]
    Mr. Squires. I want to put a couple of topics on the table. 
One is a follow-up to comments in the first part of our 
session; the concerns over procurement, and that perhaps the 
standard methodology in transportation does not fit well with 
technology.
    If someone knows of other programs within the Federal 
Government that serve as models, and either wants to speak to 
them or perhaps follow-up with us on that, that would be very 
valuable. We would like to look at other ways to do things, if 
we need to find another way.
    I will pause here. Does anybody have anything right at the 
tip of their tongue on that issue; if not, perhaps somebody 
could get back to us.
    Ms. Johnson. I was going to raise this off-line to my 
AASHTO colleagues. From the time I came into my job, that has 
been the cry. I have expended more money than I care to admit 
on trying to uncover what the problem is.
    The fact is, under Federal regulation, we are covered by 
some of the same regulations that everyone else is. There are 
alternatives to the traditional means of procuring roadway 
kinds of construction. That is available to the State DOTs.
    As near as we can determine, we have worn such a well-worn 
path to that type of procurement, the other methods of 
procurement are not well understood, and we are trying to make 
our division aware of it; and through our divisions, make our 
partners aware of it.
    Mr. Squires. So it is not a matter of legislative----
    Ms. Johnson. Well, we do not think so. But we are at the 
point, because we agree with them. We do not think that this 
should be a low bid, low everything else. I am going to get 
informed.
    Mr. Tang, can you just explain that?
    Mr. Tang. Yes, I am Benjamin Tang.
    We have what we call the Innovative Bridge Researching 
Construction Program, where we would move technology to 
funding. We used to have projects to demonstrate their 
feasibility, and actually to test out the R&D.
    As you mentioned earlier about moving to implementation, 
that is one area. The other area is design build. That is very 
innovative funding mechanism for moving technologies in these 
design build contracts.
    Mr. Squires. Maybe we can all explore this a bit over the 
next few months.
    Mr. Goldstein. This is Jack Goldstein.
    Jeff, the ITS America Board of Directors has had a standing 
committee for a long time, looking particularly in the area of 
software potential alternative procurement procedures.
    I would like to offer to submit to you, subsequent to this 
meeting, for the record, the latest proceedings of that 
standing committee, which would give you at least insight into 
the thought process. Because on that standing committee are 
private sector companies that face this problem on a day-to-day 
basis.
    Mr. Njord. I do not have any solutions for you, Jeff. I 
appreciate Benjamin's comment about design build, because it is 
a technology delivery system, that has been very successful.
    But to give you a sampling of the frustration that we felt, 
we are in a situation, in ITS now, where we are dealing with 
television stations. We supply live video fees from our 200 
cameras to television stations, and they can pick any four 
cameras that they want and get a live feed directly.
    Now when we negotiate those kinds of situations with the 
television stations, that is a new world for us. It is entirely 
different than the standard world that we are dealing with, on 
a day-to-day basis.
    We need help in understanding how to deal with those 
people. Clearly, if there is some sort of incident out on the 
freeway, the last thing we want to have happen is for them to 
take control of our cameras, and zoom in on some dead body.
    Mr. Squires. Do they control the camera?
    Mr. Njord. They cannot control the camera, but they control 
which camera they pick.
    Mr. Squires. Do you charge them for this?
    Mr. Njord. No.
    Mr. Squires. That is a big mistaken.
    [Laughter.]
    Mr. Njord. When you are dealing with the networks, it is an 
entirely different ball game. With negotiation, it is an 
entirely higher level of negotiation.
    But we want to be able to just shut that off. If there is 
an accident, we want to be able to clip the feed, so that they 
cannot see it. They do not want that. They want to be able to 
keep it. So those are some of the frustrations that we feel.
    Mr. Squires. The other topic that I wanted to ask you to 
amplify a bit, Matt mentioned, the ops costs on pure 
telecommunications.
    Mr. Njord. Yes.
    Mr. Squires. Operations have been a thing apart from the 
traditional Federal aid highway program. Are we entering a new 
era where we need to start to think about the role of 
operations in its relationship to the Federal aid program?
    Mr. Edelman. Well, if I can answer that first, this is Matt 
Edelman. The situation we are facing, already as a coalition, 
we have our sort of 24/7 low tech manual architecture, for lack 
of a better word. We have to sort of define what we did before 
ITS came along, so we called the manual architecture. That 
takes just staffing of a center. That takes phones, faxes, 
alpha-numeric pagers.
    What we have done, and we are proud that we have been able 
to do it, is over some 12 years, get our member agencies to 
largely pay for most of that cost, despite all the other 
constraints on them, financially.
    That has been enough of a bear, but we have done it, and we 
have done it unanimously for 12 years straight. We are now up 
to 18 agencies. But it is very, very hard to get that, and it 
does not get any easier.
    You then rachet up to ITS, to a new way of communicating 
with each other, and a better way of communicating with each 
other.
    Then beyond the normal operation and maintenance, as we 
have defined as, you know, our rent and our furniture, is then 
the operation and maintenance for our ITS systems.
    You are talking about tying in 400 cameras, with the kind 
of lines required; and wide area networks, which if they are 
not going to be going to one point, are not going to be 
vulnerable. They are going to include several servers. There is 
not just the communications from TRANSCOM to each server, but 
server to server.
    All this is so bad, because it is so good. With that art 
coming, it will be hundreds of thousands of dollars, beyond our 
member agencies' dues. Now the way we are doing it, after the 2 
year Federal period, we enter into agreements with the member 
agencies, and that is just beginning now, for paying these 
thousands of dollars.
    Every agency has a different culture. Every agency has a 
different way of funding. They have a different approval 
process. It has been back breaking, but we have to do it, when 
we realize we are on our own and after the Federal period.
    That is where we are really going to look to the future, to 
hope to avoid this same sort of inter-agency constituency 
building pain we went in, when we were first created, and we 
are going through it again, now, because it is a whole other 
level of funding.
    We feel if we are implementing these systems and spending 
the capital dollars, and getting it done, that we will be 
looking to future legislation to sustain this for the long run.
    Mr. Warren. I have a question, and I do not know if anybody 
else wants to follow up on that, before I ask another question.
    I just wanted to follow up on something. I think it was 
Matt Edelman who said this earlier; that you get a geometric 
increase in benefits for every additional mile instrument.
    I wanted to see if you could expand upon that. Is there a 
level of instrumentation needed to reach critical mass, to 
really do operations effectively? I would appreciate if you 
could expand on your comment. I would also be interested in 
Jacob Snow's perspective, or any of our DOT directors on that 
issue. Taiwan
    Mr. Edelman. Yes, and I think you would probably have a 
region by region difference in some of those answers.
    In the initial days, when the first corridors were 
implemented and people had quicker ways of knowing what was 
ahead of them, and they had better information that they could 
put up on the variable message signs, people would say, well, 
that is very nice, but what do I do about it; where can I go?
    It was very good for the management of our Tappenzee Bridge 
north of region, to have 19 miles into this key crossing of the 
Hudson River instrument. People knew it was ahead. We avoided 
secondary incidents. It helped with the management of the 
construction projects.
    About a year or two ago, the parallel, and even large, 
George Washington Bridge and the approaches, and the George 
Washington Bridge, I believe, is the busiest vehicular crossing 
to the world, 15 miles to the south, the other real safety 
valve around our region, they instrumented, using some of the 
same technology.
    Then what happened is not only did you have an arithmetic 
increase, and you had another bridge, but you could suddenly 
view these huge links as a corridor.
    To put that in very practical terms, a few days after the 
attack, we had a single occupancy vehicle ban into Manhattan, 
as I said in my opening statement. Those were the two crossings 
just to the north of that ban.
    We had no precedent of knowing, is the George, the first 
permissible link, going to go from 20 minute delays to 4 hour 
delays? Are they all going to go north to the Tappenzee Bridge? 
How do we know quickly, and then how do all the support 
agencies change their signs and radio systems to channel that 
traffic?
    Well, what happened was, we knew, literally up to the 
minute, up to the second. There was no precedent for SOB bans 
after a terrorist attack into Manhattan.
    But the two most impacted crossings had this instantaneous 
information, and it could be shared from crossing to crossing, 
and the information systems could be varied accordingly.
    So that, I think, is an example of the arithmetic increase 
was, you added another bridge. The geometric increase is, you 
could view it as a system, an entire corridor across the 
northern part of our region.
    Mr. Snow. I think if we are looking at just basic 
infrastructure, we have it as a policy, since we are a street 
and highway agency, as well, that every project we do has 
conduit in it, for future expansions. Because the last thing we 
want to do is to go in and dig something up to install it.
    But just from a baseline, we have got to have the conduit 
there. We look at some sort of remote sensing capability; 
whether it is cameras or loop detectors. We need to have the 
communication links to emergency management services and to the 
public.
    We do not have as many cameras as they do in Utah, that 
John talks about, but we need to expand upon that, with the 
concept being that you can sit from at home or at work, and 
check on the cameras on your route, and plan your route 
accordingly, based upon what you see off the Internet.
    As the other factor that we would look at, just as a 
minimum for instrumentation, it would be dynamic messaging 
signs. That is basically what we look for.
    Mr. Hungerbeeler. This is Henry, again. I think as part of 
that, I mean, I would note that our two major metropolitan 
areas, for example, are on our eastern and western borders.
    So we need to let travelers know, in Kansas or in Illinois, 
what the problems are or what the situation is, in Kansas City 
or St. Louis, before they get to our borders, so that they can 
take the appropriate route, if there is any kind of a problem. 
So for that reason, a system of some size and a system that is 
regional in nature is very beneficial to us.
    Ms. Johnson. This is Christine Johnson, for the record. 
That is what we essentially attempted to do in laying out, you 
know, a couple dozen requirements, ranging from military to 
traffic management to snow management; and then saying, OK, 
what density do you have to have; the surveillance; what kind 
of information came back with several boxes of sort of what you 
need and requirements.
    That was all boiled down to what is in the more detailed 
testimony, saying we think, at a minimum, every State ought to 
have the software capability and the reporting capability of 
near real time information, any constriction on NHS.
    That would be construction, and that does not mean that I 
say it in May for what is going to happen in August. That means 
the hour that construction is changed, it is logged on. It is 
the same for police, on any major incident, and it is the same 
for any major weather incident. It is sort of near real time, 
but not sensed.
    But then in our major metropolitan areas the complete 
limited access system, as well as major arterials, having 
visual contact, as well as sensing contact, for speed, volume, 
and then the camera capacity, it is sort of the minimum on our 
roadway system.
    Then in those same large metropolitan areas, it would be 
automatic vehicle location. Actually, I think that was talked 
about in the Las Vegas system. I think Utah has a similar 
system, yes, for the transit properties.
    Mr. Tinklenberg. This is El TInklenberg. This is one of 
those areas where it is so important to maintain the 
flexibility. Because that base level is going to be so 
different in different areas.
    We have about 80 percent of our freeway system that is 
instrumented, both in terms of loop detectors and cameras, 
throughout the freeways.
    What we do not know is what happens when we start making 
management adjustments on that system. If we slow down the ramp 
meters and volume goes down, where does that traffic go?
    There is not going to be enough money to instrument all of 
the arterials off of that, that pick up the traffic, the county 
roads that get the traffic, when they get off of the freeways 
or the city streets.
    It may be that in the future, those sensors will be in the 
vehicles, and what we will be monitoring is not what is 
happening on our roads, but what is happening and the flow of 
the vehicles, themselves. There are all kinds of privacy issues 
with that and, you know, they have to be addressed.
    But you can identify and track flows and movements of 
vehicles in gross amounts, and that will be the information. 
That is on all the systems. That is the city streets, county 
roads, and our freeways. Maybe that will be the approach, 
rather than having stuff actually imbedded in the concrete.
    I think that is why it is so important, and what makes your 
job so difficult, you look ahead 6 years. You have to try and 
anticipate not only where Beta is going VHS, but where it is 
going to disks. This is changing so rapidly, that I think the 
important word in all of this is going to be maintaining that 
flexibility that allows that movement and that change.
    Mr. Warren. Jack, and then I know Megan has a question, 
next.
    Mr. Goldstein. In the prepared remarks that I submitted to 
the committee, we talked about an ITS perspective on the 
national transportation information network, which is a staged 
implementation project to incorporate both new and existing ITS 
technologies.
    The idea is that there are several things that can begin 
now to contribute to this national information network, to tie 
all these pieces together, you know, in a nationwide-type 
system.
    Among these are things like 511 and C-vision and other 
things that I have illustrated in the paper. I would just 
commend those ideas to you, because it gets at the point that 
is being made around table here. That is, how do we tie all 
these pieces together, and how do you transmit information from 
one corridor to the next corridor, from one State to the next 
State?
    There are technologies now that begin to get at it. It 
probably will take the next decade to fully deploy that system, 
but there is enough to get started.
    Mr. Warren. Thanks.
    Megan?
    Ms. Stanley. Many people around the table have mentioned 
that monitoring technology, especially cameras, have both 
traffic response and security uses.
    So my question is whether any parties have raised Fourth 
Amendment concerns against unreasonable searches and seizures, 
when these monitoring technologies are made available, both in 
theory and by example, from many parties around the table, to 
law enforcement officials; and if the ITS community is 
discussing any limitations on the use by law enforcement 
officials of the traffic monitoring technology?
    Mr. Hungerbeeler. This is Henry. The answer, at least for 
us in Missouri is yes. There are concerns about privacy rights, 
and I do not know the solution.
    I know there has been an awful lot of concern expressed 
about the use of red light cameras, for example. You know, we 
have a lot of arguments that they should be used, and that no 
one's privacy is violated, unless they break the law. But 
nevertheless, it is a public perception that we have to 
overcome.
    As we were deploying the system in our Kansas City 
metropolitan area, we made a pretty big deal out of the fact 
that we were not going to share the information for law 
enforcement purposes. It was going to be used for traffic 
purposes. Now we are having to rethink that, and I am not sure 
yet what our solution is going to be.
    Mr. Njord. Megan, we have not had a serious concern about 
that with the cameras that we have deployed. However, we 
recognize that that would be an issue, when we begin to deploy 
our camera equipment.
    Intentionally, we selected technology that had lower 
resolution than we could have. We could have gotten cameras 
that could have zoomed in on the spectacles of a person, if we 
wanted to, but we intentionally chose to have cameras that, 
when you got that close, the person is blurry. That is because 
of that reason.
    Now all of our cameras are monitored, as I mentioned 
before, by six television stations, 12 radio stations, and 
anybody can click on the Internet any time, and see what we are 
looking at.
    So I believe that that kind of control, where everyone is 
watching what we are watching, has enabled folks to feel 
comfortable that we are not looking at things that we should 
not be looking at.
    Now when you talk about turning this information over to 
public safety officials, we do not let them do an ``OJ'' with 
our cameras. If ``OJ'' is going down the freeway, they are not 
tracking him in that manner with our cameras.
    We do not let them chase criminals or prosecute criminals 
with the information that we are collecting. In fact, we had a 
fellow, and maybe this only happens in Utah, but he was on the 
freeway with a bow and arrow, shooting deer on the side of the 
freeway.
    [Laughter.]
    Mr. Njord. And we were watching him with a camera. 
Immediately, the public safety officials wanted a tape of what 
we were watching, so that they could prosecute the fellow.
    Well, we intentionally do not tape anything that we watch 
and, in fact, have instructed our employees that if something 
like that happens or occurs again, we are not to watch it at 
all, just because of the concerns that you have raised, Megan.
    Mr. Edelman. Matt Edelman; our traffic camera network, at 
this point, is of our transportation member agency's cameras, 
and they are cameras that are, for the degree of resolution, as 
John just said, relate to traffic management.
    Now in saying that, we are just now beginning with one 
major agency, and hopefully more, to add a police agency to it. 
So if I say we have had no problem up to now, it is because we 
have not really be in the situation yet, but that could change.
    The way that we view it is, these are cameras run by 
civilians for transportation. They share it with each other. 
They share it with bus operators, and more and more, they hope 
to share it police agencies.
    Each of those civilian agencies has the ability to 
unilaterally block out any image. The police agencies that will 
have it are generally sending it to their traffic command.
    We do not share our cameras, yet, with the public. We felt 
in our region, it was a big enough leap just to get all these 
agencies in three States to share 400 cameras. We are not at 
that point in terms of the public.
    But there have been no problems yet, and maybe since 9/11, 
people perhaps are a bit more understanding; maybe in our 
region and maybe in others. But we have not seen any problems, 
yet.
    Mr. Goldstein. ITS America has looked quite a bit into this 
privacy issue related to cameras and traffic flow, and we have 
actually submitted a paper to U.S. DOT related to privacy 
issues associated with deployment of cameras; one of the major 
points being that none of the information gathered from traffic 
information should be shared with law enforcement officials, 
similar to the point that John made.
    But I want to make another point, and that is that as you 
continue to make the argument that you will use the things that 
you deploy for ITS for homeland security applications, you are 
going to get proposals with finer and finer resolution, and you 
really will butt right up against the issue that you have just 
raised, privacy. It is a question of, how far do you want to 
go?
    You know, you could go way beyond the cameras that John has 
deployed in Utah, and do lots of things related to homeland 
security.
    My personal feeling is that, you know, we may have to 
sacrifice some of the privacy issues for the issues related to 
homeland security, and that is going to be a tradeoff that 
people who are a much higher pay grade than I am are going to 
have to make. But it is an issue that we are going to face, for 
sure.
    Mr. Warren. We are running out of time now. Ruth has a 
question, and then we want to just end by opening it up for 
final comments by any of the panelists, if anyone wants to say 
anything to us or each other, while it is on the record, before 
you leave.
    Ruth?
    Ms. Van Mark. Ruth Van Mark, for the record; and in order 
to get this question in, I had to promise Mitch that I would 
keep your answers short. So I will just direct it to anybody 
from the State DOTs.
    I think what I am hearing you tell us is that you need more 
money, obviously, in the next bill, for ITS deployment and 
operation. Are you suggesting that you want a separate funding 
category like interstate maintenance, or NHS, or STP, or do you 
just want more flexibility in the existing program, so that you 
can spend those dollars across a broader range of items?
    Mr. Tinklenberg. El Tinklenberg; there are a couple of 
areas that I mentioned in my comments that relate to specific 
funding initiatives. The $142 million, for example, for 
continuation of the current ITS deployment program is a 
specified amount. The research and development, we believe that 
is something in the range of $125 million per year.
    I know that Henry and his group have looked at things 
related to security. So we think that both is necessary. There 
needs to be money for deployment, continuing money for 
deployment. There needs to be money for research and 
development.
    But there also needs to be the flexibility, so that within 
existing programs, that allows States that are ready to make 
those priority decisions to move in that direction.
    So I think it is a matter of both having funding available 
for the kinds of research and deployment issues that we have 
talked about; but also having the flexibility available in 
existing programs.
    Ms. Van Mark. So you are not suggesting that you need a new 
apportioned category, like ITS on the same level in the 
apportionment round as NHS or STP. You can use the money you 
get now. You just want to have greater flexibility.
    Mr. Tinklenberg. Yes.
    Mr. Njord. Can I just add to that? If the funding source is 
the Highway Trust Fund, please do not create a new category. 
Just provide us more flexibility.
    Mr. Lockwood. Ruth, this is Steve Lockwood. Just to be 
clear, I think from the ITE point of view and I think some of 
the other groups, there is a desire not to categorize funds, to 
restrict flexibility.
    But the demands that are evident and the importance of 
management and operations now, plus the security issue, does 
suggest that there is a need for increase in resources, both in 
the Highway Trust Fund, and possibly from general funds, with 
regard to security issues.
    But I think there is a broad consensus, at least, that 
those funds can be channeled through the existing categorical 
programs to where they are needed, but there is definitely a 
need for an increase in funding.
    Mr. Snow. This is Jacob Snow. There is also a significant 
need, as has been emphasized here today by a number of folks, 
for communication between the various parties involved.
    What you really need to have, to facilitate that 
communication, is a regional ITS master plan. There certainly 
needs to be more funding for capital programs, to expand our 
ITS infrastructure, but there also needs to be more money for 
planning for ITS, as well.
    We would suggest that the flexibility with the existing 
sources of funding needs to be expanded and maintained. We need 
to maintain what we have, and we need to expand, like John 
said, CMAQ eligibility, and extend the period for CMAQ 
eligibility for operations. That is a good way to do it.
    Mr. Warren. Let us finish up with Matt, and then we will 
conclude.
    Mr. Edelman. Speaking as a non-DOT, we would need more than 
flexibility. Because the whole issue that I was saying before 
is, in terms of, you are not going to have regional operating 
coalitions, I think, in a New York, a Buffalo, a Houston, or 
wherever, if there is going to be that constant struggle 
between the collective interests and the individual interests.
    There are real needs, as I said, for long-term operations 
and maintenance costs; real needs for some collective 
instrumentation and regional architecture.
    There are capital costs, operating costs; and we would 
respectfully hope that there would be separate funds that would 
fund the regional interests, so that you are not sort of dead 
at the starting gate, because in putting this whole regional 
effort together, you have had such a degree of tension with 
your DOT components.
    We are not the only multi-DOT region in the country, and we 
do not like that tension, and we would hate to see anyone else 
have it, too. A separate fund, I think, would be very important 
for regional operating organizations.
    Mr. Warren. We need to begin to wrap up. Are there any 
final comments, suggestions, questions?
    Mr. Hungerbeeler. This is Henry. Yes, I mean, I think El 
and John have expressed the position of the States very well. 
Certainly, flexibility is very important.
    We do not want you to lose sight of the fact that a 
significant funding increase is very important. Flexibility 
alone will not solve our problems.
    I think when the position the States, when AASHTO provides 
that to you, you will see that we are also suggesting places 
where you can find that revenue; and I believe it is a very 
reasonable position that the States are taking.
    Mr. Warren. Are there any final comments on other issues or 
questions, before we wrap up?
    Mr. Lockwood. I have just a general one, because I think it 
explains a bit why there is a sense that more resources are 
needed, but not ones that are somehow narrowly channeled.
    I think it is important to recognize and I think there is a 
broad consensus that what systems management and operations 
means covers a fairly broad range of what you might call sort 
of program or activity areas. With routine traffic management 
on arterials, there is a tremendous backlog of need for 
improved traffic operations.
    With freeway management technologies, these are the typical 
ITS applications of one sort or the other. But it is the whole 
public safety and emergency response arena.
    Improvements in incident management, where money is not so 
much the issue as is communication relationships and 
procedures; weather response; construction zone management; 
automated regulatory and enforcement activities, for example; 
travel and information; these are a set of concepts and 
programs which are in various stages of sophistication and 
development around the country, that draw on new technologies 
of varying degrees, that need to be linked together and thought 
of together. These all require greater attention and additional 
resources, but it is not a simple formula matter.
    The response in the mix and match that is going to be done 
will be done differently, State by State and metropolitan area 
by metropolitan area, and it has to be left to those 
decisionmakers, to put together the right kind of package.
    But it is a broad set of activities, and a lot of new 
thinking, and a lot of new concepts, that require resource 
support.
    Mr. Warren. All right, well, we better close it up there, 
or we are going be kicked out of this room.
    We greatly appreciate all of you coming, traveling here 
today, and your testimony. It was a good discussion. We will 
get you the transcripts, and I am sure we will be having 
continuing conversations with all of you.
    Thanks a lot.
    [Whereupon, at 12 o'clock noon, the meeting was adjourned.]


                         TEA-21 REATHORIZATION

                              ----------                              


                         FRIDAY, JUNE 14, 2002

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.

                         TRANSPORTATION SAFETY

    A roundtable symposium was convened to examine safety 
programs funded by the Highway Trust Fund 406 Dirksen Senate 
Office Building, Friday, June 14, 2002, at 9:30 a.m.
    Present: Senator Reid.
    Staff present: John Haifley (moderator), Jeff Squires, 
Mitch Warren, J.C. Sandberg, Megan Stanley, Ruth Van Mark, and 
Matthew Kooperman. Staff representing members of the committee: 
Ann Loomis for Senator Warner; Laurie Saroff for Senator Boxer; 
John Stoody for Senator Bond; and Karen Bachman for Senator 
Voinovich.
Panelists
    Mr. Frederick (Bud) Wright, Executive Director, Federal 
Highway Administration, Department of Transportation.
    Mr. Bruce Warner, Director, Oregon Department of 
Transportation Salem, OR, Chairman, Standing Committee on 
Highway Traffic Safety, American Association of State Highway 
and Transportation Officials.
    Mr. William Walsh, Associate Administrator for Plans and 
Policy, National Highway Traffic Safety Administration, 
Washington, DC.
    Mr. Edward Hamberger, President and CEO, Association of 
American Railroads Washington, DC.
    Ms. Tricia Roberts, Director, Delaware Office of Highway 
Safety Dover, DE, on behalf of the National Association of 
Governors' Highway Safety Representatives.
    Mr. Brian Holmes, Executive Director, Maryland Highway 
Contractors Association, on behalf of American Road and 
Transportation Builders Association.
    Ms. Wendy Hamilton, National President, Mothers Against 
Drunk Driving Irving, TX.
    Mr. D.B. Hill, III, President, D.B. Hill Contractor Inc., 
Little Rock, AR Chairman, Workzone Safety Committee, Associated 
General Contractors.
    Ms. Kathleen Holst, President, American Traffic Safety 
Services Association Romeoville, IL.

STATEMENT OF JOHN HAIFLEY, FELLOW, COMMITTEE ON ENVIRONMENT AND 
                          PUBLIC WORKS

    Mr. Haifley. Good morning, ladies and gentlemen. Welcome to 
the Subcommittee on Transportation, Infrastructure and Nuclear 
Safety Symposium on Highway Safety.
    I want to thank you, the witnesses, for traveling to 
Washington, DC to discuss with this committee and its staff the 
important safety issues facing us today and in the future.
    First, I would like to begin by introducing my colleagues 
and myself. I am John Haifley. I am privileged to be Federal 
Highway's detailee to the Senate Environment and Public Works 
Committee. On my far left is Jeff Squires. Jeff, do you have 
any opening statement in the sense of saying hello to these 
people?
    Mr. Squires. I say hello to these people.
    [Laughter.]
    Mr. Haifley. My other boss, on the majority, Mitch Warren. 
He does have something to say to you.
    Mr. Warren. I just wanted to follow up on what Duane said 
about the vote. We have a vote at 9:35, in fact we have two 
votes. Senator Reid is going to come in between the two votes, 
make a quick statement, listen to the 15-second sound bites 
that hopefully we could keep to no more than 30 seconds. And 
then he has got to go vote again. So what we will do is we will 
start with the 2-minute opening statements. When he gets here, 
whoever is speaking could finish up their statement. He will 
give a brief opening statement, then we will go around the room 
and do the 15-second sound bites to give him a quick overview 
of what each group is looking at in terms of highway safety.
    Mr. Haifley. On my right, Ruth Van Mark.
    Ms. Van Mark. I have nothing to add to that.
    [Laughter.]
    Mr. Haifley. And Megan Stanley.
    Well, with that, the Symposium will begin with each witness 
stating their name, title, organization, and then presenting 
their 2-minute statement, which is to describe their priority 
legislative recommendations, with suggested funding 
requirements. As Mitch said, we will go to the 15-seconders the 
moment Senator Reid gets here.
    Bud Wright?

   STATEMENT OF FREDERICK (BUD) WRIGHT, EXECUTIVE DIRECTOR, 
                 FEDERAL HIGHWAY ADMINISTRATION

    Mr. Wright. Hi. Good morning, everyone. My name is Bud 
Wright. I am the Executive Director of the Federal Highway 
Administration. With me today is George Ostensen, the Associate 
Administrator for Safety of the Federal Highway Administration.
    On behalf of FHWA and DOT, thanks for scheduling this 
important discussion. We are very much looking forward to 
beginning this dialog or continuing, really, this dialog, 
preparing for reauthorization of Federal surface transportation 
programs. It is absolutely important that we focus attention on 
ways to improve highway safety. We cannot continue to accept 
the toll of over 41,000 lives lost and 3 million injuries each 
year on our highways.
    To significantly reduce fatalities and injuries, we must 
use a comprehensive approach that addresses the roadway 
environment, driver behavior, and the vehicle. On the roadway, 
the area that Federal Highway Administration has primary 
responsibility for, we should target our safety investments to 
the high-risk crash areas--run off the road crashes, crashes at 
intersections, speed management, and pedestrian safety to 
provide the greatest possible safety improvement for each 
dollar spent. Most of all, we need a joint effort involving all 
of our partners.
    We must develop a better knowledge base to guide both 
national-level policy and State and local efforts. Accurate 
crash data collection and analysis are essential to identify 
the most critical safety problems and to deploy the most 
effective countermeasures. Data development and analysis has 
been identified by Secretary Mineta as a key priority for 
reauthorization.
    We must maintain a robust research and technology program. 
R&T can give us new safety tools for behavioral, infrastructure 
and vehicle improvements. For example, linking future ITS 
solutions like cooperative highway vehicle systems can solve 
safety problems and save lives.
    We must also find ways of improving the safety and 
operation of work zones for both highway workers and motorists 
traveling through work zones. R&T may again provide solutions 
to those problems. And we must continue to improve the delivery 
of the Federal Aid Highway Program through administrative 
simplification and an increased focus on safety.
    The USDOT has set a goal of 20 percent reduction in highway 
fatalities by 2008, and ISTEA and TEA-21 have provided us with 
a solid financial and programmatic framework to build on to 
reach this goal. But we must maximize the flexibility of our 
programs and work across jurisdictional boundaries using all of 
the tools in our arsenal if we are to succeed.
    Thanks very much. I look forward to the dialog.
    Mr. Haifley. Bruce Warner?

   STATEMENT OF BRUCE WARNER, DIRECTOR, OREGON DEPARTMENT OF 
                   TRANSPORTATION, SALEM, OR

    Mr. Warner. Thank you.
    I am Bruce Warner. I am the Director of the Oregon 
Department of Transportation and also the chair of the American 
Association of State Highway and Transportation Officials 
Standing Committee on Highway Safety.
    After three decades of decline, the reduction of the 
highway fatality rate has stalled--41,800 people were killed in 
crashes in 2000. We know what is causing these fatalities. 
Forty percent of the fatalities are alcohol related; 20 percent 
are speed related; and 73 percent of the people only use their 
seat belts. Regarding the roadways themselves, as Bud 
mentioned, one-fourth of fatalities are at intersections; one-
third of them are run-off-the-road accidents; and 45 percent of 
all the fatalities are on rural two-lane roads. Aggressive 
action is needed.
    We believe that a higher overall investment in a highway 
program is essential. The highway program must be increased by 
at least one-third, to a level of $41 billion by 2009. And we 
believe the investment in transportation safety should be 
almost doubled. Specific recommendations are that assuming a 
substantial increase in the Federal aid program reauthorization 
should ensure that $1 billion per year of additional funds for 
roadway safety improvements and other safety activities is 
provided. Two, each State should develop a goal-oriented, 
performance-based comprehensive highway safety component of its 
long-range plan, incorporating education, enforcement, 
emergency medical services and highway infrastructure 
improvements. Third, the current Surface Transportation Program 
10 percent set aside for safety needs to be made even more 
flexible. Four, Congress should create a single Section 402 
Highway Safety Program by folding in seat belts, occupant 
protection, alcohol use and child passenger protection 
programs, and then going on, incentives here should be based 
upon performance-based criteria and the magnitude of deaths and 
injuries associated with a particular safety concern.
    Five, funding needs to be substantially increased, as Bud 
also mentioned, for Federal Safety Research Programs. And six, 
the State transportation and safety agencies should not be 
prohibited from proactively supporting new State and local 
safety measures. They should be able to actually provide 
information in support of these kind of laws.
    That would end my comments. Thank you for your 
consideration. I think you will find a more detailed discussion 
of these in my written testimony.
    Mr. Haifley. Mr. Bill Walsh?

 STATEMENT OF WILLIAM WALSH, ASSOCIATE ADMINISTRATOR FOR PLANS 
   AND POLICY, NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

    Mr. Walsh. Good morning.
    My name is Bill Walsh. I am the Associate Administrator for 
Policy as NHTSA.
    We have based our reauthorization thinking on a number of 
important principles: One, streamline the grant program 
structure to reduce the administrative burden on the States; 
two, develop performance-based programs to encourage States to 
direct resources to programs with the most significant safety 
benefits; three, reward States who make the most significant 
strides in improving safety; four, design a balanced approach 
that recognizes the complexity of the problem; and five, at a 
minimum, maintain the overall funding support at levels 
provided in TEA-21.
    Every State currently has a highway safety program that 
depends on a combination of Federal, State and local funds to 
address critical issues such as seat belt use, child passenger 
safety, impaired driving, police traffic services, traffic 
records and emergency medical services. NHTSA-managed programs 
have included a combination of formula grant programs to 
support startup and evaluation of new highway safety 
countermeasures, incentive grant programs to induce States to 
pass effective laws or adopt scientifically grounded programs 
aimed at specific programs, sanctions where appropriate to 
assure that effective highway safety legislation is passed, and 
a strong Federal research and demonstration program to develop 
and evaluate new, more effective countermeasures.
    We are currently in the final stages of developing 
departmental recommendations on the reauthorization. Our 
challenges have included: strengthening and building on an 
historically successful formula grant program; developing 
performance measures that will encourage States to invest in 
effective countermeasures; performance measures must be fair, 
consistent, related to real-world safety improvement, and 
measurable; defining the most effective strategy to cause 
primary seat belt laws to be passed in all States and increase 
overall safety belt use; working with the States to improve 
traffic records; supporting the States in developing effective 
impaired driving countermeasures that address the entire 
system, from law enforcement, adjudication, education, 
treatment and record keeping; and finally, in this difficult 
post-9-11 era, strengthening our emergency medical responses to 
not only safe crash victims, but serve as the first line of 
public health and safety from terrorist acts.
    Thank you.
    Mr. Haifley. Mr. Edward Hamberger?

   STATEMENT OF EDWARD HAMBERGER, PRESIDENT, ASSOCIATION OF 
                       AMERICAN RAILROADS

    Mr. Hamberger. John, thank you.
    I have the privilege and honor of being President of the 
Association of American Railroads. We have one major issue 
before this committee, and that is the Section 130 Grade 
Crossing Protection and Separation Program. Because, unlike our 
reputation, we really are a high-tech industry, behind you have 
some not reenactments, but two videos of actual crashes that 
have happened. Norfolk Southern has mounted video machines on 
the lead engine of many of their trains, and we will just go 
ahead and run through it in real-time. You will see, and we 
will back up then, and point out what happens here. The horn is 
blowing. The gates are down. Cars are stopped, and 
unfortunately . . .
    What you can hear there, if you will back it up, we will 
walk through it real quickly on a slower basis. As you get up 
close, you will see that the second car--the first car is 
stopped. The second car pulls out around the first car, 
thinking he can make it. It takes a mile to stop a train. It 
goes around the gates and unfortunately he guessed wrong and he 
did not make it.
    You also heard, perhaps did not concentrate on, the 
discussion among the two crew members in the cab. It is a 
tremendous safety problem for the crew as well as obviously a 
psychological ongoing problem when they are faced with these 
kinds of situations.
    The next one is a passive grade crossing. The car comes 
out; does not stop. You will see that there are crossbucks. It 
was, again if we will back up, there are cross bucks. There are 
markings on the road. The woman comes out, stops, and 
unfortunately the car overhangs. Fortunately, no one was badly 
hurt in that accident. But there are over 400 people a year 
killed at grade crossing incidents.
    We have made tremendous progress through the Section 130 
Program that this committee has funded. It is important to also 
take a look at NCHRP, I believe it is number 480, that just 
came out talking about markings at passive grade crossings. We 
urge you to increase, doubling the size had a nice ring to it. 
It is about $150 million a year now. We would love to see more 
money in the Section 130 Program.
    Mr. Haifley. Mrs. Tricia Roberts.

   STATEMENT OF TRICIA ROBERTS, DIRECTOR, DELAWARE OFFICE OF 
                   HIGHWAY SAFETY, DOVER, DE

    Ms. Roberts. Good morning.
    I am Tricia Roberts. I am Director of the Delaware Office 
of Highway Safety. I am here today on behalf of the National 
Association of Governor's Highway Safety Representatives.
    The States have made significant advances in the safe 
behavior of drivers and road users. These advances have been 
made possible in large part due to the programs and resources 
provided under the Transportation Equity Act of the 21st 
Century. Yet, there is much more to do. We have reached the 
easily influenced, and now we must reach those populations who 
are resistant and impervious to traditional safety messages and 
programs. To make inroads in these populations, significant 
efforts must be undertaken to reduce motor vehicle-related 
crashes, deaths and injuries from the unacceptable levels that 
they are today.
    The States need appropriate Federal tools and additional 
Federal resources in order to make further progress. First and 
foremost, the States need stable and reliable sources of 
funding in order to address the behavioral aspects of highway 
safety. With assured sources of funding, States can plan their 
highway safety programs over a longer period of time, 
facilitate their work with and get commitments from grantees, 
and plan and implement improvements to the highway safety 
information systems. The budgetary firewalls that were 
authorized under TEA-21 have provided that stability. NAGHSR 
strongly supports their continuation in the next 
reauthorization.
    States also need to maintain the right to determine how 
Federal funds are spent within their States, without Federal 
approval of every aspect of State plans and programs. This 
flexibility, which States have had since 1994, has enabled us 
to focus on State data-driven problem identification and 
performance-based strategies. It has allowed the States and the 
Federal Government to work together on a more cooperative 
basis.
    Second, States need fewer Federal programs to administer. 
NAGHSR represents consolidation of all the grant programs into 
a single behavioral highway safety program with incentive 
tiers. The incentives would be given to States that enact 
specific legislation, improve their performance, or maintain a 
superior level of performance.
    Third, States need adequate resources to be able to 
effectively address safety problems. At current funding levels, 
States could maintain the programs that have been implemented 
under TEA-21. But with additional funding, States could support 
significantly more enforcement of State highway safety laws--
laws that are needed in order to reach the hard-to-influence 
populations. With additional funding, States could also 
undertake a whole range of programs to address specific target 
populations and emerging highway safety issues.
    Fourth, States need timely, accurate and accessible data 
with which to make safety-related decisions. States use data to 
identify significant safety problems, select appropriate safety 
countermeasures, and evaluate the effectiveness of selected 
countermeasures. Nearly all States have strategic plans for 
improving their highway safety information systems, but they 
lack the resources for implementing these plans.
    Finally, States need more research on driver and road user 
behaviors. Relatively little is known about the effectiveness 
of many State laws and most highway safety programs. Further, 
there has been no recent research on crash causation. As a 
result, States implement programs without knowing if they are 
addressing the root causes of crashes and/or whether or not the 
implemented programs will work.
    Thank you for this time.
    Mr. Haifley. Thank you.
    Mr. Brian Holmes?

STATEMENT OF BRIAN HOLMES, EXECUTIVE DIRECTOR, MARYLAND HIGHWAY 
                          CONTRACTORS

    Mr. Holmes. Thank you.
    I am Brian Holmes, Executive Director of the Maryland 
Highway Contractors Association. I am here today on behalf of 
our national organization, the American Road and Transportation 
Builders Association.
    Roadway safety is a major national public health issue, and 
improving it must be a primary objective of the 2003 
reauthorization of the Federal Surface Transportation Program. 
The most recent USDOT condition and performance report 
documents that to maintain the existing physical road 
conditions, Federal investment of $50 billion a year is needed. 
The next needs report, which is due out later this year, in the 
AASHTO bottom line report, which is to be released in 
September, are expected to show that this minimum level of 
investment has grown to $60 billion.
    Accordingly, the American Road and Transportation Builders 
Association calls on Congress to enact a highway and bridge 
investment level that at a minimum maintains these existing 
roadway condition and safety levels. To achieve this increased 
level of investment, we have identified a number of ways to 
generate funds to rectify unsafe roadway conditions. Growing 
the overall level of investment will allow for the continuation 
of Federal roadway safety programs, without diluting investment 
in other areas. We have recommended specific safety initiatives 
in programs to enhance the overall safety of the system, which 
include improving safety on rural two-lane roads with a new $1 
billion two-lane roads initiative; focusing and investing in 
highway and road construction work zone safety initiatives, 
where over 1,000 people are killed and 39,000 are injured each 
year; and continuing with the Federal investment in the Federal 
Roadway Infrastructure Safety Program, such as the Highway-Rail 
Grade Crossing Program and the Hazard Elimination Program.
    But road safety initiatives must be considered in the 
overall context of the Federal Surface Transportation Program. 
I want to stress that expanding and developing programs to 
increase safety should not become a zero sum game. There are 
tremendous public safety benefits of improvements to roadway 
infrastructure. Our data shows that since 1950, investment in 
infrastructure improvements has had a two dollars to one dollar 
public health return. And for every $1 billion of investment by 
the public in government-financed road improvements, there has 
been a prevention of 1,400 premature deaths and nearly 50,000 
injuries.
    With traffic increasing at almost 3 percent a year, this 
safety gain will be squandered if proper investment is not made 
in maintaining the existing system and adding capacity. Without 
a commitment to an adequate level of investment for making 
highways safer and more efficient, crash statistics will only 
get worse.
    Thank you.
    Mr. Haifley. Wendy Hamilton? Good morning.

   STATEMENT OF WENDY HAMILTON, NATIONAL PRESIDENT, MOTHERS 
                     AGAINST DRUNK DRIVING

    Ms. Hamilton. Good morning.
    My name is Wendy Hamilton. I am President-elect for Mothers 
Against Drunk Driving. In 1984, my sister and her baby were 
killed by a drunk driver.
    In 2000, 16,650 people were killed in alcohol-related 
traffic crashes. The economic loss attributable to these 
crashes cost the Nation approximately $230 billion. However, as 
someone who has lost a sister and nephew due to someone's 
careless decision to drink and drive, I can tell you that the 
human loss is immeasurable. In spite of these appalling human 
and economic losses, NHTSA's annual budget is only $400 
million. Alcohol is a factor in 40 percent of all traffic 
deaths, yet only 26 percent of all funding available to the 
States through TEA-21 is spent on alcohol-impaired driving 
countermeasures. TEA-21 severely underfunds highway safety. It 
does not provide adequate financial incentives to the States to 
enact meaningful impaired-driving legislation and to implement 
effective programs.
    MADD recommends that the subcommittee consider the 
following actions. First, provide a significant increase in 
funding for highway safety programs. Congress should allocate 
at least $1 billion annually for the creation of a national 
traffic safety fund. It is time to increase the Federal 
Government's commitment toward reducing the devastating and 
costly consequences of motor vehicle crashes.
    TEA-21 encourages States to adopt open container and repeat 
offender laws in Sections 154 and 164, respectively. Failure of 
a State to enact these laws results in the transfer of a 
portion of the State's Federal highway construction funds to 
its highway safety program, as well as the hazard elimination 
program. Highway safety program funds should not be allowed for 
the use of the hazard elimination program. States that do not 
comply with Sections 154 and 164 should only be permitted to 
direct funds for impaired driving programs.
    We also recommend modification of Section 164 to 
incorporate a comprehensive program to target higher-risk 
drivers, including repeat and high BAC offenders. There should 
also be an increase in the percentage of highway construction 
funds to be redirected to impaired driving countermeasures if a 
State does not comply with these laws. Fifty-eight percent of 
alcohol-related traffic fatalities in 2000 involved drivers 
with a BAC of .15 or higher, and one-third of all drivers 
arrested or convicted of driving while intoxicated are repeat 
offenders.
    We also call for the reauthorization of Section 154 that 
addresses open container laws. There should be an increase in 
the percentage of highway construction funds to be redirected 
if a State does not comply. And finally, we call for support 
for the enactment of a national primary seat belt standard. 
Eighty percent of the people who are fatally injured in 
impaired driving crashes are not wearing seat belts. The best 
defense against a drunk driver is a seat belt.
    Thank you.
    Mr. Haifley. Mr. Hill?

STATEMENT OF D.B. HILL, PRESIDENT, D.B. HILL CONTRACTOR, INC., 
        ON BEHALF OF THE ASSOCIATED GENERAL CONTRACTORS

    Mr. Hill. Good morning.
    I am D.B. Hill, III. I am president of D.B. Hill Contractor 
from Little Rock, Arkansas. I am chairman of AGC's Work Zone 
Safety Committee.
    As our highway infrastructure ages and our population 
expands, road construction will continue to be necessary. Much 
of the road work will be done under traffic. Motorists must be 
aware there are increased dangers in the work zone to 
themselves and to workers. Therefore, a key element in work 
zone safety is impacting the attitudes of drivers. The second 
component is enforcement of speed limits and other work zone 
restrictions.
    AGC urges Congress to include in the TEA-21 reauthorization 
legislation incentives for States to pursue work zone safety 
initiatives. We recommend the creation of a discretionary fund 
administered by the Federal Highway Administration to provide 
funding incentives that encourage States to carry out 
communications initiatives, including driver education 
programs. AGC encourages Congress to provide funding for 
incentives to make widespread use of law enforcement officers 
and devices such as photo enforcement and radar.
    Even if we are successful in changing driver attitudes 
toward the work zone, workers are still placed at risk because 
their workplace is located next to live lanes of traffic. Steps 
need to be taken to further ensure worker protection. AGC 
encourages that the national policy include guidance on the use 
of positive separation in work zones. States should be directed 
to use positive barriers on high-risk projects and funding 
should be made available to encourage their use.
    Incentives could be used for creative work zone safety 
initiatives. Initiatives that should be considered include 
classifying work zones into different categories depending on 
the level of risk to the workers and motorists. Another example 
of this might be how we set up traffic control on projects. 
Motorists are sometimes frustrated that speed limits are 
lowered in work zones. As they drive through them, they only 
see work in a limited area. We should consider looking at the 
work zone to determine if it could be set up with sub-zones 
within it so that the lower speed limits and the strictest 
enforcement happens in those areas where workers are present or 
where there is extreme danger to the motorist.
    Other creative approaches to work zone safety should be 
encouraged and providing incentives will hopefully encourage 
those creative forces.
    Thank you, sir.
    Mr. Haifley. Mrs. Kathleen Holst?

STATEMENT OF KATHLEEN HOLST, PRESIDENT, AMERICAN TRAFFIC SAFETY 
                      SERVICES ASSOCIATION

    Ms. Holst. I am Kathi Holst, President of the American 
Traffic Safety Services Association.
    Forty-two thousand dead, three million injured, $230.6 
billion in societal costs with taxpayer costs of $21 billion a 
year--five times more people have died on roadways since 1900 
than in all our Nation's wars. One child in 84 born today will 
die violently in a motor vehicle crash.
    With these facts in mind, ATSSA contends that in no other 
public policy arena should such horrific numbers be tolerated 
without a significant attempt by Congress to reverse the trend. 
We believe there are three key areas of focus in saving lives 
on our roadways--the automobile, the driver and the roadway 
itself.
    Automobiles have evolved from having no seat belts to the 
state-of-the-art vehicles we have today. Driver behavior has 
never been more positive thanks to NHTSA and others in reducing 
impaired driving and increasing the use-rate for seat belts. 
The last remaining area to be aggressively addressed is the 
roadway itself. ATTSA proposes a roadway safety program that 
calls upon Congress to invest $3 billion per year during the 
life of the reauthorization bill to aggressively counteract the 
role of the roadway itself in causing death and injury in 
America.
    The program targets high-risk areas of the roadway. It also 
addresses the special needs of older Americans who will 
represent one in five drivers by the year 2020. If we do not 
address their needs now, we will be faced with a situation that 
age-related diminished driving capabilities will surpass 
alcohol as a causal factor in traffic accidents. Targeted areas 
of the roadway safety program include older drivers, work 
zones, intersections, run-off-the-road crashes, pedestrians and 
bicyclists, speeding, research and emergency management.
    The most important concept is the idea of creating a 
dedicated core roadway safety program, with reporting 
requirements that give the Congress, Federal Highway 
Administration, the States and the motoring public a better 
understanding of what is being accomplished to improve roadway 
safety.
    Equally important is dedicating safety dollars that target 
low-cost safety improvements, such as wider pavement markings, 
brighter and more visible signage, rumble strips and modern 
guard rails. All have wide application and can be installed 
relatively quickly and at a lower cost.
    I would be happy to answer any questions and I thank you 
for the opportunity.
    Mr. Haifley. Thank you, and thank you all for your 2-minute 
presentations. And thank you again for keeping relatively to 
the 2 minutes. Senator Reid is still detained, so we will go to 
staff question.
    I would like to start with explaining just two small ground 
rules--one from the court reporter, please when you speak, 
state your name so we do not have to sort through and listen 
and perhaps get the wrong position with the wrong person; and 
second, my colleagues have encouraged me to encourage dialog 
between each of you. It is very important for us to hear how 
the experts dialog with each other.
    To that end, I would like to start with a direct question 
for each of you. Does any group oppose the expenditure of 
Federal funds for causal safety research. Many of you mention 
it. AASHTO wants $75 million. Does anyone oppose that? OK.
    Now--I am sorry. Brian?
    Mr. Holmes. What is causal . . .
    Mr. Haifley. Safety research--well, I will let Bruce Warner 
who wants $75 million for it, and Tricia Roberts who thinks it 
is a good idea, and others, to help with that. Please begin and 
I encourage each of you to address questions to other 
witnesses.
    Mr. Warner. Bruce Warner, Director of the Oregon Department 
of Transportation. Well, clearly what we are seeing, and you 
have heard around the table, there are a number of issues that 
we know about that cause accidents and fatalities and injuries 
on our State and local transportation systems. However, as you 
also heard, the demographics are changing. You are seeing more 
and more elderly drivers on the road system. As the baby 
boomers like myself begin to age, you are going to see many 
more of those. We need to apply research to find out what are 
the best ways, as an example, that we start to help those 
elderly drivers with some of the impairments.
    I think we also need to do research into just identifying 
what is an impaired driver, as an example. We have been 
struggling in the State of Oregon with our legislature to 
secure funding to actually put into some pilots some equipment 
that would allow us to identify at-risk folks and folks that 
needed to have further medical testing before they were allowed 
to continue with their driving privileges in the State.
    So we need to have research information to get to some of 
those kind of things, as an example. You will hear from other 
folks I am sure in the various other types of issues where we 
need research to really understand the cause, the base root 
cause of the accidents so we can design education, engineering 
and enforcement programs that can actually effectively deal 
with those issues.
    Mr. Holmes. This is Brian Holmes again. It is basically 
systematic research about why accidents happen.
    Mr. Haifley. And what we can do to prevent them.
    Mr. Holmes. And then that leads to what you can do to--
thank you.
    Mr. Haifley. Tricia, would you like to add anything?
    Ms. Roberts. I would just concur. In some cases, it is sort 
of a shot in the dark, if you will, as far as our program 
planning without really knowing what the root causes of the 
crashes are. Having that information will help us to more 
effectively use the money and the resources that are made 
available to our States.
    Mr. Walsh. Bill Walsh from NHTSA. It is interesting. We 
have done a number of these studies over the years. The last 
study, broad study was called the Indiana Tri-Level Study. It 
was done in the early 1970's. It is literally 30 years old. 
About 20 years ago, there was a Harry Hirt study on motorcycle 
crash causation, but that is dated. And now we have seen a 
spike in motorcycle crashes.
    I support what the other people have said. One contribution 
NHTSA can make, we are doing right now. We are supporting the 
Motor Carrier Safety Administration in doing a heavy truck 
causation study. That money was provided to Motor Carriers, and 
we have been assisting them. We would like in the future to 
begin a larger crash causation study that would help answer the 
questions that have been elucidated so far--the contribution of 
the roadway, different vehicle types, the aging population--so 
that we can all devote the resources to solve the problems most 
effectively.
    Mr. Wright. This is Bud Wright with the Federal Highway 
Administration. As I will probably have to say more than I care 
to throughout the day, the Administration does not have a final 
position on its reauthorization proposal. But one of the 
concepts that has been advanced by the Transportation Research 
Board and others, and which I know AASHTO has supported, is the 
concept of the so-called ``F-SHARP'' Program. Some of you may 
be familiar with the SHARP Program that was undertaken through 
ISTEA to identify advanced pavement techniques and other 
advanced technologies, in the work zone area for example. 
Extremely successful and has been in some ways replicated 
through this so-called ``F-SHARP'' proposal. They would look at 
a new agenda of strategic highway research, including highway 
safety as one of the principle elements of that.
    One of the distinguishing features of this proposal is that 
on the safety side at least it would get into what is, as Bill 
was just stating, what would be the most comprehensive causal 
analysis on safety that has been undertaken probably ever, but 
certainly in the last 30 years.
    Also importantly, as identified by the Transportation 
Research Board Group, this would not require the authorization 
of specific funds to be carried out. In fact, following the 
precedent that was established with the original SHARP Program, 
the States would be taking off of the authorizations that are 
made available to them a small percentage in order to fund this 
effort. So it is distinguished from the remaining research and 
technology program in that it would not have to be authorized 
through what under TEA-21 was Title V. This would in fact be an 
authorization to allow the States to set aside some part of the 
moneys made available to them for this purpose.
    Mr. Haifley. Can someone tell us what this program would 
look like--the causal research--a little more detail? Anyone 
want to flesh that out? Bud perhaps could tell us what NCHRP 
is. What I am looking for is for you to help us describe what 
this program should look at. And the next question is how much 
money should it get. That is what I want you guys to come forth 
with.
    Bud, can you tell us a little bit about what NCHRP looks 
like? NAGHSR recommended NCHRP as what they would want for 
their proposed safety research model.
    Mr. Wright. Well, NCHRP is a cooperative research 
undertaking which States, Federal Government, interested 
parties identify an agenda, again drawn from moneys contributed 
by the States, not funds authorized specifically for research 
at the Federal level. It is a comprehensive agenda under NCHRP. 
It would include all aspects of highway and surface 
transportation research.
    The F-SHARP proposal is the so-called causal safety 
analysis, is built around a similar sort of a model, but it 
would actually be substantially more funding than is available 
through the NCHRP program, which I believe is at about $30 
million a year. This concept would be $75 million a year. One 
element of it would be safety and again the initial thinking, 
though not fleshed out fully yet, is that safety would probably 
represent at least half of that amount, if not slightly more.
    Again, much yet to be determined as to what would be done, 
but essentially it would involve fully instrumented vehicles 
that would, not unlike the video that we saw of the train, 
would actually record data regarding crashes that occur so that 
we understand what factors were at play. Did it involve driver 
behavior? What was the condition of the roadway? What were the 
circumstances that might have been able to prevent the crash 
from occurring? It really is extremely complicated, and because 
of the fact that it would require vehicle instrumentation, you 
are not going to have 100 percent, but you are going to have a 
large enough percentage that you are going to capture the 
crashes that are occurring on a daily basis in the country.
    So it would require substantial investment in order to 
yield the kind of results that really are going to provide the 
data that we need to say, here are where are problems lie and 
here are what the solutions are that would be most effective.
    Mr. Haifley. Anyone else have any more comments on what 
this--yes, Bruce.
    Mr. Warner. Bruce Warner, with Oregon again. I think the 
other thing, in addition to understanding what the causes are 
and the potential solutions, AASHTO is a believer that we need 
to actually get out and pilot some of these solutions to make 
sure that they actually work. We have a lead State concept 
where we actually encourage various State Departments of 
Transportation to actually get out ahead and put some of these 
innovative technologies and ideas that have been developed by 
research in place to see how they work.
    So another key component, I think, of the research program 
really needs to be some of this piloting of some of these to 
determine what are the most effective solutions, to determine 
how they work, and then again figure out a way to actually move 
those things to full implementation throughout the United 
States.
    Mr. Haifley. Brian?
    Mr. Holmes. Brian Holmes. I hate to be the skunk at the 
picnic, but it sounds to me like we are talking about spending 
a lot of money in pursuit of the obvious. It seems to me you 
have two problems when it comes to driver behavior. You have 
the fact that, taking work zones as an example, the conduct of 
normal drivers is not what we would like it to be, and that 
they go through our work zones too fast and they are following 
each other too closely.
    The second problem is the aberrational driver. In other 
words, with a lot, a great deal of the work being done, you 
have work zones functioning at the time that, you know, after 
the bars close and you get the people who no matter how good 
your signage is, they are going to find their way into your 
work area. So it would seem to me that I do not know what we 
are going to gain so much from this effort that we don't really 
already know. I mean, speed, following too closely, inattention 
and impairment seem to be about it, as far as I can see.
    Mr. Haifley. My time is almost gone, but I would like to 
ask Bill Walsh to respond to that.
    Mr. Walsh. Well, he makes a point. We do know a lot from 
our crash data. But when you actually work in the business and 
you are looking at the environment and the behavior and the 
vehicle contributions to any crash, they are like snowflakes. 
To really understand all the things that lead up to some 
crashes, many crashes, you need to have a holistic approach to 
collecting the data. Retrospectively looking at police crash 
reports--police crash reports serve their purpose, but they do 
not have the richness of data that you need to really 
understand the circumstances and the contributing factors. Many 
of the issues we are facing today are very difficult and not 
responding to many of the programs we have in place. It is a 
very modest investment in making us smarter in how to invest a 
very large sum of money. I think that is where the safety 
community is coming from in recommending resources be spent on 
this area.
    Mr. Haifley. Thank you.
    My time has expired. We are now entering into the period of 
senior transportation EPW staff questioning, beginning with 
Jeff Squires.
    Mr. Squires. We are expecting the Senator shortly, and if 
he does arrive, then I will just give way, and we will return 
to this.
    Before I ask my question, let me say a couple of things. 
One, welcome to everyone. Thank you so much for taking the time 
to join us today. This is extremely valuable in terms of 
building the information base that we will use to do our work 
going forward on reauthorization.
    Second, I want to commend my colleagues, and especially 
John Haifley, for the fine job they have done in organizing 
today's symposium. John has worked long and hard on this, and I 
think the results speak for themselves. Thank you, John, good 
job.
    This is a very sensitive topic that we are discussing 
today. Any injury or certainly any fatality is an enormous 
tragedy. And so statistics are pretty much irrelevant if that 
tragedy touches you personally. Like everybody in this room, I 
assume, I have had personal exposure to highway-related 
injuries, fortunately not fatalities. And so I think we all 
have a shared empathy on these issues. That needs to be the 
context for our discussions.
    With that in mind, however, I do want to pose a question. 
The question is based on what appears to be the recent 
performance record or track record. According to data provided 
by the Bureau of Transportation Statistics, fatality rates 
declined from 1.9 per million vehicle miles traveled in 1991 to 
1.5 per million vehicle miles traveled in 2001. This 20 percent 
reduction would seem to represent a significant success story. 
This gain coincides with the ISTEA and TEA-21 transportation 
policy era, if you will.
    Now, during our work on reauthorization, we have been 
asking two questions. What lessons have we learned over the 
last 10 years? And second question, how have conditions changed 
or how are they likely to change in the future? And then based 
on those questions, and answers to those questions will guide 
our refinements and enhancements on reauthorization.
    So looking back, we are trying to understand what we should 
do going forward. In that context, I would like each of you to 
consider the reductions in fatality rates achieved during the 
last 10 years. Now, I recognize that there has not been, as one 
of the witnesses described, there has not been a fall-off. It 
has been a fairly flat number of fatalities annually, and that 
is tragic. But the growth in VMT has been dramatic. And so 
recognizing that reduction in fatality rates achieved during 
that last 10 years, I wonder what do you attribute this 
positive trend to, and how might we continue and perhaps 
accelerate this trend through reauthorization.
    Mr. Wright. This is Bud Wright with Federal Highway 
Administration. Jeff, I think you are right, that there have 
been some significant very positive actions that have occurred 
over the past decade. Certainly, the increased investment level 
made available through ISTEA and TEA-21 has made a difference. 
We know many things that do work and work well and we are 
making those kinds of right investments.
    I would say by far the single biggest contributing factor 
is the fact that while we are at only 73 percent, seat belt use 
in this country has increased substantially over the last 10 
years. That is most definitely saving lives. We made some 
gains, albeit briefly, in alcohol-impaired fatalities. So 
again, some of the behavioral programs, some of the laws that 
have been passed both federally and at State level most 
definitely are making a difference.
    But I think as we look ahead, as you note, we are at a 
plateau. We have not made much progress in the numbers. The 
rates, yes. Travel has increased. Fatalities have not gone up 
thankfully in proportion to that travel increase. But we also 
see factors which are troubling. As we look at the belted 
population, those that are not belted are the difficult to 
reach audiences. We have not made the substantial headway in 
alcohol prevention programs that we might wish to. We see a 
much older driver population facing us as we move ahead, which 
will require greater attention in terms of roadway features, 
whether it be signs, pavement markings, geometry et cetera in 
order to operate safely.
    So there is every reason to believe, unfortunately, that 
without making further inroads and taking actions which have 
yet to be taken, that we could unfortunately see that number 
increasing over time if we allow trends to continue as they 
would regarding demography and other factors.
    Mr. Squires. Ed?
    Mr. Hamberger. One trend I think you need to keep in mind 
is the study by DOT which shows that freight transportation 
will double between now and the year 2020. This is not, let me 
say up front, this is not an anti-truck screed. We get along 
very well with our biggest, fastest growing partners, 
intermodal truck carriers. But we have formed something called 
the Freight Stakeholders, which includes ATA, includes IANA, 
includes the Port Authorities, includes the Association of 
American Railroads. There are several ways I think that this 
committee can help get some of that freight off the highway, 
and when it is on the highway, have it move more safely--for 
example, to have a little big more emphasis on freight 
transportation in the MPO process; to put more money into the 
intermodal connectors which are highways which connect 
intermodal yards with the main Interstate or NHS system; and 
three, to provide, not in this committee's jurisdiction, but 
tax incentives for investments for all parts of that logistics 
chain into capacity to move intermodal freight. It is obviously 
an important part of keeping the economy moving, to move the 
freight so we can compete on world markets. With the doubling 
foreseen by DOT, and in fact the ports of L.A. and Long Beach 
think it will triple between now and 2020, and so if you would 
look at those kinds of freight movement and those kinds of 
incentives to improve the intermodal cooperation and the 
intermodal transportation of freight, I think it would have a 
positive effect on safety as well.
    For the record, this is Ed Hamberger speaking.
    Mr. Holmes. Brian Holmes. I think one of the factors that 
would explain the statistics you offer is the increased traffic 
on the Interstate System. Fatality rates for traffic using the 
Interstate System is something like .04 per million VMT. The 
rate for, for instance, a two-lane undivided is 1.-something. 
So there is a huge differential. If you can take substantial 
amounts of traffic off of these less-safe facilities and put 
them onto controlled-access expressways, you will be able to 
achieve an enormous safety benefit. Then you get into the issue 
of the capacity on our expressway systems, which is something 
that we think ought to be addressed in this context.
    Mr. Hill. I am D.B. Hill with AGC. Jeff, while I think 
that, and it is a fact that we have seen overall deaths go 
down, as we begin to rebuild more of our older highways, there 
are going to be more work zones. We have seen those deaths and 
injuries go up in the last few years. And if we do not do 
something now to stem that with better work zone traffic 
enforcement, public awareness and communications, and positive 
barrier separations between workers and traffic, I think you 
could see that number actually go up over the life of the next 
highway reauthorization bill.
    Ms. Holst. Your statistics are certainly valid, and we are 
happy to hear that. I am sure everybody here is proud of the 
contribution that we all as an industry and the public and 
private sectors have made. However, we also need to be aware of 
the fact that in 1994, the cost of crashes was $150 billion. 
Today, it is $231 billion. From a taxpayer cost standpoint, we 
are talking about a comparison of just under $14 billion to 
today's cost of $21 billion.
    As I mentioned, and it certainly endorses over and over 
again, we need to focus on the needs that are coming up right 
around the corner as well. As Mr. Hill said, there are more 
work zones. More work is being done at night. We have to 
prepare for that. We also have to prepare for those 
demographics that are approaching, and certainly coming up 
right around the corner for me. We have to prepare for 20 
percent of our driving population being 65 and older. We have 
to give them better information, better opportunity to use 
their reaction time to prevent crashes and fatalities and 
injuries.
    Ms. Hamilton. Wendy Hamilton with Mothers Against Drunk 
Driving. Strides have been made in many areas, and in fact 
drunk driving deaths went down dramatically in the early 1980's 
and the early 1990's. But things have plateaued drastically 
since then, and you have to remember that still 40 percent of 
the American public is killed in alcohol-related crashes. We 
cannot lose sight of that focus. This is a segment of the 
population that we have research on.
    Forty percent of the people killed in traffic crashes are 
alcohol-related. We do have research. We do have effective 
programs. An example is the sobriety checkpoint programs. Those 
have proven to have a 20 percent reduction in fatalities and 
arrests in Tennessee and New York, even 21 months after those 
programs have been finished. So the overall education and 
deterrent is important.
    Enforcement is critical to this issue, as is education 
about that enforcement. Because it is not just about arresting 
drunk drivers. It is about getting people to understand they 
should not be drinking and driving.
    Ms. Roberts. We have seen significant improvements in 
highway safety. I attribute it and agree with Bud Wright that 
one of the biggest things that we have done is increase seat 
belt usage. There is just no question about that. But there is 
still a lot more to be done.
    I believe that the comprehensive approach that the States 
have taken in looking at the driver and the vehicle and the 
roadway has contributed significantly to these successes, and 
that we should continue that comprehensive approach. Also, the 
combination of education and enforcement is absolutely key 
here. The one-size-fits-all type of approach does not work. 
Every State has to have the ability to set its own priorities 
through data-driven problem identification, and to implement 
performance-based strategies that are appropriate for that 
State. Again, the one-size-fits-all does not work and will not 
continue to work.
    One problem that I see and continues to grow, continuing 
highway safety program, is the number of teen drivers that we 
are seeing on our road and their over-representation in 
crashes. It is a very critical issue that we have to address.
    Mr. Haifley. That was Tricia Roberts, for the record.
    Mr. Warner. Bruce Warner with the Oregon Department of 
Transportation. I just want to state that first off, we believe 
TEA-21 was very effective. I think our State, through some of 
the initiatives, the increased funding and the cooperation 
between the agencies that was made available through some of 
the flexibility of TEA-21, actually caused in my opinion about 
375 fewer deaths and 25,000 fewer accidents and injuries on 
Oregon's roads and highways. I think it is important to note, I 
also wanted to get on the record, we start talking about the 
fatality rates overall and the fatality rates on the 
Interstates, I would remind everybody that the fatality rates 
on those rural two-lane roadways are somewhere approaching four 
fatalities per million miles traveled. And that is completely 
unacceptable.
    I think for the future, one of the things that is very 
important that you ought to continue that I think was partly 
responsible for us getting some of the rates down was the 
requirement that States consider safety in their planning 
efforts, and those become criteria whereby you are making 
decisions on investments and where you place your money. I 
think that should be continued. I think it should be 
strengthened and should force the States to work with their 
local cities and counties and all the other folks to come up 
with that comprehensive program that we described.
    I do want to state that again seat belts is clearly an area 
we need to focus on. Again, I think we ought to also have on 
the record, I think a couple of years ago the average rate 
throughout the United States was about 68 percent user rate. If 
we could raise that to 90 percent, and there are States that 
are at the 90 percent now, that in and of itself can save over 
5,000 lives a year in the United States.
    I also want to emphasize, I believe teenage drivers are a 
problem. The State of Oregon initiated a graduated drivers 
license program which has severe restrictions on the time of 
driving within 6 months of getting a license, and actually 
continues until they are age 18. In just 1 year of experience, 
we have seen a 29 percent reduction in the number of 16-year-
old drivers behind the wheel with fatal or injury crashes. We 
think this is something that should be studied a bit and part 
of that research program that should be probably be implemented 
throughout the United States.
    Mr. Squires. Thank you all very much.
    Mr. Haifley. Ruth Van Mark.
    Ms. Van Mark. Thank you.
    I want to maybe build a little bit on Jeff's line of 
questioning. As he stated, and I agree with him--surprise, Jeff 
. . .
    [Laughter.]
    Mr. Squires. How refreshing.
    Ms. Van Mark. One life lost is one life too many, but given 
that we do have limited resources, it seems that it is prudent 
for us to try to focus those resources on those areas where we 
get the most benefit, or the greatest number of lives saved.
    With that in mind, I think Mr. Warner you mentioned some 
statistics in your opening statement on the types of fatalities 
on the roads, it seemed like. Could you refresh my memory on 
that?
    Mr. Warner. Yes, I would be glad to. Let me see if I can 
actually find the statistics. I think you are referring to the 
causes of fatalities. Again, Bruce Warner, the Oregon 
Department of Transportation. Again, as you have heard over and 
over again, 40 percent of the fatalities are alcohol-related, 
so booze is clearly an issue; 20 percent are speed-related, so 
speed is clearly an issue and a cause; and only 73 percent of 
the people use their seat belts. This is updated from the 68 
percent a few years ago. So belts, booze and speed are some of 
the big areas of focus that we think upon which you ought to 
place some emphasis. Thank you.
    Ms. Van Mark. Thank you.
    With that in mind, then, for Mr. Walsh, given that NHTSA 
has placed a big priority on reducing the incidence of drunk 
drivers, along with MADD, the good work that they have done in 
that area, but also given that excessive speed appears to be a 
big bloc of the causation of accidents, could you explain to us 
what NHTSA has done with respect to trying to, if not educate 
drivers, encourage States to enforce minimum or maximum speed 
limits?
    Mr. Walsh. Well, actually I think you should have asked Bud 
about speed, but NHTSA and Federal Highway within the 
Department do have significant research and demonstration 
programs and we are working with the States to try to reduce 
speed-related crashes. Education is only part of it. I think 
what you are going to find out from any behavioral change 
program, I am going to say first of all you have to have 
reasonable speed limits, and I think the core of our program is 
to set speed limits that people think are reasonable. Because 
people will not obey speed limits that are not reasonable, and 
then that makes the whole system impossible to work. If 
everybody is speeding, enforcement does not work. So it starts 
with that, and that of course, I will let Bud talk more about 
that in a minute, but from NHTSA's point of view any behavioral 
change starts with enforcement, and you have also heard public 
education and letting people know that the laws are going to be 
enforced, and that of course is general deterrence.
    One of the things that I think personally will make a big 
contribution in the future will be automated enforcement 
because we can never put enough police on the streets to stop 
red-light running, for instance. And I know that is 
controversial in some political domains and people talk about 
lack of privacy, but when people are breaking the law and 
putting other people's lives at risk, I do not think they 
should complain about getting a ticket for it. So one of the 
hopes for the future in enforcement is automated enforcement.
    But why don't I turn it over to Bud, and you might want to 
talk about setting the speed limits.
    Mr. Wright. This is Bud Wright. I do not have a lot to add 
to what Bill said because I think he stated it well. This does 
begin with setting and posting reasonable speed limits. We know 
that analysis does not always take place, does not necessarily 
have to take place on an individual roadway basis, but it 
certainly should relate to the kinds of design characteristics 
for a roadway and take into account local conditions. We know 
that speed limits are not properly set throughout the country.
    So with regard to any enforcement mechanism, whether it be 
at intersections where we see red light violations occurring or 
whether it be on speed limits on general roads, the engineering 
analysis needs to take place first to say that we have in place 
a system that makes sense, and then aggressive enforcement 
needs to take place to ensure that motorists are complying with 
those laws. We are doing some things with regard to speed 
limits which we think are going to demonstrate some new 
techniques that might work for the future. We are spending 
research and technology money, for example, to look at the 
effectiveness of variable speed limits, that take into account 
time of day, roadway conditions et cetera. There is much 
technology today that would allow us to post variable speed 
limits that could change, again given conditions at the time of 
day.
    We also are looking at pilots regarding speed limits in 
work zones, as was referred to by Mr. Hill earlier. We 
recognize that as a significant problem, and using the 
technology that we have available today to make sure that the 
right information is available to motorists as they pass 
through, including using variable speed limits in work zones 
could make a substantial difference.
    One thing that I would add to the statistics that Bruce 
related to you is that you can cut this pie in a lot of 
different ways. And when we say 40 percent are alcohol-related, 
and x-number are related to speed, we also know that close to 
38 percent of the crashes that result in fatalities are single-
vehicle run-off-the-road crashes, and 30 percent approximately 
are related to speed. Those are not conflicting statistics. 
They are just cutting things from a different perspective. 
There is a behavioral element associated with many crashes. 
There is also a roadway element associated with those same 
crashes. The individual speeding might be an alcohol-impaired 
driver and might be the victim of a single vehicle run-off-the-
road crash.
    I guess my point is that it is a multi-dimensional issue 
that we are looking at, and certainly much more aggressive and 
effective enforcement of alcohol incentives or prevention 
programs would make a difference. But at the same time, taking 
steps to ensure that even someone impaired, unfortunately, is 
less likely to be a party to crash by putting in rumble strips 
or taking other measures on the roadway itself can make a 
difference as well, and a substantial difference, we think.
    Mr. Walsh. If you would permit me one last comment, since 
we are tag-teaming you, in our economic impact study, we looked 
at crashes in which at least one driver was exceeding the legal 
speed limit or driving too fast for conditions, and the costs 
were estimated to be $40 billion in 2000. This is related to 
12,350 fatalities and 690,000 non-fatal injuries. It represents 
30 percent of all fatalities and 13 percent of all non-fatal 
injuries. So it is a very significant problem.
    Ms. Van Mark. Mr. Holmes?
    Mr. Holmes. Thank you.
    I think we have lost the battle on speed. I think our speed 
limit signs have very little if in fact no credibility. Fifty-
five miles an hour basically means 68 miles an hour, and that 
is based on an analysis of people's actual speeds. I think the 
policy in many States is if you are going 69 they will pull you 
over, and in a 55-mile-an-hour zone if you are going 68, they 
won't.
    People flout speed limits. Why don't we forget about speed 
and concentrate on following too closely? I mean, the only 
problem with speed is that you cannot stop in time to prevent a 
collision. So if we would figure out a mechanism to enforce 
leaving proper distances between vehicles, which the distances 
increase with speed, I think you might get a little more bang 
for your buck.
    The other thing which was alluded to by one of the earlier 
speakers is that we can have--it is unknown what impacts we can 
have on driver behavior. The folks from MADD have been part of 
a huge success. You have seen a societal sea-change in terms of 
people's attitudes toward drunk driving. In other areas such as 
speed, I do not think there has been any impact. I mean, seat 
belts is kind of a no-brainer, and yet we have a substantial 
chunk of the population which for one reason or another just 
won't take advantage of them.
    We can, however, control the roadway environment. We can 
make sure there are shoulders. We can make sure the turns are 
graded. There are physical things that we can do in the 
structures that we build that will be more forgiving and thus 
help prevent accidents.
    Ms. Hamilton. May I just make comment? MADD has done a lot, 
as well as other people in this room, to change behavior about 
drinking drivers. But there are still 40 percent of the people 
out there who are drinking and driving and being killed. We 
cannot lose sight of that fact. We have done a lot, but there 
is so much more that has to be done to change that problem.
    Ms. Holst. This is Kathi Holst with ATSSA. It is rewarding 
to know that when I back out of my driveway with my children in 
my car they do not allow me to put my car in gear before I put 
my seat belt on. Organizations are commended for that effort in 
teaching our children that. And it is nice to know that at 
least people know what a designated driver is. We certainly 
have a long way to go before everybody follows those rules.
    But the one thing of those three factors--the road, the 
automobile and the driver--the one thing that is static and can 
be controlled, at least to a great extent, is the roadway 
itself. And that is why we certainly look for dedicated safety 
dollars that certainly can be flexed at the State level. There 
are opportunities in New Hampshire and Vermont and more rural 
areas with two-lane rural roads that need emphasis on safety 
dollars toward those goals that differ from the Chicago area, 
where it is highly urban and congestion and mobility are bigger 
issues. So we do endorse certainly flexibility within the 
State.
    We urge the focus be on dedicated safety dollars to improve 
roadway safety. And when we do so, we are talking about target 
areas that have been identified as high risk--intersections, as 
has been said. Mr. Wright offered the statistics on the number 
of crashes that occur there. A third of all fatalities involve 
the roadway itself, and that factor certainly cannot be 
overlooked.
    Other target areas--older drivers, as I mentioned earlier, 
based on current estimates, the number of driver fatalities for 
older drivers will triple by 2030. That is a big number. That 
is about 24,000. Work zones--something near and dear to my 
heart, as I am a traffic safety contractor in the Chicago 
area--more and more work zones are being done at night. There 
is always a great deal of controversy as to whether or not we 
should keep a full stretch of construction highway closed, or 
if we should open lanes back up and let traffic expand back 
into the full lanes and close them again. More nighttime work 
poses a huge concern for us in terms of the work zone target 
area because I would certainly rather have my workers working 
beside congestion than high-speed traffic that, as was 
mentioned earlier, typically will involve more impaired drivers 
who left the bar at midnight or one o'clock in the morning and 
are driving home at high speeds.
    So it is important that we not lose focus on the fact that 
the roadway itself is something that we can control with more 
dedicated safety dollars that can be flexed at the State level.
    Ms. Van Mark. Thank you.
    I have just been given the green light, so I can ask 
another question, according to our moderator.
    This is for you, Mr. Hamberger. I will admit that the world 
of the railroad industry is a mystery to me, so I am hoping you 
can help me understand a few things. I know that the rail 
itself is private property, so when a person crosses over the 
rail at a grade crossing they are actually on private property, 
which is why I am assuming you refer to people who are on the 
track when a train hits them as trespassers, because they are 
on your property.
    Mr. Hamberger. That is correct.
    Ms. Van Mark. Under your proposal, you are asking us to 
increase the amount of money for Section 130 money to now 
handle the maintenance of those grade crossings. Who currently 
handles that maintenance and who is liable for that 
maintenance, or is anyone?
    Mr. Hamberger. The individual private railroads handle that 
maintenance. Our survey indicates that it costs the industry 
about $200 million a year to maintain the signal systems. If 
they don't work, we are liable. And so it is a major effort on 
our part, obviously, but what we would like to see, and just 
building on Kathi Holst and Brian Holmes on your previous 
question, those investments in the Section 130 program, if you 
separate a grade crossing, for example, it is a permanent 
remedy to a safety problem. You are not working on trying to 
change people's behavior. It is a physical investment that can 
be made that can remove that from a possible accident in the 
future. So if it is separated and, of course, if you improve 
the gates and have it be a more active grade crossing warning 
system, then obviously that has a tremendous impact as well.
    There was a study--I guess it was officially done in the 
1990's, I think John, that the Department of Transportation was 
directed by the Congress to determine what the proper cost 
allocation and whose responsibility it is to put those grade 
crossing signals in. It was determined that it is a highway 
responsibility, it is a highway safety responsibility, and the 
industry, the freight rail industry is responsible for as much 
as 10 percent of the cost, but it is generally in the 5 to 10 
percent investment. Then we have over the years taken on that 
responsibility of maintaining them.
    Ms. Van Mark. Just a real quick follow up to that, then--as 
I understand it, right now the railroad industry does pay a 
fuel tax that goes to deficit reduction.
    Mr. Hamberger. That is correct.
    Ms. Van Mark. And you would like, obviously, to eliminate 
that tax, but at the same time you are asking the highway 
community or specifically the Highway Trust Fund to make 
greater investments which you just showed us . . .
    Mr. Hamberger. In highway safety.
    Ms. Van Mark. . . . is private property. I am wondering, 
what would be the reaction of the rail industry if that money 
was redirected to the highway trust fund, thereby opening up 
more money for the types of program improvements that you are 
suggesting?
    Mr. Hamberger. Well, there are several problems with your 
question. It is not an investment in private property. It is an 
investment in highway safety.
    Ms. Van Mark. I guess from the perspective, you are asking 
the question is whether or not there is a problem, but go 
ahead.
    Mr. Hamberger. No, it is not an investment in private 
property. It is an investment in highway safety that is 
determined by the Department of Transportation, that this is a 
highway safety issue. The request that we have is that that 
Section 130 Program that is currently funded out of the Highway 
Trust Fund, properly so, as a highway safety program, recognize 
that there could be an even greater return on that investment 
if more money were spent. And so, the 4.3 cents, just to echo 
again what my friends in the highway industry say, the best way 
to improve safety and the best way to improve safe operations 
is to make sure that you have enough investment in the 
infrastructure. I have heard $41 billion, $50 billion, $60 
billion needed to invest in the highways. The freight railroads 
invest in their own infrastructure. We are the most capital 
intensive industry in the country. We routinely invest 16 
percent of our total revenues back into our own infrastructure, 
compared with manufacturing of about 3.5 to 4 percent.
    So what we suggest to you is that that money, which went 
for a very good cause, I suppose, to get rid of the Federal 
deficit, should be returned to us, as well as the barge and 
towing industry asking for the same thing, so that we can 
invest it in our own infrastructure.
    So I guess I have a disagreement with your basic premise 
that the investment of a grade crossing safety, whether it is a 
separation or whether it is a signal system, is an investment 
in private property. Rather, I think the Department of 
Transportation has determined it is an investment in highway 
safety.
    Ms. Van Mark. Since I have gone over my time by 9 minutes 
and 40 seconds, I will be quiet, but I hope we get a chance to 
talk about this some more.
    Mr. Hamberger. We will come back to it. Sure, of course, 
thank you.
    Mr. Haifley. Mitch Warren?
    Mr. Warren. Thanks. I would also like to thank everyone for 
making the trip and making another one of these symposiums a 
success. I want to thank John Haifley for his work in putting 
this together.
    I will ask a couple of more specific questions, I guess. 
One, in Ms. Roberts' written testimony, you propose 
consolidating the incentive grant programs into one large 
highway safety grant program, and the testimony provided some 
compelling arguments about the bureaucracy and bureaucratic 
issues involved in administering a number of similar programs.
    I wanted to give Ms. Hamilton an opportunity, as a 
representative of an advocacy group, just to respond to that 
proposal and provide your thoughts.
    Ms. Hamilton. You are talking about moving the 410 into the 
402 funds?
    Mr. Warren. Yes, consolidating.
    Ms. Hamilton. Consolidating everything together? I think 
that what we have to look at is, taking the numbers away from 
the sections is not the issue. What is important to look at is 
the effectiveness of the programs that are within those, in the 
repeat offender and in the open container, and making sure that 
the laws get passed across the board. We are not condemning 
those programs because they have been very effective. We do not 
want to close any doors on these. It is a good idea to know 
where that money is being spent, and if it is being spent 
effectively.
    Mr. Warren. Mr. Walsh, any thoughts on the issue?
    Mr. Walsh. Well, you know, in my 2 minute summary, we want 
to simplify the grant structure. The more grant programs there 
are and the more requirements that have to be met and the more 
reports or applications that have to be made, it puts a 
significant strain on the States that have to do the work.
    On the other hand, the tension, you know, mentioned by Ms. 
Hamilton is if you really believe there are specific actions 
that need to be taken to make a difference, arguably you have 
to target funds for those differences. It is a very complex 
equation.
    Mr. Warren. I will suspend my question for a moment and 
introduce Senator Reid.
    Senator Reid. Having just left cloning . . .
    [Laughter.]

                 STATEMENT OF HON. HARRY REID, 
             U.S. SENATOR FROM THE STATE OF NEVADA

    Senator Reid. I apologize for being late. We were doing 
terrorism insurance, and all of a sudden cloning showed up. And 
I spent the last night and this morning trying to work that 
out. I think we have it worked out. We are working on an anti-
terrorism insurance piece of legislation. It is extremely 
important to the country. We have realtors, developers, 
insurance industry and the financial institutions who are 
having real trouble because they are simply not writing anti-
terrorism legislation. We have construction projects around the 
country on drawing boards that cannot go forward. We have 
construction projects that are being shut down, so we are 
trying to complete this, but the rules of the Senate make it 
real tough. But I think we are going to be able to get 
something out of the Senate next week.
    So that is where I have been. I apologize for being late. I 
will just take a little bit of time. My schedule is really a 
couple hours behind time already today. I have been on this 
committee since I came to the Senate. It is an extremely 
important committee. It is the public works committee of the 
Senate. And we address many important issue in the series of 
hearings and symposiums that we have had this year. We have 
developed a new way of approaching legislation. I thought we 
would try something different. For decades and decades, what we 
do is we have Senators up here and to be frank with you, that 
is about how it looks when we have a hearing. We do not have 
many people show up. So we have these Senators conducting the 
hearing, and the people that are really well-placed to ask the 
good questions are the staff sitting around doing nothing. They 
cannot ask questions in a formal hearing like that. So I 
thought we would come up with something else.
    We are fortunate to have extremely dedicated, loyal, public 
servants who work on various staffs in the Senate. They are 
really well-educated and extremely good. They are not involved 
enough, and they usually--not usually--they do most of the work 
as far as getting the legislation so that we are in a position 
to move it either out of the committee or on the Senate floor. 
And I felt this might be a good way to get them involved, and 
it has worked so well; that there is a good interchange of 
ideas and these valuable staff are able to ask questions. They 
usually, I am sure, sit back there while we are there, and say, 
why didn't you ask the question--and mumble a few other things, 
I am sure they do. This really has been a big help. We have 
made great progress.
    Now, we all understand the importance of moving things in 
our economy--freight. We understand how important it is to 
reduce congestion for improving our quality of life. And in the 
final analysis, though, we really have to take a look at 
safety. That is what this is all about here today. We have made 
great strides in safety. It goes without saying the progress we 
have made over the years. Roads are safer. Vehicles are safer 
to be in. But the level of fatalities still remains very, very 
high and it is unacceptable.
    As all of you know, more than 40,000 people die on our 
roads each year, and more than 3 million are injured every 
year. Highway safety is an issue that touches every one of us, 
and that is what this symposium is all about. I am glad we have 
people who are experts in this field to talk today to this 
committee.
    Once this symposium is completed, the information will of 
course be taken and shared with the rest of the committee 
members in preparation for moving next year our very important 
highway bill.
    So thank you for being here, and I again apologize for 
being late.
    Mr. Warren. Do you want to go through the 15-second quick 
sound bites or your presentations?
    Mr. Wright. Thank you, Senator Reid, for the opportunity to 
be here, and thanks to your staff and their leadership in 
putting together this symposium. I am Bud Wright with the 
Federal Highway Administration.
    Transportation safety, as you noted, is a national health 
issue resulting in more than 40,000 deaths and 3 million 
injuries per year. We must do better at addressing this 
epidemic. Our approach must be comprehensive, addressing 
drivers, vehicles and the roadway. It must be based on good 
data and it must be a collaborative effort in which Federal, 
State and local agencies and the public and private sectors 
work together.
    Thanks again.
    Mr. Warner. Thank you, Senator. I am Bruce Warner. I am the 
director of the Oregon Department of Transportation, also here 
representing the American Association of State Highway and 
Transportation Officials.
    To put the numbers in a little different spin, if the day 
is an average day, 114 people will lose their lives today on 
the States' and the Nation's highways and roads. Almost 9,000 
people will be injured. I agree with Bud that something needs 
to be done. I believe that the overall Federal investment in 
this program must be increased substantially, we believe at 
least one-third from where we are today. We also believe that 
the investment in transportation safety needs to nearly be 
doubled during that same time period.
    Mr. Walsh. Thank you, Senator Reid. This is a wonderful 
opportunity for us to get together and discuss a very important 
issue. My name is Bill Walsh. I am from the National Highway 
Traffic Safety Administration.
    Bud has mentioned the size of the problem. You cannot 
calculate the cost to American families of these tragedies. We 
have calculated the economic cost as being $230 billion. That 
is direct economic costs. It is something that affects the 
daily lives of everyone.
    We are in a position where we can make a difference and we 
must work together to make a difference.
    Thank you.
    Mr. Hamberger. Senator, Ed Hamberger with the Association 
of American Railroads. It is pleasure to be here.
    As you know, freight railroads are currently the safest 
mode of transportation in America. Our biggest problem is the 
grade crossing fatalities that occur--about 400 a year, a 
little over 400. There is a very worthwhile, effective Section 
130 Program that this committee has funded over the years, 
which has brought that number down from over 1,000. We just 
encourage you to continue to fund it at higher levels, 
hopefully when you reauthorize.
    Ms. Roberts. Good morning, Senator Reid. I am Tricia 
Roberts with the Delaware Office of Highway Safety and I am 
representing the National Association of Governor's Highway 
Safety Representatives.
    States have clearly made a lot of progress in highway 
safety, primarily as a result of TEA-21, but more must be done. 
In effect, we have reached the low-hanging fruit--those persons 
that are easy to convince to drive safely. If we are to make 
further headway with the more difficult populations, States 
must have stable and reliable funding, simpler more 
consolidated programs, more resources to address specific 
target populations and emerging safety issues, better data, 
additional safety research and other tools.
    Thank you.
    Mr. Holmes. Good morning, Senator. I am Brian Holmes, 
Maryland Highway Contractors, here today for the American Road 
and Transportation Builders.
    We believe that all aspects of the Federal Highway Program 
have significant safety benefits and that absent a commitment 
to substantially increase funding, we are playing a zero-sum 
game here. We are just trying to eat each other's lunch instead 
of working together collaboratively to really address and get a 
real handle on safety issues.
    Thank you.
    Ms. Hamilton. Good morning, Mr. Chairman. My name is Wendy 
Hamilton and I am President-elect of Mothers Against Drunk 
Driving.
    We are deeply concerned at the number of people that are 
killed in alcohol-related crashes. That is 40 percent. That 
number is not moving. MADD's goal for the reauthorization of 
TEA-21 is to save lives and our objective is to ensure a 
substantial funding increase for priority traffic safety 
programs.
    Thank you.
    Senator Reid. I appreciate very much everyone--oh, I missed 
a couple. Let me just say this, though, on drunk driving. Reno, 
Nevada recently we had a drunk driver go the wrong way on a 
freeway; killed five in a family. He was uninjured, of course. 
I just have so much difficulty understanding why people still 
drive and drink. I just don't understand it. It is a mystery to 
me and I do not know what more we can do, but that is one thing 
I want to make sure that we do whatever we can to get these 
people off the roads. It is a terrible tragedy--all five of 
this family killed for no reason. There was no way this family 
could have avoided being killed.
    Mr. Hill. Good morning, Senator. I am D.B. Hill, III. I am 
a highway contractor from Little Rock, Arkansas.
    Senator Reid. You sound like it.
    [Laughter.]
    Mr. Hill. Thank you. I am going to take that as a 
compliment.
    [Laughter.]
    Mr. Hill. I am also chairman of AGC's Work Zone Safety 
Committee.
    In 2000, nearly, 1,100 people were killed in highway work 
zones, most motorists and our employees. Just Wednesday, 2 days 
ago, there were six deaths in a single work zone accident on 
one of our jobs in Eastern Arkansas. AGC contractors are deeply 
troubled by this trend. Incentives need to be created to 
promote more driver awareness, to provide better enforcement of 
traffic laws, and to encourage States to make wider use of 
positive barrier separation and other work zone safety devices.
    Thank you, sir.
    Ms. Holst. Good morning, Senator. I am Kathi Holst, 
President of the American Traffic Safety Services Association.
    ATSSA's core purpose is to advance roadway safety. I am 
here to urge you to invest $3 billion annually to make 
America's roads safer by addressing high risk roadway 
activities, targeting older drivers, work zones, intersections, 
pedestrians and speeding. I very much appreciate the 
opportunity to be here.
    Senator Reid. Mr. Hill, I did mean that as a compliment.
    Mr. Hill. Thank you, sir.
    Senator Reid. Thank you all very much for your being here. 
Just from the little bit that I have been able to hear, I look 
forward to my briefing on this next week.
    Thank you very much.
    Mr. Haifley. Mitch Warren?
    Mr. Warren. I will just finish up real quick.
    Ms. Hamilton. Can I clarify one thing, please, on the 
Section 402 response that I had given earlier?
    Mr. Haifley. Sure.
    Ms. Hamilton. In regards to consolidating--Wendy Hamilton 
from MADD--the impaired driving countermeasures to a single 402 
program, MADD's priority is to reduce the number of traffic 
fatalities and injuries. The committee should evaluate the 
effectiveness of all programs. MADD supports streamlining the 
grant programs and the consolidation should be an option with 
the goal of saving lives through the proven effective programs.
    Mr. Haifley. Thank you.
    OK?
    Ms. Roberts. If I can just address your question also. 
Tricia Roberts from NAGHSR. I cannot stress enough how 
difficult from a State perspective those who are responsible 
for administering these dollars and administering all eight of 
the grant programs, plus the two penalty provisions, how 
difficult and cumbersome all of these programs have been to 
administer. Not that we are not grateful for the increase in 
funding and all the programs it has allowed us to do, but it 
has caused an incredible amount of administrative headaches and 
much, much too much time put on just administering the 
programs, rather than focusing on what the money is really 
there for, and that is for program development, implementation 
and evaluation of the effectiveness of the programs that we are 
implementing. Consolidation is essential.
    Mr. Warner. Bruce Warner with the Oregon Department of 
Transportation. I want to make it clear from AASHTO's 
perspective, one of the things we are recommending is that you 
folks require that States come up with a goal-oriented 
performance-based comprehensive safety plan that looks at all 
elements--engineering, education, enforcement and emergency 
services. We believe that if the States do that and do that 
with the coordination and cooperation that should be required, 
they are going to identify the priority areas for the State. If 
for example somebody said that they wanted to put the majority 
of their efforts on seat belts, they ought to have the ability 
in their States to use the money as flexibly as possible to 
attack what they believe is the No. 1 problem in their 
particular State, where they can again get the biggest bang for 
the buck and make the most impact in terms of the lives saved 
and the injuries reduced.
    So I think that what we are saying is we want flexibility 
in the use of those dollars to implement those strategic and 
safety plans that the States should do and should do in a 
comprehensive, coordinated manner.
    Mr. Warren. Mr. Walsh, a quick question for you on 
intersection-related crashes. Do you have any data or any 
feedback that has shown whether or not red light cameras have 
been effective at reducing crashes at intersections?
    Mr. Walsh. Yes, but I cannot remember the number.
    [Laughter.]
    Mr. Walsh. Yes, in fact there is a wide range, and I would 
be happy to supply it to you. There have been a number of 
research studies done, and many of the studies it is shown to 
be very, very effective, very high percentage of crashes are 
eliminated. I will provide that for you later.
    Mr. Wright. I was just going to add that as was stated 
earlier, enforcement really is a key in many areas of what we 
do. It is also clear pre-9-11, but certainly post 9-11, that 
the enforcement community has many priorities and many 
activities to deal with. Anything that we can do to advance 
enforcement using automated technologies is going to be a net 
benefit. There are right ways and wrong ways to do it, however, 
and we very much believe that ensuring, as I stated earlier, 
that proper engineering takes place at intersections before 
automated technology is used is a key element to that.
    But given that circumstance, we do believe that automated 
technology and red light running enforcement can make a 
difference. As Bill stated, there are statistics that show that 
they are effective means and effective tools.
    Ms. Roberts. Tricia Roberts. Just a little add-on to the 
red light running--I have just been told that the Insurance 
Institute for Highway Safety actually did do a study on an 
automated red light running project that is happening in 
Oxnard, California, I believe. They did show a 29 percent 
reduction in fatalities through that project evaluation.
    Mr. Holmes. Speaking from a personal experience with a red 
light camera, I did not stop making a right turn. I did not go 
through it. I mean, I did not go through the intersection. But 
the idea, and this was in Maryland, the idea that you pay a 
fine. It does not get reported. It is a civil matter. The 
insurance company never finds out about it. I think it would 
have huge benefits if you would install some of them in 
construction work zones. I do not know if the technology is 
there, but if we could just start mailing them out to people 
and said, hey, when we said slow down to 45, we meant it. 
Please give us $75. I think people would start slowing down 
pretty quickly.
    Mr. Haifley. That was Brian Holmes, for the record.
    Mr. Hill. And I am D.B. Hill, and I concur with him 
wholeheartedly, that we think it would significantly reduce 
speed through a work zone.
    Ms. Holst. This Kathi Holst with ATSSA. There is the 
technology available. There has been tremendous strides in 
smart work zones, intelligent transportation systems, all of 
which could certainly be incorporated into automated 
enforcement.
    Mr. Warren. Thank you. Thank you all very much for coming 
again. I appreciate it.
    Mr. Haifley. Megan Stanley, for 8 minutes.
    Ms. Stanley. Thanks.
    I think I am going to pick up on the end of this discussion 
about work zone safety and enforcement. Anecdotally, I think 
that 10 years ago, I had an expectation that I would get a 
ticket if I sped through a work zone, probably because I did 
get a ticket speeding through a work zone around that 
timeframe. But over time, I think that as work zones, as we do 
more highway construction and people are used to seeing them 
more often, and then they do not see people often when they are 
going by the traffic cones, so that expectation of safety risk 
and of enforcement of the speed reduction has disseminated over 
time, and I think that that is probably part of the cause, as I 
am sure you well know, of the increasing dangers of work zone 
fatalities and injuries.
    So I think whatever we can do in that area to raise 
awareness is going to be a positive benefit. I bet everyone in 
this room, like I do, wears their seat belt and does not drive 
drunk. But perhaps after today, you will not speed through work 
zones anymore. So I would like to ask a question of Mr. Hill. 
You mentioned incentives for doing some of what I think are 
extremely good ideas, like the different classifications of 
work zones, obviously increased enforcement. But who is 
responsible for implementing these measures in a work zone and 
how would incentives be targeted to make improvements?
    Mr. Hill. Generally speaking, the people that implement 
them are the State highway transportation organizations. That 
is who tells us as contractors what traffic control devices and 
develops the traffic control plan. Some States, contractors 
have input into the traffic control plan. Other States, they do 
not. The incentives we are talking about are an additional 
amount of money. We do not want to take it from other funds 
that are generated now. We want a new batch of money. In AGC's 
comments on reauthorization, there are several places it can 
come from. But we do not want the State highway organizations 
to have to make the choice between more asphalt and concrete 
and safety. Because in fact, they are doing that right now. We 
want this new money so if they have a good idea about how to 
make a work zone safer, then the Federal Highway Administration 
can award them extra dollars to do that.
    That is what we are talking about as incentives for work 
zone safety. Some States do a better job with it than others, 
from what I understand. Safety is a greater issue in some 
States than in others. Sometimes it seems to be where there 
have been accidents that kill workers, that those States are 
more interested in work zone safety, but do not let them have 
to choose between the two.
    Thank you.
    Ms. Holst. This is Kathi Holst with ATSSA. Mr. Hill's point 
is dead on. When cuts have to be made or when projects 
involving work zones have reached funding constraints, in all 
cases that I am aware of it is the safety aspect that gets cut 
from the program. I would like to share with you a very recent 
story as an example. I am the traffic control subcontractor on 
a very large reconstruction project on Interstate 70 in the 
down-State area in Illinois. The project involves 
reconstruction of a bridge deck. One of the safety devices that 
was called for in the traffic control plans, which was designed 
by the Illinois Department of Transportation, called for a very 
low-cost temporary barrier, a type-three barricade, the 
technical term is, which is a three-rail device, to close off a 
lane temporarily where the bridge deck was being removed. That 
is a very slow process, and so for a great deal of the time 
that that particular lane is being constructed, the route is 
actually driveable.
    Local residents and motorists figured this out quite early 
in the project. So on a regular basis, the motorists during the 
night hours would actually get out and move the type-three 
barricade and continue on through what was the closed lane of 
the reconstruction project. In all of our reports to the 
contractor and the Department of Transportation, we urge them 
to reconsider substituting these type-three, very portable 
devices with concrete barrier wall, which as you all know, a 
10-foot section you cannot pick up just by getting out of your 
car.
    Because of budget constraints, that request was denied and 
we continued to use these type-three barricades. And because 
part of my responsibility on the project is to perform a 
surveillance operation every night to make sure that the 
project is in good working order, we would continue to come 
upon these type-three barricades that had been moved and we 
would put them back, and we would continue on through the 20 
miles of the project and come back and quite often find them 
moved again.
    About 3 weeks ago, I received a call from the foreman on 
the project who informed me that once again these type-three 
barricades had been moved by a local motorist. Unfortunately, 
however, that day the rest of the bridge deck had been removed 
and it was no longer driveable. Therefore, his car plummeted to 
the roadway below and he was killed. Today, concrete barrier 
wall is now on that job site, but that is what it took.
    I am certain that there are many other contractors in this 
room that can relate those same types of stories. Let me give 
you another very quick one. There are now truck-mounted 
attenuator crash cushions that are mounted on follow vehicles 
in slow-moving or mobile operations throughout the country. 
These are extraordinary devices and have saved thousands of 
lives, I am certain. Because of some crash-worthiness studies 
at higher speeds, there is new technology for improved crash 
cushions that are called for on speeds of over 45 miles an 
hour. However, because of safety funding constraints, not all 
Departments of Transportation at the State level can keep up 
with those new technologies. Very recently, within the last 
month, a motorist was killed when he was driving 70 miles an 
hour and crashed into a crash cushion, which if he had only 
been going 45 miles or under would have saved his life. 
Unfortunately, however, that did not occur.
    So often, safety is the first thing to go. Maintenance of 
pavement markings will be delayed if the States run out of 
money. However, on a project when you have to choose between 
tons of asphalt or pavement markings, you cannot reduce the 
tonnage of asphalt and complete the project. So the pavement 
markings get delayed, both in construction and maintenance 
projects. I am certain that we have all driven the Nation's 
highways and seen signs that are terribly illegible--the 
sheeting has faded, the words have faded, some copy has perhaps 
even fallen off. I drive I-65 between my office in the Chicago 
area and another of my offices in West Lafayette, Indiana. 
There is a guidance sign that has been down for the 3 months 
that I have been driving. It is still there, but it is down--
certain that the State funding is too tight to have to replace 
that sign.
    However, if there was a major asphalt problem on that road 
where cars would not be able to pass, I am pretty certain that 
the asphalt trucks would be out there fixing that problem.
    So we certainly urge that safety dollars be dedicated to 
these low-cost target area type improvements--pavement 
markings, signage. They are low cost. They have high benefit-
to-cost ratios. Pavement markings, for example, is a 60 to one 
benefit-to-cost ratio. These types of eligible safety programs 
and activities have multiple uses, and certainly a wide 
coverage of benefits and opportunities.
    Mr. Holmes. Brian Holmes. I cannot speak to the issue of 
safety getting short-changed when it comes to the design of 
work zones. I do not have any knowledge of that. But there is a 
cost-based bias against positive separation. In other words, I 
think it would be helpful on the issue of work zone safety is 
basically we did not have work zones. If we had detours, if we 
constructed our pavements to begin with wide enough so that you 
could shift traffic over and put a barrier between them, so 
that you do not have the situation where you are directly--you 
know, you are working right next to traffic with a visual 
guide, instead of some physical protection next to you.
    I think that ties in with what was said earlier by one of 
my fellow panelists about getting safety and actually its 
maintenance, too, at the table in the planning stage. If you 
plan your facilities to maintain them, you can address some of 
these issues. It is kind of foolish to build a bridge and know 
you have to replace it in 40 or 50 years and you do not have 
any right-of-way. You should actually have twice what you need 
to build a bridge so that you have a place to build its 
replacement.
    Ms. Hamilton. Wendy Hamilton with MADD.
    We certainly agree that spending money on roadway design 
and vehicle design is incredibly important. We also know that 
focusing on people's behavior does make a difference. That is 
what was proven in the 1980's. We have to use consistent 
visible enforcement and we have to continuously educate and re-
educate the public on the problems. Billions and billions of 
dollars are spent every year on roadway construction, fixing 
the roads, and that is critical. But we are spending only a 
fraction of our resources on highway safety programs.
    Let me reiterate this point, that if 90 percent of the 
people in this country use seat belts, that 5,000 lives would 
be saved. That is a pretty simple fix. With regular highly 
publicized sobriety checkpoints that we conduct in every single 
State, we will see huge reductions in alcohol-related 
fatalities. We know what works. We just need more money to do 
it, to change behaviors.
    Ms. Stanley. Thank you for that point. I agree. I think 
that it is a matter of visible enforcement and it is a great 
challenge, I am sure, because that is a local law enforcement 
and a resources issue. I seem to think that there used to be a 
lot more police officer and law enforcement in and around work 
zones in the past than I have certainly seen anytime in the 
past recent years. So there has been a change in that kind of 
activity. I think that more of that would go a long way toward 
improving safety.
    My time is up. Thank you.
    Mr. Haifley. Thank you.
    I think it is time for a break. We are 18 minutes behind 
schedule, so could we make it a very brief break. And could I 
call on the gentleman with the American flag tie and the ODOT 
people there in the back to pull the sodas out from under the 
tables. I thank Ed Hamberger and Association for providing 
refreshments to all of you.
    Mr. Hamberger. It was railroaded in today.
    Mr. Haifley. No more than 10 minutes--hard 10 minutes.
    [Recess.]
    Mr. Haifley. I want to take this opportunity again to thank 
the Association of American Railroads--Ed Hamberger--for the 
fine refreshments. Thank you all for returning quickly. I would 
like to recognize a very senior individual, Ann Loomis, Senator 
Warner.
    Ms. Loomis. Thank you, and thank you all for coming today.
    I had some initial questions planned which I now intend to 
modify based on the conversations. Senator Warner was very 
involved in the repeat offender program and extremely 
supportive with Senator Chafee--he was author of our safety 
belt incentive grant program. We are very anxious to continue 
following how they have been effective, how we can improve them 
or perhaps modify them or other directions we need to take with 
those basic programs.
    I think from what I have heard this morning, though, I 
would like to engage everyone's response in this whole question 
of consolidation of the safety programs. As many of you know, 
this committee does not completely have jurisdiction over all 
the safety programs. We share jurisdiction with--we do not 
share jurisdiction. The Commerce Committee does have exclusive 
jurisdiction over some of the NHTSA programs.
    But I think Senator Warner has been privileged to be a 
member of the committee since 1985 and has worked on three 
Surface Transportation Reauthorization bills. I think we see 
the multiplication of these types of programs over time, 
frankly because of frustration on the part of the States' 
attention to these problems. Now, maybe we have all matured and 
grown over time, and we would like to work with the States and 
others on how we can simplify them to improve their 
effectiveness.
    But the key issue is going to be to ensure that we do not 
lose focus on what each one was intended; if it is just a pure 
block grant, that we do not lose focus on drunk driving 
initiatives or increasing safety belt use, and many other 
things. And maybe Ms. Roberts and then Mr. Warner, you can 
comment on how we could accomplish that without losing that 
focus.
    Ms. Roberts. Tricia Roberts, thank you.
    The fact that the States have been given incredible 
flexibility since 1994 to do really just what you are hoping 
that we will continue to do, and that is to focus on problem 
areas that have been identified in every individual States 
based on State data-driven problem identification, to create 
performance-based strategies based on the data that is 
available in the States.
    I want to assure you, speaking on behalf of the States, 
that should we be allowed to continue to have this flexible use 
of this money, of these funds, that we will continue to base 
our programming decisions and initiatives on data-driven 
problem identification. It is no secret to anyone that in every 
State, the top problems, the leading problems based on the data 
available is, as was mentioned in earlier testimony, booze, 
belts and the more broad, beyond speed, aggressive driving. I 
see no chance of emphasis coming away from that if we continue 
to be able to base our programming initiatives on data-driven 
problem identification in our individual States.
    Mr. Warner. Bruce Warner, the Oregon Department of 
Transportation.
    I think that was a very good response, and I would say the 
same. Again, based on if the States are required and do a 
comprehensive look at the safety requirements from all of the 
aspects of the programs, and for example if they could declare 
victory in seat belt usage, as an example--we are not there 
yet--and they wanted to focus more of those revenues toward 
drunk driving or DUII type of issues, based on the data and the 
priorities, that may be what they want to do. I still think we 
are a long ways. We need to continue to focus on the three top 
areas that you just heard about. I suspect that you will see 
the States come up with those. But again, as information 
becomes available, as we make progress in other areas, we may 
want to find that elderly drivers, for example, should be an 
emphasis area that we want to focus on, especially as the 
demographics and the age of the population changes over time.
    Ms. Loomis. Well, I think that is another thing that we 
have been hearing this morning. Clearly, TEA-21 did focus a lot 
on safety belt use and drunk driving issues through the repeat 
offender and the .08 Incentive Grant Program and the open 
container requirements. But clearly, we did not address as much 
attention to work zone safety and the more prominent issue, 
really, of older American drivers.
    How do we address the issue to give a Federal focus on 
those two additional problems without further creating more 
problems that you are describing, Ms. Roberts, in 
administering? Because States could focus on older Americans 
today. You could focus on increased safety measures in work 
zones today. But if you feel you need a Federal focus on that 
to get States to pay attention to those two problems, how are 
we not further creating more multiple programs, that you say 
are difficult to administer and take more staff time to 
administer?
    Ms. Roberts. Tricia Roberts. I am not sure that we really--
how can I put this? I am not sure the issues will really 
change. When you identify a particular priority highway safety 
problem in your State, whether that be booze, belts, aggressive 
driving, once you have identified that problem, you have to 
identify appropriate strategies to address or alleviate 
whatever that problem is.
    We are really talking about a specific population. We are 
not really putting mature drivers in the category of the 
highway safety problem, so to speak, like booze, belts or 
aggressive driving. But rather, they are a target population 
that needs to have education and enforcement initiatives or 
programs developed that address the problems associated with 
that particular population, just like a young driver, minority 
populations that may be over-represented. This is just another 
population that a State can effectively address the specific 
problems that have been identified to that population, like the 
elderly or the mature driver.
    Ms. Loomis. I guess, our States doing that today? Or do you 
not see that as still as high a priority as safety belt use and 
drunk driving issues? So my question is, what direction do you 
need from the Federal Government to focus on older American 
drivers or do you? Mr. Warner, you may want to comment.
    Mr. Warner. Again, Bruce Warner, the Oregon Department of 
Transportation. I want to make it clear that first off, I think 
we are talking about we need an increased investment in safety. 
We do not believe what we have is adequate. And what I think we 
are saying, if you look at the grants or the programs that are 
there, some of the things we are talking about do not fit in 
very well with those. The impaired driver, elderly driver is 
not the term I like to use. The word ``impaired'' driver is 
what we really want to talk about.
    I think we need some flexibility to be able to put some 
money into some of the things I have talked about in terms of 
identifying some of the impairments that maybe we need to work 
on, so that again we can get drivers off the road that should 
not be driving. We do not have some of the tools or the 
technology. I would like to quite frankly use some of these 
dollars to get to that. In some cases, because of the demands 
for the dollars to do some of the basics, the priorities we are 
talking about, we do not have the funds to invest in those kind 
of technologies or research.
    Ms. Loomis. Well, are you saying you would like flexibility 
to use your existing safety dollars that may be for safety 
belts or alcohol-related programs to spend on other safety 
programs? Or do you want flexibility from construction dollars 
for these programs?
    Mr. Warner. Again, if you look at the AASHTO proposal, what 
we are suggesting is we need to create a single 402 grant 
program that essentially combines all of those together so that 
we can have the flexibility to do what we think--put the money 
where we think it will do the most good. If impaired drivers is 
one of those areas, we ought to have the flexibility to be able 
to do that. We also need additional revenues to address the 
issues sufficiently.
    Ms. Loomis. Thank you.
    Mr. Haifley. Go ahead. I yield the gentlelady two 
additional minutes. Ann?
    Ms. Loomis. I just wondered if Kathi could . . .
    Ms. Holst. Thank you. Kathi Holst, ATSSA.
    Whereas the current safety programs that have been referred 
to target behavioral issues in general, what we are looking for 
is a distinction that takes congressional priority for those 
types of infrastructure issues--low cost, high value, target 
areas--such as older drivers. The Federal Highway 
Administration has developed guidelines and recommendations 
here to address the needs of older drivers. That is an example 
of the things that might be incorporated into a roadway safety 
program, distinctive of behavioral issues.
    Older drivers needs things like brighter signs, wider edge 
lines, larger fonts on signs so that they can be read from a 
further distance. You need three times as much light to see 
something at 65 as you did when you were 20. At 40, we need 
twice as much. And gosh knows, I am already there. So there is 
an issue between--a distinction that we would like to see 
between behavioral types of issues and infrastructure-type 
issues that target these areas at a low cost.
    Ms. Loomis. Thank you.
    Mr. Haifley. Lori Saroff, Senator Boxer's office.
    Ms. Hamilton. Thank you. Wendy Hamilton from MADD.
    I would like to thank Senator Warner for his leadership on 
the repeat offender issues. We have to remember that 58 percent 
of the people that were killed in 2000 in alcohol-related 
traffic crashes were killed with a .15 BAC or higher. We cannot 
lose focus on that kind of thing. So I would like to submit for 
the record MADD's program for controlling the higher risk 
driver, which includes the repeat offender drunk driver, those 
with a blood alcohol concentration of .15 or more; and to 
remind people that we are looking for restrictions on driving 
for those people. We are looking for restitution sanctions for 
people. And we are looking for recovery provisions which will 
address the alcohol use problems of these drivers.
    [Information provided by MADD follows:]

Mothers Against Drunk Driving (MADD) Program for Controlling the Higher 
                              Risk Driver

Higher Risk Drivers Are:
    a. Offenders convicted (conviction is defined as receiving a court-
imposed sanction) of a second driving-under-the-influence offense 
within a 5-year period. b. Offenders convicted of a first driving-
under-the-influence offense with a BAC of .15 percent or higher. c. 
Offenders convicted of a driving-while-suspended offense, where the 
suspension was the result of a conviction for driving under the 
influence.

Minimum Sanctions for Higher Risk Drivers:
    a. RESTRICTIONS on Driving:
    Repeat Offenders and High-BAC Drivers:
    1. A 1-year administrative license suspension for people who fail 
the breath test or a 2-year suspension penalty for refusal of the 
breath test. A portion of that license suspension must be a hard 
suspension (recommended time: 90 days)
    2. Impoundment/immobilization of the vehicle driven at the time of 
arrest for the period of hard license suspension.
    3. A 5-year period from the date of conviction during which the 
offender is subject to a .05 BAC limit and required to provide a breath 
test, if requested by an officer following a legal traffic stop.
    4. Alcohol ignition interlock required prior to issuance of 
probationary/hardship/work permit license and for full license 
suspension period.

Driving-While-Suspended Offenders:
    1. Alcohol ignition interlock device required for remaining license 
suspension period and any additional suspension period imposed as a 
result of the conviction for driving while suspended.
    2. A 1-month vehicle impoundment or immobilization upon the first 
offense for driving while suspended with vehicle forfeiture for any 
subsequent offenses.

b. RESTITUTION sanctions:
    Repeat Offenders and High BAC Drivers:
    1. Ten days incarceration, 30 days in a special facility, or 100 
days house arrest with electronic monitoring.
    2. $1,000 fine earmarked for drunk driving prevention, enforcement, 
and prosecution.
    3. If arrest resulted from involvement in a crash, the court shall 
require restitution to the victims.

Driving While Suspended Offenders
    1. If arrest resulted from involvement in a crash, the court shall 
require restitution to the victims

c. RECOVERY provisions
    Repeat Offenders and High BAC Drivers:
    1. The court will place the offender under probation for 2 years.
    2. The court will require, under the terms of probation, that the 
offender attends a treatment program of up to a year in duration, as 
required by a State certified substance abuse treatment agency.
    3. During the treatment period, the offender will be required to 
meet with a case manager at least once a month who will ensure that the 
offender is attending treatment as specified by the treatment agency 
and remains abstinent.
    4. The court shall order the offender to attend a victim impact 
panel, if such a panel is available.

Sobriety Checkpoints
    MADD advocates the use of regular, highly publicized sobriety 
checkpoints as a means of deterring, identifying, and apprehending 
higher risk drivers and other potential offenders.

Data Collection and Record-Keeping
    MADD urges the establishment and implementation of statewide DUI 
tracking and recordkeeping in order to effectively identify higher risk 
drivers and to ensure that States gather and keep accurate records on 
offenders.
    Ms. Saroff. OK. Take two. Hi, I lost my name tag here, but 
I am Lori Saroff and I work for Senator Boxer.
    The questions today are not necessarily hers. They are my 
viewpoints since I am trying to find out while I work with her 
to work on TEA-21 reauthorization. In the past, she has been 
very involved in safety issues--crash test dummies, ensuring 
different sizes for testing cars, hours of service for truck 
drivers, rollover standards, and we are still strongly working 
on NAFTA trucks and the safety issues that are going to happen 
on California's highways.
    I really also want to thank the committee for holding this 
today. I think it is a great forum to start talking about these 
issues. At the same time, I am sorry that advocates for highway 
safety are not here. Consumer Union is not here. They have done 
a lot of work on rollovers. Though we are talking a lot--the 
quality of the roads, the behavior of the drivers--a third 
component I think is also the cars people drive. They drive a 
lot of SUVs. You know, it is interesting how the rollover is 
impacting our crash numbers.
    And also, I think somebody from academia that we can work 
with as we are going through this--some new ideas in safety. 
Because one of the major things that I have heard and read last 
night and the testimony I have heard today is more money. 
Everybody wants more money. I am trying to figure out how you 
would use this more money. This is a different era than it was 
back when we were doing ISTEA reauthorization. We wanted to get 
it to a $32 billion program. You mentioned a $41 billion 
program. We are very constrained with the war on terrorism. So 
I really want to know, if we are able to get more money, where 
is that going to be spent.
    The first, I guess, MADD testimony talked about more money 
for NHTSA. How do you envision NHTSA having more funds, because 
I do know that they are underfunded?
    Ms. Hamilton. You mean the National Traffic Safety Fund? 
Yes. Where we would get that money?
    Ms. Saroff. No. How would you envision them spending that 
money? Where would you see more money for NHTSA being spent?
    Ms. Hamilton. More money being spent on . . .
    Ms. Saroff. How should they be using their resources?
    Ms. Hamilton. On more programs that are effective that are 
proven with the research that we have, and certainly on more 
enforcement and education in all areas of traffic safety, but 
certainly to be sure that because 40 percent of the people are 
killed in alcohol-related crashes, only 26 percent of that 
money is spent on alcohol safety programs. We want to make sure 
that there is more money spent in those areas.
    Ms. Saroff. Have you thought about how NHTSA would be 
complementing what the States are doing? Would it be a separate 
program? More of a national educational level? I am trying to 
figure out, if we give NHTSA more money, where should we put 
this more money? Should we give more money to the States for 
their safety programs or should we really concentrate it at the 
Federal level?
    I can also go to NHTSA. How do you feel like you need 
more--I know, you don't want to have a question--but how would 
you feel? Where do you think that NHTSA is lacking in funding 
and where you could use more money?
    Ms. Roberts. We would say the 402 Program.
    Mr. Walsh. Are you doing anything for lunch?
    [Laughter.]
    Ms. Saroff. I know it is a long question, but . . .
    Mr. Walsh. I don't mean that. I mean privately.
    I think what you will hear from NHTSA when we wind through 
the whole process is that in this behavioral area, which is 
really the primary focus of this meeting, we do have a Federal 
role in our Section 403 Research and Demonstration Program. You 
know, the real action--the States have to do it. The local 
governments have to do it. The 403 Program develops new 
programs, potentially more effective programs, more effective 
enforcement schemes, looking at more effective deployment of 
enforcement resources et cetera.
    I think that the problem is so complex that we probably 
could be a value to the States if we had the ability to do more 
research. The emerging areas that you have heard about with 
elderly. We have distracted driving. There are emerging issues 
that more work needs to be done on. But clearly, I think you 
have heard today that it is such a difficult program and 
problem that the States need more resources to carry out the 
actual interventions.
    So I think it would be a balance. I am going to be very 
general. I cannot really be specific. But it would be--I think 
the need is great and that we could make use of the money and 
be effective. I know that is really insipid, but that is the 
best I can do here.
    Ms. Saroff. I do not know if Mr. Warner or Ms. Roberts want 
to follow up on that, because both of you I think in your 
testimony talked about more funding. I know you had talked 
about a $41 billion program, and obviously all of that is not 
going for safety. But I am just trying to see if you see new 
money, new programs, or just enhancing what you have, that you 
cannot do what you need to do now.
    Ms. Roberts. Tricia Roberts. It is clear I believe that the 
States could maintain the programs that we have implemented 
under TEA-21 with the current level of funding. There is no 
question about that. But could we improve upon those programs 
and enhance the amount of enforcement? The answer is no. There 
is clearly more funding needed for those efforts. With 
additional funding, the States could support significantly more 
enforcement of highway safety laws, laws that are needed in 
order to influence these populations that we have been talking 
about--the populations. And those are the hard-to-influence 
populations, be they the mature driver, the teen driver, the 
non-seat belt user. They are incredibly difficult to reach with 
the amount of resources that we have right now.
    With additional funding, the States could also undertake a 
whole range of programs to address specific target populations 
that I just mentioned, and as must mentioned, emerging highway 
safety issues.
    One thing we have not talked about at all today, this is 
the first time I have even heard it brought up, is distracted 
driving.
    Ms. Saroff. Cell phones.
    Ms. Roberts. Well, distracted driving.
    Ms. Saroff. I have just gotten one. My boss, because I have 
talked about it, I know Senator Corzine has a bill about cell 
phones, and there is an article in here, ``Should Legislators 
Regulate Cell Phone Use While Driving?'' So I mean, those are 
new things coming up.
    Ms. Roberts. Those are emerging issues, hot on the minds of 
most of the general public, and little to know research, again, 
is available for us to really effectively address those issues 
at this point. Again, more need for more resources for research 
are needed.
    So the answer is yes, we do need more money to be able to 
do more than what we are doing right now.
    Mr. Holmes. Hi, Brian Holmes.
    It seems to me that it is evident that safety, 
transportation safety ought to become a serious research 
discipline so that, No. 1, that would of course be built on a 
solid source of reliable data. Several people have complained 
that the data they get now are kind of a hodgepodge of 
different recording systems. It seems to me that we are kind of 
fumbling here in the dark. We are trying to achieve an 
objective and we all have an angle on it and nobody really 
knows the answer.
    So it seems to me that if we are going to take this 
seriously, we ought to make a commitment and start doing some 
serious study on it, and that is one of the objectives that 
ARTBA has for seeking the increased funding levels we keep 
talking about.
    We do not know all the answers, so it is really hard to say 
that, well, if you gave us more money, we could do this and do 
that.
    Ms. Saroff. Then that is an issue. We do not want to just--
these are tight budget times. We obviously do not want to just 
throw out money and not know where they are going to be spent, 
because we need to get the bang for our buck. I think 
congressionally, I think that that is what the Senators are 
going to be looking at.
    Does Ms. Hamilton want to follow up?
    Ms. Hamilton. Yes, I think we do need to make sure that we 
are spending that money effectively. One of the things that we 
would suggest is that we remove the hazard elimination 
component of the Section 154 and 164, and put that money back 
into just highway safety programs for alcohol-impaired 
countermeasures. The other thing is that on October 1 of 2004, 
the sanctions component for .08 is going to kick into effect, 
and States are going to--that money can go back into 402 funds. 
I believe that is about $100 million.
    Ms. Saroff. Do you feel that--I guess this was after TEA-
21, but the .08 sanction that was passed 2 years ago, do you 
feel that that is working? Do you see more States implementing 
.08 legislation?
    Ms. Hamilton. Well, clearly, we worked for years and years 
and years in the States to get .08 passed, and one State a year 
would pass it. After Congress passed .08 in 2000, we saw 13 
States come on board and now it is up to 31 States and the 
District of Columbia. So sanctions clearly worked in that area. 
They worked with the 21 minimum drinking age and zero 
tolerance.
    When we look at this patchwork quilt of laws that we have 
across the country, I want to know that my family is going to 
be just as safe driving in Utah and New York as they are in 
Louisiana and Alaska where the fatalities are horrendous. We 
have got to do something that is going to make these States 
come into compliance with what the Federal Government is asking 
them to do on open container, repeat offender, the other laws, 
and make sure that everybody is safe.
    Ms. Saroff. Thank you very much. That is it. Thank you.
    Mr. Haifley. Mr. Hill?
    Mr. Hill. From the contracting community, we think more 
funds could be used in work zone safety. Like Ms. Stanley was 
talking about, she has not seen as much law enforcement in work 
zones in recent years as she said 10 years ago. Additional 
funding could be used for that.
    Ms. Saroff. To supplement the State Police?
    Mr. Hill. Yes, ma'am.
    New technology, photo enforcement, radar, intelligent 
technology systems that warn people of construction ahead, lane 
closures, traffic backups. So the contracting community does 
feel that additional funding could be very helpful in those 
areas.
    Ms. Holst. In terms of roadway safety-type activities, let 
me just give you some numbers. Federal Highway recommends that 
lane markings be expanded to a minimum of six inches, for 
example, for older drivers. The cost of that over a 6-year 
period of a reauthorization bill is just under $4 billion. 
Crash cushions, both in temporary use and in permanent use, at 
bridge abutments at the end of concrete barrier wall, that is 
about a $ .27 billion investment.
    AASHTO tells us that the overall driver older driver issues 
that would, or needs that would need to be addressed would be 
just under $20 billion. Rumble strips alone for run-off-the-
road crashes, which is a high-target area and a high cause of 
fatalities, would cost $5 billion. Sign replacements would cost 
about $3 billion for higher visibility, more legible signs. 
Just those items alone total $31.5 billion, and we have not 
even discussed things like mandatory training for workers, 
mandatory training for guard rail installers, research, 
breakaway systems, guard rail installation, increased presence 
of law enforcement, which has been mentioned here on a couple 
of occasions this morning and has a high success rate, 
emergency management, countermeasures for interceptions, 
automated enforcement. Those thing are not even addressed in 
the $31.5 billion over the 6 years.
    Ms. Saroff. Thank you.
    Mr. Haifley. Mr. Womack?
    Mr. Womack. Thank you, John.
    I am going to head in a bit of a different direction and 
address my questions to Mr. Wright and perhaps Mr. Walsh.
    Mr. Wright, you mention in your written submittal, the 
Intelligent Vehicle Initiative, and its relation to safety, so 
I am going to focus my questions on that. First of all, to what 
extent are the auto manufacturers participating in this program 
and in the research?
    Mr. Wright. They are very much involved, Kevin. There are a 
number of specific initiatives involving General Motors, 
involving Delco, involving others from the private sector. One 
of the key elements of the IVI initiative throughout its course 
has been that this is a public-private joint undertaking. I do 
not have the specific dollar splits. I can certainly provide 
that to you for the record, but that has been one of the key 
components of this activity, that it does involve those who 
will be responsible in the end for manufacturing new devices 
that will be necessary for this to be successful.
    Mr. Womack. Great. I would appreciate those numbers if you 
can send those to me.
    Second of all, up to this point in time, what types of 
products or systems do we have or have been developed?
    Mr. Wright. Give me 1 second, please. I do have some 
information on that, Kevin. Just 1 second. Well, let me speak 
to one that I can talk to off the top of my head. One of the 
things that we I know can be very successful are what we call 
vehicle highway cooperative systems. Those are one of the 
elements of the IVI agenda that is very much in play--where the 
roadway basically is talking to the vehicle and vice versa. For 
example, as a vehicle approaches an intersection, the driver 
may not be aware that the signal is about to change or that 
there is a vehicle approaching from another part of that 
intersection. Vehicle roadway cooperative systems provide that 
kind of information to a driver so that ultimately it might 
even contain a system that could brake the car, but certainly 
initially it could at least contain a system that would warn a 
driver that there is a crash about to occur in the 
intersection.
    Some of the other things that have been done, in Minnesota 
there has been the development of technologies for inclement 
weather, so that snow plows actually are able to detect where 
the side of the roadway is. We do not necessarily encounter it 
much in this part of the country, but for those from that part 
of the world, you know that the snow is often so high that you 
do not know where the edge lines are and that it presents a 
real risk to those operators. Using global positioning 
satellite is part of this IVI initiative and working with the 
private sector, we have been able to identify or to utilize 
technologies that allow for a much safer operation for those 
kind of services.
    With the Michigan Transportation Research Institute, MTRI, 
and DOT we have developed and are testing roadway departure 
systems that warn drivers when they are about to leave a 
roadway, again using advanced technologies that might be in the 
vehicle are that are in fact again vehicle-roadway cooperative 
systems. We have also worked with General Motors, Daimler-
Chrysler, Ford, Nissan and Toyota to develop a tool for 
measuring the workload associated with new in-vehicle 
information systems. It is not specifically related to the 
issue of cell phones, but certainly as we are trying to put 
additional technology into vehicles, that is one of the 
legitimate issues that has been raised. So again, part of the 
IVI initiative is addressing issues such as that.
    Those are just a couple of examples of some of the things 
that we are doing. Let me add just one additional one that I 
think is an important one. It relates to a topic brought up 
earlier regarding vehicles and spacing between those vehicles. 
Another part of this initiative has been with General Motors 
and Delco to test a rear-end collision-avoidance system on 
passenger cars--so again, passing information between vehicles 
to avoid the kid of collisions that can happen in high-speed 
circumstances in particular.
    Mr. Womack. Thank you.
    How close are we to implementing things like the road-car 
interactions, the rear-end collision avoidance, roadway 
departure types of things?
    Mr. Wright. Well, many of these, as with any kinds of 
improvements to vehicles, are generational kinds of 
improvements. Once we have proven that the technology works, 
then it is a process of installing those technologies in 
vehicles or outfitting roadways so that they can pass 
information between the vehicles and the roadway. Certainly, we 
are at a point where in the foreseeable future we will start 
having those kinds of technologies implemented, or included as 
part of standard features in vehicles. But realistically, you 
are looking at least a 10-year period after that point before 
you are getting the full benefit of those kinds of 
improvements. So for some of the earlier technologies, we can 
certainly imagine that they will be a part of instrumentation 
in vehicles in the very near future, but that does not mean 
that we immediately get all the benefits of those systems.
    Mr. Womack. One last question--GM has the night vision-type 
of thing, so that kind of fits in this category. Do you see the 
manufacturers just by themselves as these things mature putting 
them on, or are we going to have to spur them along?
    Mr. Wright. I don't really know the answer to that, Kevin. 
I think in some areas it will likely require the Federal 
Government, as has been the case in the past, to provide either 
requirements or incentives for the manufacturers to include 
those devices. But one of the things, of course, that we see 
also happening today is that consumers are much more safety-
oriented. They are looking for these kinds of new features in 
their vehicles. So it very well may be that the consumers are 
going to be demanding these kinds of improvements, and it would 
require less of the direct Federal intervention than might have 
been the case in the past.
    Mr. Womack. Thank you.
    That is it. Thank you, John.
    Mr. Haifley. Thank you.
    To quote from your invitation letter to this Safety 
Symposium, ``we . . . will conclude with each witness making a 
3-minute closing statement. The committee expects the closing 
to address the issues raised by the other participants, your 
colleagues, to enlighten the staff to new thoughts and 
concepts, to make specific funding and programmatic 
recommendations, and to make suggestions on how the ideas of 
other safety groups can be incorporated seamlessly into 
legislation that will save lives, reduce injury and reduce 
property damage.''
    With that petty task set before you in a 3-minute period, 
and we do need to hold to the 3 minutes, I recognize Bud 
Wright.
    Mr. Wright. Would you like for us to hand over legislative 
language as well?
    Mr. Haifley. That would be very helpful.
    [Laughter.]
    Mr. Wright. Given that formidable charge, let me make these 
closing comments.
    I think one of the things that has been emphasized here 
today most certainly is that the best safety results come from 
joint efforts. Hearing the proposals that have been advanced 
today, and the commitment of all the people in this room most 
clearly to advancing highway safety, I am confident that we 
will be able to make the kind of real progress that we need in 
tackling fatality and injury reduction.
    I believe that we really are, and as has been demonstrated, 
I think quite effectively in this forum, on the same page in 
many of the core areas and are focusing on many of the same 
issues, whether we represent government or the private sector. 
We are all looking for ways to make existing programs work 
better and assist the States to maximize their safety 
investments. Identifying and targeting high-risk crash areas is 
a strategy that we all advocate, and we all seem to agree that 
improving our causal data can help us accomplish this.
    The need for a strong research and technology program is 
another area of agreement, I think, and you have heard that 
throughout this day. A robust research program and leveraged 
advanced technology can be a key factor in jump-starting a 
reduction in fatality numbers from the levels of the last 
decade or so.
    But I think it is also important to emphasize, and again I 
think you have heard it expressed today by this group, that 
there is no single strategy and we have no magic wand. Real 
progress will require refinements in actions already underway, 
as well as new initiatives implemented over time in a 
coordinated, non-duplicative, and most important, cooperative 
effort. At the same time, we recognize that State and locality-
specific needs and problems cannot be overlooked.
    In my written statement, I described some of the efforts 
that we currently have underway to improve highway safety, but 
we know that we can and must do more. Substantial improvement 
in transportation safety has been identified by Secretary 
Mineta and by Federal Highway Administrator Peters as a core 
principle for the Department's reauthorization proposal. As the 
Administration bill evolves, we will carefully consider the 
issues that have been raised and discussed today, and obviously 
we certainly are interested in the views of this committee and 
the many other partners that we work with in highway safety.
    We want to continue to work with everybody here to ensure 
that roadway, driver and vehicle safety is given consideration 
in every aspect of the reauthorization of surface 
transportation programs.
    Thanks again for the opportunity to participate in this 
discussion. I hope what we have had to add is going to be 
helpful for the committee.
    Mr. Warner. Bruce Warner, Director of the Oregon Department 
of Transportation.
    I think you said it well, Bud. What I see around the table 
here is a consensus and agreement that safety is a priority, 
and that the loss of lives on our State and Nation's roadways 
is unacceptable and we need to address it.
    I also feel that we are all around the table saying that we 
do need additional resources for transportation safety. We also 
need to work closely together and I am very encouraged by the 
discussion that we had today. I also believe that there is a 
consensus, and again we have to check this, that we need 
flexibility, we need to have the ability to put the money and 
the resources in the areas that are most effective for reducing 
deaths and injuries.
    We do not have all of the data, as Bud mentioned. I think 
we need to do additional research to not only deal with the 
issues that are here today, but the things that are going to be 
confronting us in the next five, ten, or 20 years.
    In terms of investments, I want to make it clear that I do 
believe we need to increase substantially the amount of money 
dedicated to safety. We spend about $1.2 billion a year on 
transportation safety now, between the programs administered by 
Federal Highway Administration, NHTSA and the Federal Motor 
Carrier Safety Administration. We are suggesting that that be 
bumped up by an additional $1 billion a year.
    We also believe, and I believe, that you as the Federal 
Government should put language that encourages or even requires 
the States to work together and get to some of the synergistic 
and cooperative things that you are hearing today, because 
right now I think some of the politics and some of the 
organizations, frankly, of the various States get in the way of 
coming up with some of the unified and coordinated responses 
that we need to address transportation safety in a way that 
really addresses the needs.
    And then finally, in terms of the question I did not get a 
chance to answer from you, is that again the additional 
resources for transportation in general need to be recognized 
as a major priority because most States--not most States--I 
would say that many States, mine is one of those, are 
struggling just to maintain and preserve the system we have 
today, let alone trying to enhance it and to deal with the 
safety improvements that need to be made to intersections to 
deal with a quarter of the fatalities that are out there, or to 
deal with upgrading of two-lane roadways to just put things in 
like rumble strips or, as suggested, redoing signing. We are 
going to be focusing most of our energy in terms of just making 
sure our bridges are structurally sound and that our pavements 
are in good enough condition so they themselves are not 
hazardous to motorists.
    So I am very encouraged by what I see here, but again I 
think investment in transportation in a holistic way needs to 
be looked at, and transportation safety is a component that 
needs to have a stand alone program and funding. But overall, 
everything we do in terms of enhancing and improving the road 
system and transportation system with investments from the 
Federal Government will yield safety benefits in a big way.
    Thank you.
    Mr. Walsh. Thank you. My name is Bill Walsh from NHTSA. We 
have heard today from a broad segment of the highway safety 
community about the terrible toll highway crashes place on 
families and the economic health of our Nation. Losing almost 
42,000 people and suffering millions of injuries is not 
acceptable.
    NHTSA is very interested in working with the Department and 
the executive branch, with the Congress and with the broad 
partnership of State and local governments, safety advocacy 
organizations, and the private sector to define, develop, and 
implement the most effective highway safety programs possible. 
What the successor to TEA-21 must do is provide the authority 
and resources to support a balanced safety program that 
incorporates a safe operating environment, safe vehicles, and 
safe behavior by vehicle operators.
    In the context of NHTSA's statutory responsibilities, we 
need to develop programs that increase safety belt use, reduce 
impaired driving and speeding, provide timely and effective 
post-crash emergency medical care, and support efforts to 
improve motorcycle, bicycle, pedestrian and school bus safety. 
The bottom line is to improve safety. The potential return on 
investment is large. Two programs stand out for their potential 
to save lives and reduce injuries--increasing safety belt use 
and reducing impaired driving. The failure of crash victims to 
wear safety belts lead to an estimated 9,200 unnecessary 
fatalities each year and 143,000 avoidable injuries, costing 
society $26 billion. In 2000, alcohol-related crashes resulted 
in 16,792 fatalities, 513,000 injuries and $50.9 billion in 
economic losses. The Department recently reexamined how it 
would meet its long-range fatality reduction goal. It examined 
the entire range of highway safety initiatives and concluded 
that two out of three lives that need to be achieved to reach 
this goal would be met from achievable increases in safety belt 
use and reductions in impaired driving.
    These are the most significant challenges and opportunities 
before us today.
    Thank you very much for allowing me to participate.
    Mr. Hamberger. Mr. Chairman, Ed Hamberger, Association of 
American Railroads.
    Rail safety, of course, is not under this committee's 
jurisdiction, but I do appreciate the opportunity to be here 
and to point out that in fact freight railroads are the safest 
mode of transportation in the country. In fact, it is safer in 
terms of lost days at work from injury or illness incurred on 
the job to work for a freight railroad than it is to work at 
one of these fast food restaurants that we will probably all go 
to in a few minutes here up on Constitution Avenue.
    So as we take a look around, the No. 1 issue surrounding 
railroad operations is highway grade crossing safety--that is 
the Section 130 program which is under your jurisdiction. It 
has been an incredibly successful program. It is, to underscore 
our view and the view of the Department of Transportation, a 
highway safety problem. It is a highway safety program. 
Separation of grade crossings does not improve rail operations, 
it improves congestion and the smooth and safe flow of highway 
operations. So we continue to urge you to take a look at that 
and to fund it to the highest possible degree.
    And as you take a look down the road at what some of the 
challenges this committee will face, the growth in freight, the 
need to take a look at intermodal connectors, the need to take 
a look at intermodal yards, the need to take a look, and I 
understand there may be a hearing next month and I would 
welcome the opportunity to come back and get into more detail, 
but I see Kathy Evans out here from the Motor Freight Carriers 
Association--we work together with the trucking companies, with 
the ports, with the Intermodal Association of North America to 
try to move freight safely and get it off the roads.
    I would like to point out that I have eschewed the 
opportunity here, as I promised Senator Reid I would, to get 
into any of the other truck safety issues and I think we need 
to keep this in a positive vein and talk about how we can work 
together.
    If I might offer my apologies to the other members, I 
unfortunately have to run. I again want to thank you for the 
opportunity to be here and I am sorry I will miss your wrap-up, 
but excuse me.
    Thank you.
    Ms. Roberts. Tricia Roberts, National Association of 
Highway Safety Leaders.
    What is most clear from today's hearing, and I am very 
grateful for the opportunity to be here today at the Symposium, 
is that despite all of us having individual key emphasis areas, 
we all share single mission, and that is to save lives and 
reduce injuries on our highways in our Nation. It can only be 
accomplished through joint efforts. There is no other way to do 
it. It is only through a comprehensive approach, the approach 
that I hope that we have all been taking in all of our States, 
and that is to look at the driver, the vehicle and the road, 
where we accomplish and buildupon the successes that we have 
already realized.
    There is considerable consensus around this table today on 
the following issues: the need for stable, reliable and 
increased funding for safety is needed to improve again on the 
successes that we have realized. There is a need for better 
data and programs to support data improvements. There is 
additional need for additional research, particularly in the 
area of crash causation. And there is an absolute need for 
program consolidation and streamlining of the process.
    We need performance-based incentives and data-driven safety 
programs. There is a need for further discussion on areas such 
as sanctions and penalties. We are heartened by the fact that 
there is so much agreement on many of these issues. We believe 
that new programs focused on the areas of agreement will have a 
significant impact on reducing the terrible toll of motor 
vehicle crashes in this country.
    Again, thank you very much for this opportunity.
    Mr. Holmes. Brian Holmes.
    At the risk of sounding like a broken record, we need to 
invest more in our highway transportation system. The figure 
that has been used here today is $231 billion, representing the 
cost of the highway fatalities and injuries. As I said in my 
opening remarks, if you spend a dollar for highway 
improvements, you get a $2 reduction in terms of public health 
benefits.
    What does that mean? That means if we increase the 
investments to the $50 billion or $60 billion that is 
recommended by USDOT in its condition of the roads report, that 
would mean ramping up the At-grade Crossing Program. It would 
mean ramping up the Hazard Elimination Program, possibly 
folding into it the issues of older drivers. It might mean a 
new two-lane road program that would address specific locations 
where fatalities have occurred and remedying them so that more 
will not occur.
    For work zones, maybe it will mean more positive 
separation, and where that is not possible, why not look at the 
work zones as laboratories and look at automated enforcement 
and other intelligent transportation systems, as well as human 
factors research. Maybe we could learn some stuff by working in 
the work zones that we could apply to the system as a whole.
    All of these and all of the other fine ideas that we have 
heard this morning are tied to the investment level. If we do 
not significantly increase the level of investment in the 
reauthorized version of ISTEA, we are going to be competing. 
How are we going to compete? How are we going to say that the 
story ATSSA tells is either more or less compelling than what 
MADD is saying? We are all talking about fatalities and 
injuries and we all have a different take on it, but if we are 
not talking about a significant increase in funding, it is 
difficult for us to collaborate effectively.
    Thank you.
    Ms. Hamilton. Wendy Hamilton with Mothers Against Drunk 
Driving.
    I think we all agree that we are part of the puzzle and 
that working together we can put this big picture together. 
MADD has a close working relationship with Governors and 
Traffic Safety Offices and agree with States that the process 
needs to be simplified and additional resources need to be made 
available for traffic safety.
    Since September 11, approximately 12,500 people have been 
killed and more than 386,000 have been injured in alcohol-
related crashes in America. With the reauthorization of TEA-21, 
Congress has the opportunity to redouble the commitment to fund 
and properly equip those fighting the domestic war on alcohol-
impaired driving. Congress, the executive branch, the traffic 
safety community and the public have become complacent in 
addressing the human and economic carnage caused by alcohol-
impaired drivers. Perception and reality problem here. The 
drunk driving problem is far from solved in this Nation. This 
complacency has shifted the Nation's attention and resources to 
other issues and other traffic safety concerns.
    This past January, MADD convened an Impaired Driving Summit 
in Scottsdale, Arizona to focus on the lack of progress in 
addressing alcohol-related traffic crashes. This Summit brought 
together traffic safety experts from across the country to 
discuss the issue and develop effective strategies to 
revitalize the fight against impaired driving. Participants 
included representatives from Federal, State and local 
government, law enforcement, the medical community, 
researchers, advocacy groups and the corporate sector. The 
findings and recommendations from the Summit will be released 
next Tuesday, June 18, by MADD.
    The Impaired Driving Summit was an important first step in 
renewing the fight against impaired driving. Research 
demonstrates that the actions recommended in the Summit report 
will reduce alcohol-related traffic fatalities.
    MADD is calling on Congress to incorporate the following 
priorities as elements of any renewed TEA-21 Traffic Safety 
Program. First, increase resources for aggressive impaired 
driving enforcement, especially the use of frequent, highly 
publicized sobriety checkpoints. Sobriety checkpoints are cost-
effective tools to deter individuals from drinking and driving. 
Second, require States to enact comprehensive sanctions for 
higher-risk offenders defined by MADD and others as repeat 
offenders or those with a blood alcohol level of .15 percent or 
higher, or impaired driving offenders who drive with a 
suspended license. A comprehensive system to target this 
population should require license and vehicle sanctions and 
studies show such sanctions to be effective.
    Additionally, we call for support for the enactment of a 
national primary seat belt standard. And last, to establish a 
national dedicated traffic safety fund to support State traffic 
safety programs and Federal initiatives to reduce highway 
crashes, deaths and injuries. Research and experience 
demonstrate the effectiveness of a variety of laws in reducing 
alcohol-related traffic crashes, deaths and injuries. There are 
States that have not passed some of the most basic laws. Ten 
States have not passed administrative license revocation. 
Eighteen States have not passed .08 percent blood alcohol laws. 
Adoption of these and other laws across the States would save 
lives.
    The war against drunk driving has stalled in traffic. Drunk 
drivers are dangerous and deadly, and last year over 500,000 
American families were directly affected by this 100 percent 
preventable crime. This Nation bears the $230 price tag and 
there are solutions that will benefit us all.
    By focusing on these recommendations, we will bring about 
real reductions in impaired driving fatalities. The Nation must 
reverse the escalation in deaths and reinvigorate the fight to 
prevent impaired driving. It is going to take strong political 
will, resources, and the public commitment to save lives and 
prevent injuries.
    Thank you.
    Mr. Hill. I am D.B. Hill with Associated General 
Contractors. AGC and the contracting industry is pleased to be 
a part of this Symposium. We, too, agree we must work together 
for a total highway safety program, and for additional funds 
for the safety program. Our members feel very deeply that 
improving work zone safety should be a top national priority. 
The number of deaths and injuries annually in the work zone is 
unacceptably high, and has been rising steadily over the past 
several years.
    Too many of our members can tell sad stories about 
employees that have been lost to work zone traffic crashes. 
This cannot and should no be tolerated. AGC believes there 
should be a national policy on work zone safety. The three key 
areas that AGC believes should be addressed in this policy is 
work zone traffic enforcement, public awareness and 
communication, and positive barrier separation between traffic 
and workers. A national policy should look to change driver 
behavior in work zones, rather than attempting to design work 
zones to meet or accommodate drivers' attitudes.
    AGC also believes that we need to look at creating 
incentives for States to pursue work zone safety initiatives. 
We urge Congress to include in the TEA-21 reauthorization 
legislation incentives for States. We recommend the creation of 
a discretionary fund administered by the Federal Highway 
Administration to provide funding incentives.
    These initiatives should also provide funding to make wide 
use of law enforcement officers and devices such as photo 
enforcement. We thank you again for us being a part of this 
Symposium.
    Ms. Holst. Kathi Holst, American Traffic Safety Services 
Association.
    I would like to begin by once again thanking the sponsors 
of this Safety Symposium for allowing me to present ATSSA's 
roadway safety program proposal.
    The major question before the Senate as we approach 
reauthorization is how best to allocate $30 billion in roadway 
funds when you are receiving requests for more than $50 
billion. I certainly do not envy your task.
    We all agree today that safety must be our highest 
priority. Yet the reality is that safety is often the first 
item dropped from a highway construction project. Under our 
proposal, States would have great flexibility in how they would 
allocate these funds, provided they would be used for eligible 
safety activities. However, because of the paramount importance 
of safety, we believe the roadway safety program funds should 
not be flexed into highway construction.
    The safety needs of our country support enhanced roadway 
safety funding. ATSSA has proposed a roadway safety program 
that we believe could easily sustain a $3 billion funding 
level. The fact is that just improving lane markings, 
initiating some older driver programs, replacing signs and 
installing rumble strips and crash cushions alone would cost 
nearly $31.5 billion over the next 6 years. More remains to be 
done in the areas of upgrading intersection safety, pedestrian 
and bicycle safety, speed management and work zone safety, 
especially in the area of mandatory training for workers.
    ATSSA supports a dedicated core roadway safety program with 
reporting requirements that give Congress, Federal Highway 
Administration, the States and the motoring public a better 
understanding of what is being accomplished to improve roadway 
safety. Equally important is dedicating safety dollars that 
target low-cost safety improvements such as wider pavement 
markings, brighter and more legible and visible signs, rumble 
strips and more modern guardrails. All have wide application 
and can be installed relatively quickly and at a lower cost.
    Every eligible activity in the Roadway Safety Program has a 
benefit-to-cost ratio that is at least three-to-one, and as 
high as 182-to-one, according to the Federal Highway 
Administration. Our Roadway Safety Program not only would 
resolve problems that exist today, but also better position the 
Nation well into the future.
    Thank you once again for the opportunity to testify today.
    Mr. Haifley. Thank you all.
    I personally want to thank each of you for working together 
today. It has been very educational, at least for me, and it is 
difficult addressing highway safety issues. They are clearly 
national problems requiring cooperation, and coordination. They 
are more than numbers and more than policy decisions. They are 
ultimately about people.
    I would like to mention something about one of our 
witnesses. Today, she is celebrating 22 years of marriage, and 
I was wondering if you would join me in congratulating Kathleen 
Holst for 22 years of marriage today.
    [Applause.]
    Mr. Haifley. Thank you all. The meeting is adjourned.
    [Whereupon, at 12:30 p.m., the meeting was concluded.]


                         TEA-21 REATHORIZATION

                              ----------                              


                        THURSDAY, AUGUST 8, 2002

                                       U.S. Senate,
               Committee on Environment and Public Works,  
Subcommittee on Transportation, Infrastructure, and Nuclear 
                                                    Safety,
                                                      Reno, Nevada.
    The subcommittee met, pursuant to notice, at 3:10 p.m. at 
the Reno City Council Chamber, Reno, Nevada, Harry Reid 
[chairman of the subcommittee] presiding.

   WESTERN TRANSPORTATION NEEDS AND THE FEDERAL LANDS HIGHWAY PROGRAM

    Present: Senator Reid.

             OPENING STATEMENT OF HON. HARRY REID, 
             U.S. SENATOR FROM THE STATE OF NEVADA

    Senator Reid. The committee will come to order.
    Let me just say that this has been a busy day already. 
We've had a nice event at the airport, where we announced the 
construction of a new tower at the airport. We've got the same 
tower for air traffic control since 1957. As you know, that was 
when we'd just started having black-and-white TV and we had 
just started having rotary phones, and we have the same tower, 
basically. It's really inadequate, and in some areas unsafe, 
and we're going to build a new tower. Instead of being 55 feet 
high it will be about 200 feet high. All parts of the airport 
will be able to be seen.
    That's one thing we were doing today, and then we just left 
with the Federal Highway Administrator, Mary Peters, here on my 
right, the groundbreaking for the Spaghetti Bowl. It's a big 
project, as you know, and, as Governor Boyd said, it's between 
Reno and Sparks--didn't want to favor either entity. It's a 
massive construction project that will take more than 2 years 
to build. It's going to have a number of new lanes. It will be 
a Spaghetti Bowl. It will be lanes going around and up and 
down. It's going to have seven miles of sound barriers that 
will be constructed. So it's going to be a good project.
    I'm happy to call this meeting to order. Some may ask why 
we're doing this meeting, why are we having a congressional 
hearing with Washington staff here. The reason we are doing 
this is that I, as some of you know, was chairman of the full 
committee on two separate occasions, and voluntarily gave it up 
a few months ago, but I'm still the chairman of the 
subcommittee that writes the transportation bill that's 
reauthorized every five or 6 years, and that's why we're here. 
We will be holding hearings this entire congressional year. 
We've held hearings in the full committee. I have spoken to 
Chairman Jeffords and Ranking Member Senator Smith, and we have 
been doing some things differently this year.
    A number of people in this audience, and certainly you, Ms. 
Peters, have come to Washington when we have had congressional 
hearings and you have Senators walk in and out and you feel 
lucky if there's two there. Usually there's only one, because 
of a wide range of jurisdiction. It's just hard to do that. So 
the work is done by the staff, and so I figured why not just 
admit that. And we've done, instead of having so many 
congressional hearings as we've had in the past, what we've 
done is we've had a number of symposiums. Senator Jeffords or I 
will kick off these symposiums at a table much as where we are 
seated today, and we get started, and then we have people who 
are able to talk at length discussing with each other, 
witnesses actually talking with each other, talking with our 
staff, and it has worked out extremely well, gathering 
information for the massive, new, hybrid bill that's going to 
come out next year.
    This hearing here today is based upon our writing this new 
transportation bill. Congress passed the last transportation 
bill, called TEA-21--that term has come from the words 
Transportation Equity Act--and we did that in 1998, authorizing 
highway and transit programs through fiscal year 2003.
    Now, Nevada, because of TEA-21 for the year 2003, we have 
$218 billion for highway and transit programs, and this 
includes over $1 billion for the State of Nevada. Nevada, I 
hope and am confident, will do better next year--I should say 
in the next bill. There's no question that a smooth, functional 
transportation system is critical to Nevada's continued 
economic growth, safety, air quality, way of life.
    Nevada's rapid population growth presents unique challenges 
to our transportation infrastructure. Administrator Peters, I'm 
happy that you are here. We tend to focus so much on southern 
Nevada because of its massive growth. The numbers coming out of 
southern Nevada are mind-boggling--almost a 90 percent growth 
we've had in the last 10 years. We've had in the last 20 years, 
for example, Hispanic population in southern Nevada has grown 
750 percent. These are numbers that are just unbelievable. But 
kind of a quiet growth is taking place right now in northern 
Nevada, and I thought we should focus on this, because we focus 
so much on southern Nevada, and recognize the unique 
transportation problems that we have in Northern Nevada.
    More people means more traffic, more congestion, more wear 
and tear on the roads. And we have problems up here that are 
certainly different from the southern part of the State. 
Because of the colder temperatures, we have to deal with the 
freezing of the potholes. We don't have to worry about that in 
southern Nevada. That's just wear and tear. But we have in 
northern Nevada some very difficult winters. So we have some 
transportation challenges here and we need to keep up with 
those.
    We know, as we heard Nevada transportation chairman 
Stephens talk about Nevada being a fast-growing State, and 
Arizona. In numbers we're not the fastest-growing State; we are 
proportionately. Some of these other States--Arizona, 
Colorado--have grown as far as numbers more than us, and Utah 
and Idaho are also growing rapidly. Rapid growth is a factor of 
life in midwestern States. Western State needs are different 
from the rest of the country, just like northern Nevada has 
different problems than southern Nevada. So in keeping with 
today's western theme, our first panel we're going to hear from 
the Federal Highway Administrator--and we're so thankful that 
you're here. We really appreciate your being here. Mary Peters 
is so uniquely qualified to be the highway administrator 
because she is from Arizona, and Arizona has many of the same 
problems we have, and I think looking through her eyes at 
something will help us.
    Our second panel will discuss the Federal lands highway 
program. This program provides funding for park roads, 
parkways, forest roads, Indian reservation roads, and refuge 
roads. We've chosen to examine the Federal lands highway 
program as part of the hearing because it is of particular 
importance to the western States. What we learn here today will 
not only be used for what we're doing in Nevada with the 
Federal lands program, but also the rest of the country.
    No State has a higher percentage of Federal land than 
Nevada. Of the State of Nevada, 87 percent is Federal lands. We 
received about $90 million from the program in the last 3 
years, and I really think that's far too little. We're going to 
look at some ways of changing that.
    As I indicated, we're fortunate to have Ms. Peters here. We 
do acknowledge your being here. I would ask you to tell us what 
you think is important on the highway program, generally, and 
what you think we ought to do.

       STATEMENT OF HON. MARY E. PETERS, FEDERAL HIGHWAY 
 ADMINISTRATOR, U.S. DEPARTMENT OF TRANSPORTATION, WASHINGTON, 
                               DC

    Ms. Peters. Mr. Chairman, thank you for convening this 
hearing to examine the important transportation issues of the 
western States. As you said, there are some very unique issues, 
transportation issues that we face here in Nevada.
    I want to take a moment to introduce three Federal Highway 
officials who are here with me today. Art Hamilton is our 
Associate Administrator for the Federal Lands Highway Program; 
John Price, our Nevada Division Administrator, short-timer that 
he is. He's still with us, of course. And Bill Kappus is the 
Nevada Assistant Division Administrator. I appreciate you all 
joining me here today.
    It is a great pleasure to be back in Nevada to discuss the 
progress made in TEA-21 and to address the transportation 
issues of the western States, particularly in implementing the 
Federal Lands Highway Program, which is very important to this 
part of the country.
    If you look at a map--and I have looked at a map--at the 
amount of Federal land here in Nevada, it is overwhelming to 
look at the color schemes on a map.
    Mr. Chairman, I would ask that my written statement be part 
of the record. I have gone into much more detail.
    Senator Reid. That will be the order.
    Ms. Peters. Thank you so much.
    Nevada is a very appropriate setting for discussing the 
Federal Lands Highways Program. The greater part of all Federal 
and tribal lands is located in the 13 western-most States, and 
Nevada, as the Senator said, has a higher percentage of 
federally owned land than any other State.
    Our Federal Lands Highways Program works with Federal land 
management agencies and with tribal governments and State and 
local transportation agencies to provide access to and within 
Federal and Tribal lands. Our goal is to create the best 
transportation system possible, balancing the environmental and 
cultural values of Federal and Tribal land.
    In TEA-21, a total of $4.1 billion was authorized for the 
Federal Lands Highways Program to be distributed in five 
categories: Forest Highways; Public Lands Highways 
Discretionary; Indian Reservation Roads; Park Roads and 
Parkways; and Refugee Roads.
    In fiscal years 1998 to 2002, about 66 percent of Federal 
Lands Highways funds were allocated to projects located in the 
13 western-most States. Projects such as the State Route 28 
Forest Highway project in Lake Tahoe Basin, Park and Parkway 
work in the Lake Mead National Recreational area, Public Lands 
Discretionary funding for U.S. 95 in Clark County, and road 
improvements at Ruby Lake National Wildlife Refuge.
    TEA-21 also reaffirms our commitment to providing safe and 
efficient access to and within tribal lands. Since the 
enactment of TEA-21, the Indian Reservation Road Program has 
provided funding to construct or improve 2,000 miles of roads 
under the IRR program set-asides, and $27.6 million has been 
obligated for 51 projects to improve or replace deficient 
bridges on tribal lands.
    TEA-21 also strengthened the commitment of the Federal 
Government to increasing the involvement of tribal governments 
in transportation programming and planning for the Federal-aid 
Highway program as well as the Indian Reservation Road Program.
    States consult with tribal governments in the development 
of long-range transportation plans and State transportation 
improvement programs and tribes can use IRR planning funds to 
participate in metropolitan and State-wide planning as part of 
the Federal-aid program.
    Overall, the Federal-aid program and the Federal Land 
Highways Program are working well in supporting the Nation's 
economy and improving the quality of life for our citizens. 
Under TEA-21, Nevada, for example, will have received $200 
million per year in Federal highway funds, allowing the State 
to expand and improve its highway transportation network, such 
as the project that we saw today, Senator, at the 
groundbreaking. Oregon, for example, will receive about $1.8 
billion over the life of TEA-21, and this has made possible 
improvement and the reconstruction of I-5 in the Salem area, as 
well as highway and transit projects in the Portland area.
    The populations are growing and vehicle miles traveled are 
increasing substantially, especially here in the west. The 
challenges facing us are to maintain and improve our 
transportation system, to provide safe and efficient and 
convenient transportation options, while protecting the 
environment.
    Senator I know that the programs are not returning nearly 
enough to these areas, these high-growth areas, and we look 
forward to working with you, with Senator Ensign, and with 
Representative Gibbons who represents this area as we approach 
reauthorization.
    I thank you so much for the opportunity to participate in 
this hearing today, and I look forward to answering any 
questions.
    Senator Reid. As former director of the Arizona DOT, as 
we've established, you're familiar with the strains that rapid 
population growth places on a transportation system. Our 
formulas, though, for distributing funds under TEA-21 don't 
account for the rapid population growth experience for Nevada, 
Arizona, and other western States. This makes it more 
challenging for our system to keep up with its growth. How do 
you suggest we address these issues?
    Ms. Peters. Senator, I think we should address these issues 
within the context of looking at the allocation formulas and 
reauthorization. As you know so very well, those are sometimes 
controversial projects to undertake when we look at the 
allocation formulas, but I think it is incumbent on the 
Administration and Congress to not shy away from that very 
important issue.
    Senator Reid. One of the things that I mentioned briefly in 
my statement, Nevada is 87 percent Federal land, but the 
majority of that Federal land is administered by the Bureau of 
Land Management. Roads owned and operated by the Bureau are not 
part of the Federal lands highway program and are not taken 
into account when distributing money and in the highway funding 
formulas. Do you think this can be changed or should be 
changed?
    Ms. Peters. Senator, we have already initiated 
conversations with the Department of Interior and Bureau of 
Land Management to discuss this and a number of other issues 
that have to do with BLM roads. Currently, BLM classifies those 
roads as administrative or even public roads and, 
unfortunately, as such they are not eligible for Federal 
funding. But, again, we have initiated discussions with the 
Department of Interior and BLM and would hope to, as part of 
the Administration's reauthorization proposal, come forward 
with some recommendations resolving this, because it is, as you 
say, a very important issue.
    Senator Reid. Senator Kyl of Arizona knew I was going to 
hold this hearing, and he said, ``Make sure that you ask the 
administrator about Hoover Dam.''
    For those of us 450 miles away, Hoover Dam has become a 
tremendous bottleneck. Traffic can be backed up there 8 or 10 
miles trying to get on the bridge which is the dam, actually. 
And, as a result of 9/11, people are even more concerned.
    What hope do you have for us to move that project along? I 
think we've gotten $40 million--$90 million, but that's a 
project that that's just a--I won't say ``drop in the bucket,'' 
but it is a project that I think will cost around $300 or $350 
million.
    Ms. Peters. Senator, it is. As you know, and as Governor 
Gwynn knows, I worked very hard on that project when I was the 
director of the Arizona Department of Transportation and 
continue to see the importance.
    We believe that the design work will be completed later 
this year and be ready to have a construction contract. 
Construction would be expected to take about four or 5 years. I 
think we are looking at construction completion in the year 
2005. But, as you importantly point out, there is a funding gap 
there to be closed.
    I do have to be a bit cautious in talking about the 
project--and I will defer to Art Hamilton, my counterpart 
here--because I am prevented from talking in detail about 
Arizona projects for 1 year. Suffice to say that I very much 
recognize the importance of closing that funding gap and would 
be pleased to work with you and with the Arizona delegation to 
find a way to do that.
    Senator Reid. I think one of the things--and I have 
language in one of the bills--is to allow the project to go 
forward with the financing, even though we haven't appropriated 
all the money. It is so important. OMB has signed off on the 
proposal--I'm quite conscious of that--to allow that to go 
forward and that means we can move on that.
    Ms. Peters. Sir, I would be very happy to work with you on 
that, because, as you say, it really isn't a bridge. It's a 
road on the crest of the dam, and the grades going into that 
area, the congestion, are significant problems in terms of 
connectivity that need to be resolved.
    Senator Reid. Well, we're fortunate, as we've said several 
times today at this event and the one we had previously out at 
the Spaghetti Bowl, Nevada is very fortunate that you have been 
selected to be the head of the highway programs in this 
country. You know, Rodney Slater is a good friend of mine. I 
think he did an outstanding job and, you know, he became 
Secretary of Transportation, but Rodney was always playing 
catch-up because it was hard for him to understand the problems 
we have here in Nevada, and with rare exception that's the way 
it has been, so we are fortunate to have you. We're grateful 
that you came to spend some time with us today.
    Ms. Peters. Thank you very much, Senator.
    Senator Reid. I do want to say that Senator Ensign is not 
here. We were together earlier today. He is certainly 
supportive of what we're trying to do here and I want to 
acknowledge that. And Congressman Gibbons was also invited to 
attend this hearing, but he had other obligations. They are 
here in spirit if not in person.
    Tom Stephens, our own fine transportation director, is our 
first panelist. He's here to talk about Nevada's State-wide 
transportation needs.
    Greg Krause, the executive director of the Washoe County 
Regional Transportation Commission will talk about Washoe 
County's transportation needs. As we know, the needs are not 
always highways.
    Juan Palma, executive director of the Tahoe Regional 
Planning Agency, I first met when we were trying to do some 
good things up at Lake Tahoe. Juan, certainly good to see you. 
Juan did an outstanding job there at the Forest Service. He was 
there and he was instrumental in our developing and carrying 
out, to everyone's surprise, that great summit we had where we 
had the President and Vice President there, and we had five 
Cabinet officers that came here. We're happy to have you here, 
Juan.
    Gary Carano is here to discuss the importance of 
transportation from the perspective of Washoe County's business 
community. There's no family--and I say that without 
reservation or hesitation--than the Carano family who dedicated 
more of their time, energy, and resources to maintaining the 
tourism industry in northern Nevada.
    Thank you all for coming today. I look forward to hearing 
your testimony.
    We'll first hear from Stephens, Krause, Palma, and Carano, 
in that order.

STATEMENT OF HON. THOMAS STEPHENS, DIRECTOR, NEVADA DEPARTMENT 
             OF TRANSPORTATION, CARSON CITY, NEVADA

    Mr. Stephens. Mr. Chairman, I am Tom Stephens, for the 
record, Director of the Nevada Department of Transportation, 
and I am pleased to testify for Nevada, as well as brief you on 
the Western Governors Association policy statement on 
reauthorization, which I helped coordinate as president of the 
Western Association of State Highway and Transportation 
Officials, thanks to Mary Peters being elevated.
    I commend you for seeking a western perspective on 
reauthorization. One-size-does-not-fit-all, and the west is 
considerably different than the rest of the country. I 
especially want to thank you, Senator Reid, for your leadership 
on highway issues.
    Nevada is the Nation's fastest-growing State, as the map 
shows behind me. Nevada's growth rate of 66 percent in the past 
decade is far ahead of second-place Arizona at 40 percent. Of 
that, 85 percent is Clark County and 35 percent is the rest of 
Nevada. You blend those in, and they become 66 percent.
    As you mentioned earlier, 87 percent of our State is under 
Federal control. These are untaxable lands and must be accessed 
and crossed with highways.
    Nevada has recognized the tremendous need for 
transportation. The Governor is the chairman of our State 
Transportation Board. Our taxes for transportation are high; 
however, these taxes are not enough. We desperately need an 
increase in Federal funding to match the growth of our State.
    In northern Nevada the highway issues are preservation, 
safety, and congestion. Aging highways with greatly increased 
truck loadings must be maintained. State-wide traffic 
fatalities are up 20 percent over last year. Northern Nevada is 
growing. As I mentioned, if we were in two States, Clark County 
being one--which would be about the area of Massachusetts--and 
northern Nevada being the other, which would be the area of 
Wyoming, with 25 percent more people, northern Nevada would be 
the third-fastest growing State at 35 percent. Obviously, we 
cannot ignore the growth-driven needs of northern Nevada.
    On the maintenance front, although congestion gets the 
attention, NDOT must still spend more than half of our 
construction dollars on maintenance projects. For example, 
truck traffic on Interstate 80 is greatly increased due to 
California's growth, and the change in distribution from 
regional warehousing to just-in-time delivery, but increasing 
maintenance needs have not been fully meet in Federal funding. 
If Federal funding is reduced to bridge States like Nevada, as 
some suggest, the Nation's interstate systems will deteriorate.
    In 1996 I spoke to a group of California transportation 
officials who were advocating keeping all of California's 
Federal revenue collected in their State. As it was the 150th 
anniversary of the Donner Party, I pointed out that the reason 
the Donner Party got in trouble was because there were no good 
roads across Nevada. And the same thing would happen to 
California's economy today if they cutoff Federal funding for 
interstate maintenance across Nevada.
    Since Interstate 80 was finished, the population of the 
Reno/Carson area has tripled, and we have been building U.S. 
395 to freeway standards since that time. The last remaining 
nine-mile segment between Reno and Carson City is ready to go 
out to bid for bridge construction starting early next year. If 
funding is available for this nine-mile segment, we should be 
able to complete it all by 2007. Phase one of the Carson Bypass 
around Carson City is scheduled to go to bid this year absent 
delays. The whole nine miles, including the bridge, is about 
$250 million.
    We also need additional freeway widening in the Reno area. 
We need to widen it north from the Spaghetti Bowl, we need to 
widen it from keystone up to Robb Drive, we need to widen east 
from McCarran to Vista, and, of course, we're going to need to 
widen past the airport. It's getting more and more crowded 
there, and in the next 10 years we'll have to do that.
    We've got a number of two-lane highways that need to be 
widened to four-lane because of increased traffic and increased 
accidents. These include the Fallon/Fernley Highway and the 
Dayton/Silver Springs Highway.
    Five years ago Senator Reid led the effort to bring 
national attention to the degradation of water quality in Lake 
Tahoe, and Juan is going to talk about that, but Nevada has 39 
miles of highway along the lake. We have spent $40 million on 
13 miles of road thus far. We still have 26 miles of roadway 
remaining at a cost of $80 million to do the erosion control 
and the runoff collection. Lake Tahoe is a national treasure 
and deserving of continuing national attention.
    I'd like to just real briefly go through the Western 
Governors Association policies and put forth just a couple of 
bullets, things that they asked for in their policy. This is 
the first time they've come up with a policy. We did not do 
that last time, and they did not ask WASHTO to help them, so 
this was a big step forward for us transportation officials.
    Well, surprise, surprise, they asked for increased 
revenues. I'm sure you haven't heard that before.
    They want you to address the gasohol issues in Congress.
    They want to retain the firewalls.
    They want to provide flexibility in transferring funds 
among categories. They don't want to create any new set-asides 
or sub-allocations.
    They want to define timeframes for resource agencies to 
conduct environmental reviews so these aren't endless 
processes.
    They want to have one-stop permitting for Section 4-F and 
106 reviews. Section 4-F means that you can't go through a 
park, 106 is the historic preservation. We go to ridiculous 
ends in some cases for very little impact on any one of those, 
so we'd like to have one-stop permitting.
    Define an environmental dispute resolution if we have 
disputes between Federal agencies and the States. That needs to 
be better defined. We want to clarify the points in the process 
where environmental judicial challenges are appropriate. Right 
now, the Sierra Club is trying to stop U.S. 95, which is under 
construction, and yet we've been working on that for 5 years. 
They could have filed a lawsuit at any time. The defendant in 
that case is the Federal Highway Administration.
    We want to study the impact on tax collections of energy 
efficient technologies. I think Administrator Peters has 
brought this forward, also.
    We want to address the loss of revenues from service 
stations on tribal lands. It's a big issue in certain States.
    We want to provide guidance for security vulnerability 
assessments and provide some non-transportation funding for the 
security issues.
    They want to allocate the public lands highway funds to 
areas of greatest need and to the States with the largest 
public lands acreage. You're going to talk about that on the 
next panel.
    They want, for earmarked project requests, they'd like to 
establish criteria to address the ability of the project 
sponsors to meet program design time and contract standards so 
that appropriations aren't made to projects that aren't even 
going to go for three or 4 years.
    And they want to reform the trade corridor program.
    In conclusion, I would like to recognize that TEA-21 has 
been very good for Nevada, but I believe it needs to be refined 
a little bit and I strongly urge that Nevada's Federal funding 
be increased to match our growth.
    Thank you again for the opportunity to testify. I guess 
I've gone over my time.
    Senator Reid. We'll have some questions for you, Tom, as 
soon as the other witnesses complete their statements.
    Everyone should also understand that public access cameras 
are picking up whatever we have been saying, and local stations 
are going to use this, so I should have warned you, Tom.
    Mr. Stephens. Did I say something wrong?
    Senator Reid. Greg?

  STATEMENT OF GREG KRAUSE, EXECUTIVE DIRECTOR, WASHOE COUNTY 
        REGIONAL TRANSPORTATION COMMISSION, RENO, NEVADA

    Mr. Krause. Good afternoon, Mr. Chairman and Administrator 
Peters. My name is Greg Krause. I'm the executive director of 
the Regional Transportation Commission of Washoe County, and I 
very much appreciate this opportunity to testify before you 
regarding the transportation issues we're facing here in Reno 
and Sparks and really our neighboring communities and counties 
in northern Nevada.
    As Director Stephens has noted previously, we have been 
growing very rapidly, and that has placed tremendous demands on 
the transportation system.
    We are fortunate in northern Nevada that the Federal 
Government and the State Department of Transportation has 
really done an exceptional job of developing the transportation 
system, particularly the freeways, principal arterials, and the 
major investments that have been made in public transportation 
over the past decades. I'd really like to acknowledge the 
leadership and vision of this particular committee. I think the 
ISTEA and TEA-21, and I'm sure the successor to TEA-21, will 
continue to provide great assistance and policy direction to 
continue the great work that has been done.
    I certainly want to thank you, Senator Reid, for your great 
assistance to us here in Washoe County. With your help, in just 
the last 3 years, $14 million in new transit centers and new 
buses for city fare and city lift and our intelligent 
transportation system have been critical to our success. Our 
flagship vehicle, the articulated bus, has just been put into 
service on South Virginia Street, which is our busiest 
corridor. I'll talk about that in just a minute.
    Our challenge is really the future. Our agency does long-
range transportation planning, and we spent many hours with 
thousands of community residents trying to develop a vision for 
the future, the 2030 transportation plan. This is a document. A 
document is helpful, but it doesn't get the job done, clearly. 
We need to find a way to implement. I want to talk a little bit 
about a couple of the key issues that we identified.
    One of them has to do with a new type of mass 
transportation that I'm sure you're familiar with that will be 
a new addition here in the Reno/Sparks area, and that's bus 
rapid transit. The city of Reno has, as I mentioned, a very 
busy corridor. We are running a city fare bus, a regular-sized 
bus, every 10 minutes, plus our new articulated bus, and we 
have standing room only loads. We have been working with the 
land use planners to try to develop a plan that further 
concentrates within easy walking distance more homes, more 
jobs, more businesses, more services. We think that this is the 
perfect corridor to utilize bus rapid transit.
    As you probably are aware, bus rapid transit or BRT is the 
rubber-tired version of the rail investments, and it has the 
great potential to serve Reno and Sparks and many medium-sized 
cities in the United States. Clearly, it has been used in 
Europe and South America. It is a newer technology here, but it 
has great potential. It can provide the quality, the capacity, 
and the convenience of light rail at a fraction of the cost. 
And, more important, BRT is an approach to improving transit 
service that allows for incremental development. We don't need 
all of that money right at once.
    By protecting the dedicated right-of-way for the future, it 
really sets the stage ultimately for future generations, if 
they so choose and it is appropriate, to make that rail 
investment.
    In order for communities like Reno and Sparks, and, as I 
mentioned, probably many other cities across the country, to 
have an opportunity to invest in bus rapid transit, I think it 
is very important to consider having a dedicated funding source 
for this particular application. I think it would pay great 
dividends.
    When we were doing our planning process, we also 
acknowledged the importance of the freeway system. We had the 
great opportunity to celebrate the start of a key project in 
the improvements in our Spaghetti Bowl. We envision in the year 
2030 that we would have made substantial improvements 
throughout the system. And, as Director Stephens has talked 
about, it is not just the growth issue we have to address in 
increasing capacity, but as the system ages and it approaches 
335 years and over the next 30 years, much if it will have to 
be rehabilitated and reconstructed, so that's clearly a very 
expensive but critical investment that we need to make.
    I guess the one thing that I'd suggest is we have been, I 
think, very well served in northern Nevada by the investments 
of Federal funds in the transportation system, but the 
challenge that we have seen is the major funding source is the 
gas tax, and it has great attraction as a user fee, and that as 
you use that system more you contribute more. There's a direct 
relationship between the benefits received versus the taxes 
that you are paying as a user. But what seems to be a real 
challenge for us locally--and I think even federally--is that 
that funding source as a flat rate does not account for 
inflation, and we need to try to address that.
    I guess the final point I wanted to make and what we found 
in developing our long-range plan is, in addition to the 
Federal contributions and assistance, we need to take on our 
burdens and shoulder our share at the local level, and we are 
proposing to the residents of Washoe County a ballot question 
this November that would do exactly what I've just talked about 
at the local level. We are proposing that our local gas taxes 
be indexed to inflation. We are proposing that the new 
development impact fees--and new development has made a major 
contribution, over $100 million in the last 8 years through 
these impact fees--that they also go up as inflation occurs.
    We are also asking for a 1/8 percent investment increase in 
the sales tax, and that's critical because that is the one fund 
source that we have available to improve public transportation. 
That sales tax increment will be a key to matching the Federal 
funds that we hope will be available for bus rapid transit and 
other public transportation investments.
    The final thing that we have committed to and I think is 
critical is we need to become more efficient in the public 
sector. We have committed at the RTC and the other local 
governments $50 million in efficiency savings in roadway 
maintenance management.
    With approval of this funding question--and I hope I'm not 
being too optimistic--the State and local funding sources will 
generate 78 percent of the $5.4 billion that we plan the spend 
on the transportation system in the next 3 years. The Federal 
share of 22 percent is smaller than most people realize, but it 
is critical to our success, nevertheless. We believe strongly 
in partnerships at the RTC, and we look forward to continued 
strong partnerships with transportation leaders at the local, 
State, and Federal level. I am convinced that we can, working 
together and proactively, bring our vision of 2030 to reality.
    I want to thank you for this opportunity to address you, 
and I'll try to answer any questions you have.
    Senator Reid. I've been a little lenient here, but let's 
try to stick with the 5 minutes.

  STATEMENT OF JUAN PALMA, EXECUTIVE DIRECTOR, TAHOE REGIONAL 
              PLANNING AGENCY, ZEPHYR COVE, NEVADA

    Mr. Palma. Thank you, Senator Reid and Administrator 
Peters, for having me. My name is Juan Palma, executive 
director for the Tahoe Regional Planning Agency.
    I'd like to introduce one of my deputies, Carl Hasty. I 
think some of you know Carl is just a tremendous asset to us 
here. Also, one of our board members, Coe Swoe, who some of you 
I think know. He's going to be a board member of TRPA. We're 
glad to have him with us.
    Since 1997 when president Clinton and Vice President Gore 
and yourself, Senator Reid, were in Tahoe, you really 
reaffirmed the Federal commitment in helping to manage Lake 
Tahoe and really call it a national treasure by improving 
coordination at the Federal, the State, and the local level. 
The Administration at that time took bold steps on actions on 
water quality, transportation, forest health, and also on 
tourism and other areas, and also to protect the environment, 
the economy of Lake Tahoe
    TEA-21 played an instrumental, key role in this effort. 
TEA-21 provided a consent to the Congress for the establishment 
of what we call the Tahoe Metropolitan Planning Organization, 
or TMPO, for short. Designated by Governor Miller from Nevada 
and Governor Wilson from California, TMPO is today emerging as 
an essential element in the planning and programming of 
transportation elements and projects in the Lake Tahoe region--
--
    Senator Reid. We had Tahoe declared a metropolitan planning 
organization agency, and that allowed them to get funding. 
Population-wise, it is the smallest in the country.
    Mr. Palma. Using population, we couldn't qualify for an 
MPO, so we have to go through this route to qualify as an MPO 
because our population is just not big enough. But that is 
critical, Administrator Peters, to be able to move forward.
    Now, these projects are not just the result of the TMPO. 
The Nevada Department of Transportation with Tom Stephens, 
NDOT, the California Department of Transportation, Caltrans 
from California, these are major players in Lake Tahoe. And 
both agencies, Caltrans and NDOT, have prepared water quality 
master plans for retrofitting the road system in Lake Tahoe.
    Tom spoke about some of the millions of dollars invested at 
Lake Tahoe. I'd like to invite you folks to come see Lake Tahoe 
so you can see the wonderful projects that are going on right 
now. You can actually see the work occurring today all along 
Lake Tahoe. It has tremendous progress. That's the result of 
the TMPO, and the result of the effort or the coordination of 
the local, Federal, and State agencies in Lake Tahoe.
    The Tahoe Regional Planning Agency, or TRPA, we implemented 
an environmental improvement program about $908 million. This 
approach is over 10 years, and it is to achieve and maintain 
our Lake Tahoe environmental thresholds for Lake Tahoe region. 
Many of these projects are transportation-related projects. 
Neither NDOT nor Caltrans can afford to complete the EIP 
projects with the usual sources of funds. We suggest the 
Federal lands highway program is essential in providing 
additional funding for NDOT as well as Caltrans.
    The Federal lands highway program is well suited for Lake 
Tahoe. Under this program, Lake Tahoe projects are eligible 
both under the Federal highway and discretionary sub-programs. 
We think the sub-programs was a good idea. NDOT has used or is 
using their forest highway allocation, along with the voter-
approved State-wide bonds, to construct erosion control 
facilities along sections of State Route 28 and Highway 50. As 
you may be aware, sections of SR 28 in Nevada have been 
designated a national scenic byway.
    NDOT is also using the funding for similar erosion control 
projects on U.S. 50, also to identify future projects like 
Kingsbury Grade as well as Mount Rose Highway.
    Continuation of the Federal lands highway program in the 
reauthorization of TEA-21 will provide for more of these kinds 
of erosion center projects for both Nevada and California, and 
we support that among the TRPA.
    TEA-21 also provided an additional money to the MPO that we 
have. Funds made available to the TMPO to not more than 1 
percent in the legislation that occurred--in the legislation 
that occurred back in 1998, the legislation allocated 1 percent 
of the Federal highway funds to Lake Tahoe. We believe that 
that legislation needs to continue in the next TEA-21. The 
intent of this provision of the 1 percent has not been fully 
realized, however. The amount of funds provided in the 
definition of what is considered eligible, planning has been 
limited administratively. We ask that the TEA-21 
reauthorization discussion proceeds that clearly the authority 
be provided for TRPA to use Tahoe's 1 percent provision to 
conduct specific project planning activities defined as concept 
development, site assessment, environmental studies, and 
preliminary project designs. We ask that this clear authority 
also be given to NDOT and Caltrans to use Tahoe's 1 percent to 
conduct similar activities.
    The existing administrative interpretation of TEA-21 
language does not provide either the TMPO, NDOT, or Caltrans 
the ability to utilize the Federal public lands highway 
program. This program, if not interpreted so narrowly, could 
easily serve as one of the most significant funding vehicles 
for meeting the Federal commitment for Lake Tahoe.
    We ask that this Administration, as well as the help of 
TEA-21, can help us define this 1 percent a little more 
further.
    The predecessor of TEA-21, the ISTEA, included numerous 
programs that benefit Lake Tahoe. I want to name some of those 
programs that we believe should continue, because they really 
served many, many positive things for Lake Tahoe. The transit 
capital and operations grants program--we think that ought to 
continue. The jobs excess and reserve commute grants ought to 
continue. Transportation enhancement activities should 
continue. The national scenic byways should continue. 
Congestion and mitigation air quality funds should continue. 
And intelligent transportation systems are just critical for 
Lake Tahoe, as well, as well as the clean fuels program, 
bicycle and pedestrian programs, and recreational trails 
programs. All of those are important pieces for Lake Tahoe, and 
we ask whatever is approved, Senator, that those pieces not be 
forgotten along the way.
    In conclusion, I would like to ask Congress and the 
Administration that there is some difficult choices to be made 
when it comes to transportation, and specifically the 
reauthorization of TEA-21. Transportation needs in this country 
are great, enormous throughout the country. We encourage you to 
take bold, assertive action within the context of our national 
priorities, and we support the reauthorization of TEA-21 and 
encourage you to consider the above recommendations regarding 
Lake Tahoe.
    Thank you for this opportunity.
    Senator Reid. Gary?

  STATEMENT OF GARY CARANO, NEVADA RESORT ASSOCIATION, RENO, 
                             NEVADA

    Mr. Carano. Welcome back to northern Nevada. Administrator 
Peters and your staff, welcome also to northern Nevada.
    I am Gary Carano, the general manager of the Silver Legacy 
in Reno, and I'm here today representing the Nevada Resort 
Association.
    The transportation issues that I'd like to discuss today 
with you impact all of northern Nevada, and all of our 
colleagues for once are united in this effort to address these 
issues today.
    The Reno/Sparks economy is very dependent on tourism. We 
receive over six million visitors a year to our fair city. 
These visitors come here to recreate in a variety of ways with 
entertainment, all the retail opportunities we have, the 
beautiful resorts we have to offer in northern Nevada. Lake 
Tahoe is a beautiful 35 minutes away. Roughly 35 percent of 
these only travel to northern Nevada by plane. The rest all 
come through our main arterial Interstate 80.
    Senator Reid. What about visitors traveling to Las Vegas? 
Is the traffic to Las Vegas mostly over the roads?
    Mr. Carano. I believe, Senator, that probably it is just 
opposite. The visitor count to Las Vegas airport is much 
greater than what we receive on the highways.
    Northern and central Californians are this area's leading 
customers, and these guests come here by Interstate 80. 
Interstate 80 is truly the economic lifeline of this community, 
not only for our tourists, but also the major link of goods and 
services from San Francisco and also through the port of 
Oakland, which is undergoing a billion-dollar, multi-year 
expansion which will lead to many more trains, which you've 
graciously helped us on that, and also trucks traveling 
Interstate 80.
    Driving Interstate 80 is truly a horrible experience 
currently, even with the work that is ongoing up there now, and 
together with the Senator and yourself, Administrator Peters, 
we hope that we can make a change in our future.
    Now more than ever we must work together to improve the 
interstate. The construction of new casinos throughout northern 
California and the rest of the country is challenging the 
tourism-based economy which this community relies on heavily. 
The proliferation of gaming is in 48 States now. Vacationers 
have vast choices that didn't exist only a couple of years ago. 
Most notably, of course, Native American casinos are drawing 
customers who previously traveled to this fair city. Nevada's 
gaming industry is innovative, exciting, and dynamic. We have 
never shied away from competition. Instead, we have found 
innovative ways to continue offering world-class facilities 
that appeal to our guests. As always, we will find ways to draw 
customers to our exciting city. We will always compete, no 
matter what happens.
    But we need your assistance to help ensure that the 
infrastructure necessary to bring these guests, these visitors 
to northern Nevada is healthy and an enjoyable experience on 
that highway. Right now Interstate 80 from Nevada's western 
border to Sacramento all the way to San Francisco, the bay 
area, is very much in deterioration. Much of this road is over 
50 years old, and it is in great need of modernization. 
Interstate 80 is in such bad condition and design, it often 
dissuades people from making the trip to Reno, especially when 
they have the option of enjoying recreational or entertainment 
opportunities much closer to home. In addition to Native 
American gaming, there's much more demand for the recreational 
dollar today than there was years ago.
    Motorists are forced to compete with dense traffic on a 
two-lane highway in both directions that has not increased 
capacity proportionate to major population growth in northern 
California and Nevada. Placer County, which is Auburn, is a 
short hour-and-a-half drive from here and is the fastest-
growing county in California, probably the second-fastest 
growing population county in America, second only to Clark 
County.
    Added to this grim situation is the fact that I-80 is the 
primary east-west trucking route through the northern part of 
the Nation. Slow-moving semis with insufficient truck climbing 
lanes are highly disruptive to traffic. Furthermore, the lack 
of adequate shoulders in most areas can halt traffic when there 
is an accident or a simple mechanical failure, or in the 
wintertime when the interstate closes because of snow. Thus, 
there are no significant alternative east-west routes when the 
road is congested or closed.
    I know that you are aware of these problems and have been 
working on ways to improve I-80 for years. Northern Nevada 
businesses appreciate everything that you do and the committee 
has done. Through your leadership, portions of the decaying 
highway have improved and today still are under construction 
and are improving. Moreover, you played a pivotal role 
providing fundamental funding of an intelligent transportation 
system. This high-tech system posts accurate, up-to-the-minute 
traffic conditions on electronic billboards throughout the 
Interstate 80 corridor. Given the unpredictability of severe 
weather in the Sierra during the winter months, it is important 
to have an intelligent transportation system that allows 
motorists to make smart decisions about their trips across 
Donner Pass.
    Finally, we would like to thank you for your help during 
this year's appropriation cycle. Despite all the work that you 
and Congress have accomplished to fix this important highway, 
much more needs to be done. The Nevada Resort Association 
supports the efforts of Sierra Gateway Coalition, which is a 
group consisting of northern Nevada and northern California 
businesses, which is a group consisting of local and regional 
governments that work with the governments and public and 
private associations. The coalition has identified 11 essential 
projects on Interstate 80. These projects range from adding 
truck climbing lanes in the mountains to widening the shoulders 
for enhanced safety to adding vehicle lanes in the Sacramento 
Valley.
    As you undertake this important task of passing a new 
transportation reauthorization bill, we believe the Sierra 
Gateway Coalition report will help you identify the projects 
that will bring the most relief to this old highway and to the 
northern Nevada economy.
    I also must take the opportunity to speak of another 
transportation issue that you, Senator, have been very much a 
part of, and that's our air service. Highway traffic is not the 
only transportation concern of northern Nevada and our resort 
association. Air travel to the Reno/Tahoe Airport has decreased 
significantly since 1997. In an effort to increase 
profitability, major airlines have cut several flights from 
Reno. Prime markets in Canada and southern California are being 
choked off by airlines pulling out of this area. Customer 
counts have dropped spectacularly in the last 2 years. 
Passenger count for the first 6 months are down 17 percent. 
While much of this drop is due to the post-September 11th fear 
of flying, also the effects of Native American gaming, lack of 
a bowling convention in town this year, a poor California 
``dot-com'' economy, and our national economy definitely leads 
to these decreases.
    We understand you have been working hard to encourage 
airlines to increase flights to Washoe County and broaden our 
market base, and we are very thankful for you doing this.
    The drop in air traffic underscores the need to modernize 
our highway infrastructure. If our customers are leery to fly, 
for whatever reason, we want to make sure that they don't have 
an excuse for not driving here.
    We encourage you to focus on Interstate 80 as you write the 
next transportation authorization legislation. Northern 
Nevada's economy depends on this link to California, which is 
in desperate need of repair.
    Thank you very much for giving me this opportunity.
    Senator Reid. Gary, I believe that we really haven't done 
nearly enough in northern Nevada. The I-80 problem has been a 
secret that has been kept. There have been some voices, but I 
don't think we've heard them nearly well enough. I think it 
is--I won't say a crisis stage, but it is at a point where we 
really need to focus on it.
    The sad part about it is our entire Federal interstate 
highway system is old and needs work done on it, and this is no 
exception. As you know, we got a couple million dollars for 
intelligent transportation, which will be a big help, 
especially when it is snowing or when it starts to snow, but 
that, to my understanding, has not been implemented yet. Is 
that right, Tom, $2 million worth of it?
    Mr. Stephens. It's in Caltrans' hands. No, it hasn't been 
put into place yet. We share the concerns about Interstate 80. 
Caltrans has been doing a lot of work on Interstate 80, but it 
is time consuming and it is traffic delaying when they do it, 
and there's more that could be done.
    Senator Reid. One of the things we've learned, problems in 
Nevada affect California commerce. I-15 in southern Nevada, 
that being jammed up, that doesn't--that just doesn't stop 
tourists from coming to Las Vegas, it stops commerce from 
traveling to and from southern California. The same applies to 
I-80. I think we need to do a better job of selling that. The 
problem is California is such a big, big State--$35 million 
people with problems every place you go.
    We have a Senate bill that is being passed out of--I'm 
sorry, it is out of committee now. The full committee has 
passed it. We have $1 million to look at the Colfax problem, 
and that's for planning. That was really a big help. But we're 
talking about needs not for $2 million or $1 million, although 
I am very happy to have that, but it's going to take large 
chunks of money to do that.
    I think one of the things we are going to have to look at, 
Tom, is working with California as we did with some of the 
major interchanges and stuff in California. I worked hard to 
get money appropriated for California because it helped Nevada, 
and people thought we were a little goofy doing that, but I 
have no regrets of doing that because it's good for Nevada. We 
may have to do the same up here. So anyway, that's my 
observations there.
    Greg, we talked about highways here a lot. Your 
responsibilities are more than cars riding on streets and 
highways. Tell us how you feel mass transit--you've done that 
in an abbreviated form in your statement--mass transit will 
alleviate some of the problems you have experienced.
    Mr. Krause. I think that what we need to do is plan for 
mobility, and as the community grows we can't build enough 
roads. In the developed areas, I think mass transit, if it is 
convenient, if it's safe and efficient, it is going to be the 
mode of choice. We think we can get much higher percentages of 
travel on the mass transit if we can make investments like bus 
rapid transit. I think it only makes sense in those dense 
corridors. We don't think it is the solution that we want to 
have in the suburban areas and the lower-density areas, but it 
clearly makes sense in those key corridors. Certainly Las Vegas 
has the strip, the same sort of thing. So that's where I think 
we have great potential.
    I guess if I can take just a moment, the other need that is 
an ongoing concern is serving the disabled. We have a 
requirement. It's a civil right to have access to that ADA 
service, and that's something that we also want to try to 
address. Again, we are trying to help ourselves locally with 
the funding measures that I talked about, but I think that's 
another area where we will continue to look for the Federal 
assistance as you have given us in both the capital funds and 
trying to make sure that we have operating assistance for that 
particular need for the disabled. That's just an even faster-
growing portion of the community that needs to be served.
    Senator Reid. It's not a faster-growing part of the need, 
it's just that they're becoming aware of their rights, and, as 
a result of that, I think they're wanting to use the same 
facilities that are available to other people. I think that's 
part of the modern society I think we should feel good about. 
People no longer have to sit home until somebody can haul them 
around. That sometimes never occurred. So now we have rules, 
regulations, and laws that allow the disabled to be treated 
like those that aren't disabled. It's expensive, but I think it 
is the right thing to do.
    Juan, I have some questions and I want you to elaborate, 
especially with Mary Peters being here. Explain in more detail 
this Tahoe 1 percent provision of Federal lands highway 
program. Explain that in more detail to me, please.
    Mr. Palma. I'd be happy to, Senator. The Tahoe--when the 
TMPO was created, it was in that language of that bill that 
Tahoe was allowed 1 percent of the Federal lands highway 
program. That was the bill. When it was----
    Senator Reid. That's 1 percent of what?
    Mr. Palma. Of the national Federal lands highway program. 
As we began to proceed to interpret what the language was that 
was approved, the Administration interpreted that to be--
various interpretations came about. To this day, we have 
various interpretations of that.
    We still believe at Tahoe that 1 percent was meant to be of 
the national Federal lands highway program, and we need to 
clarify that. We believe it is 1 percent of the national, but 
we need to have that discussion with all the critical players. 
With reauthorization of TEA-21, we need to clarify that. Our 
clarity would be that it would be 1 percent of a national 
Federal lands highway problem.
    Senator Reid. And the reasoning being that then the 
Republican Governor of California and the Democratic Governor 
of Nevada and now the Republican Governor of California, there 
has been agreement between these two States that there has to 
be something done about Lake Tahoe.
    Mr. Palma. Yes.
    Senator Reid. And one of the funding sources they are 
looking to to meet this $1 billion of requirements--we've done 
pretty good, especially compared to what we've done in the 
past, to get moneys for that. We have--Mary, an example. We 
have logging roads that are about 100 years old that have been 
polluting the lake for 100 years. We now have money to take 
care of some of that. We have, as Tom indicated, things we can 
do for more environmental cleanup. We can use mass transit. We 
can use all the other things we're doing. It's a huge, huge 
project, and it's all to save a very pristine lake that's 
losing its unique clarity.
    We will follow up on that some time.
    Mr. Palma. May I follow up with that, Senator Reid, as I 
think Gary mentioned that Placer County, which borders Lake 
Tahoe, is one of the fastest-growing counties. El Dorado County 
just to the south is another huge-growing county. This county 
is growing. Douglas County is growing. The populations all 
around Lake Tahoe just continue to skyrocket on all sides.
    So what we have, Administrator Peters, is that we have a 
big population that wants to go recreate Lake Tahoe on a daily 
basis. As the more population, the more want to go on Lake 
Tahoe. We have got to now begin to plan for the future growth 
of the highway system, but also for transportation, whether it 
is intelligent transportation systems.
    We are the beneficiaries of many of those things in Lake 
Tahoe, and I'd just encourage to continue that, because we want 
to save that beautiful lake for generations to come, and it is 
going to take all of us from the Federal Government, State 
government, local governments to do that.
    Senator Reid. Gary, let me just say this, also. When you 
talk about the lake, you know, that's a place. It's easier to 
get money for that than it is I-80, from my perspective. You 
know, it's something people understand now.
    I am not one for pushing lobbyists, but I think one of the 
things that the northern Nevada resort community needs to do--
and I mean hire people. You have to be more aggressive because, 
believe me, there's a lot of people who represent different 
parts of Nevada that are pushing very, very hard, and there's a 
limited amount of dollars to go around, and highway 
transportation dollars are no different than dollars for other 
programs. The squeaky wheel gets the grease. I think, frankly, 
the northern Nevada resort industry has been too silent on 
this.
    Mr. Carano. Senator, I appreciate your comments. It has 
been, as our good friend John Asquaga would say, the topic of 
discussion for quite a few years. I agree with you--we have not 
been aggressive enough, and I will take that back to the Resort 
Association and suggest that we get aggressive and get 
competitive and try to follow the model that you led in 
southern Nevada with Interstate 15, with your leadership of 
bringing two States together.
    Senator Reid. Gary, I would also say this. The burying of 
the tracks is extremely controversial. But in my personal 
opinion--and I know I should stay out of this, even though I 
can't, because I arranged a lot of the funding for that--I just 
think it's something that needed to be done in northern Nevada. 
That's 50 years past due. I just think that we need to be more 
aggressive in what we need here, even though there's going to 
be tremendous heartburn and heartache burying these tracks, 
especially in the short term. In the long term it will be 
wonderful. We need to, as I say, let people know some of the 
problems we're having here in northern Nevada with traffic. 
California will help us if we make our cases.
    Mary, do you have anything?
    Ms. Peters. Just a few brief comments, if I might.
    Senator Reid. Yes.
    Ms. Peters. I would appreciate hearing from all of you. As 
the Department is finalizing our proposal for reauthorization, 
a couple of areas are important to us, and several of you have 
touched on those. One is the use of Intelligent Transportation 
Systems (ITS), both to relieve congestion and improve safety. 
If you have specific ideas as we look at the next generation of 
ITS, we would welcome those comments. I'll make sure my staff 
gets information to you on how to contact us before we leave 
today.
    Gary, I really wanted to talk a little bit about bus rapid 
transit. I think you are exactly right. That's a good way to 
grow the transit system and I will, with your permission, carry 
those comments back to Jenna Dorn, my counterpart in the 
Federal Transit Administration. If there's anything we can do 
to help you, we will be pleased to do that.
    Juan, I will ask our attorneys to again revisit this issue 
of the 1 percent, and I'll talk with them and see if we have 
any discretion. If not, we'll come back to you soon and let you 
know what we need to do there.
    And I think, Tom, one thing perhaps--I really appreciate 
your sharing the Western Governors' views on reauthoriztion. I 
think that that was important. I had an opportunity to meet 
with the Western Governors when they were in Washington in 
February of last year and strongly encouraged this, so I was 
very pleased when I saw that you were following up on that. 
Those contacts will be very, very important as we compare the 
Administration's proposal, so I do thank you.
    Senator Reid. Thank you, gentlemen.
    Mr. Stephens. May I add something?
    Senator Reid. Sure.
    Mr. Stephens. I just wanted to add the point that you 
talked about what we did in California, but I just wanted to 
add a couple of figures for the record.
    We put $5 million into the Barstow Interchange of I-40 and 
I-15, and that was under ISTEA and appropriations there, and 
that went a long ways toward getting that project done. And, 
Senator Reid, as he alluded to, got $16 million in Nevada 
appropriations for the Barstow-to-Victorville section. And even 
though that project is, like, a $100 million project, that $16 
million went a long, long way.
    We stand ready to work with the northern Nevada resort 
community on similar efforts as those. I think that there needs 
to be, you know, more attention from within the resort 
community, too, because we're there, we're ready, we're 
available to help you, and we have the experience in southern 
Nevada, and I think Senator Reid is indicating that he's there, 
too, but you have to come up with a plan and a schedule and how 
you're going to do it.
    Senator Reid. Thank you very much, gentlemen.
    The next panel will address, as we've talked, the Federal 
lands highway program. This is important. For example, roads 
owned by the Bureau of Land Management don't count toward the 
funding formulas that we've talked about.
    Mary Peters, let me just say this for the record. You're 
going to learn a little bit about Nevada today. we're going to 
have the director of the Oregon Department of Transportation, 
but we're also going to have two witnesses from rural Nevada. 
It reminds me of a story. When I first went to the State 
Legislature we had a Speaker of the Assembly who served in the 
Nevada State Legislature for many, many years. He was from a 
place in Nevada called Battle Mountain, and he went to a 
legislative meeting where all the speakers of the 50 States for 
the Lower House were in attendance, and they each introduced 
themselves. When it came to him, he said, ``I'm Bill 
Swackhammer from Battle Mountain, Nevada,'' and somebody said, 
``Battle Mountain, Nevada? Where is that?'' He said, ``It's 
easy. It's right between Carlin and Valmy.''
    Today you're going to hear from one of the commissioners 
from Humboldt County, Nevada, from a place called Winnemucca. 
You're probably not familiar with the country-western singer 
Hank Snow. Have you ever heard of Hank Snow? Well, I went to 
the Grand Ole Opry once and had an opportunity to meet Hank 
Snow. Anyway, he has this great song where he sings, ``I've 
been everywhere,'' and one of the places he mentions is 
Winnemucca. I guess that's a little insight in Nevada. You've 
heard Hank Snow sing that, haven't you?
    We welcome you here. We're going to first hear from The 
Honorable Bruce Warner, director of the Oregon Department of 
Transportation. We're going to hear from John Milton, who is 
commissioner from Humboldt County, and Robyn Burdette, who is 
the chairwoman of the Summit Lake Paiute Tribe.
    We'll first hear from Warner, Milton, and Burdette in that 
order.

STATEMENT OF HON. BRUCE WARNER, DIRECTOR, OREGON DEPARTMENT OF 
                 TRANSPORTATION, SALEM, OREGON

    Mr. Warner. Thank you, Mr. Chairman. It is a pleasure to be 
here. Thank you for the hospitality I might extend to Nevada 
for letting me----
    Senator Reid. Ron Wyden, of course, serves on the 
committee. We're very happy to have him. He and I served in the 
House together. He's a wonderful man.
    Mr. Warner. Well, again, thank you for the opportunity to 
be here to talk about what I think is a very important 
reauthorization of TEA-21 and the Federal lands highway 
program. I believe you have written testimony from me, so I 
will just briefly----
    Senator Reid. We do.
    Mr. Warner [continuing]. Go through some of the highlights.
    Senator Reid. Your full statement will be part of the 
record.
    Mr. Warner. Thank you.
    I think you all know there's a tremendous amount at stake 
as we near the end of one surface transportation bill and move 
forward in debating the next. From Oregon's perspective, we 
believe TEA-21 has been an indisputable success. I wanted to 
get on the record, for example, Oregon's highways are safer--
traffic deaths now have fallen to a 40-year low. Our pavement 
conditions have improved slightly, although they are not yet 
where I want them to be. And thousands of highway-related jobs 
have been supported over the years. I think it is a success.
    Reauthorization comes at a challenge time. We face new 
challenges, including the economic downturn and a new era of 
combatting terrorism at home and abroad. And I think, Senator, 
you touched on it first, that the infrastructure built after 
World War II is entering old age at the same time. You have 
also heard quite a lot about rapid growth and congestion. I 
think they both threaten our liveability and economic 
opportunity.
    You've heard it before. I'm going to be a broken record on 
this. We need additional resources from the Federal Government 
and additional revenues to strengthen our transportation 
system. We are trying to do our part, but we also believe 
additional Federal resources are needed. I think you are aware 
of many of the ideas that people are talking about to raise new 
revenue. You've heard about the eliminating ethanol tax 
exemptions and trying to retain the interest that's earned on 
the highway trust fund balance. But I also heard what I thought 
was very interesting. I would encourage your committee to take 
a look at indexing Federal fuels taxes. I believe that indexing 
taxes to deal with inflation is a critical issue. In Oregon 
we've done some analysis and we're finding out that people 
actually pay less in real terms than they did in 1970.
    Senator Reid. If I could interrupt, people in America pay 
less gas taxes than anywhere else.
    Mr. Warner. Well, increasing taxes is never popular, but I 
think the stakes are very high.
    One of the things that Administrator Peters and I have 
talked about is the need to explore new methods of financing 
transportation in the future. The experts are saying we are 
overly reliant on fossil fuels, and as fuel efficiency 
continues to grow, revenues to the highway trust fund are going 
to go down.
    I think all of us believe that vehicles, no matter how they 
are powered, should pay their fair share for improvements to 
the transportation system, because all vehicles cause 
congestion and wear and tear. In Oregon, we're looking at 
things like vehicle miles traveled taxes to tackle this 
problem. Our legislature charged us to look at new ways to 
ensure all vehicles pay their fair share. We're going to be 
exploring experimental ideas and reporting back to the 
Legislature next year.
    I encourage you to look at creating a pilot study that 
would promote research and testing of new methods for financing 
transportation. It would be very helpful, I believe.
    I did want to touch on the Federal lands highway program 
because I believe the continuation of a strong Federal lands 
highway program in the next surface transportation 
authorization is of national importance and a high priority for 
all of us western States. The State of Oregon has almost 32 
million acres in Federal ownership, an area greater than the 
sum of 35 other States' Federal lands.
    I wanted to also make the committee aware that, even while 
timber harvests in Oregon are declining, more people are still 
employed in the lumber and wood products industry than any 
other single manufacturing industry in the State.
    Senator Reid. I'm stunned by that.
    Mr. Warner. That's right. Recreational opportunities on 
publicly owned lands are another thing that's becoming vital 
for Oregon's travel and tourism industry.
    TEA-21 continued the Federal lands highway program 
established by ISTEA. It added some additional categories 
dealing with transit and public lands, national parks, Indian 
reservations, and preservation and construction of roads in 
national wildlife refuges. Oregon supports these categories and 
the changes that were made in TEA-21.
    In regards to the future, you are going to be deciding the 
overall authorization level for this program, the number of 
program categories, and how the funds are allocated. As you're 
aware, funding was increased dramatically from $447 million in 
1997 to about $700 million in the current year, and obviously 
we would like to see some similar increases. I know you're 
going to hear about the demands that are there right now.
    I did want to stress the point that the Western Governors 
Association and WASHTO--the Western State Highway and 
Transportation Officials--have adopted resolutions in support 
of increased funding, and they're also saying they don't want 
to see additional categories created within the Federal lands 
highway program.
    You've already heard about the BLM issue. We're concerned 
about that issue as well. I'm very pleased to hear that 
Administrator Peters is talking with the BLM. I hope the 
western States will be involved in those conversations.
    We were very concerned to learn that the U.S. Forest 
Service, for example, would like to add 60,000 miles of U.S. 
Forest Service roads to the Federal Highway Program. We support 
their need, but we don't think you can add a category of roads 
that's greater in size than the Interstate Highway System, and 
fund it from the Highway Trust Fund. We have encouraged the 
U.S. Forest Service to look for funds from the general fund or 
other sources.
    Again, I think there are many other issues that we could 
probably talk about. I just wanted to quickly talk about the 
aging infrastructure in Oregon. We have a bridge problem in 
Oregon. Our bridges were built in the 1950's and 1960's 
utilizing a technology that we're now finding out was maybe 
deficient, and a number of them are going to be impacting the 
movement of freight as a result of load limiting. We're going 
to be our legislature next session for major funding, but the 
State cannot fix this problem alone.
    I think there is a similar problem throughout the United 
States, and we probably need to look at making sure bridges are 
brought up to current standards on the interstate, because that 
is the primary backbone of our freight system.
    You've seen in my testimony some recommendations for the 
national corridor planning and development program. We really 
support it, but we think that it's being diluted and funding is 
not really going to the purpose that it should. I think you 
need to look at making sure those moneys go to important 
freight corridors in the United States, especially those hubs 
where you have the various modes going together that are 
critical to the freight and the economy of the Nation. We have 
one in the Portland area, the I-5 Trade Corridor, we think is 
one that should be on that list.
    Other things you've heard about include the transportation 
and community and system preservation program and environmental 
streamlining. We think that you need to look at these programs, 
to continue them, but also maybe refocus them. We'd be glad to 
have further conversations with you, your staff, or the 
Department on how that might be done.
    So, in conclusion, Mr. Chairman, I wanted to state that a 
strong transportation system is vital to the future of the 
United States. Reauthorization is clearly an opportunity to 
strengthen the transportation system and buildupon the 
successes of TEA-21 and ISTEA. To do this, we believe 
additional Federal resources are needed because States simply 
cannot overcome the many challenges we face alone. But I wanted 
to really stress that I don't think you need to recreate the 
wheel on this. I think the basic structure is sound. We have 
proven programs such as the Federal lands highway program that 
are generally working well.
    Some changes need to be made to ensure that discretionary 
program funding is targeted to projects that really support the 
primary objectives of those programs, and funding guarantees 
and firewalls that were established in TEA-21 need to be 
protected. And I think you do need to look at new sources of 
revenue.
    And, finally, it is crucial that the State highway 
apportionments increase substantially as they did under TEA-21. 
I think it benefits Oregon, it benefits the western States, our 
cities, counties, metropolitan planning organizations, transit 
districts, and others.
    Again, I am very pleased to be here and I again want to 
thank you for the opportunity to talk with you.
    Senator Reid. Mr. Milton?

 STATEMENT OF HON. JOHN H. MILTON, III, COMMISSIONER, HUMBOLDT 
                   COUNTY, WINNEMUCCA, NEVADA

    Mr. Milton. Senator Reid, Administrator Peters, thank you 
for allowing me to be here today. My name is John Milton. I'm a 
senior member of the Humboldt County Commission and a member of 
the board of directors of the Nevada Association of Counties.
    Thank you for the opportunity to spend a few minutes 
discussing western transportation issues and the Federal lands 
highway program, in particular.
    As you are aware, Senator Reid, over 87 percent of the land 
in our State is managed and controlled by the Federal 
Government. The majority of this land is accessed over county-
maintained roads. Most of these roads are gravel, which require 
a high level of maintenance. In Humboldt County we have 941 
miles of county-maintained roads in our system. Of that amount, 
669 miles or 71 percent of our system serve Federal lands. 
These lands do not generate revenue which can be used for 
building new roads or maintaining existing roads.
    In reviewing the Federal lands highway program I noticed 
that the majority of this money goes to the public lands 
highway category. In that category, 66 percent goes to forest 
highways, 33 percent goes to discretionary programs. In 
Humboldt County and the majority of Nevada, the Department of 
Interior is the manager of the Federal lands, and they receive 
no funding in this program.
    In Nevada there are approximately 61.7 million acres of 
Federal land, of which 51.1 million acres are administered by 
the Department of Interior, primarily the BLM. I would 
recommend that in the reauthorization you consider a new 
category related to these lands which would be similar to the 
current categories for refuge roads, park roads, and parkways.
    The Sheldon Antelope Refuge is the only wildlife refuge 
located in Humboldt County. Access to this refuge is via county 
roads. We believe we should be allowed to access refuge road 
category funds for improvements to these county roads. We 
currently receive 5,000 a year in revenue sharing from the U.S. 
Fish and Wildlife Service, but return $2,500 for the 
maintenance of the Virgin Valley Campground. This does not 
leave much for maintenance of the roads leading to or within 
the refuge.
    In April of 2000 I appeared before the Senate Subcommittee 
on Forest and Public Land Management to testify on the Black 
Rock Desert-High Rock Canyon Emigrant Trails National 
Conservation Area. That's a long name. In that time, one of my 
concerns I expressed was access to the NCA via our county roads 
system. That bill became law, and my concerns have not gone 
away. Most, if not all, the major access points are reached by 
county roads. Many of these are Humboldt County roads, 
including Cedarville Road, which provides access to the NCA and 
Sheldon Antelope Refuge, and a 95-mile road from Winnemucca to 
Gerlach which provides access to the entire southern boundary 
of the NCA.
    Senator Reid. Are these paved or dirt roads?
    Mr. Milton. These are all gravel roads.
    We expect use of these roads to increase dramatically. The 
cost of maintaining them will also increase. Improving these 
roads to handle increased traffic is beyond our means. For 
example, the estimate we obtained to upgrade the road from 
Winnemucca to Gerlach to an all-weather gravel road exceeds $7 
million. This does not include the $480,000 cost for cultural 
clearance, right-of-way acquisition, gravel pit development, 
and water sources or the $200,000 annual cost for maintenance. 
This road crosses three counties, none of which can afford to 
spend this type of money.
    Although roads such as these serve Federal lands, Humboldt 
County maintains them with no assistance from the Federal 
Government.
    The access to the Humboldt-Toiyabe National Forest in 
Humboldt County is also via our county road system. We maintain 
approximately 44.1 additional miles within the forest under 
agreement with the Forest Service. In exchange, the Forest 
Service maintenance crews undertake projects on county roads 
leading to the national forest to offset our costs incurred by 
the county.
    In conclusion, I would ask that you give strong 
consideration in the reauthorization of the Transportation 
Equity Act of the 21st Century by addressing the concerns I 
have expressed today. In particular, I would ask that a 
category be created to address the vast holdings of the 
Department of Interior. Also, that public roads maintained by 
someone other than the U.S. Fish and Wildlife Service be 
allowed to utilize the money in the refuge roads category.
    Thank you for allowing me to speak today.
    Senator Reid. Excellent statement.
    Senator Reid. Robyn?

  STATEMENT OF ROBYN BURDETTE, CHAIRWOMAN, SUMMIT LAKE PAIUTE 
                   TRIBE, WINNEMUCCA, NEVADA

    Ms. Burdette. Thank you. I'm glad to be here, speaking here 
in Nevada. I think it is good that you came here. I appreciate 
that. I've also been enlightened a little bit about Mary 
Peters. I understand she comes from Arizona.
    I'll try not to read my statement, because it is a long 
statement, however----
    Senator Reid. Your whole statement will be part of the 
record. If you would summarize in about 5 minutes, that would 
be appreciated.
    Ms. Burdette. OK. Thank you.
    The Summit Lake Tribe is located in the northwest portion 
of Nevada. As discussed, it is adjacent to the areas of Sheldon 
and Black Rock, and it is also open to very high-use 
recreational area. That's a big economy up there in our country 
in the rural areas.
    In 1999 I was chosen to sit on the Transportation Equity 
Act Negotiated Rule-Making Committee for Indian Reservation 
Roads, and my tribe was placed with 54 other tribes in the 
western region who service Nevada, Utah, and Arizona.
    One of the things I do want to mention, although I know 
it's not part of the IRR program, is road maintenance. Road 
maintenance. Road maintenance is a real need for Indian roads 
to maintain Indian reservation roads, and I know that the 
refuge road get funded, and I'm not suggesting that I'm in 
favor of putting an increase for road OM into our IRR program, 
but I think that it should be looked at because we're building 
new roads and we're not able to maintain roads that exist. 
However, the BIA OM budget should be targeted for an increase.
    The Rule-Making Committee just finished--and I think the 
publication came out for procedures and a relative needs 
formula. However, this is the first time that nationally the 
tribes got to see and participate and develop this formula. 
Unfortunately, with minimal funding it is very difficult to 
come up with a formula that's going to service so many tribes 
with so much need.
    We went back again to the population average daily traffic 
counts and cost to construct; however, a lot of what is needed 
to get to that point is planning dollars, and with low 
populations and rural areas, most of the tribes really don't 
benefit from this. I know my tribe has never received funding. 
And because we receive such low funding, we never, ever get a 
construction project. Sometimes my relative need portion will 
vary from $19,000 to $30,000, my estimated road project--this 
is without any new roads--is $1.7 million. That's an estimate. 
So it's very doubtful that I'll ever get to that when the 
region has to service 54 other tribes and my tribe is on the 
low end because of the population count. So that's a very big 
concern of ours.
    In the new proposed regulations there are some new 
categories that have potential, but they really need to be 
looked at further, and that is the high priority projects. This 
would allow for tribes who have never had a construction 
project and will only need one construction project to get 
serviced; however, there has been inclusion in this fund, this 
potential fund, of emergency and disaster. With Indian 
reservation roads, we have those on a daily basis. That really 
doesn't solve any problems. It just adds more funds to those 
types of categories.
    Likewise, my tribe--and I've added some pictures in the 
back of my statement--in 1999, we experienced the flood that 
Nevada had back then, and we applied for funds through the ERFO 
project. We had to go through the BIA to apply for those funds, 
and we were--denied eventually, it took us a couple of years to 
do that just because of the process of getting everything. We 
really didn't receive that much technical assistance. I think, 
had we been able to go straight to the Federal Lands Office 
instead of going through the BIA it would have been a much 
better process.
    Our road is the sole access from one point to the other, 
and I'm very glad to see John Milton here, because we share the 
same road problem. People cannot travel through this area 
unless they come through the reservation. So there's a lot of 
problems in this area that are going to need to be addressed. 
We have a lake, and the lake rises and the water comes in.
    BIA, their hands are tied because they have so many tribes 
to service.
    So, you know, I really don't want to be saying anything 
really bad. I just think that the Western Region Office needs 
to be looked at a little bit better. This affects us on a 
national level because, obviously, not only do we serve these 
roads public roads, but on the national level you have the Duck 
Valley Shoshone Tribe who has numerous accidents near or on 
their reservation, and yet they're targeted for transportation 
of nuclear receptacles. So tribal roads can potentially have a 
national effect, especially here in Nevada.
    I think the tribes in Nevada are looking forward to 
partnering with the State of Nevada; however, they need to get 
some of the funds geared for that.
    One of the other areas that's proposed in the negotiated 
rulemaking for the IRR program is capacity-based funding, but, 
again, it is based on population, and I think that it's really 
not going to work the way it is proposed. I think that base 
funding should be based on getting a project concluded, not 
based on your population and sub-category. I think without that 
we're not going to be able to partner and solve some of the 
problems that affect all of us.
    In other areas for the IRR program that were important to 
us, overall, nationally, was that the IRR program is a 
construction program. Unfortunately, we have to address all our 
transportation needs with construction dollars, like transit. 
We also have take-downs that are taking away, decreasing those 
funds, such as the obligation limitation and the 62 percent 
transportation. They come off the top, which limits our funds 
at the bottom.
    In closing, I would just ask that those areas be looked at 
again. I think that tribes can manage their programs if they're 
given the resources to do that, and I think we would love to be 
partnering with some of our county governments, also, to 
address these problems.
    Senator Reid. We thank all the witnesses in this panel very 
much.
    I say to you, Mr. Warner, you understand that the budget 
the President gave us is $8.6 billion short of just where we 
break even, and we've got huge money problems, and that's going 
to be a real hassle next year. As you know, every member of the 
Senate committee and every member of the House committee, 
Democrats and Republicans, signed on to a bill to increase that 
funding, but that's just up to current levels, and that's 
certainly not going to do the trick. So you need to understand 
your plaintive plea for money is one we've heard, but it's a 
difficult, difficult situation we have. I can't imagine going 
into this bill with the same amount of money we had 5 years 
ago. That will make things so much more difficult. I feel bad 
for the country. But we hope things will turn around and we can 
do something here.
    One question I have for you, in TEA-21 Senator Wyden, with 
the support, we're told, of the Oregon Department of 
Transportation, championed creation of the transportation 
community system preservation pilot program. Tell us what that 
is and how it has worked.
    Mr. Warner. Mr. Chairman, Administrator Peters, obviously 
the program, at least from our perspective, we thought it was a 
program that was to encourage people doing the right things 
from a land use and transportation standpoint, to look at 
environment liveability and to come up with projects that could 
promote liveability, alternative modes of transportation, could 
again promote compact communities, and allowing things to be 
done differently than they were being done now.
    What we've seen in that program--it was well-intended. It's 
one of those programs that I described where I think the policy 
intent was pretty clear, but this is a program that, again, 
became earmarked 100 percent. I'm not sure that all the 
projects that were funded by that through that program really 
fit the overall policy intent, so anything the committee could 
do, if you feel that's still a program you want to continue--
and I think we should continue that program----
    Senator Reid. You'd have some discretionary money.
    Mr. Warner. Exactly. Exactly. And I don't know whether it 
is a formula based or, again, given a discretionary program to 
the Federal Highway Administration to administer, but I think 
the intent was to have some sort of a competitive process where 
we could pit projects that really showcase things we wanted to 
maybe have occur throughout the United States and other places 
and use those as learning experiences, but I don't think the 
program has worked as well as originally intended, if I'm 
answering your question, Senator.
    Senator Reid. You're answering very directly. And I would 
hope that this program and others take into consideration what 
local governments and States have done to help themselves. If a 
State of local entity has done nothing but look for Federal 
largesse, then I think that in these discretionary programs, I 
think that the administrator and others should take into 
consideration what local government has done.
    One last question I'd like to ask you. The border and 
corridor program, I'm told by everyone, has not worked very 
well. The purpose of it, of course, was to take care of 
bottlenecks in our trade corridors. What do you think we should 
do to improve this program so that it meets the critical 
freight needs of this country?
    Mr. Warner. Well, Mr. Chairman and Administrator Peters, I 
think obviously the language in the authorizing bill needs to 
be clear about the intent of those moneys, and we need to have, 
first off, oversight to make sure that those moneys that are 
going to projects that do what the program is designed to do, 
and I think we need to make sure that it is focused in the 
specific corridors that are of national significance in 
movement of freight, and maybe we even need to go as far as 
identifying some of those right up front so that here's the 
kind of corridors we're looking at and to make it clear that's 
what we want to do with this money.
    I think if you put that clear direction in, give the 
Department some clear direction on how you want it 
administered, I think the program would work better, but right 
now what we're seeing is a lot of smaller projects not really 
addressing, as you point out, the great bottlenecks that are 
there in those corridors. So it has not worked out as we had 
planned.
    Senator Reid. I'd say to Mr. Milton and Chairwoman 
Burdette, you know, we talk all the time about unfunded 
mandates. The example that you gave where we've created this 
large new entity, Black Rock, that's an unfunded mandate as far 
as you are concerned because you have basically two choices--do 
something to try to improve the roads or just do nothing, and 
in the process the roads become more dangerous and, of course, 
I would think that there are some business benefits from people 
traveling on these roads to people in the area. The roads are 
so bad, people simply won't want to come.
    So I think we really do have to take a look at it, to help 
with non-freeway type roads, dirt roads. People come to me now 
and say, ``What street did you live on?'' We didn't have 
streets. You know, they're working on Main Street or--it's hard 
for people to comprehend what the west was like.
    I've traveled through the Sheldon Antelope Range. It's a 
dirt road. It's a nice dirt road, one of the nicer ones that 
I've driven on, but I'm sure the need there is significant. No 
matter what you do on a dirt road, you can't save it from a 
cloudburst. These things happen and wash things away.
    Your statements are very important.
    Chairwoman Burdette, tell us a little bit about the Summit 
Lake Tribe. How many tribal members do you have?
    Ms. Burdette. We have an enrollment population of 94, I 
believe.
    Senator Reid. That's a difficult problem you have. How many 
hundreds of thousands of Navajos? How many hundreds and 
hundreds of thousands. Even in Nevada, 94 when you compare it 
to Shoshone, which is about 4,000, I believe, so you're always 
fighting an uphill battle.
    Ms. Burdette. We are always trying.
    Senator Reid. Tell us a little bit, for the record, the 
history of the Summit Lake Tribe. When did it start?
    Ms. Burdette. Of course, the Summit Lake Tribe, Nevada if 
their aboriginal territory, of course. The tribe was 
organized----
    Senator Reid. Where you are now was?
    Ms. Burdette. Yes. And it was organized or recognized by 
the IRR in 1913, I believe.
    Senator Reid. Was the membership in the beginning very 
small?
    Ms. Burdette. Membership has remained small, and we--a lot 
of the impact on our reservation and something that I'm 
concerned about on a national area is that a lot of people 
assume that there aren't members there, and there are a lot of 
members and we all maintain our ties to the reservation. We are 
just starting to develop our land. We have a lot of impact 
because of the recreational high-use area. I mean, you cannot 
get from one side--we're right next to Oregon, we're right next 
to California, we're in a high recreational area. People love 
to hunt up there, so they impact the area.
    Senator Reid. What is the area of land?
    Ms. Burdette. The reservation, itself, is about 12,000 
acres.
    Senator Reid. Which is very small.
    Ms. Burdette. Very small. It includes the lake.
    Senator Reid. Well, we appreciate your coming here very 
much.
    Mr. Carano is still in the room. Gary, I would remind you 
what she's done at the Summit Lake Tribe is indicative of what 
the Northern Resort Association should do. Only 94 members, 
but, boy, I'll tell you they are loud. They maintain identity. 
For example, she's here testifying today. A lot of other tribal 
governments didn't come. She's really done a good job.
    Ms. Burdette. I thank you for the opportunity.
    Senator Reid. Mary, do you have anything you would like to 
say?
    Ms. Peters. Senator, just a few comments.
    First of all, I want to thank all the witnesses, both this 
panel and the prior. It has been very enlightening for me to 
actually come out here to America and hear from the people 
about how you want America's money spent because, at the end of 
the day, this Administration certainly realizes the importance 
of this and we look forward to addressing some of the issues, 
most specifically the aging infrastructure and bridges. That's 
a topic that my staff and I spent hours talking about lately, 
and we'd like to consult with you some more about what we can 
do about that. Clearly, and especially in a State like this 
with so much growth, there are new needs, but there are also 
very important needs such as on I-80 to maintain existing 
infrastructure. I do appreciate such needs and we'd like to 
discuss them more.
    Senator Reid. Mary, let me just say, to complicate that, I 
had a conversation this morning with some people who are 
wanting to do some experiments, because one of the areas that 
the terrorists have targeted are our bridges, and that's a 
difficult problem. What can we do to protect our bridges. And, 
to indicate the nature, the aging of the bridges, very 
significant number of bridges where a school bus pulls up to 
it, lets the kids out, the kids walk across and the take the 
bus across the bridge.
    Ms. Peters. It is a concern, and Secretary Mineta 
especially shares your concern about the condition of the 
bridges in this country.
    Mr. Milton from Humboldt County, I also appreciate your 
concerns. We'll go back and look at the issue again, and I 
think, as was said earlier, it is important to consult with all 
of you because we do know, especially in a State like this with 
so much public land, it is recreational, and tribal land, as 
well. It is land that people want to have access to and 
recreate on, so we do appreciate the significant challenges 
that we have.
    Ms. Burdette, we do have a program that I'd like to have 
someone send information to you on called the ``capacity 
building program.'' It helps with planning, building planning 
capacity and capability. I understand what you're saying about 
money, but that program may be of some assistance to you in the 
nearer term.
    But again, Senator, I very much appreciate your giving me 
the opportunity to come out and hear from the people in America 
and here in Nevada. I very, very much appreciate it.
    Senator Reid. Let me just comment about this Sheldon 
Antelope Ranch. If I'm not mistaken, that was done during the 
era of Theodore Roosevelt. He got that started. It's a huge 
area, a huge area. It is a great recreation area. That part of 
the country, except for Alaska, is the most sparsely populated 
part of our country.
    This committee stands in recess.
    [Whereupon, at 4:45 p.m., the subcommittee was adjourned, 
to reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]

   Statement of Hon. Mary E. Peters, Administrator, Federal Highway 
           Administration, U.S. Department of Transportation

    Mr. Chairman, it is truly a pleasure to be here in Nevada today. 
This is an appropriate setting for discussing the Federal Lands Highway 
Program (FLHP). Federal and Tribal lands account for approximately 31 
percent of the United States and the greater part of these lands is 
located in the 13 western-most States. As you know, federally owned 
lands constitute a greater percentage of total land area in Nevada than 
is the case in any other State.
    Through FLHP funding, the Federal Highway Administration (FHWA) 
works in cooperation with the Federal land management agencies, Tribal 
governments, and State and local transportation agencies to provide 
access to and within Federal and Tribal lands. Our goal is to create 
the best transportation system possible in balance with the 
environmental and cultural values of Federal and Tribal lands. I 
appreciate this opportunity to report to you on some of the 
accomplishments of the FLHP under the Transportation Equity Act for the 
21st Century (TEA-21).

                               BACKGROUND

    Transportation is critical to the quality of life of Native 
Americans and other residents on Tribal and Federal lands. Moreover, 
Federal and Tribal lands have many uses, including grazing, timber 
harvesting, mineral extraction, energy production, and wilderness and 
wildlife protection; but tourism and recreation are the largest and 
fastest growing uses. The economies of many western States and local 
communities are dependent on tourists. Safe and sufficient 
transportation access to and within Federal and Tribal lands is 
essential to providing a positive experience and encouraging repeat 
visits.
    The Federal lands highway system comprises 96,130 miles of public 
roads and almost 10,000 bridges and tunnels. A substantial number of 
the nation's All American Roads and National Scenic Byways are part of 
the Federal lands highway system. There are also approximately 510,000 
miles of Federal public and non-public administrative and land access 
management roads and trails which connect to the Federal lands highway 
system, but which are owned by the Federal land management agencies and 
the Department of Defense and are not eligible for funding under the 
FLHP.
    Congress created the FLHP as part of the 1982 Surface 
Transportation Assistance Act. The Act brought together for the first 
time a consolidated and coordinated long-range funded program for 
Federal lands highways. The Federal Lands Highway Office administers 
the program through memoranda of agreement with our Federal partners 
that define the roles and responsibilities of each agency.
    The Intermodal Surface Transportation Efficiency Act of 1991 
(ISTEA), followed by TEA-21, expanded requirements of the FLHP; 
enhanced flexibility of the program, including eligibility of transit 
facilities for funding; and increased program funding levels. TEA-21 
authorized a total of $4.1 billion for the FLHP for FYs 1998-2003, to 
be distributed under five categories: Forest Highways, Public Lands 
Highways Discretionary (PLHD), Indian Reservation Roads (IRR), Park 
Roads and Parkways (PRP), and Refuge Roads. In FYs 1998-2002, about 66 
percent of the FLHP funds were allocated to projects located in the 13 
western States that contain the majority of Federal and Tribal lands, 
as shown in the following table.


                                                     FLH Program Funding
                       State                         in Millions, Fiscay
                                                        Year 1998-2002

Alaska.............................................  181
Arizona............................................  362
California.........................................  193
Colorado...........................................  94
Hawaii.............................................  12
Idaho..............................................  81
Montana............................................  165
Nevada.............................................  87
New Mexico.........................................  264
Oregon.............................................  131
Utah...............................................  74
Washington.........................................  106
Wyoming............................................  127
    Western State Total............................  1,877
    Remaining 37 States............................  950


                         FOREST HIGHWAY PROGRAM

    The Forest Highway program is the oldest funding category in the 
FLHP, originating in the Federal-Aid Road Act of 1916. The program 
serves 175 national Forests and Grasslands, and consists of 29,214 
miles of road and 4,214 bridges. FHWA works through 41 tri-party 
agreements (FHWA, State, and Forest Service) to administer the Forest 
Highway program. TEA-21 made available $129 million in 1998 and $162 
million per fiscal year for 1999-2003 for project funding under the 
Forest Highway Program.
    Since TEA-21, a major emphasis of the Forest Service and FHWA has 
been in the transportation planning area. In fiscal year 2002, FHWA has 
co-sponsored a series of six conferences with the U.S. Forest Service 
on ``Innovative Approaches to Transportation-Planning, Partnerships, 
and Programs,'' designed to: (1) further increase awareness of Forest 
Service personnel of the resources available for their transportation 
needs; (2) increase awareness of the vital importance of building 
partnerships with gateway communities, State Departments of 
Transportation (DOTs), Metropolitan Planning Organizations (MPOs), 
rural regional planning agencies, and Tribal governments; (3) share 
good practices in the areas of transportation planning, project 
financing, public involvement, and environmental stewardship and 
streamlining; and (4) promote greater integration in transportation 
planning activities conducted by the States, local transportation 
officials, and the Forest Service. Reno was the site of one of the 
conferences.
    There are well over 100 Forest Highway projects in some level of 
development or construction at any given time in the West. Under TEA-
21, $560 million have been allocated to these projects in the western 
States, which represents about 84 percent of the total expenditures 
under the program.
    The major Forest Highway work in Nevada over the past few years has 
been road stabilization and erosion control on State Route 28 in the 
Lake Tahoe Basin and reconstruction of the Harrison Pass Road near 
Elko. Nevada receives about $2 million annually from the Forest Highway 
program and it has been divided nearly equally between these two 
projects.

           PUBLIC LANDS HIGHWAY DISCRETIONARY PROGRAM (PLHD)

    PLHD provides funding for transportation projects that are eligible 
under title 23; that are in a State containing Federal lands, Federal 
reservations, or Tribal lands; and that provide or improve access to 
Federal lands or Tribal lands. Funds are to be allocated by the Federal 
Highway Administrator, who is directed to give preference to 
applications from States that have at least 3 percent of the nation's 
total Federal lands.
    There have been many successes under this program since its 
inception. Since enactment of ISTEA, we have provided about $725 
million (through fiscal year 2002) for over 400 projects. The 13 
western States have received the majority of funds allocated under this 
program, with Nevada receiving the largest amount of funding from the 
program over the past 20 years--$96.96 million out of $1.113 billion 
allocated.
    PLHD has provided over $30 million since 1992 for major 
reconstruction of New Mexico Route 537 through the Jicarilla Indian 
Reservation, which has significantly improved access in this area, and 
enhanced economic development for the Reservation. We have also 
provided over $28 million since 1990 for numerous roadway 
reconstruction and rehabilitation projects to improve access in and 
around the National Mall in Washington, DC.
    To date under TEA-21, $403 million have been made available for 246 
PLHD projects. The Hoover Dam Bypass project, which is a joint project 
between Arizona and Nevada, has received $18 million of PLHD funds 
since fiscal year 1999. Other PLHD projects in Nevada include $10 
million for the Pahrump Valley Road, $10.5 million for US-50 and SR-28 
in the Lake Tahoe area, $8 million for US-95 near Searchlight, and $4 
million for the St. Rose Parkway in Clark County.
    TEA-21 changes allow funding for administrative costs of Federal 
land management agencies in connection with public lands highways and 
costs of Federal land management agencies to conduct necessary 
transportation planning for Federal lands, where funding for the 
planning is not provided by other FLHP categories. Between $4-6 million 
per year have been allocated to Federal agencies under these 
provisions.

                 INDIAN RESERVATION ROAD PROGRAM (IRR)

    TEA-21 reaffirmed the Federal Government's commitment to providing 
safe and efficient access to and within Tribal lands by authorizing 
$1.6 billion in IRR funding for fiscal years 1998-2003. Since the 
enactment of TEA-21, the IRR program has provided funding to construct 
or improve 2,000 miles of roads and 51 bridges. TEA-21 also 
strengthened the commitment of the Federal Government to increasing the 
involvement of Tribal governments in transportation programming and 
planning.
    As part of the TEA-21 requirements to develop transportation 
planning procedures, the FHWA and the Bureau of Indian Affairs (BIA), 
in consultation with the Tribal governments, developed the AIndian 
Reservation Roads Program Transportation Planning Procedures and 
Guidelines,
    which is now available as interim guidance for transportation 
planning. FHWA conducted training on these planning procedures in 
cooperation with the BIA and Tribal Technical Assistance Program 
Centers.
    Other actions taken, as a part of our TEA-21 implementation efforts 
to improve transportation for Tribal lands while increasing Tribal 
involvement in the process, include FHWA's renewal of four Tribal 
Technical Assistance Program centers and establishment of three new 
ones to serve Tribes in Oklahoma, California, and Alaska. Also, the BIA 
established a self-governance pilot program wherein two self-governance 
Tribes receive IRR funds as part of their annual funding agreements.
    One noteworthy project under the IRR program, also using PLHD 
funding, is the Walden Point Road Project for the Metlakatla Indian 
Community of Alaska. The project illustrates the diversity of the IRR 
program and successful program delivery through joint agency and Tribal 
efforts. The proposed 14-mile project will provide a safe and 
convenient transportation link between Metlakatla and the Ketchikan 
road system. The roadway will also tie into the Alaska DOT's marine 
highway system via a planned ferry terminal facility at Annette Bay, 
the northern terminus of the Walden Point Road. Upon completion, this 
project will be part of a multi-modal transportation system that will 
replace a restricted travel service with a regular and safer commuter 
service. The FHWA's Western Federal Lands Division has led delivery of 
this project with partners including the United States Pacific Command, 
the United States Alaskan Command, the Alaska Department of 
Transportation and Public Facilities, the Metlakatla Indian Community, 
the Alaska National Guard, and the BIA. The project has showcased the 
feasibility, benefits, and success of utilizing US-based training 
opportunities for the Department of Defense's Innovative Readiness 
Training Program. The project will also improve the quality of life for 
the Metlakatla Indian Community by providing safe, convenient, and 
efficient multi-modal transportation linkage between Metlakatla and the 
Ketchikan road system.

Negotiated Rulemaking
    TEA-21 directed the Secretary of the Interior to develop an Indian 
Reservation Roads fund distribution formula and program procedures, 
using negotiated rulemaking with Tribal governments. We understand that 
final review and coordination of the Department of the Interior 
proposed rule has been completed and it will be published shortly in 
the Federal Register.
    A committee consisting of 29 Tribal representatives, 10 Department 
of Interior representatives, and 3 FHWA representatives met between 
March 1999 and December 2001. Considerable time was spent in agreeing 
on one IRR funding distribution formula. Some major unresolved issues 
remain, and will be discussed in the preamble of the notice of proposed 
rulemaking. These include: use of IRR administrative funds; delegation 
of plans, specifications, and estimates (PS&E) approval to Tribes; 
process of obtaining IRR eligibility determinations; content of annual 
funding agreement; contract support costs; profits/savings; advance 
payments; and procedure for Tribes applying for emergency relief for 
federally owned roads (ERFO) funds and ERFO eligibility determinations.
    Federal and Tribal committee members will be conducting 12 
informational meetings on the proposed program procedures and fund 
distribution formula during the 60-day comment period. After the 
comment period, the committee plans to meet, evaluate comments, and 
draft the final program procedures and fund distribution formula.

Indian Reservation Roads Bridge Program (IRRBP)
    TEA-21 directed the Secretary of Transportation, in cooperation 
with the Secretary of the Interior, to establish a nationwide Priority 
Program for improving or replacing deficient Indian Reservation Road 
bridges, using a set-aside of not less than $13 million of IRR funds 
per year.
    After soliciting comments on project selection and fund allocation 
procedures, through meetings with Tribal representatives and a Federal 
Register Notice, the FHWA developed guidance for the Bridge Program 
that was published as an Interim Final Rule in July 1999. We followed 
up with training sessions on the Bridge Program and are working with 
the BIA and Tribal governments to maximize the number of bridges 
participating in the IRRBP.
    To date, $27.6 million has been obligated for 51 bridge projects. 
Based on BIA plans, we expect to obligate an additional $18.3 million 
for another 40 bridge projects. Some of the supplemental IRR funds 
provided in fiscal years 2001 were allocated to Tribes and BIA regional 
offices to prepare plans for replacing deficient bridges. We anticipate 
that proposed projects for fiscal year 2003 will fully utilize the 
remaining IRR bridge funds set-aside by TEA-21.

Tribal Government Involvement in the Federal-Aid Highway Program
    Additional opportunities exist for Tribal governments to 
participate in the Federal-aid highway program as well as the IRR 
program. Tribes can use IRR planning funds to participate in 
metropolitan and statewide planning procedures for the Federal-aid 
program. TEA-21 requires States to consult with Tribal governments in 
development of the long-range transportation plan and the State 
Transportation Improvement Program.
    FHWA Federal-aid division offices have consulted with Tribal 
governments on overall FHWA programs, National Environmental Policy Act 
(NEPA), and historic preservation. In some States, Tribal/State 
Transportation summits and workshops have been held with the objective 
of improving intergovernmental relations and increasing Tribal 
governments' capacity to manage transportation projects and programs.

                     PARK ROAD AND PARKWAYS PROGRAM

    The Park Roads and Parkways (PRP) program provides funding for the 
planning, design, construction, or reconstruction of designated public 
roads that provide access to or within national parks, recreation 
areas, historic areas, and other units of the National Park Service. 
TEA-21 made available $115 million in 1998 and $165 million per fiscal 
year for 1999-2003 for project funding under the PRP Program.
    FHWA and the NPS jointly administer the program and share project 
development responsibilities. FHWA undertakes a majority of the design, 
construction, and oversight work, while the NPS develops a priority 
program of projects and is responsible for planning, environment, and 
protection of NPS values.
    Projects funded under TEA-21 through 2002 include $ 38 million at 
Lake Mead National Recreation Area, $44.2 million in construction on 
Yellowstone National Park roads, and $7 million on Glacier National 
Park roads.
    Since the enactment of TEA-21, the NPS and FHWA have completed 
three out of six congressionally mandated parkway completion projects. 
The completed projects are the George Washington Memorial Parkway, 
Cumberland Gap National Historic Park Tunnel, and the Chickamauga-
Chattanooga Route 27 Bypass in Georgia. In addition, the Baltimore-
Washington Parkway is almost 99 percent complete.
    The Alternative Transportation Program under the PRP program 
integrates all modes of travel within a park including transit, 
bicycle, pedestrian linkages, and automobiles. The PRP program has 
invested approximately $22 million in five alternative transportation 
pilot projects in Acadia National Park, Golden Gate National Recreation 
Area, Grand Canyon National Park, Yosemite National Park, and Zion 
National Park.
    The NPS and FHWA have also conducted Transportation Planning 
Seminars throughout the country and produced The National Park Service 
Transportation Planning Guidebook.

                          REFUGE ROADS PROGRAM

    Refuge Roads is a new category established in the FLHP under TEA-
21, with authorizations of $20 million a year for fiscal years 1999 
through 2003. The program funds maintenance and improvement of public 
roads that provide access to or within a unit of the National Wildlife 
Refuge System.
    The program is co-administered by FHWA and the U.S. Department of 
Interior, Fish and Wildlife Service (FWS). FHWA and the FWS signed a 
memorandum of agreement, and together have developed program procedures 
and a fund distribution methodology, selected projects, and developed 
transportation improvement programs.
    Funds are to be allocated according to the relative needs of the 
various refuges in the National Wildlife Refuge System. The formula for 
distributing the funding between the FWS Regions is based on four 
attributes of a Regional refuge road network: road inventory, roadway 
condition, traffic volumes, and traffic accident rates. In Nevada, 
projects are complete or underway in National Wildlife Refuges 
including Desert, Pahranagat/Ash Meadows, Ruby Lake, and Stillwater, to 
improve public access and enjoyment at these sites.
    During fiscal years 2000 and 2001, the FHWA conducted a condition 
inventory of all refuge roads. The FWS regions use the condition 
information during project selection and for assessing future funding 
needs.

                   ADDITIONAL TEA-21 FLHP PROVISIONS

    Federal Management Systems Regulation. TEA-21 requires the 
Secretary of Transportation and the Secretary of each appropriate 
Federal land management agency to develop safety, bridge, pavement and 
congestion management systems for roads funded under the FLHP.
    The FHWA issued four Advance Notices of Public Rulemaking (ANPRM) 
in September 1999, one for each of the four Federal land management 
agencies (NPS, FS, BIA, FWS). In each of these four ANPRMs, the FHWA 
and the appropriate agencies solicited public comment on developing a 
rule to meet both transportation planning and management system issues. 
However, FHWA has decided to issue an NPRM addressing only the 
management systems and will address the transportation planning 
procedures at a later date. The NPRM is being prepared for publication 
later this year. The resulting management systems will serve to guide 
the agencies and Indian Tribes in making project selection and resource 
allocation decisions.

Study of Alternative Transportation Needs in National Parks and Related 
        Public Lands
    In section 3039, TEA-21 directed the Secretary of Transportation, 
in coordination with the Secretary of the Interior, to undertake a 
comprehensive study of alternative transportation needs in national 
parks and related public lands managed by the National Park Service, 
the Bureau of Land Management, and the Fish and Wildlife Service. 
During the study, alternative transportation system needs were examined 
at 207 sites having likely transit needs over the next 20 years. 
Transit needs were identified at 118 of 169 NPS sites, 6 of 15 BLM 
sites, and 13 of 23 FWS sites. A summary report of the section 3039 
Study was transmitted to Congress in November 2001.
    After completion of the section 3039 study, the NPS, in 
consultation with its stakeholders, developed a 5-year Alternate 
Transportation Plan aimed at improving existing alternative 
transportation systems and increasing the number of parks that are 
served by such systems. FLHP is currently working with the other 
Federal land management agencies to address their similar needs.
    The NPS, in cooperation with the gateway community of Springdale, 
Utah, has implemented a significant transit project at Zion National 
Park. Park patrons utilize a shuttle bus system from a number of stops 
in Springdale, or from various points of interest in the Park, as the 
only means of access on Canyon Scenic Drive during the peak season. 
Since the new system was implemented, wildlife has returned to the 
canyon and noise levels have been reduced.

Hoover Dam Bridge
    TEA-21 made construction of a project to replace the Hoover Dam 
Bridge specifically eligible for FLHP funding and, since the enactment 
of TEA-21, $86 million has been allocated toward the construction of 
this project.
    The FHWA Central Federal Lands Highway Division is the lead agency 
for delivery of the Hoover Dam Bypass Project located on US 93 at the 
Nevada/Arizona border. U.S. Highway 93, a segment of the CANAMEX 
Corridor, is a designated NAFTA route between Mexico and Canada. The 
project addresses increases in traffic and the unsafe mix of 
pedestrians, cars, and trucks, that result in traffic gridlock, high 
accident rates, and potential for a catastrophic accident. The NEPA 
process was concluded in late March 2001 with selection of the 
Sugarloaf Mountain Alternative. This alternative will remove trucks and 
other through-traffic from the crest of Hoover Dam. This project is a 
model of cooperative effort between two States and multiple Federal 
agencies to solve a transportation safety and congestion problem at the 
Hoover Dam site.
    The Sugarloaf Mountain Alternative includes a 2,000 foot-long 
bridge located 1,700 feet downstream and rising 250 feet above the 
Hoover Dam. This alternative also includes 3.5 miles of 4-lane roadway 
construction in extremely rugged terrain.
    Construction is scheduled to begin in late 2002. At this time, four 
individual construction projects are planned in the following order: 
Arizona approach, Nevada approach, Colorado River Bridge, and final 
surfacing. The project delivery plan is flexible yet provides a 
structured approach to expenditure of sequential funds. Construction is 
anticipated to last 5 years with completion in 2007.

                               CONCLUSION

    Overall, the Federal Lands Highway Program is working well in 
supporting our nation's economy and improving the quality of life for 
all of our citizens. But the Federal Lands Highway system faces 
increasing demands from tourist traffic and resource development. The 
challenges facing us are to maintain and improve our transportation 
systems serving Federal and Tribal lands, in order to provide safe and 
sufficient transportation for residents and access for visitor 
enjoyment, while protecting the environmentally sensitive lands and 
cultural resources. Innovative and creative solutions will be required 
to address these challenges and must involve all Federal, Tribal, 
State, and local stakeholders.
    I look forward to continue working with Congress and our partners 
during the reauthorization of the surface transportation programs to 
find solutions for improved mobility and safety to and within Federal 
and Tribal lands. Mr. Chairman, I again thank you for the opportunity 
to testify today. I will be pleased to answer any questions you may 
have.

                               __________
       Statement of Tom Stephens, Director, Nevada Department of 
                             Transportation

    Mr. Chairman and members of the committee, my name is Tom Stephens. 
For the past 7 years I have been the Director of the Nevada Department 
of Transportation and I am here to testify today on behalf of the State 
of Nevada. I just completed a term as the President of the Western 
Association of State Highway and Transportation Officials (WASHTO) and 
will testify on the Western Governor's Association (WGA) policy 
statement on reauthorization of TEA-21 which I helped coordinate. I am 
also on the Executive Committee of the American Association of State 
Highway and Transportation Officials and worked closely with them on 
the reauthorization of ISTEA as well as in formulation of their 
position on the reauthorization of TEA-21.
    I want to thank you for this opportunity to testify to you again on 
a matter of great importance to the Nation and to the State of Nevada. 
I want to commend you for seeking a western perspective on the issues 
involved in the reauthorization of TEA-21. One size does not fit all 
and the west is considerably different than the rest of the country.
    I especially want to thank Senator Reid for his leadership on 
highway issues. His work has not only benefited Nevada, but also the 
Nation as a whole.
    While Nevada faces many of the same transportation issues as other 
States it is also unique in a number of ways. Nevada is and has been 
the nation's fastest growing State for many, many years. With a growth 
rate of 66 percent in the past decade it is far ahead of second place 
Arizona, which is at 40 percent, and Colorado, Utah and Idaho, which 
complete the top five growth States at around 30 percent. (See attached 
U.S. map showing percentage growth of the States from 1990-2000.) Like 
many of our neighbors in the west, Nevada has a high percentage of 
federally owned lands. In fact, with 87 percent of our State federally 
owned, Nevada has the highest percentage of Federal land ownership. 
These lands, which are not on the tax rolls, must be accessed and 
crossed with the highway system. (See attached maps of Federal Land 
Ownership in Nevada and the continental U. S.)
    Nevadans recognize the tremendous national and State need for a 
good transportation system and the costs this need creates. The State 
Transportation Board is chaired by the Governor and has three other 
statewide elected officials (Lt. Governor, Attorney General and State 
Controller) as well as three appointed members. No other State has its 
Governor as a member of its transportation board. Local and State fuel 
taxes are high compared to most States, vehicle registration taxes are 
high, and there is menu of local taxes collected to support 
transportation projects (e.g. taxes on new homes and commercial 
development, hotel room taxes, vehicle registration taxes, sales taxes 
and jet fuel taxes). I doubt that any other State has the level of 
support that Nevada provides to transportation from in-state taxes. 
However, this is not enough to meet the increasing needs and we need an 
increase in the Federal funding to match the growth of the State.
    Today my remarks will emphasize the highway needs in Northern 
Nevada. The issues are preservation, safety and congestion. We must 
maintain the system, which is deteriorating with age and greatly 
increased truck loading at the same time we address the congestion 
issues in the urban areas created by the tremendous population 
increase. Most of the heavy trucking is on the interstate and most of 
the interstate mileage is in Northern Nevada. (i.e. 411 miles on I-80 
versus 124 miles on I-15) Safety is a big issue that we address through 
better maintenance and reducing congestion as well as addressing high 
hazard areas. Highway fatalities are up 20 percent this year over last 
year and this will translate in 60 more deaths on Nevada highways this 
year as compared to last. Some do not consider that Northern Nevada is 
growing very fast compared to Southern Nevada and therefore congestion 
issues in the North should not receive any priority. If Nevada were 
divided into two States, one being Clark County in Southern Nevada (an 
area the size of the State of Massachusetts) and the rest of Nevada (an 
area larger than Wyoming with 25 percent more people), then Clark 
County would still be the fastest growing State at an 85 percent growth 
rate, Arizona would be second at 40 percent and Northern Nevada would 
be third at 35 percent. Obviously we cannot ignore the growth driven 
needs of Northern Nevada.

                              MAINTENANCE

    Although congestion in the nation's fastest growing State seemingly 
gets most of our attention, we must still spend more than half of our 
construction dollars on preserving the existing State highway system. 
If allowed to deteriorate, it would cost much more to bring the State 
highway system back to good condition than it costs to keep it that way 
through timely projects identified by an excellent maintenance 
management system. The importance economically of a good transportation 
system cannot be emphasized enough.
    Of special concern is the idea being floated in a few large States 
that the Federal fuel tax dollars collected in those States should be 
returned 100 percent to those States. This would seriously undermine 
the national highway system. For example, in Nevada the four-lane 
Interstate 80 across the northern part of the State has continued to 
meet the needs of rural growth without much expansion, but the 
tremendous increase in truck traffic due to the growth of California 
and the change in distribution of products from a regional warehousing 
to ``just-in-time'' delivery has created tremendous maintenance needs 
which have not been fully met by Federal funding. If the Federal 
funding is further reduced, ``bridge'' States like Nevada will not be 
able to maintain the interstate systems and national commerce will be 
severely adversely affected.
    In 1996, I spoke to a group of local and State transportation 
officials in Sacramento who were advocating that California keep all 
the Federal revenue collected in their State. It happened to be the 
150th anniversary of the Donner Party and I pointed out to this 
audience that the reason the Donner party got in trouble was because 
there were no good roads across Nevada and that the same thing would 
happen to California's economy today if they cutoff the funding for 
interstate maintenance across Nevada.

              FREEWAY NEEDS IN THE RENO-CARSON URBAN AREA
 
   In the past thirty years since Interstate 80 was finished through 
Reno, the population of the Reno-Carson area has tripled to more than 
400,000 people. Over those years the primary NDOT freeway project has 
been to bring U.S. 395 up to freeway standards from the north 
California State line to the junction with U.S. 50 south of Carson 
City. When completed, Carson City will be one of the last State 
capitals to be put on the interstate system.
    The 8.5 miles between the Mount Rose Road and the Bowers Mansion 
Road is the last remaining unfinished freeway segment between Reno and 
Carson City. The construction of the bridges for this challenging 
project is scheduled to go to out to bid early next year with the 
roadway to be constructed after the bridges are complete. The entire 
project is expected to take four to 5 years. The nine mile long freeway 
bypass around Carson City has had bridges constructed for the northern 
segment with the roadway work for Phase I scheduled to go out to bid 
late this year absent any delays due to right-of-way issues. The 
remaining five miles of the southern portion of this route just started 
design and is projected to be built by the end of the decade.
    Meanwhile I-80 in Reno has aged and traffic has increased beyond 
original design capacity. We broke ground today for the $53 million 
rejuvenation of the Reno Spaghetti Bowl (i.e. interchange of I-80 and 
U.S. 395), which will replace aging pavements, seismic retrofit the 
bridges to current standards, and widen some bridges and ramps to 
improve safety and smooth traffic flow.
    However, the mainline freeways in Reno and Sparks are approaching 
maximum capacity and projects will have to be launched over the next 10 
years to widen I-80 from McCarran east to Vista and from Keystone west 
to Robb Drive as well as to widen U.S. 395 north of McCarran to Lemmon 
Drive and sections south of the Spaghetti Bowl to Delmonte.

                    RURAL TWO LANE HIGHWAY WIDENING

    Rural two-lane highways are an item of special concern in a growing 
State. Head-on accidents, which almost always have one vehicle with no 
fault, are especially troublesome.
    In southern Nevada, NDOT has been able to add lanes to SR 163 
between US 95 and Laughlin and on SR 160 between Las Vegas and Pahrump. 
We are currently out to bid on the first phase of widening US 95 to 
four lanes between US 93 and SR 163 with a bid opening date of August 
15. These projects are not cheap. The 18 miles of the US 95 widening 
now out to bid are estimated to cost $20.7 million or more than a 
million dollars a mile. With the growth of the State and the 
competition for funds from the urban areas, none of these rural two-
lane highways could have been widened without additional Federal 
funding.
    We have a similar need to widen two-lane highways in Northern 
Nevada. The two most pressing needs are to widen 21 miles of two-lane 
highway on US 50 Alternate between Fernley and Fallon and 21 miles of 
two-lane US 50 between Dayton and Silver Springs.
    The traffic on the Fernley to Fallon highway has greatly increased 
as a result of expanded Federal operations at the Fallon Naval Air 
Station. In October and November of 2000 there were five fatalities on 
the Fernley to Fallon highway. There were ten fatalities on this road 
in the previous 4 years to make the average three a year over the 5-
year period, a very high rate. Although we have taken interim measures, 
which held the death count to two in the last year and a half, the 
permanent solution is to widen the highway. The first four-mile phase 
of this highway widening is now out to bid with a construction cost 
estimate of $12.2 million. However, the remaining 17 miles of needed 
widening, estimated to cost nearly $20 million, remains unfunded. 
Widening the first 6 miles between Dayton and Silver Springs is in 
design with a project cost of $7 million for construction in 2005. The 
remaining 15 miles of widening remains unfunded.

                 ENVIRONMENTAL PROTECTION OF LAKE TAHOE

    Five years ago Senator Reid led the effort to bring national 
attention to the continuing degradation of water quality in Lake Tahoe. 
President Clinton and Vice President Gore as well as other high 
administration officials visited the Lake and commitments were made.
    The runoff of both soil matter and road material from the highways 
around the lake contributes to the degradation of the water quality in 
Lake Tahoe. With over 39 miles of highway running along the west side 
of Lake Tahoe, erosion control and run-off treatment has been a major 
challenge for NDOT. Although we did an early project in 1996, our 
efforts to protect Lake Tahoe were energized by the conferences in 
1997. Thus far, Nevada DOT has spent nearly $36 million on 12 miles of 
road. This year $4 million is being spent on a mile of road. This still 
leaves 26 miles of roadwork at a cost more than $80 million. The roads 
around the California side of Lake Tahoe also have a lot of protection 
work yet to be done. Funding of this effort is a major issue in both 
States. Lake Tahoe is a national treasure and deserving of continuing 
national attention.

       WESTERN GOVERNORS ASSOCIATION POSITION ON REAUTHORIZATION

    As President of the 18-State Western Association of State Highway 
and Transportation Officials, I helped coordinate the drafting of the 
Governors' Policy Statement for the Western Governors Association 
entitled: ?Policy Resolution 02-16: Reauthorization of the 
Transportation Equity Act for the 21st Century'' passed at WGA?s annual 
meeting in Phoenix, Arizona, on June 25, 2002. (Please see attached 
copy.) The Policy Statement makes recommendations in nine areas 
summarized as follows:

1. Continuation of TEA-21 Programs
    <bullet>  Although TEA-21 programs are meeting their legislative 
objectives, there needs to be refinement of the programs to better 
address specific issues, deficiencies and inequities.
    <bullet>  There is a need to increase revenues to assure dollars 
are available to meet legislative commitments.
    <bullet>  Ensure that all taxes paid by the users are deposited in 
the fund and especially address the gasohol issues.
    <bullet>  Retain the firewalls and address current flaws in the 
RABA mechanism so that revenues are predictable.
    <bullet>  Provide greater flexibility in transferring funds among 
program categories and do not create any new set-asides or sub 
allocations.

2. Environmental Streamlining Process
    <bullet>  The Governors urge Congress to look at examples of best 
practices various States have used to improve the TEA-21 environmental 
review process.
    <bullet>  Federal resource agencies should be directed to define 
timeframes necessary to conduct environmental reviews.
    <bullet>  There should be a one-stop permitting process for Section 
4(f) and 106 reviews.
    <bullet>  There should be a defined dispute resolution process to 
resolve disputes between the States and Federal resource agencies.
    <bullet>  In the environmental review process the points where 
judicial challenges are appropriate should be clarified to reduce the 
continual use of such challenges as a measure to extend both the time 
and scope of the process.
    <bullet>  Level the playing field for the project environmental 
review process for projects that include multiple modes.
    <bullet>  While the Governors support the use of higher gas mileage 
cars, hybrid cars and other energy efficient and environmentally 
protective technologies, the impact on the transportation funding 
mechanism (e.g. fuel tax collections) should be studied to ensure TEA-
21 programs are fully funded.
    <bullet>  While Governors support the sovereign status of tribes, 
there are concerns about the loss of revenues from the establishment of 
service stations on tribal lands and we request Federal assistance in 
developing a fair tax collection process through an equitable 
settlement negotiations process.

3. State-MPO Planning Process
    While the Governor's support the cooperative process between the 
State transportation agency and the metropolitan planning 
organizations, they urge Congress to look at the excellent examples of 
how well the process is working to clarify any misconceptions.

4. Security
    Congress is requested to provide guidance for performing critically 
and vulnerability assessments of the surface transportation system and 
guidance for identifying and protecting critical elements. Funding 
issues from non-transportation sources should also be addressed.

5. Intelligent Transportation Systems
    The Governors are concerned that innovative ITS technologies 
developed by the Federal Government are not being deployed in a timely 
manner. They also urge Congress to identify selected multi-State 
highway corridors on which to deploy its systems.

6. Federal Lands Roads
    Public Lands Highways Funds should be allocated to areas of 
greatest need and to States with the largest amount of public lands 
acreage.

7. Discretionary Programs
    In relation to earmarking funds for projects, criteria should be 
established to address the ability of the project sponsors to meet 
program, design, timing and contracting standards.

8. Border Crossings and Trade Corridor Programs
    <bullet>  Congress is asked to restate its original objective for 
the trade corridor program in support of NAFTA and to give priority to 
multi-State projects that facilitate bi-national trade.
    <bullet>  A reformed trade corridor program should be adequately 
funded.
    <bullet>  Congress should urge the Departments of Transportation, 
Justice, and Commerce to coordinate their activities to improve the 
movement of commerce.

9. Modal Integration
    In planning and constructing multi and inter-modal projects, the 
procurement and management requirements imposed by Congress and USDOT 
must be more uniform.
    In conclusion, while I am urging that Nevada's Federal funding be 
increased to meet our growth and that certain provisions of TEA-21 be 
refined as part of the reauthorization, I would like to reiterate that 
TEA-21 has been very good for Nevada Thank you again for the 
opportunity to testify on this important issue.
                                 ______
                                 
 Policy Resolution 02-16 Reauthorization of the Transportation Equity 
Act for the 21st Century (TEA-21) Annual Meeting June 25, 2002 Phoenix, 
                                Arizona

                SPONSORS: GOVERNORS KEMPTHORNE AND HULL

A. Background
    1. In 1998, Congress enacted Public Law 105-178, the Transportation 
Equity Act for the 21st Century (TEA-21) which authorized the Federal 
surface transportation programs for highways, highway safety, and 
transit for 6 years (1998-2003). The Act increased funding levels for 
highway and transit programs, provided more program flexibility, 
promised environmental review streamlining and heightened expectations 
for greater efficiencies in transportation program delivery.
    2. Western transportation leaders met in Tempe, Arizona in April 
2002 as a working group of the Western Governors' Association, charged 
to assist the Governors develop a Western position on the 
reauthorization of the Federal highway and transit programs. The 
participants agreed that the TEA-21 programs were working and require 
only minor changes to address specific issues. The working group's 
recommendations were transmitted to the Western Governors for their 
adoption and are presented in this policy resolution.
    3. The Western Association of State Highway and Transportation 
Officials (WASHTO) and the American Association of State Highway and 
Transportation Officials (AASHTO) also recommend that Congress approach 
the reauthorization of TEA-21 as a continuation of the evolutionary 
process in surface transportation programming started by the ISTEA and 
TEA-21 acts.
    4. The Western Governors lead the Nation in calling on Congress to 
restore fiscal year 2003 funding to the maximum amount that can be 
sustained by the Highway Trust Fund. Due to poor forecasting methods 
and revenue accounting, funding to the States for fiscal year 2003 
would have been reduced by $9 billion, even though the Highway Trust 
Fund has a cash balance of more than $19 billion. The loss of these 
funds to States would cause major disruptions in transportation 
programs for the West and the Nation.
    5. One strength of TEA-21 has been the predictability of funding 
levels for Federal and State surface transportation programs. This 
cornerstone of the Federal surface transportation program is being 
weakened by decreased revenue collections in the Highway Trust Fund due 
to the downturn in the economy and to greater use of alternative fuels 
that are taxed at a lower rate or not taxed at all.
    The Federal Highway Administrator has requested a study of the 
effects these changes in national policy are having on the ability of 
the Nation to continue to pay for its transportation infrastructure. 
Additionally, the Administrator has requested that options be 
identified for both making changes in the current system of depositing 
some highway user fee revenues into the general fund, and for 
implementing new or more stable funding mechanisms.
    6. Safety is a primary focus of all the surface transportation 
programs. The Governors continue to believe that the number of deaths, 
injuries, and property damage which occurring annually on the Western 
transportation systems is unacceptable and support improving safety 
through better engineering, enhanced enforcement and more education. 
The Governors do not believe in Aone size fits all and that Federal 
mandates enforced by funding sanctions is not in the best interest of 
achieving the safety objective, since they prevent States from 
addressing their highest priorities.
    7. The growth in trade through our ports and bi-national border 
crossings has placed significant pressure on the surface transportation 
infrastructure supporting the movement of people and goods. This is 
true especially along north/south corridors between Canada and Mexico. 
As a result, Western States are increasingly forced to commit local 
funding to alleviate congestion, maintenance and safety issues that 
meet national needs. Meeting the needs of bi-national border 
infrastructure, international port access, and interstate goods 
movement corridors is complex process, requiring the involvement of 
multiple Federal, State and provincial authorities, including the U.S. 
Department of Justice, Treasury, Transportation and Commerce. However, 
States that are meeting these national needs are doing so by diverting 
funds from local mobility and safety concerns to meet these national 
needs.
    8. Funding to maintain highways on Federal lands under the Federal 
Public Lands Highway program is not being targeted to the areas of 
highest need. Public lands highways serve as the gateway to the 
nation's National Forests, National Parks and National Monuments. 
Although only 6 percent of all public lands are located outside of the 
West, for the past 4 years between 25-35 percent of the Public Lands 
Highway funding has been directed to projects in other regions. This is 
due in part to Congress earmarking funds to local projects, 66 percent 
in FY1999, 55 percent in FY2000 and 100 percent in FY2001. At the same 
time the condition of these highways and roads in the West continue to 
deteriorate, forcing Federal land agencies to close greater numbers of 
miles and recreation areas to the public each year.
    9. Federal Highway Trust Fund revenues are being negatively 
impacted by the growth in the number of motor fuel and vehicle sales 
establishments on federally recognized tribal reservations. These 
establishments are exempt and in some States are prohibited from 
collecting State and Federal fuel and vehicle taxes. The Governors 
support the continued actions to improve the economic independence of 
Native Americans, but also find the potential of tax avoidance is 
hindering the funding of the transportation infrastructure necessary to 
support national, tribal and State economies.

B. Governors' Policy Statement
            Continuation of TEA-21 Programs
    1. The Governors find that TEA-21 programs are meeting their 
legislative objectives, but there needs to be refinement of the 
programs to better address specific issues, deficiencies and 
inequities. Therefore, Congress is urged to approach the 
reauthorization of the TEA-21 legislation as an evolutionary process 
and to build on the TEA-21 programs.
    2. The Governors urge Congress to address both the need to increase 
revenues to the Highway Trust Fund and to make the process of 
distributing funds to the States from the Trust Fund more predictable. 
Congress is encouraged to:
    a. Review the current sources of revenue to ensure that all the 
    taxes paid by the users are deposited to the fund, such as 
    retaining the taxes collected on gasohol which currently go into 
    the General Fund, and holding the highway trust fund harmless from 
    tax incentives for ethanol.
    b. Increase the amount of revenues to the Highway Trust Fund to 
    assure the dollars are available to meet the legislative 
    commitments.
    c. Retain the firewalls and funding guarantees for the highway and 
    transit programs as established in TEA-21.
    d. Refine the current Revenue Aligned Budget Authority (RABA) 
    mechanism to address the current flaws that cause the funding to 
    the States to fluctuate radically between fiscal years.
    e. Address the need for greater flexibility in transferring funds 
    among and between major program categories thereby allowing States 
    to address their highest priorities.
    f. Create no new set-asides or suballocations which prevent States 
    from directing Federal Highway funds to their greatest needs

            Environmental Process Streamlining

    3. The Governors fully support the goal of protecting the 
environment, and the health and safety of the public. The Governors 
believe that the States have developed some exemplary practices in the 
area of environmental review and believe that Congress should look to 
these examples for best practices to improve the TEA-21 project 
environmental review process. The Western Governors have identified 
similar best practices for the natural resource programs through their 
Enlibra Program. The Governors recommend that a similar approach be 
used for transportation.
    4. The Governors urge Congress to refine the current project 
environmental review process to reduce the delays, timeframe and 
unpredictability of the current process. Specifically, Congress is 
urged to:
    a. Authorize the Secretary of Transportation to certify State 
    project environmental review processes as being equivalent to that 
    of the U.S. Department of Transportation. In doing such, the 
    Secretary would delegate the review process to the certified States 
    subject to oversight by the Department.
    b. Charge the Secretary of Transportation to establish the tests 
    and standards that must be met by the States in seeking the 
    environmental review certification and delegation authority.
    c. Direct the Secretary to work with the States and Federal 
    resource agencies to define applicable guidance for the project 
    environmental review process.
    d. Direct the Federal resource agencies to define the timeframes 
    necessary to conduct project environmental reviews and to refine 
    the mitigation negotiation process to allow for accountability and 
    predictability in the system. Congress is urged to provide these 
    agencies with the funding necessary to fully staff the 
    environmental reviews in a timely manner.
    e. Direct the Secretary to work with his counterpart agencies to 
    establish a one-stop permitting process for Sections 4(f) and 106 
    processes or to combine the overlapping portions into one 
    regulation.
    f. Authorize the Secretary of Transportation to establish a defined 
    dispute resolution process that may be led or chaired by the 
    Secretary of US DOT to resolve disputes between the State 
    transportation agencies and Federal resource agencies.
    g. Clarify the points in the project environmental review process 
    where judicial challenges are appropriate in order to bring 
    predictability to the review process, rather than the continual use 
    of such challenges as a measure to extend both the time and scope 
    of the review process.
    5. Congress is urged to level the playing field for the project 
environmental review processes for projects that include multiple 
modes. Currently, there are differing processes and criteria for 
conducting the environmental reviews for each mode of transportation, 
transit, highways and railroads. This creates both difficult and 
conflicting procedures for the reviews and offers additional points for 
challenging the decisions.
    6. Governors support the use higher gas mileage cars, hybrid cars, 
and other technologies for improving energy efficiencies and protecting 
the environment. At the same time, there is an increasing demand for an 
efficient transportation system that requires that revenues collected 
from the system users be sufficient to fund the necessary improvements. 
The Secretary has requested that a study be conducted to examine the 
funding mechanisms to ensure that the transportation system and TEA-21 
programs are fully funded.
    7. Governors support the sovereign status of tribes and their 
ability to establish selfsustaining economies. One negative impact of 
the tribes establishing businesses, such as service stations, bulk fuel 
sales and vehicle sales agencies on federally recognized tribal lands 
has been the reduction in transportation revenues to the Federal and 
State highway trust funds. Both tribal members and State residents 
demand efficient transportation systems to support their economic 
needs. The Governors urge Congress to look to the best practices of the 
States and to the Federal Highway Administrator's study on revenue to 
assist in developing a fair tax collection process through an equitable 
settlement negotiations process, possibly using the Western water 
rights settlement process as a model.

            State--MPO Planning Process
    8. Governors support a cooperative process between the States' 
transportation agencies and the metropolitan planning organization 
(MPO). The Governor's also support the consultative planning process 
between the States' transportation agencies and its local governments. 
There are several excellent examples of how the State-MPO planning and 
review process can work effectively and Congress should request from 
the Secretary a summary of best practices in order to clarify the 
current misconceptions in the process.

            Security
    9. Congress is urged to provide guidance related to the roles and 
responsibilities of the Office of Homeland Security, Departments of 
Transportation, Justice, Commerce and Defense, and the States and local 
units of government in providing for the security of the nation's 
transportation systems. In providing such guidance Congress is 
requested to address the following:
    a. Guidance for performing criticality and vulnerability 
    assessments of the surface transportation systems. Such standards 
    have been defined for the nation's aviation system.
    b. Guidance for identifying and protecting critical elements of the 
    surface transportation system which support interstate commerce, 
    information exchange, and the movement of critical military and 
    emergency response resources.
    10. In defining the roles and responsibilities, Congress must 
address the issues related to funding for these activities and 
resulting improvements to the surface transportation systems. Security 
of the transportation system is such a broad and potentially costly 
issue that it is best funded from all appropriate resources, including 
non-transportation related sources. Congress also needs to make it 
clear that all agencies of the Federal Government must coordinate their 
activities in order for there to be an effective response to terrorism.

            Intelligent Transportation Systems
    11. The Governors recognize the important role that ITS can play in 
the operation and management of all surface transportation systems. The 
Federal Government has invested significant amounts of money into the 
development of innovative technologies, but they are not being deployed 
onto the highway system in a timely manner. The Governors urge Congress 
to adjust the program priorities to address the deployment of these 
systems and, where appropriate, integrating them across different 
components of the surface transportation system in order to achieve the 
maximum utilization of this investment.
    12. Congress is urged to direct the U.S. Department of 
Transportation to work with the Western States and the Western 
Association of State Highway and Transportation Officials to identify 
selected multi-State highway corridors on which to deploy ITS systems 
in an effort refine the tools and institutional mechanisms needed to 
create a national network operations system.

            Federal Lands Roads
    13. The Governors urge Congress and the U.S. Department of 
Transportation to ensure that funds under the Public Lands Highway 
program are allocated to areas of greatest need and to States with the 
largest amounts of public land acreage. No new program categories or 
set-asides should be created within the Federal Lands Highways Program.

            Discretionary Programs
    14. The Congress has employed the earmarking privilege to fund 
specific transportation projects under the highway discretionary 
program. The value of these projects toward improving the 
transportation system, technology and system operation may be 
appropriate, but the use of this process has significantly reduced or 
consumed the entire funding available to some programs. Congress, in 
reauthorizing TEA-21, should review the process by which these projects 
are designated and criteria established for determining the ability of 
project sponsors to implement the projects. The criteria should address 
the ability of the project sponsors to meet program, design, timing and 
contracting standards. Second, Congress is encouraged to address the 
issue of excessive ear marking in certain programs, i.e. Public Lands 
Highways and the Trade Corridor programs.

            Border Crossing and Trade Corridor Programs
    15. The Governors believe that Congress must restate its original 
objective of establishing a trade corridor program in support of the 
North American Free Trade Agreement (NAFTA) and reform that program to 
facilitate the movement of goods, services and people between the 
United States, Mexico and Canada. Congress is encouraged to give 
priority to those multi-State projects that facilitate bi-national 
trade.
    16. Congress must also address the need to adequately fund a 
reformed trade corridor program and directing funding to corridors that 
support NAFTA objectives and international trade.
    17. Congress is urged to direct the U.S. Departments of 
Transportation, Justice, and Commerce to establish a process for 
coordinating their activities to improve the movement of commerce 
through the northern and southern ports-of-entry. The Coordinated 
Border Infrastructure Discretionary Program was established to fund 
border enhancement projects. But transportation infrastructure is not 
the only solution to capacity problems. With the increased emphases on 
national security Congress needs to provide guidance for coordinating 
the response to these needs and balance the sources of funding for 
improvements.

            Modal Integration
    18. In planning and constructing multi and inter-modal projects, 
the procurement and management requirements imposed by Congress and 
U.S. Department of Transportation must be made more uniform. The 
Governors urge both Congress and the Secretary of Transportation to 
work collaboratively with the States to identify where these processes 
can be made more simplified and uniform thereby reducing the cost and 
time to complete these projects. Examples of best practices should be 
used in defining these processes, i.e. the Alameda Corridor in 
California.

C. Governors' Management Directives
    1. WGA is to transmit this resolution to the Secretary of 
Transportation, the Western congressional delegation, the 
transportation and appropriation committees of Congress, and to WASHTO 
and AASHTO.
    2. The Governors request WASHTO to monitor the reauthorization of 
the Federal surface transportation programs and to report on 
congressional actions.

    This resolution was originally adopted in 1999 as WGA Resolution 
99-017.
    Approval of a WGA resolution requires an affirmative vote of two-
    thirds of the Board of the Directors present at the meeting. 
    Dissenting votes, if any, are indicated in the resolution. The 
    Board of Directors is comprised of the Governors of Alaska, 
    American Samoa, Arizona, California, Colorado, Guam, Hawaii, Idaho, 
    Kansas, Montana, Nebraska, Nevada, New Mexico, North Dakota, 
    Northern Mariana Islands, Oregon, South Dakota, Texas, Utah, 
    Washington and Wyoming.
    All policy resolutions are posted on the WGA Web site 
    (www.westgov.org) or you may request a copy by writing or calling:

                                 ______
                                 
Statement of Greg Krause, Executive Director, Washoe County, Nevada, on 
            Behalf of the Regional Transportation Commission

    My name is Greg Krause, Executive Director of the Regional 
Transportation Commission of Washoe County. I appreciate the 
opportunity to speak with you today regarding Western Transportation 
Issues and the reauthorization of the Transportation Equity Act of the 
21st Century.
    The RTC serves the cities of Reno and Sparks as well as the 
unincorporated area of Washoe County. Our agency has three main 
businesses: long range transportation planning as the designated 
Metropolitan Planning Organization, provision of public transportation 
services, and construction and repair of the regional roads. With this 
fairly unique combination of both planning and implementation of all 
modes of surface transportation for our community, I offer the follow 
comments regarding transportation needs in our community and 
reauthorization of the Transportation Equity Act for the 21st Century:
    Before I address the future transportation needs of Washoe County, 
I would like to acknowledge the leadership that this committee has 
displayed in developing national transportation legislation, resulting 
in major improvements in the capacity, quality and efficiency of the 
system. I would also like to acknowledge Senator Reid for his 
leadership and commitment to helping Nevada meet the transportation 
needs of a growing population in Washoe County. He has specifically 
helped Washoe County obtain funding for an Intelligent Transportation 
System and 17 replacement vehicles for Citifare and CitiLift, and major 
funding for the new transit centers in Downtown Reno and Sparks, 
including over $14 million in discretionary Federal transit funds in 
the last 3 years.

                 TRANSPORTATION NEEDS IN WASHOE COUNTY

2030 Transportation Plan
    The RTC has completed a blueprint for the future, the 2030 
Transportation Plan. Thousands of citizens, involved in hundreds of 
hours of meetings, helped formulate the 2030 Transportation Plan over a 
2-year period. The 2030 Transportation Plan found that as our community 
grows from 320,000 people to over 540,000 in the next thirty years, we 
need to make major investments to repair our roads, increase their 
efficiency and capacity, and improve public transportation services. 
The 2030 Transportation Plan identified a funding shortfall of $716 
million in roadway needs and $100 million in public transportation 
needs.

Funding Solution
    We are proposing a local solution to this funding shortfall. The 
proposal will be presented to the public as a Washoe County advisory 
ballot question in November 2002. It includes indexing local gas taxes 
to go up with inflation, indexing the development impact fees to go up 
with inflation, a 1/8 percent increase in the local sales tax, and 
increased efficiencies in roadway maintenance programs that will 
generate $50 million in savings over the next 30 years. The 
continuation of Federal transportation funding at least at levels 
provided under TEA-21 will also be critical to our success.

Key Transportation Needs
    Public transportation will play a key and growing role in our 
future mobility. A priority will be to construct new transit centers in 
Downtown Reno and Sparks. With design and right of way funding already 
secured, funding for construction will be our next priority. These new 
transit centers will include child care, retail and other services that 
make public transportation more convenient and attractive. Another 
public transportation priority will be the development of a Bus Rapid 
Transit (BRT) corridor along South Virginia Street. We are currently 
preparing a preliminary feasibility study and cost estimate for this 
project so it may be considered for inclusion in the reauthorization 
legislation for TEA-21.
    Streets and highways will also need major improvements. Several key 
projects include:

    <bullet>  I-580 from Mt. Rose Highway to Washoe Valley; this 
project will address one of the most critical safety hazards in the 
State as well as complete the freeway link between Carson City and Reno
    <bullet>  I-80 from Keystone Avenue to McCarran Blvd; this project 
will widen a congested section of I-80 and support new retail 
development planned for Northwest Reno
    <bullet>  I-580/Meadowood Way Intechange; this project will relieve 
congestion at South Virginia/McCarran and support office and retail 
development in the South Reno
    <bullet>  US 395/McCarran Blvd. to Lemmon Drive; this project will 
relieve congestion for travel to the North Valleys

    These are some of the key near term projects that will need to be 
addressed and will require substantial Federal funds. The RTC has and 
will continue to partner with the Nevada DOT to ensure that these and 
other critical projects are implemented in a timely manner.
    Initiatives for the Reauthorization of the Transportation Equity 
Act of the 21st Century
    The following suggestions are offered to the committee as you 
consider the reauthorization of TEA-21.

Index the Federal Gas Tax to Inflation
    Gas taxes are a major source of transportation funding, and have 
served the transportation system well at the Federal, State and local 
levels. The nexus between who pays the gas tax, how much they pay, and 
the benefits received has made this tax understandable and one of the 
more acceptable of taxes. The principal draw back of ``flat'' gas taxes 
is the steady erosion of their purchasing power over time due to 
inflation. The last significant increase in the Federal gas tax rate 
occurred in 1993, and since then, this revenue has lost 22 percent of 
its purchasing power due to construction cost inflation. We are 
pursuing a local initiative to allow the local gas tax to inflate, 
within limits, with the consumer price index on an annual basis. I 
would request consideration of a similar inflationary adjustment for 
the Federal gas tax.

Continue Congestion Mitigation Air Quality (CMAQ) Funding in Air 
        Quality Maintenance Areas
    The CMAQ program has been a critical funding source for public 
transportation and system efficiency investments that have a proven air 
quality benefit. For regions that are successful in achieving the 
National Ambient Air Quality Standards, CMAQ funding should continue so 
that we do not take a step backward in air quality.

Dedicated Funding for Bus Rapid Transit Start-Up
    The success of Bus Rapid Transit (BRT) has been demonstrated both 
in the United States and abroad. BRT has provided the capacity and 
convenience of rail investments at a fraction of the cost. Where 
favorable conditions may develop for rail service in the future, BRT 
provides the opportunity for an evolutionary transition to rail by 
building ridership and a culture of transit use. BRT will not only 
provide a cost-effective solution for decades in Reno and other smaller 
communities, but will also protect the dedicated right of way today 
necessary to allow for rail investments, if that is the choice of 
future generations. In order for communities to have the chance to 
invest in BRT, it would be beneficial to create a dedicated funding 
source for this purpose.

Streamlined Federal Partnership/Stewardship Process
    In the old days, only State DOTs were allowed to implement Federal 
projects. However, as resources have declined and workloads increased 
at the State level, partnering between State and local entities in 
implementing federally funded transportation projects has increased. 
Great successes have resulted from this innovative approach, with local 
entities sometimes taking the lead within the team. The immense 
benefits of this approach have been diminished when local entities have 
been forced to certify not only to the Federal Government, but also to 
the State DOT, that all Federal requirements have been met. It would be 
a fairly easy solution to simplify this duplicative process so that the 
local entity is only required to certify compliance with the Federal 
Government. Obviously, this authority should only be granted to local 
entities that have the capability to meet the Federal guidelines, but 
the RTC, among many other local entities will perform even more 
efficiently in the administration of federally funded projects if 
oversight can be streamlined, with certification provided directly to 
the Federal DOT.

Elimination of the Nevada Special Rule
    The State of Nevada has had a special provision in ISTEA and TEA21 
which has basically given the majority, approximately 65 percent, of 
the eligible Surface Transportation Program (STP) funding to the State 
DOT and the minority of funding , approximately 35 percent, to the 
urbanized areas. This is the reverse of the formula applied to 
virtually every other State in the Nation. Ironically, Nevada has one 
of the highest percentages of population that lives within the 
urbanized area. While the State DOT has done a very good job of making 
investment decisions within the current STP allocation formula, the RTC 
is convinced that the priority setting process will be even more 
effective as more of the STP funds are prioritized by the MPO in each 
urbanized area.

                               __________
 Statement of Juan Palma, Executive Director, Tahoe Regional Planning 
                               Commission

    Good afternoon members of the Subcommittee, staff, ladies and 
gentlemen. My name is Juan Palma, Executive Director of the Tahoe 
Regional Planning Agency, an agency created to lead the cooperative 
effort to preserve, restore and enhance the unique natural and human 
environment of the Lake Tahoe Region.
    In July 1997, then President Clinton and Vice President Gore 
reaffirmed their administration's role in helping to manage Lake Tahoe, 
a national treasure, by improving coordination among Federal, State, 
and local agencies. That administration took bold and aggressive 
actions on water quality, transportation, forest management, recreation 
and tourism to protect Lake Tahoe's environment, economy and quality of 
life.
    TEA-21 played a major part in that effort. TEA-21 provided the 
consent of Congress for the establishment of the Tahoe Metropolitan 
Planning Organization (TMPO). Designated by Governor Miller of Nevada 
and Governor Wilson of California, the TMPO is emerging as an essential 
element in the planning and programming of transportation projects in 
the Lake Tahoe Region, projects that are today providing water and air 
quality benefits.
    These projects are not just the result of the TMPO. The Nevada 
Department of Transportation (NDOT), as well as the California 
Department of Transportation (Caltrans), are major players in the Lake 
Tahoe Basin. Both agencies have prepared water quality and erosion 
control master plans that identify the where, when and how much for 
retrofitting the existing roadway network in the Lake Tahoe Region, 
providing needed Best Management Practices (BMP) to protect Lake 
Tahoe's water quality. NDOT in particular has been recognized for its 
partnership approach in the development and implementation of these 
BMPs.
    The Tahoe Regional Planning Agency's (TRPA) Environmental 
Improvement Program (EIP) is a $906 million integrated approach over 10 
years to achieve and maintain all nine of the environmental thresholds 
for the Lake Tahoe Region. Many of the projects in the EIP are 
transportation related. Neither NDOT nor Caltrans can afford to 
complete their EIP projects with their usual source of funds. The 
Federal Lands Highway Program is essential in providing additional 
funding in support of these projects.
    The Federal Lands Highway Program is well suited to the Lake Tahoe 
region's needs. Under this program, Lake Tahoe projects are eligible 
under both the Forest Highway and the Discretionary sub-programs. NDOT 
has used or is using their Forest Highway allocations, along with voter 
approved statewide bonds, to construct erosion control facilities along 
most sections of SR 28. As you may be aware, sections of SR 28 in 
Nevada have been designated as a National Scenic Byway. NDOT is also 
using their funding for similar erosion control purposes on US 50, and 
has identified future projects on Kingsbury Grade and Mt. Rose Highway. 
Continuation of the Federal Lands Highway Program in the 
reauthorization of TEA-21 will provide for more of these erosion 
control projects in both Nevada and California.
    TEA-21 also provided that in addition to the typical MPO funds made 
available to the TMPO, that ``not more than 1 percent of the funds 
allocated under Section 202 (Federal Lands Highway Program) may be used 
to carry out the transportation planning process for the Lake Tahoe 
region''. It is important that the reauthorization of TEA-21 continue 
this eligibility.
    The intent of this provision has not been fully realized, however. 
The amount of funds provided and the definition of what is considered 
eligible planning has been limited administratively. We ask that as the 
TEA-21 reauthorization discussion proceeds, that clear authority be 
provided for TRPA to use Tahoe's 1 percent provision to conduct 
specific project planning activities, defined as concept development, 
site assessment, environmental studies and preliminary project design. 
Similarly, we ask that clear authority be provided for NDOT and 
Caltrans to use Tahoe's 1 percent provision to conduct these 
activities, and provide for project construction.
    The existing administrative interpretation of the TEA-21 language 
does not provide either the TMPO, NDOT or Caltrans the ability to 
utilize the Federal Public Lands Highway Program as was originally 
envisioned. This program, if not interpreted so narrowly, could easily 
serve as one of the most significant funding vehicles for meeting the 
Federal commitment to Lake Tahoe directed by the Clinton Administration 
in 1997, and for meeting the mandates and responsibilities set for in 
PL 96-551, the Tahoe Regional Planning Compact.
    Both TEA-21 and its predecessor the Intermodal Surface 
Transportation Efficiency Act (ISTEA) included numerous other programs 
of benefit to Lake Tahoe and Nevada. Lake Tahoe and Nevada continue to 
benefit from programs such as transit capital and operations grant 
programs, the Jobs Access and Reverse Commute Grant (JARC), 
Transportation Enhancement Activities (TEA), National Scenic Byways 
(NSB), Congestion Mitigation and Air Quality (CMAQ), Intelligent 
Transportation Systems (ITS), the Clean Fuels program, bicycle and 
pedestrian programs, and the Recreational Trails program. We urge you 
to continue these programs in the next transportation legislation.
    As a member of the Association of Metropolitan Planning 
Organizations (AMPO), we concur with their objectives for 
reauthorization, in particular extending the sub-allocation of 
urbanized Surface Transportation Program (STP) funds to all MPOs, 
increasing to 2 percent the metropolitan planning takedown funds in 
order to account for increased planning responsibilities, and to use 
National Highway System (NHS) , STP, and CMAQ funds for projects that 
manage and operate the transportation system. These changes would 
greatly enhance our ability to address transportation needs here at 
Lake Tahoe.
    Congress and the Administration have many difficult choices to make 
for the reauthorization of TEA-21. The transportation needs of this 
country are enormous. We encourage you to take bold, assertive actions 
within the context of all our national priorities. We support the 
reauthorization of TEA-21, and encourage you to consider the above 
recommendations regarding Lake Tahoe. Thank you for this opportunity to 
help make those choices.

                               __________
       Statement by Bruce Warner, Director, Oregon Department of 
                             Transportation

Introduction
    Thank you, Mr. Chairman and members of the subcommittee, for the 
opportunity to testify on the reauthorization of the Transportation 
Equity Act for the 21st Century (TEA-21) and the Federal Lands Highways 
Program.
    The nation's transportation system is critical--it drives the 
economy, moves people and goods, strategically links our homeland 
defenses, and helps shape our communities. When our transportation 
system is strong, our economy, our safety and our quality of life are 
improved.
    There is a tremendous amount at stake as we near the end of one 
surface transportation bill, and begin debating the next. TEA-21 has 
been an indisputable success. In Oregon for example, our highways are 
safer (traffic deaths have fallen to a 40-year low), the condition of 
roads statewide has improved, and thousands of highway-related jobs 
have been supported each year. Congress should continue TEA-21's 
funding guarantees, budgetary firewalls, and basic program structure in 
the next bill.

Reauthorization of TEA-21: Challenging Times
    As Congress begins the process of reauthorizing TEA-21, the country 
faces new challenges, including a severe economic slowdown and a new 
era of combating terrorism at home and abroad. We also face:
    <bullet>  Aging infrastructure--The vast network of roads and 
bridges built after World War II is reaching old age all at once.
    <bullet>  Rapid growth--Growth threatens future economic prosperity 
and livability.
    <bullet>  Congestion--Bottlenecks on key freight routes hinder the 
movement of people and freight.

Need for New Revenue
    To face these challenges, it is clear that additional Federal 
resources are needed to strengthen our transportation system. 
Transportation industry groups, States and some Members of Congress 
have proposed several ways to increase the size of the Highway Trust 
Fund (HTF).
    <bullet>  Regain the interest on the HTF balance. Prior to TEA-21 
the HTF earned interest on its balance, which was paid by the General 
Fund. Treasury estimates a $4 billion dollar loss to the HTF between 
September 1999 and February 2002.
    <bullet>  Raise the taxes on gasoline and heavy truck use.
    <bullet>  Transfer the 2.5 cents ethanol tax paid to the General 
Fund to the HTF.
    <bullet>  Require the General Fund to reimburse the HTF for the 
loss incurred by the ethanol tax exemption.
    <bullet>  Eliminate the ethanol tax exemption.
    <bullet>  Begin to index the tax on fuel so that the tax 
corresponds to fluctuations in the economy, i.e. The Consumer Price 
Index (CPI).

Financing Transportation
    There is also a mounting need to explore new methods of financing 
transportation as many experts predict a declining yield from the 
current petroleum-based Federal tax structure as fuel efficiency rises 
and greater numbers of alternative fuel vehicles hit the roads. The 
impacts are not insignificant. For example, average fuel economy 
increased from 12.0 miles per gallon in 1970 to 16.9 miles per gallon 
in 2000, a 29.0 percent increase. This increase in fuel efficiency made 
it possible to have a 248 percent increase in vehicle-miles of travel 
with only a 176 percent increase in fuel use over the same period.
    All vehicles should pay their fair share of the costs to maintain 
the tion's highways and bridges. Regardless of fuel type all vehicles 
add to congestion and cause wear and tear on roads. Some have suggested 
that new user fees based on miles traveled or vehicle registration 
could supplement existing Federal fuel taxes. These ideas need to be 
explored further and implemented, perhaps as a pilot program in the 
next authorization bill.

Federal Lands Highways Program (FLHP)
    Additional funding is needed to increase authorizations for 
important transportation programs such as the Federal Lands Highways 
Program and increase annual highway apportionments to States in the 
next ``TEA'' bill.
    The FLHP provides funding to improve roads that are within or 
provide access to federally owned lands. The continuation of a strong 
Federal Lands Highways Program in the next surface transportation 
authorization bill is of national importance and a high priority for 
western States.
    In the State of Oregon, Federal lands are integral to the economy. 
The Federal Government owns one out of every two acres of land. The 
total area publicly owned approaches 32 million acres--more than the 
amount of 35 other States combined. While timber harvests have 
declined, more people are still employed in the lumber and wood 
products industry than any other single manufacturing industry in the 
State. Recreational opportunities on publicly owned land play a vital 
role in Oregon's travel and tourism industry. Oregon is second only to 
California in the volume of passenger vehicle traffic on roads within 
Federal lands.

TEA-21
    TEA-21 continued the Federal Lands Highways Program established by 
the Intermodal Surface Transportation Efficiency Act of 1991 (ISTEA). 
The bill expanded eligible projects to include transit facilities 
within public lands, national parks and Indian Reservations. TEA-21 
also added a new FLHP category for the preservation and improvement of 
roads within or providing access to National Wildlife Refuges. 
Currently under TEA-21 the FLHP is comprised of four categories: 1) 
Indian Reservation Roads, 2) Park Roads and Parkways, 3) Public Lands 
Highways and 4) Refuge Roads.
    Each of the FLHP categories uses a different approach for 
allocating and distributing funding. Increased funding for the FLHP 
should be distributed proportionally among these categories.
Indian Reservation Roads
    The Federal Highway Administration (FHWA) and Bureau of Indian 
Affairs jointly administer the Indian Reservation Roads (IRR) Program. 
Indian tribes select area projects. IRR funds used on State and county 
roads must be used as a supplement to and not in lieu of regular 
Federal highway funding.

Park Roads and Parkways
    The National Park Service (NPS) and FHWA jointly administer the 
Park Roads and Parkway Program. The NPS selects area projects and 
program funds may only be used on roads under the jurisdiction of the 
NPS.

Refuge Roads
    The Refuge Roads Program is administered by FHWA. Funds may only be 
used by the U.S. Fish and Wildlife Service and FHWA for the 3,260 miles 
of public roads that provide access to or are located within the 
national Wildlife Refuge System. Projects are selected from 
transportation improvement programs developed by the U.S. Fish and 
Wildlife Service.

Public Lands Highways
    Two different processes are used by FHWA to administer the Public 
Lands Highways (PLH) Program. The Secretary of Transportation is 
directed to allocate 66 percent of authorizations for Public Lands 
Highways according to the administrative formula used to allocate 
previous Forest Highways funds and distribute 34 percent PLH funds on a 
``needs basis'' (i.e. discretionary grants).
    The Western Federal Lands Highway Division (Western Federal Lands) 
of FHWA has primary responsibility for managing the PLH funds allocated 
to western States in accordance with the Forest Highways administrative 
formula. In Oregon, projects are selected for funding by a committee 
with representatives from the U.S. Forest Service, Oregon Department of 
Transportation (ODOT), Oregon Counties and Western Federal Lands.
    Under the discretionary component of the program, FHWA normally 
solicits grant applications from States each year. Increasingly, 
however, Congress is earmarking PLH funding in annual transportation 
appropriations bills--about 20 percent of PLH discretionary program 
funding in fiscal year 2000, 80 percent in fiscal year 2001, and 100 
percent in fiscal year 2002.

The Future of the Federal Lands Highways Program
    The next surface transportation bill will determine the future of 
the FLHP, including: 1) the overall authorization level, the number of 
program categories, and how funds are allocated.

Authorization Level
    TEA-21 increased authorization levels for the FLHP by over 60 
percent--from $447 million in 1997, the last year of ISTEA, to over 
$700 million a year. A similar size increase is needed in the next 
bill. The Western Governors Association and the Western Association of 
State Highway and Transportation Officials (WASHTO) have adopted 
resolutions in support of increased funding for the FLHP in the next 
authorization bill.

Funding Allocations
    Public lands are not equally distributed around the Nation and thus 
States with larger amounts of publicly owned lands have greater needs 
than States with smaller amounts. FLHP funding should be allocated:

    <bullet>  Mainly to States with at least 3 percent of the nation's 
total public land.
    <bullet>  The current formula used to allocate funding under the 
Forest Highways component of the Public Lands Highways Program should 
be maintained. It is based on the extent and use of public lands in 
each State--timberland areas, harvest volumes, recreational visitor 
days, traffic volumes, etc.
    <bullet>  To prevent earmarking of funds in annual appropriations 
bills, the discretionary component of the Public Lands Highways Program 
should either be rolled into the existing formula component or 
distributed directly to States by a new formula. The new formula could 
focus funding on a specific problem facing States with large public 
lands, such as funding culvert replacement or other transportation 
related work that is required to comply with the Endangered Species 
Act.

Program Categories
    The American Association of State Highway and Transportation 
Officials (AASHTO) and Western Governors Association have taken the 
position that no new categories should be created within the Federal 
Lands Highways Program. This position was in part a response to a 
proposal that would establish a new national road system made up of 
60,000 miles of U.S. Forest Service roads, funded from the Highway 
Trust Fund. If adopted, the proposal would create within the Federal 
Highway Program a new system of roads larger than the Interstate 
System. The States support additional funding for the U.S. Forest 
Service from the General Fund.

Other Reauthorization Issues
    There are many other important issues that will be decided during 
reauthorization of TEA-21. The following are ODOT's comments on a few 
of them.

Bridge Replacement
    In Oregon we face a particularly pressing challenge--many of the 
State's bridges built during the Interstate era are beginning to show 
signs of cracking. Over 300 bridges have been identified as needing 
repairs or replacement due to severe cracking at a cost of over $600 
million. If the problem is not addressed soon, there will be economic 
impacts as weight limits are imposed and freight is diverted off the 
Interstate System, often through small communities, detouring as many 
as 100 miles per trip. The State alone cannot fix a problem of this 
scale. Additional Federal bridge funding will be needed in the next 
authorization bill.

National Corridor Planning and Development Program (NCPD)
    In the next bill, NCPD funding should be increased and focused on 
eliminating freight bottlenecks in key trade corridors, especially at 
regional hubs where many modes of freight converge. In Oregon, the I-5 
Portland/Vancouver Trade Corridor is a prime example of a congested 
freight hub--where two Class I railroads, two Interstate highways, two 
ports, barge traffic, a high-speed rail corridor and an airport meet--
that is a crossroads for regional and international trade. The current 
NCPD program is under funded and unfocused. With grants averaging $4-5 
million, and little oversight to ensure funds are going to true trade 
corridors, the program as currently authorized is not targeting 
critical freight bottlenecks as is needed.

Environmental Stewardship and Streamlining
    In response to Section 1309 of TEA-21, ODOT has developed and 
implemented a coordinated review process for highway construction 
projects. This improved method for State and Federal permitting 
agencies to review highway projects is up and running in Oregon. Known 
as ``CETAS'' (Collaborative Environmental and Transportation Agreement 
on Streamlining), it establishes a working relationship between ODOT 
and ten State and Federal transportation, natural and cultural resource 
and land use planning agencies.
    The next bill should support State-led efforts to both protect the 
environment and streamline the review process for transportation 
projects by encouraging agencies to participate in collaborative 
stewardship/streamlining efforts through:

    <bullet>  Incentives--to get resource protection agencies and 
transportation agencies at the Federal and State level working 
together. With limited resources, many agencies find it difficult or 
impossible to participate in collaborative stewardship/streamlining 
efforts because they must take staff away from their daily duties.
    <bullet>  Research and technology--can provide tools to make it 
easier for agencies to implement stewardship/streamlining initiatives. 
For example, GIS mapping of natural and cultural resources gives 
transportation departments information in a format that they can easily 
incorporate into their ongoing planning, operations, maintenance and 
construction methods.
    <bullet>  Innovative permitting--the permitting process can be 
improved through innovating permitting techniques. For example, 
resource agencies are beginning to approve programmatic permits for 
routine transportation activities, saving time and money that can be 
used for mitigation and projects. Federal agencies need to be 
encouraged to develop new programmatic approaches to permitting. 
Advanced wetland and conservation banking for transportation projects 
should be sanctioned.

Transportation and Community and System Preservation Pilot Program 
        (TCSP)
    The TCSP program has proven to be extremely popular among States, 
metropolitan planning organizations (MPOs) and other units of local 
governments. Demand for funding has far exceeded available funding. 
Like other discretionary programs, annual appropriations bills have 
earmarked increasing amounts of the program's funding. This trend has 
undermined the purpose of discretionary programs--to implement Federal 
policy goals by awarding Federal grants to projects that demonstrate 
they support those goals, based on an objective and rigorous grant 
application process administered by the U.S. Department of 
Transportation.
    The program should be restructured and its funding increased to: 1) 
better support program goals by providing incentives to States, and 2) 
prevent earmarking of the program in future annual appropriations 
bills. The TCSP program could be improved by:

    <bullet>  Establishing the TCSP as a permanent Federal-aid highway 
program.
    <bullet>  Re-establishing an effective discretionary program.
    <bullet>  Adding incentives to encourage States to implement the 
goals of the program.
    <bullet>  Increasing the annual authorization level for the new 
program to $250 million.

Bureau of Land Management (BLM) Public Road Mileage
    In 1999, BLM listed all of its 43,000 miles of roads as 
``administrative'' and therefore no longer ``public'' road miles. This 
despite that fact that BLM roads are open to the public and many are 
paved. The classification of public road mileage is extremely important 
to western States because it is a formula factor for the allocation of 
motor carrier and highway safety program funding. The Western Governors 
Association and WASHTO have called on the U.S. Department of 
Transportation not to exclude BLM road miles from public road mileage 
certified by States until a study is undertaken to review the criteria 
and methods used to determine the classification of roads as 
``public''. The study should be done in cooperation with the western 
States.

Conclusion
    Mr. Chairman, a strong transportation system is vital to the future 
of the United States. Reauthorization is an opportunity to strengthen 
the transportation system and buildupon the successes of TEA-21 and 
ISTEA. To do this, additional Federal resources are needed. States 
simply will not be able to overcome the many challenges we face alone.
    We do not need to re-create the wheel this reauthorization cycle. 
The basic program structure is sound and proven programs such as the 
Federal Lands Highways Program are generally working well. Some changes 
need to be made, such as ensuring discretionary program funding is 
targeted to projects that support the program's objectives. The funding 
guarantees and firewall provisions established in TEA-21 will need to 
be protected. New revenue sources will have to be explored.
    Finally, it is crucial that State highway apportionments increase 
substantially as they did under TEA-21. Oregon's cities, counties, 
Metropolitan Planning Organizations, transit districts and many other 
jurisdictions benefit when the State's annual apportionment increases.
    Thank you again, Mr. Chairman. I would be happy to answer any 
questions.

                               __________
          Statement of Gary Carano, Nevada Resort Association

    Thank you Senator Reid and members of the subcommittee staff for 
the opportunity to talk with you today. My name is Gary Carano, and I 
am the General Manager of the Silver Legacy Resort Hotel, but I am here 
today representing the Nevada Resort Association. The transportation 
issues that I would like to discuss with you today impact all of my 
Northern Nevada colleagues, and the resort industry is united in its 
efforts to address these issues.
    The Reno/Sparks economy depends on tourism. We receive over 5 
million visitors to Washoe County each year. These people come here to 
enjoy the vast recreation, entertainment, and retail opportunities that 
this area has to offer (appendix 1). Roughly 35 percent of these 
visitors travel to Northern Nevada by plane, and nearly all of the rest 
come by highway. Northern and Central Californians are this area's 
leading customers and these folks come to Reno on Interstate 80. I-80 
is truly the economic lifeline of this community, not only for 
tourists, but also as a major link of goods and services from San 
Francisco through the Port of Oakland and on to the east coast (see 
bullets and graph below).

                               __________

Statement of John H. Milton, III, Commissioner, Humboldt County, Nevada

    Senator Reid, members of the Committee, good afternoon. My name is 
John H. Milton, III and I am the senior member of the Humboldt County, 
Nevada, Commission and a member of the Board of Directors of the Nevada 
Association of Counties. Thank you for the opportunity to spend a few 
minutes discussing ``Western Transportation Issues'' and the Federal 
Lands Highway Program in particular.
    As you are aware Senator Reid, over 87 percent of the land in our 
State is managed and controlled by the Federal Government. The majority 
of this land accessed over County maintained roads. Most of these roads 
are gravel which require a high level of maintenance. In Humboldt 
County, we have 941 miles of County maintained roads in our system. Of 
that amount 669 miles, or 71 percent of our system, serve Federal 
lands. These lands do not generate revenue, which can be used for the 
building new roads or the maintaining of existing roads.
    In reviewing the Federal Lands Highway program, I noticed that the 
majority of this money goes into the Public Lands Highway category. In 
that category, 66 percent goes to Forest Highways and 33 percent goes 
to the discretionary program. In Humboldt County and the majority of 
Nevada, the Department of the Interior is the manager of the Federal 
Lands and they receive no funding in this program. In Nevada, there are 
approximately 61.7 million acres of Federal land of which 51.1 million 
acres are administered by the Department of the Interior, primarily 
BLM. I would recommend that in the reauthorization you consider a new 
category related to these lands which similar to current categories for 
Refuge Roads, and Park Roads and Parkways.
    The Sheldon Antelope Refuge is the only wildlife refuge located in 
Humboldt County. Access to this refuge is via a County Road. We believe 
we should be allowed to access the Refuge Road Category for 
improvements to this County Road. We currently receive $5,000 a year in 
revenue sharing from the U. S. Fish and Wildlife Service, but return 
$2,500 to the U.S. Fish and Wildlife Service for the maintenance of the 
Virgin Valley Campground. This does not leave much for maintenance of 
the roads leading to or within the refuge.
    In April of 2000, I appeared before the Senate Subcommittee on 
Forest and Public Land Management to testify on the Black Rock Desert-
High Rock Canyon Emigrant Trails National Conservation Area (NCA). At 
that time one of the concerns I expressed was access to the NCA via our 
county road system. That bill became law and my concerns have not gone 
away. Most, if not all, of the major access points are reached by 
County Roads. Many of these are Humboldt County Roads, including the 
Cedarville Road which provides access to the NCA and the Sheldon 
Antelope Range, and the 95-mile road from Winnemucca to Gerlach which 
provides access to the entire southern boundary of the NCA. We expect 
the use of these roads to increase dramatically; the cost to maintain 
them will also increase. Improving these roads to handle increased 
traffic is beyond our means. For example, the estimate we obtained to 
upgrade the road from Winnemucca to Gerlach to an all weather road 
exceeds seven million dollars. This does not include the $480,000 cost 
for cultural clearance, right of way acquisition, gravel pit 
development, and water sources or the $200,000.00 annual cost for 
maintenance. This road crosses three Counties, none of which can afford 
to spend this type of money. Although roads such as these serve Federal 
lands, Humboldt County maintains them with no assistance from the 
Federal Government.
    The access to the Humboldt-Toiyabe National Forest in Humboldt 
County is also via our County Road system. We maintain approximately 
44.1 additional miles within the Forest under agreement with the Forest 
Service. In exchange, the Forest Service maintenance crew undertakes 
projects on the County roads leading to the National Forest to offset 
our costs incurred by the County for the requested maintenance.
    In conclusion, I would ask that you give strong consideration in 
the reauthorization of the Transportation Equity Act of the 21st 
Century (TEA-21) by addressing the concerns I have expressed today. In 
particular I would ask that a category be created to address the vast 
holdings of the Department of the Interior. Also that the public roads 
maintained by someone other than the U.S. Fish and Wildlife Service be 
allowed to utilize the money in Refuge Roads category.
    Thank you for the opportunity to address you concerning the Federal 
Lands Highway Program today and I would be happy to answer any 
questions you may have at this time.

                               __________
   Statement of Tribal Chairwoman Robyn Burdette, Summit Lake Paiute 
                             Tribe, Nevada

    Thank you, for the opportunity to speak on the issue of 
transportation in Indian Country and in Nevada.
    The Summit Lake Paiute Tribe is a small geographically isolated 
tribe located in the extreme upper northwest portion of Nevada. Bureau 
of Land Management and Sheldon U.S. Fish and Wildlife Refuge surround 
the reservation, in addition to the Lahontan Cutthroat Trout Natural 
Area. The main road system on the reservation consists primarily of two 
BIA routes, which link to three county routes. The majority of the land 
adjacent to the reservation is generally used for activities such as 
hunting, fishing, hiking and camping. This area is a very high use 
recreational area. The Black Rock Desert-High Rock Canyon Emigrant 
Trails National Conservation Area Act of 2000 gives national 
conservation area and wilderness designation to nearly 1.2 million 
acres of public lands in the vicinity and adjacent to the reservation.
    In 1999, I was chosen to sit on the Transportation Equity Act for 
the Twenty First Century Negotiated Rulemaking Committee for the Indian 
Reservation Roads Program. My tribe is part of the Bureau of Indian 
Affairs Western Region located in Phoenix, Arizona with 54 other tribes 
from Utah, Nevada and Arizona. In Nevada there are 29 individual 
tribes, each responsible to provide for the self-governance and safety 
of their communities. Well-constructed and maintained roads are 
essential for economic development of Indian communities, as businesses 
cannot occur without roads to provide access for customers and 
supplies. Well-maintained roads are essential for public safety of the 
local citizens and people traveling through the area. Indian children 
must travel--often for great distances--on Indian roads. Police and 
medical vehicles rely upon good roads to provide public safety and 
emergency medical services. Roads have been placed in the top ten 
budget priorities for the past two fiscal years by the BIA Western 
Region Tribes.
    Road Maintenance--The maintenance account for the BIA WRO provides 
funds to tribal governments to maintain roads and bridges on Indian 
lands. The current level of funding provides approximately one-fifth of 
the total of funds needed. The budget would have to be quadrupled to 
provide adequate level of funding. As an example--the Summit Lake 
Paiute Tribe gets $3,300.00 for road maintenance. With extreme snow 
conditions and heavy equipment costs this provides a fraction of the 
cost necessary to maintain our roads on a full time basis A snow cat 
costs $70,000.00. The tribe operates its maintenance program with a 
1950 Huber grader which breaks down on a regular basis, parts, if 
found, cost between $1,000.00--$2,000.00. A replacement grader would be 
$100,000.00. The road maintenance program is not in the IRR program, 
however, to build new roads with inadequate maintenance, creates a loss 
in capital improvement, and additional loss of precious dollars. The 
refuge roads program makes an allowance for maintenance costs, perhaps, 
and I say this cautiously, the IRR program should be evaluated to allow 
for an increase in funding for Road Operation &Maintenance. The BIA O & 
M corresponding budget should be targeted for an increase.
    The rulemaking committee for IRR was established to provide 
procedures and a relative need allocation formula. The committee was 
comprised of small, medium and large tribes across the Nation, many 
with no prior experience and some with many years of experience and 
expertise in transportation.
    This was the first time, nationally, that the tribes saw and 
participated in the development of a relative needs formula. The 
committee meetings provided an educational overview into the Indian 
Reservation Roads program that some of us have never had. The tribal 
representatives held true to their task of participating in the IRR 
Negotiated Rulemaking Committee on a government-to-government basis in 
recognition of Indian self-governance and self-determination. Although 
a monumental task, procedures and the development of a single formula, 
based on the inadequate funding allocated to the IRR program, was 
completed. What has yet to be demonstrated, but may be possible, is 
that problems in getting a project may not be entirely due to funding 
but the process of getting the funding/project.
    Some of the inequities found within the IRR program for tribes are:

    <bullet>  lack of adequate funding
    <bullet>  concern that too many programs are being placed within 
the Indian Reservation

    Roads Construction Program like:

    <bullet>  Indian Reservation Roads Bridge Program
    <bullet>  Transit
    <bullet>  Obligation Limitation
    <bullet>  6 percent BIA takedown

    The relative needs formula is based upon the total population; 
vehicle miles traveled, and cost to improve. Considering these factors, 
the Summit Lake Paiute Tribe is currently at a disadvantage because of 
poor qualifiers in the relative needs formula including a low 
population, low average daily traffic, and lack of transportation 
planning reports (identifying cost to improve estimates, roadway 
inventories, ADT, etc). As a result, funding for the tribe based on the 
relative need formula has proven inadequate, especially for routine 
maintenance, and improvement of the reservation roadway system. The 
Summit Lake Paiute Tribe has historically received no funding for road 
construction.
    The proposed relative needs formula includes a capacity base 
funding and a high priority funding category, however, funding is based 
on population, this seems to create a pool where low population tribes 
only receive insufficient funding to operate a transportation program. 
It also creates a pool whereby the BIA can take from to supply funding 
for a ``construction project'' that may not be yours. Funding should be 
allocated based on the entire project to its completion.
    The proposed high priority projects, well intended to address 
funding for tribes that have never received funding for a construction 
project, will likely struggle to receive a approved construction 
project due to the poor qualifiers mentioned above. The inclusion of 
the emergency/disaster projects will further exclude a tribe from 
meeting transportation needs. Because of insufficient funding the 
Bureau of Indian Affairs currently prioritizes IRR funds to build roads 
with respect to those tribes who the BIA qualifies as having unsafe 
roads or bridges.
    The Summit Lake Tribe has generated a relative needs share between 
$19,000.00 to $30,000.00 per year and has only twice received funding 
through 2 percent planning not through its relative needs portion.
    In 1999, the Summit Lake Paiute Tribe's roadway system was flooded, 
all access was stopped. Many travelers were stranded or attempted to 
circumnavigate the flooded section, (which was the sole access from 
north to south), and began to cut new roadways into the surrounding 
areas, many of which consist of wetland habitat. This situation results 
in extreme environmental degradation and safety concerns. When the 
tribe sought assistance through the Emergency Relief for federally 
Owned Roads program, bureaucratic red tape and process stifled the 
tribe. For 2 years the effects of this flood impacted the tribe and the 
economy of the area. What was the bureaucratic red tape? The 
requirement to apply through the Bureau of Indian Affairs instead of 
the Federal Lands Office which administers ERFO funding.
    Many reservations share this same story, it is common to have roads 
that are well beneath ground level or consist of narrow pavements with 
no shoulders or inadequate signage with sharp narrow passages or 
curves.
    When the Summit Lake Paiute Tribe generates a relative needs fund 
totaling $19,000.00--$30,000.00 per year and it is estimated that 
$1,781,635.00 is needed to rebuild existing roads, not including future 
roads, the Summit Lake Paiute Tribe will always remain at the bottom 
end of the priority list. When competing for funding at the national 
level for a construction project against tribes, who are in the same 
category, funding will remain unlikely with the poor qualifiers of low 
population, ADT, and cost to construct.
    Tribes in Nevada receive little or no support from the BIA WRO and 
have requested many meetings to obtain information regarding 
assistance. Unfortunately, due to distance--we are geographically 
crippled from obtaining the training and technical assistance necessary 
for consideration under the IRR program. To get on the WRO TIP, a tribe 
must request BIA to approve funding for the tribal project. This 
process is passed over for the majority of tribes due to limited 
funding and the lack of technical assistance from the Western Region 
Office.
    What are the effects on a national level? Several Tribes in Nevada 
have major highways traveling through their reservation. The Duck 
Valley Shoshone-Paiute Tribe may have nuclear receptacles traveling 
through their area on the very same roads numerous accidents occur. 
Tribes who do not have emergency response preparedness and have unsafe 
road conditions will be ill equipped to handle the proposed nuclear 
transportation.
    Tribes in Nevada are capable of partnering with the State of Nevada 
to address transportation issues, however, there are distinct 
differences with Tribes. Not only is there a jurisdictional 
considerations but the fact that many tribes need to participate fully 
in research programs like safety and transit. Accesses to funds are 
dependent upon the inventory of tribes, it is critical that tribes are 
able to provide the State agencies accurate inventory information. 
Again, we cross the path of needing those base/planning dollars in 
order to report and compile the correct information.
    The Tribal Technical Assistance Program serving Nevada Tribes is 
also critical to meeting the transportation need, however, this program 
has been non-existent for several years. Just recently, a provider has 
been selected in California where conditions are very different than 
those in Nevada. In addition, this displaces us from the other Tribes 
in the WRO office and further complicates matters when trying to pull 
together information and resources.
    Suggestions to improve--Provide for equal partnership with tribes. 
Implement the procedures developed by the Negotiated Rulemaking 
committee and provide full funding for the IRR program. Remove the 
obligation limitation from the IRR program. Adjust the takedowns, the 
BIA 6 percent and re-evaluate the funding formula.
    Although tribes have to agree on a single formula, there are areas 
for improvement. Population based formula do not work for anyone. The 
high priority programs can work if revolved around meeting the need of 
those tribes who do not get enough funds to construct a project in a 
set period of time but not if all tribes can access funds due to 
safety. The majority of Indian roads provide a safety risk.
    Finally, tribal roads are given inequitable attention, we are 
overlooked because we lack the capacity and knowledge to manage our 
program, not because we can't but because we are not allowed to. Given 
the resources, and by partnering, we can provide for safe accessible 
transportation system and contribute to the local economy. Thank you.

                               __________

                     Statement of the Navajo Nation

Introduction
    The Navajo Nation appreciates this opportunity to share its views 
about what is working within the Indian Reservation Roads (IRR) 
Program, what is not working, and what this Congress can do to improve 
transportation in Indian Country. We commend the Federal Highway 
Administration for its commitment to provide safe and efficient access 
to Tribal lands. Roads, bridges, and transit quite literally carry 
people across a network that connects communities, commerce and 
culture.
    As former U.S. Secretary Rodney E. Slater said, ``Transportation is 
the tie that binds us together as a Nation.'' The Indian Reservation 
Roads Program impacts all people, tribal and non-tribal alike. Tribal 
Lands provide vitally needed access within and between States, and 
support a multitude of economic interests, including tourism, 
agriculture, energy production, manufacturing, mineral extraction and 
timber harvesting.
    But progress does not travel down dirt roads and broken bridges. 
Many people and places in Indian Country still have very poor access to 
opportunity. A few discreet changes to the Transportation Equity Act 
for the 21st Century could dramatically help efforts to lift First 
Americans out of Third World conditions, onto the same economic status 
as other communities throughout the United States. Background
Navajo Nation
    The Navajo Reservation is located on 26,109 square miles, or 17.1 
million acres within the exterior boundaries of New Mexico, Arizona, 
and Utah. It is roughly the geographic size of West Virginia. The 
Navajo Nation's land base also includes three Navajo satellite 
communities-Alamo, Tohajillee, and Ramah-located in western and central 
New Mexico.
    With 280,000 members, the Navajo Nation is the largest federally 
recognized Indian Tribe. Limited availability of housing and employment 
on the reservation forces people to commute long distances everyday for 
work, school, health care and basic government services. Seventy-eight 
percent of the roads within Navajo are unpaved.
    According to the 2000 BIA Road Inventory Data base, the Navajo IRR 
system consists of 9,826 miles of public roads. Of that, Navajo Nation 
must maintain 1,451 miles of paved road, 4,601 miles of gravel and dirt 
roads. Weather conditions often make many of those roads impassable.
    The Navajo Reservation soils have high clay content with less 
forage. In the winter, snow and rain create Snow and Mud Emergencies 
that prohibit access even to rescue vehicles. This year, because of the 
prolonged drought, these roads have become nearly impassable due to 
sand dunes, rocky surfaces and deep holes. Not only are impassable 
roads a consistent problem within Navajo, so are impassable bridges. 
The Navajo must maintain 173 bridges. 51 bridges have been identified 
as being deficient, of which 27 bridges need complete replacement and 
24 bridges need major rehabilitation.
    For people who do not have access to a vehicle, The Navajo Transit 
System (NTS) currently operates a fleet of 14 buses and 3 vans that 
carry 6,250 passengers a month, or 75,000 passengers a year. NTS 
provides public transportation not only to people of Navajo, but also 
to people of Gallup and Farmington, New Mexico, and Flagstaff and 
Winslow, Arizona. NTS not only links tribal and non-tribal communities 
together, but also improves the area's environment, economy and overall 
quality of life.

Indian Country
    The Navajo Nation, like every Tribe, has its own unique challenges. 
Yet Navajo consistently struggles with three problems that are nearly 
universal throughout Indian Country: 1) lack of adequate health care; 
2) lack of public safety officers; and 3) lack of economic development 
opportunities. These problems are compounded by the lack of 
transportation infrastructure within tribal communities.
    Health clinics on most reservations tend to be few and far between, 
where they exist at all. Tribal members, including the elderly, 
children, and disabled, often must travel hundreds of miles to receive 
specialized care. Dirt roads, deteriorating paved roads, and 
treacherous bridges make their long journeys that much more difficult.
    Public Safety is also compromised by lack of decent roads and 
bridges within reservations. Automobile accidents are the No. 1 cause 
of death among young American Indians. The annual fatality rate on 
Indian Reservation Roads is more than four times the national average. 
Bad roads make it very difficult for tribal police, few in numbers, to 
enforce traffic and other laws in Indian Country.
    Lack of adequate vehicle access is also a disincentive for economic 
development in tribal communities. On a regular basis, several 
businesses explore the possibility of locating to the Navajo Nation 
before realizing obstacles including inadequate paved roads. Due to the 
lack of economic developments and supporting infrastructures, the 
following facts exist:

    <bullet>  According to 1990 census, which provides the most recent 
analysis, per capita income for American Indians living on reservations 
is about $4,500 per year, compared to about $14,500 nationally. In 
1997, the per capita income of Navajo people was $5,599.
    <bullet>  According to the 1990 census, 51 percent of American 
Indians living on reservations lived below the poverty level, as 
compared to 13 percent nationally. 56 percent of Navajo people live 
below the poverty level.
    <bullet>  Although unemployment in Indian Country fluctuates 
seasonally, it is greater than 50 percent annually, as compared to less 
than 10 percent nationally. The unemployment rate on the Navajo Nation 
is about 50 percent.
    National Security As we all know, since September 11, 2001, 
Homeland Security has become the national priority. Indian reservation 
roads and bridges are vitally important to national safety. Tribal 
transportation infrastructure must be able to carry emergency services, 
as well as evacuation traffic.
    Unfortunately, most tribal transportation infrastructures are not 
yet up to the task. For example, Arizona Department of Transportation 
developed an I-40 Emergency Interstate Closure Plan--which was created 
to anticipate such pre-September 11 catastrophes as earthquakes and 
hazardous or radioactive spills--that calls for detouring up to 8,000 
trucks per day onto Navajo BIA routes. The Navajo bridges onto which 
traffic would be detoured can only safely accommodate one truck at a 
time, traveling no faster than 35 miles per hour.
    In addition, State highways through Indian Reservation Roads 
regularly carry hazardous materials. The Navajo Nation serve as a 
shipment route for hazardous materials. Not all potential routes are 
paved.
    Hazardous waste is carried across the Navajo Nation every day on 
five different routes:

    <bullet>  I-40 is a main route for hazardous waste;
    <bullet>  U.S. 89 is a main route for transport of organic waste, 
as well as propane and gasoline shipments;
    <bullet>  U.S. 160 is main route for transport of hazardous waste;
    <bullet>  U.S. 163 is main route for transport of hazardous 
shipments from Arizona to Utah and Colorado; and
    <bullet>  U.S. 666 is highly traveled by vehicles carrying 
hazardous waste.
    Nuclear waste transportation also cuts across Indian Country. In 
Navajo, I-40 is the main route for high-level radioactive waste 
transported to or from New Mexico. U.S. 160 is the main route for 
transport of high-level radioactive waste. When Yucca Mountain Nuclear 
Waste Storage facility starts accepting waste, much of it will come 
right through the Navajo Nation. Tribal roads must be constructed, 
improved and maintained to safely handle such dangerous traffic.

                TRANSPORTATION ACT FOR THE 21ST CENTURY

What is Working
    Based on its own experience, the Navajo Nation believes that The 
Transportation Act for the 21st Century (TEA-21), through the Indian 
Reservation Roads Program, is providing critically needed funding and 
assistance for reservation and bridge projects in Indian Country. While 
the IRR Program has its problems, three specific aspects of the Program 
that are working well for the Navajo people:

1. Relative Needs Formula
    <bullet>  Current distribution is based on formula of ``relative 
needs'' of the various Indian Tribes as jointly identified by the 
Secretary of Transportation and the Secretary of the Interior.
    <bullet>  The Relative Needs Formula currently being used is 
measurable, verifiable, and equitable: 20 percent total Indian 
Population; 30 percent total vehicle miles traveled; 50 percent total 
cost of improvement
    <bullet>  Amount of roads Navajo has constructed or improved from 
1992 to 2001 (ISTEA and TEA-21 authorizations) is 334 miles of road and 
1,988 lineal feet of bridges.

2. Cooperative Funding for School Bus Routes
    <bullet>  Agreements entered into between Navajo Nation and 
counties of Arizona, New Mexico, and Utah have been very successful in 
fostering coordination and communication for the maintenance of school 
bus routes.
    <bullet>  TEA-21 funds have been used to improve several miles of 
school bus routes on or near the Navajo Nation that could not have been 
maintained without the funding.

3. Tribal Technical Assistance Program
    <bullet>  On September 11 and 12, 2002, the Navajo Nation 
Department of Transportation and the Colorado State University Tribal 
Technical Assistance Program will co-host the Navajo Nation 
Transportation Symposium in Flagstaff, Arizona. The Symposium will 
feature national keynote speakers and training workshops on critical 
national transportation initiatives.
    <bullet>  Such ongoing technical support benefits tribal and non-
tribal community alike.

                          WHAT IS NOT WORKING

    It is the experience of the Navajo Nation that five specific 
aspects of the IRR Program are currently undermining the Federal 
Government's commitment to provide safe and efficient access to tribal 
lands:

1. Negotiated Rule Making Process
    TEA-21 provides that the Secretary of the Interior shall issue 
regulations governing the IRR Program and establish a funding 
distribution formula in accordance with the negotiated rulemaking 
committee. Of the four workgroups that make up the Negotiated 
Rulemaking Committee, the workgroup steeped in the most controversy is 
the Funding Formula Workgroup, which has been asked to review and 
develop possible alternative methods to the current Need Based Formula 
for distributing funds under the IRR Program.
    The Negotiated Rulemaking Process attempt to develop an alternative 
distribution funding formula has undermined one of the central goals of 
TEA-21--to improve the transportation infrastructure of Indian Country. 
Alternative distribution efforts have 1) derailed meaningful progress 
by pitting small tribes against big tribes in a fight over an 
inadequate budget; 2) delayed disbursement of IRR funds 4 years 
straight, in 1999, 2000, 2001, and 2002; and 3) resulted in suspended 
Indian roads projects and roads employees.
    Navajo Nation has long advocated Needs Based Formula for all tribal 
funding in the interest of fairness and accountability. The BIA Road 
Inventory miles used in computing the distribution formula must be true 
roadway miles, fair, accurate and verifiable. The alternative funding 
formula being sought by small tribes, which advocates ``base level 
funding'' and set-asides for non-existent road miles (ghost miles), is 
neither reasonable nor practicable.

2. Bridge Funding
    The National Bridge Priority Program currently only provides 
funding for construction of bridges, not funding for such pre-
construction activities as planning and design. Moneys for pre-
construction bridge activities must be sought from regular IRR funds, 
where such requests are in direct competition with funding requests for 
road construction projects. The current process is not only cumbersome 
and unfair, but also risky where replacement and/or rehabilitation of a 
bridge is an immediate health and safety need.
    Bridges within the Navajo Nation must be able to support the 
traffic of workers, patients, school children, commerce, and hazardous 
materials. As of November 10, 1999, 46 bridges within the Navajo Nation 
were identified as being deficient. The Navajo Nation needs at least 
$5.2 million for planning and designing in order for bridges to advance 
to construction.
    As Representative Sherwood Boehlert (R, NY) of the House 
Transportation and Infrastructure Committee stated, ``You don't fix a 
bridge with good intentions; it takes cold hard cash to pay for the 
rehabilitation or replacement.'' The current Bridge Priority Program 
does not provide Tribes access to funds to plan for such rehabilitation 
and replacement.

3. Obligation Limitation
    The current method of redistributing approximately 10 percent of 
Federal Lands Highways Program funds to States as Surface 
Transportation Program funds-commonly known as the ``Obligation 
Limitation"--has a detrimental impact on Tribes and the IRR Program. 
Because the Indian Reservation Road Program is located within the 
Federal Lands Highway Program, the Obligation Limitation significantly 
reduces the availability of critically needed construction funds for 
developments for all American Indian Tribes. Since Obligation 
Limitation became applicable on the Indian Reservation Roads Program, 
the redistribution of funds has accumulated to $129.4 million, of which 
Navajo Nation could have received $34 million for construction.

4. Maintenance Funding
    Road maintenance is a statutory obligation under 23 U.S.C. Section 
116, which is intended to protect investments made with Federal Highway 
Trust Funds. The scarcity of maintenance funding available to Tribes 
transforms this statutory obligation into an unfunded mandate that 
tribal governments cannot fulfill. The problem is that Indian Road 
maintenance is funded not through the IRR Program, but through the 
Department of Interior, which year after year lacks the necessary 
funding to maintain BIA roads built in Indian Country with IRR Program 
moneys.
    The experience of the Navajo Nation is fairly typical. Each year, 
Navajo submits its annual request for maintenance funding to BIA. Each 
year, Navajo is only funded at 30 percent of need.
    The Navajo Region Office/Branch of Roads Program is maintaining 
6,000 miles of Navajo Region BIA road system but is funded at only $6 
million, or 1/5 of the $31.66 million needed. The Interior 
appropriation is only marginal and is not enough to protect the Navajo 
Nation's investment in improving its road system by use of the Highway 
Trust Fund moneys paid by tax dollars.

5. Transit Funding
    Currently, Tribal Transit Programs receive Federal transit funds 
through distribution from the States. Tribal transit programs are low 
priority to the States and must compete with State transit programs. In 
the absence of meaningful access to Federal transit dollars, Tribes 
must use precious Indian Reservation Road Program dollars for Tribal 
Transit.

                            RECOMMENDATIONS

1. Increase Annual Appropriation
    <bullet>  Increase the Annual Funding Level for the IRR Program 
from its present level of $275 million to $500 million. Past inadequate 
funding of IRR Program has created a crisis that can only be ignored at 
the risk of those travelers who drive 2 billion vehicle miles on the 
IRR system each year. In its 1999 study of the nation's highways and 
bridges, the Federal Highway Administration determined that ``The 
annual fatality rate on Indian Reservation Roads is more than four 
times the national average . . . The estimated backlog of improvement 
needs for BIA and selected State and Local IRR roads exceeds $6.8 
billion.'' The Navajo Nation alone needs $100 million per year for the 
next 20 years just to satisfy its unmet present and future 
transportation needs.

2. Remove Obligation Funding
    <bullet>  Exempt the Indian Reservation Roads Program from the 
Obligation Limitation Provision, 23 U.S.C. Section 1102 (f), which 
created an obligation to redistribute Federal Lands Highways Program 
funds to the States as Surface Transportation funds. Because the Indian 
Reservation Road Program is located within the Federal Lands Highway 
Program, the Obligation Limitation has significantly reduced the 
availability of construction funds for road developments for all 
American Indian Tribes. Since 1998, the Obligation Limitation has 
reduced funding for the Indian Reservation Roads program by about 10 
percent each year.

3. End Bridge Set Aside and Begin Separate Bridge Fund
    <bullet>  Permit National Indian Reservation Bridge Priority 
Program funds be used for pre-construction activities, such as planning 
and design.
    <bullet>  Create a separate source of funding for the National 
Indian Reservation Bridge Priority Program from the Highway Trust Fund 
so that bridges do not have to compete with roads under TEA-21.
    <bullet>  Provide $15 million yearly authorized funding level from 
Highway Trust Fund for fiscal years 2004 through 2009 for Indian 
Reservation bridge projects.
    <bullet>  Expand allowable uses of bridge funding to include 
inspection, planning, design, engineering and construction of projects 
to replace and improve bridges on Indian reservations.
    <bullet>  The National Bridge Priority Program funding should have 
a separate funding source rather than the current $13 million take down 
from the IRR Program.

4. Increase Ability to Use Funds for Planning Roads
    <bullet>  Encourage administrative capacity building within Indian 
Country by increasing the amount of money Tribes are allowed to use for 
transportation planning from the current limit of 2 percent of 
allocated funds to a new limit of 4 percent. The Transportation 
Planning funds are essential for a Tribe to be able to compile 
necessary transportation data and forecast future transportation needs. 
Transportation planning on Indian reservations is needed more than ever 
because of the growing populations on Indian reservations and because 
of new national security concerns.

5. Create New Reservation Transit Program.
    <bullet>  Establish a new Indian reservation rural transit program 
with an annual funding level of $20 million per year so that Tribes may 
apply direct to the Federal Transit Administration for competitive 
grants for rural transit programs on reservations. Currently, Tribes 
must apply for transit funding to the States within which they are 
located. This requirement not only puts Tribes at an extreme 
disadvantage by forcing Tribal transit projects to compete with State 
projects before a State grant maker, it also violates the government-
to-government relationship that exists as a matter of law and policy 
between the Federal Government and Tribes. This relationship, rooted in 
the Federal Trust Doctrine, has been reaffirmed not only by Executive 
Order 13175, but also by the November 16, 1999 Order of the Department 
of Transportation, which requires agencies of the U.S. Department of 
Transportation to build more effective working relationships with 
Native American tribal governments by, among other things, ``Work[ing] 
with federally recognized tribes and their designated representatives 
on a government-to-government basis respecting their rights to 
represent their interests.''

6. Provide Additional Funding to Maintain School Bus Routes
    <bullet>  Increase annual funding for maintenance of school bus 
routes on, or near, or adjacent to Indian reservations larger than 
10,000,000 acres from current level of $1.5 million per year so that 
miles and miles of seasonably unpassable dirt roads do not stand 
between an American Indian child and an education . Increase annual 
authorized funding level to $3 million in fiscal years 2004 and 2005; 
$4 million in fiscal years 2006 and 2007; and $5 million in fiscal 
years 2008 and 2009.

7. Reaffirm Funding Distribution Formula
    <bullet>  Maintain the Relative Needs Formula that was being used 
during the ISTEA authorization years at 100 percent application with no 
minimum amount per Region. 23 U.S.C. Section 202 (d) requires the IRR 
Program to distribute program funding based on a negotiated rulemaking 
process, which has thus far produced only disagreement.

8. Prohibit the Funding of Ghost Miles
    <bullet>  Require both Secretary of Interior and Secretary of 
Transportation to verify the existence of roads that are part of the 
Indian Reservation Roads Program to ensure that the distribution of 
funds to an Indian Tribe is fair, equitable, and based on valid 
transportation needs.
    <bullet>  Distribute funds based on the existence of those roads.

                               CONCLUSION

    Roads, bridges and transit are lifelines of any community. For 
tribes, they are crucial and vastly unmet needs, without which economic 
development is nearly impossible. The Navajo Nation respectfully urges 
the U.S. Congress to support the Reauthorization of the Transportation 
Equity Act of the 21st Century with the above recommendations. It is 
time for ``equity'' to mean something in Tribal transportation funding. 
It is time, in this 21st century, for opportunity to be able to travel 
safely down Indian Reservation Roads, to connect the commerce and 
culture of tribal and non-tribal communities.


                         TEA-21 REATHORIZATION

                              ----------                              


                        TUESDAY, AUGUST 20, 2002

                                       U.S. Senate,
               Committee on Environment and Public Works,  
                                               Montpelier, Vermont.
    The committee met, pursuant to notice, at 10 o'clock a.m. 
in room 10, The State House, Montpelier, Vermont, Hon. James M. 
Jeffords [chairman of the committee] presiding.

                  TRANSPORTATION NEEDS OF SMALL TOWNS 
                           AND RURAL AMERICA

    Present: Senator Jeffords.

         OPENING STATEMENT OF HON. JAMES M. JEFFORDS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Jeffords. Well, I want to welcome you all here this 
morning to the Vermont field hearing of the Committee on 
Environment and Public Works. I especially want to thank Deputy 
Secretary Jackson from the United States Department of 
Transportation for being here. Pleasure to have you here, and I 
hope that you'll find it a very worthwhile morning.
    Mr. Jackson. I'm certain I will.
    Senator Jeffords. Together, the united forces of our 
communications and transportation system are dynamic elements 
in the very name we bear: The United States. Without them, we 
would be a mere alliance of many separate parts.
    With these words, President Eisenhower announced a massive 
effort in the 1950's to modernize America's highways, as 
necessary for our defense as it is to our national economy and 
personal safety.
    The committee I chair will craft a national transportation 
bill next year, for the next generation of Americans. In 1819, 
the Congress created the Select Committee for Public Buildings, 
which became this Committee on the Environment and Public 
Works, with authority over major issues including the 
environment, roads, rivers, harbors, the Coast Guard, water and 
air pollution, and the transportation bill.
    Past members of the committee include two presidents, Harry 
S. Truman and Andrew Jackson, and five vice presidents of the 
United States. Two of my best friends have served on the 
committee as chairmen: Vermont Senator Bob Stafford and Rhode 
Island Senator John Chafee, whose son now also serves on the 
Environment and Public Works Committee.
    I am thrilled to be back in Vermont in this House. I have 
very fond memories of working in these rooms and for the State 
all these years. I'm here today to learn from Vermont.
    While the next transportation bill will be national in 
scope, it will be driven by local impact. This transportation 
bill will not just be about paving new roads. Under my 
chairmanship, it will also be making America stronger, helping 
rural communities, protecting the environment, creating 
thousands of good jobs, making commerce flow, keeping families 
safer, and enhancing rural economic growth.
    In the process, I will not forget the special needs of our 
senior citizens, nor will I forget our younger citizens. 
Parents should not have to worry whether the school bus will 
make it to school, and children should not have to worry 
whether their parents will make it home from work.
    Three million highway injuries a year, including over 
40,000 deaths, is unacceptable. The total economic cost of 
motor vehicle crashes in the year 2000 was $230 billion, five 
times the cost of the whole Eisenhower project.
    There are no complete guarantees in life, but I assure you 
that I will work toward passing the most safety-conscious and 
the most environmentally sensitive transportation bill ever. 
Much needs to be done in Vermont. We have 15,000 miles of 
public roads and over 2,000 bridges that must be properly 
maintained. We need to support commerce. Nationwide, the 
percentage of freight carried by trucks is projected to 
increase by at least 45 percent by the year 2010. An improved 
rail system in Vermont would help to prevent that truck 
congestion.
    I will look to protect our New England heritage and 
communities. I want to do what is right for the Nation, but 
through local decisionmaking process. I am interested in 
harnessing new technologies and creative ideas to get Americans 
safely on the move.
    The events of 9/11 have raised the ante as we work to 
better safeguard Americans in transit, whether it is families 
driving across bridges or fully loaded passenger trains. 
Worldwide, roughly one-third of terrorist attacks target 
transportation systems.
    Another challenge will be our aging population. The 
population aged 85 and older will increase 20 percent in the 
next 6 years.
    On a separate front, emissions from vehicles include lead, 
sulfur dioxide, carbon monoxide, and other harmful pollutants, 
and air particles which expose us to health problems, including 
cancer. This is hardly what parents want their children to 
inhale while playing in the backyard.
    Scott Johnson, the head of Vermont's Agency of Natural 
Resources, testified down in Washington, DC, just a few weeks 
ago. He said that surface transportation remains the largest 
in-State source of air pollution in Vermont. Traffic pollution 
is also a major cause of greenhouse gas emissions, and we must 
act now to protect the whole planet.
    One of my top priorities will be to spend wisely. A recent 
report showed that every dollar spent on road maintenance, 
while the roads were still in good condition, saved up to ten 
dollars in costs to repair the road once the road fell into 
poor condition.
    While the transportation bill presents many challenges, 
some of which I have just mentioned, it also offers us good 
opportunities. For example, each $1 billion spent in a 
transportation bill can create 44,000 full-time jobs.
    My goals for this bill include a cleaner environment, a 
strong Vermont economy, safer families and healthier 
communities, creating good Vermont jobs, and a transportation 
system for Vermont, based upon Vermont's needs.
    I am very pleased that we will be hearing from a number of 
witnesses today, including Secretary Jackson. I look forward to 
working with him on this major effort. Also, we will hear from 
Brian Searles, Secretary of the Vermont Agency of 
Transportation; Ray Burton, Executive Councilor from New 
Hampshire; Chairman Richard Pembroke of the Vermont House 
Committee on Transportation; Chairman Richard Mazza of the 
Vermont Senate Committee on Transportation; Dr. Thomas Adler of 
the Northeast Transportation Institute and Museum in White 
River Junction, Vermont; Debra Ricker, Associate General 
Contractors of Vermont; Paul Bruhn, Preservation Trust of 
Vermont; Matthew Sternberg, Executive Director of the Rutland 
Redevelopment Authority.
    I also want to invite anyone from the audience to submit 
written testimony to me by sending it to the Committee on 
Environment and Public Works at Room 410, Dirksen Senate Office 
Building, Washington, DC, 20510. Please send your ideas to me, 
though, by September 5, so that we can make sure that we have 
input into this bill.
    I now want to move forward to listen to our witnesses. Our 
first panel is the Honorable Michael Jackson, Deputy Secretary 
of the U.S. Department of Transportation, Washington, DC. Thank 
you, and I understand you have a prepared testimony.

   STATEMENT OF HON. MICHAEL JACKSON, DEPUTY SECRETARY, U.S. 
          DEPARTMENT OF TRANSPORTATION, WASHINGTON, DC

    Mr. Jackson. I do, Mr. Chairman, and thank you very much 
for the opportunity to speak today before you and also to 
listen and learn from the distinguished panels that you have 
brought forward to learn about the issue on the table today. I 
would like to introduce Emil Frankel. Emil comes by being in 
this part of the woods in a natural way. He was the former 
Commissioner in Connecticut, and has been brought by the 
Secretary of the Department, and his responsibilities has had a 
substantial amount of oversight for our work in developing 
these recommendations for you, sir, in our reauthorization to 
date, so he will work with you on this important task.
    I just want to say that Vermont is lucky, sir, to have your 
chairmanmanship and your experience and your focus on this 
important national priority, and indeed the country is, to have 
someone with your focus and experience leading this important 
committee. And Secretary Mineta sends his regards and his 
pledge to work closely with you.
    Senator Jeffords. Well, I've worked closely with him for 
many, many years. We came into Congress in the same year, back 
in that time when Republicans didn't do very well, but I 
think--in fact, I think there were only a dozen or so of us 
Republicans out of the massive change, but anyway, Norm and I 
have been friends all these years, and look forward to working 
with him.
    Mr. Jackson. I will try, Mr. Chairman, with your 
forbearance, to summarize my prepared remarks and go about not 
only the rural transportation issues set within the context of 
the reauthorization task that we have before us. And the 
Secretary has, when he appeared before your committee, outlined 
six key principles that will guide our work in the 
Administration in working on this set of issues, and I'd like 
to just summarize those, and then talk about a little bit about 
how some of those apply to the rural transportation issues in 
particular, and then happy to answer any questions you might 
have.
    The six principles that we start with, first is to ensure 
an adequate and stable source of funding. At the end of the 
day, of course, this issue of a stable and adequate source of 
funding is the touchstone issue in the transportation world. We 
have seen that the RABA mechanism for Revenue Aligned Budget 
Authority needs a new look. Your work in trying to help 
provide, in the Senate, some additional funds this year, above 
what the formula generated, has been embraced by the 
Administration, and we will look into reauthorization to try to 
stabilize the ups and downs of the funding sources that are 
available. And so that adequate, predictable funding is an 
important principle.
    Second, preserving flexibility, and this is a cornerstone 
principle that will help us address fairly not only rural 
needs, but the whole spectrum of which is to allow States to 
spend their money the way they need to spend it, and that's 
been a cornerstone, and the Administration certainly 
anticipates strongly supporting the continued focus on 
flexibility in the new reauthorization.
    Third, expanding and improving innovative financing. I want 
to talk about that in a few minutes ahead, but we need to 
figure out how to stretch our dollars and stretch our 
investments further, and this is something that we are very 
interested in working with you further on.
    Fourth, accessibility. The rural community has very, very 
strong and pronounced needs to access transportation in this 
country. 21 percent of the population lives in rural 
communities, and 18 percent of the jobs, and many of those 
people don't have access to transportation to get to their jobs 
when they must leave their home.
    Fifth, making substantial improvements in the safety of 
surface transportation projects is a cornerstone. That's really 
the beginning and the end of our work and our thinking, and 
finally, to wrap it up, we are committed and know that we can 
do this in an environmentally sensitive way, as your opening 
remarks indicated. There does not have to be a disjunction 
between moving forward, building strong, effective 
transportation networks, and doing it in an environmentally 
sound and effective fashion.
    So those are our six touchstones, and when we begin to look 
at the transportation reauthorization and think about the rural 
needs in that context, it seems that those first two 
principles, of adequate funding and flexible financing, are the 
cornerstones, really, for us of dealing with rural needs.
    If we have adequate funds and we give the States, who know 
best how to spend the money, the flexibility to do that, then 
we think that those two key principles that have been in the 
existing legislation will serve us well in the new legislation, 
so in many ways we want to come back through the discussion of 
how to restructure the reorganization and hit those two 
touchstones and figure out how to do it.
    If we can adequately provide for the whole country, the 
rural issues will be addressed, but I would like to delve, 
then, into specific programs and focal points for us in rural 
needs. There are obviously core programs which will help 
address the rural communities' needs, but I think TEA-21 wisely 
created a series of programs which we at the Department have 
been aggressively supporting, and in fact innovating, to add 
to, to help focus needs on the rural communities. Also on urban 
communities with urban-targeted programs.
    So to unpack the rural part of it, we have created a rural 
capacity building initiative at the Department which brings 
together FHWA and FTA and also brings in other safety agencies, 
such as NTSA, to take a look at how we are focusing on rural 
communities. And we start by saying that we're going to provide 
funds with rural focus and rural-specific programs, and 
Congress has done that, and we will support, in the 
reauthorization, the capacity to flow funds directly to people 
in rural communities in a meaningful way.
    And so I'll just mention a few of these: The Federal 
Transit Rural Program, the so-called Section 5311 program. In 
fiscal year 1902, it's a $226 million program for capital, 
administrative and operating needs. I think this is a 
terrifically important type of program, in that it floats funds 
to over 1,200 separate organizations, State organizations, 
nonprofit organizations, people who are able to bring to the 
table in the State a proposal to try to meet these 
transportation needs.
    A second program that we think is a very important and 
effective is Rural Transit Assistance. It's a smaller program, 
but it provides funding and R & D and planning money on a 
flexible basis to try to help organize the community in a way 
to present itself effectively to the larger capital and 
infrastructure grants that they might apply for.
    The Federal Transit Administration Program on Elderly 
Persons with Disabilities is an $85 million program which we 
think again takes money and flows it directly into rural 
communities to help people who have disabilities and need to 
get to a job, need to get to a doctor's appointment, the chance 
to do that.
    The Job Access Revenue Program also provides the same 
service, but the former is an $85 million program, the latter a 
$125 million program, 21 percent of which is earmarked for 
rural communities. And Central Vermont Council on Aging, for 
example, has used this first program in a very effective way. 
They're growing. Their service base, the people that they are 
helping, is anticipated to grow strongly.
    So this is the type of targeted resources that local 
communities are taking on board, opening their arms and opening 
their hearts and doing good things with.
    On the Federal highway side, we've focused on safety, set 
aside money in rural communities, a billion and a half dollars 
in 1999 and 2000, on rail crossings, hazardous intersection 
mitigation, and other efforts.
    45 percent of that program is focused on rural communities 
in our distributions. So without trying to unpack the big book 
of the Federal program, I think it is fair to say that as we 
come to you and come to the Congress broadly with 
recommendations, that will be an area where we'll want to focus 
specific programs on the rural community.
    Finally, I would like to say that there are three ways that 
we think we can extend our highway investment and make better 
use of it. First is innovation in financing. We've talked about 
the TIFIA program before your committee before. We've talked 
about State bank moneys, and other tools like this. I think 
that as we operate in a constrained financial environment to 
try to meet our needs, that this will be an important set of 
things for us to focus on.
    Second of the three ways to extend our dollars is 
technology. We have, not only in the ICS program, but in our R 
& D program, we have to use our money more effectively to 
stretch the dollars. Actually, this program at the department 
has focused a considerable number of programs on the rural 
committee. There are issues related to snowplows on urban roads 
that are very safety sensitive and appropriate things for us to 
put technology against to try to mitigate accidents, and there 
is a substantial body--and I'd be happy to share with the 
audience anyone who has an interest in these particular ICS 
planning tools that help us to focus technology on urban and 
rural communities.
    And finally, I would like to lay on the table for us to 
talk about, in the coming months, a topic that extends our 
money and uses it more wisely, which is really how to use 
procurement tools that stretch our dollars to get Federal value 
from them. Those are oftentimes State laws and procurement laws 
that mandate and govern how to use these funds, but there is a 
set of issues that I think we can, with our State colleagues, 
unpack and understand a little bit better about how to use 
procurement tools that are innovative and that allow us to 
stretch our government dollars further.
    There are two things that I would say in closing that I 
won't try to talk about in great detail, but which I will just 
lay on the table. First is you, sir, have mentioned the safety 
focus that we have and the security focus that we have after 9/
11. It has changed the world, really, for transportation, and 
in looking at all of our programs, not just in urban areas, but 
around the country, we find in rural communities very important 
installations relative to national security that are somewhat 
remote and yet have specific needs. Whether it's a nuclear 
power plant, a military facility, a research center, there are 
specific needs that we will need to look through and understand 
better as we plan our security.
    Obviously with the Congress' direction, we've undertaken a 
massive deployment on the aviation side to bring a Federal 
workforce and transportation security. I'm happy to report that 
today in Burlington we're bringing our Federal workforce team 
to Burlington and beginning the deployment of Federal workers 
there, but as we go forward in this organization, it will have 
to be adjusted and addressed in our bill.
    And that leads me to my concluding point, which was your 
beginning point and also our touchstone in life, which is 
safety.
    We know that there are significant safety problems and 
needs that we must address in the world community as well as 
across the country. The 41,000 lives that you mentioned are 
just an unacceptably large toll, and we pledge to work that 
very, very strongly. I would like to ask your help in thinking 
how we can launch one very simple crusade--a moral crusade, 
really--on getting seatbelt use up. If we could raise the 
seatbelt usage rate to 90 percent, which is where it is in 
California and several other States, we could save 9,500 lives 
a year and we could save untold thousands of injuries and 
billions of dollars of cost to the economy.
    So there's a simple, I think moral imperative, for us to 
work closely, and I'm not here today to propose a penalty for 
not doing this, I'm here to propose that we somehow build a 
crusade to do this and persuade people that it is the right 
thing to do and educate them well. So on the safety front, 
we'll have many, many areas to discuss. On the highway safety, 
you will hear us, I think, the Administration under Senator 
Mineta's direction, really trying to focus in the coming year.
    Senator Jeffords. What is the average usage? You say 90 
percent in California. How are the rest of us doing?
    Mr. Jackson. Well, it varies widely. I was in Texas this 
week, and they had moved from 76 percent to 81 percent. Around 
the country we have States as low as in the low 50's and mid 
50's and as high as 90 percent, and the two keys that have made 
it so effective is first, a primary seatbelt law, and second, 
to enforce a partnership in the State. Tools like advertising 
and the like help, but there's that range, really, around the 
States, so you see, in a large State like Texas, there are 
literally thousands of lives that could be saved over a 
relatively short span if they could get that seatbelt usage up.
    So., Mr. Chairman, with your permission, I would ask that 
my formal remarks be included in the record and conclude, with 
my thanks to you for allowing me to be here.
    Senator Jeffords. Well, thank you very much. I was going to 
ask you to join me later, but I'm going to ask you some 
questions first.
    Vermont has an interesting history, and it's an interesting 
history relative to railroads. That's why I have substantial 
interest in railroads, as well. In fact, Billings, Montana, you 
may not realize, was named after a Vermonter who started the 
Great Northern Railroads out there. And we had 44 operating 
railroads in this State at one point, so we love the railroads, 
and I am deeply concerned about Amtrak and the future of 
Amtrak, and can you bring me a status and update on where we 
are there? As all of us know, we've had some scares lately, in 
the inability to have confidence in whether it's going to 
operate.
    Mr. Jackson. Yes, sir, Mr. Chairman, I served on the board 
of Amtrak as the secretary designee--Secretary is appointed by 
the President, and I serve as his designee. Amtrak is a 
troubled institution, but inner-city passenger rail is--and I 
will tell you on the issue about the Acela train, repairs are 
under way now. I spoke yesterday to the president of Amtrak, 
and he was able to report that they're actually making very 
good progress, better than they had anticipated, in repairing 
the suspension problem that had been identified a week ago. And 
they were able yesterday to get 60 percent of the Acela trains 
back in service.
    The FIA, they had bolt cracks in an assembly that prevents 
a yaw going in the train and lateral movement, so they had a 
temporary fix with a stronger plate, and they're going to look 
at that in a going-forward way to engineer a sound solution for 
a longer-term fix, but they are expecting to get back to basic 
service here this week.
    The larger problem, of course, is that Amtrak is a troubled 
institution. It has a significant financial set of problems 
that it faces. It's not just about throwing more money at 
Amtrak, I think, although this Administration will support more 
funds for any inner-city passenger rail. We've tried to lay out 
a vision of how competition and reform and financial discipline 
can be brought to Amtrak, and we think that in a 
reauthorization, that we'll have a good chance to talk with 
Congress in a very realistic way on how that can transform.
    It won't be an overnight thing. They can't just transform 
it. We believe the States should have financial contribution to 
that future, but we know that the States cannot just be asked 
overnight to shift from no--a little funding to greater 
funding. We have to have a pathway over the entire period of 
the authorization to get us from a broken system to get us to a 
well sustained system by the end of the authorization.
    Senator Jeffords. There seems to be, in your statement and 
in the policy, the expectation that somehow Amtrak could make 
money and live on its own. There's no country that has a 
railroad transportation system that is not supported by outside 
funds, and it seems to me, if we go forward on the presumption 
that somehow we're going to get it to break even or make money, 
that it just isn't going to work, and I think I want to work 
with the Administration to find out the ultimate solution where 
we have safe railroad transportation with the means to do it 
that won't require the expectation that is really not doable.
    Mr. Jackson. I think that you have pointed to a very 
important point. The last reauthorization set Amtrak on a 
course and said by the end of the 5-year authorization, 
December of this coming year, of this year, that they must be 
operationally self-sufficient, and it was a faulty program. 
It's easy, in retrospect, to understand that. It was perhaps 
hard to understand that at the beginning. They just were never 
going to get there. And they were leasing equipment, selling 
assets, doing short-term financial deals to take their assets 
and turn them into operating capital.
    We recognize that there needs to be infrastructure 
investment and capital investment, but we do believe that a 
reformed Amtrak, with competition and with some strong 
financial control, run like a--with the best financial 
discipline of a well-oiled corporation, can bring greater 
discipline and cost-effectiveness into it.
    So I think that it will be a spirited debate on how to get 
that done, but I don't say that we shouldn't invest, and the 
Administration is not holding that position, but it does say 
that we have to restructure so that our investment is well 
used, and we need our partners in the States to help us 
prioritize this.
    Senator Jeffords. Well, are you looking for the States to 
do the subsidization, if it's necessary, rather than the 
Federal Government? Is that your point?
    Mr. Jackson. Well, I think that one of the things that 
we've looked at in Amtrak is to look at the Federal Transit 
Administration Program as a rough guide. The Federal Government 
puts very significant capital investment in infrastructure, and 
States provide operating subsidies, and so the Federal 
Government has invested many, many billions of dollars in 
keeping Amtrak going, but we still have a large capital backlog 
in the Amtrak system, so we recognize that investment in 
capital is an appropriate role. We want to figure out with the 
States what we can afford and how to do it. By having a stake 
in this game, the States right now just take whatever we give 
them, and it's hard politically to bring discipline to the 
right decisions, and we're trying to get the States to be 
partners in this, just like they are in the FDA process, where 
they have to put some money up front, they have to prioritize 
this as an expenditure that is meaningful to the State, and 
then the Federal Government is a partner in that.
    Senator Jeffords. Well, thank you very much. Now, as you 
know, I sponsored the Highway Restoration Act to address the 
RABA problem for fiscal year 2003. In my view, we cannot saddle 
the States with the dramatic Federal funding cuts when States 
are under such financial stress themselves. My bill enjoys 74 
cosponsors. Can I expect the Administration to support an 
increase in the highway program above the President's initial 
recommendation?
    Mr. Jackson. Yes, we have been working to try to find a 
really structured mechanism, and in principle we have indicated 
that we support funds above the level of the President's 
initial mark, which was $4.4 billion off, as you know, the 
target. So we're prepared to do that. We'd like to make sure 
that it's an effectively structured mechanism, and we would 
certainly work with you in that.
    Senator Jeffords. Well, that's good news. I appreciate 
hearing that. Vermont has a very active and extensive border 
with Canada.
    Mr. Jackson. Yes, sir.
    Senator Jeffords. Thus, how will the Department balance 
efficiencies that we need for cross-border transportation, 
where our national interest is enhanced security? Can we 
combine the two objectives?
    Mr. Jackson. I think we can. It's one, to do a better job 
of integrating safety and customer service. We do a tremendous 
amount of trade across your border with Canada, and it's 
absolutely indispensable to the national economy, not just 
Vermont's economy, as you know, to make that work effectively. 
So I believe that we can balance world-class security and 
world-class customer service. We can use technology to make 
trucks and trains move more effectively across our land 
borders, we can bring tools to make our airports, where cargo 
and passengers move through on international arrivals, operate 
more effectively. As you know, I'm working with the 
Transportation Security Administration with these twin goals, 
as well.
    We can do better and we should do better, and I think one 
of the things the President is focused on, in listening to him 
talk about this proposal, was trying to have one person doing 
multiple tasks rather than a serial set of different agency 
people dealing with the truckers trying to pass across a 
border. So there is that efficiency focus very much imbedded in 
the President's----
    Senator Jeffords. Yes, because we get some terrible messes 
in our border here in New York and on our side. So that's a 
critical problem. Thank you, Mr. Secretary. Are there any 
matters that you would wish to address and to make us aware of 
at this time?
    Mr. Jackson. I think not. I'm just grateful to have a 
chance to get in and listen to the testimony, and so I just--
but thanks for letting me be here, and Emil may want to join me 
in this process.
    Mr. Frankel. I appreciate being here. It's nice to be back 
in New England on an official basis, and Vermont, I might say, 
is showing the way, particularly in terms of inner-city 
passenger rail in terms of what this State is willing to do, 
and I think is a model for the sort of thing the secretary has 
in mind when he was trying to articulate a vision for what the 
future of inner-city rail should be.
    Senator Jeffords. Thank you, and Mr. Secretary if you would 
join me, I'd appreciate it.
    Now, if I could have my good Vermonters come forward and 
take their seats, I'd appreciate it.
    Secretary Brian Searles, if you would lead off for us, 
please.

 STATEMENT OF HON. BRIAN SEARLES, SECRETARY, VERMONT AGENCY OF 
              TRANSPORTATION, MONTPELIER, VERMONT

    Mr. Searles. I'd be happy to, Mr. Chairman. Good morning. 
For the record, my name's Brian Searles; I'm secretary of the 
Agency of Transportation here in Vermont. I will begin by 
thanking you for holding this hearing in Vermont. We very much 
appreciate the opportunity to talk about challenges and 
opportunities unique to rural transportation. Let me also 
extend a welcome to Secretary Jackson and Emil Frankel, very 
glad that you're here to listen to issues of rural States. I'd 
like to personally thank also you, Senator Jeffords and Senator 
Smith, for being here with us for your efforts in restoring 
funding related to the RABA issue this year.
    Also like to welcome Mr. Ray Burton, on my left, a member 
of the Governor's Executive Council of New Hampshire, who will 
testify on behalf of that State. Welcome, Ray.
    Mr. John Horsley, the Executive Director of the American 
Association of State Highway and Transportation Officials, was 
unable to attend today's hearing and asked me to make a few 
brief comments on behalf of AASHTO and its member States across 
the country.
    Were he able to be here today, Mr. Horsley would say that 
rural two-lane safety is a concern for AASHTO members. The 
General Accounting Office recently reported that although 40 
percent of all vehicle miles are traveled on rural roads, 60 
percent of traffic fatalities in 1999 occurred on rural roads. 
Funding should be increased to improve safety of rural roads, 
both State and local. AASHTO urges that the highway program be 
increased over 6 years to $41 billion annually. From this, an 
additional $1 billion annually should be dedicated to safety.
    On the issue of rural transit, AASHTO's Bottom Line Report 
documents the need to double the current investment in rural 
transit, especially to meet the needs of the growing number of 
elderly residents who can no longer drive, but still need 
access to health care and other services.
    On the transportation enhancement program, AASHTO supports 
the continued dedication of 10 percent set-aside of STP funds 
to support transportation enhancements, which so far have 
benefited over 14,000 communities nationwide. We urge further 
simplification of the program to make it easier for local 
governments to apply and advance payment rather than cost 
reimbursement as the basis for conveying funds to local 
governments.
    In terms of the diverse needs of the States, the needs of 
Vermont are important and special to us, but perhaps different 
than those in New Hampshire and other States. AASHTO believes 
that the national program should be crafted in a way that 
respects the diversity of various States and allow them to 
define proposes that best suit their needs.
    And last, AASHTO believes we must grow program. To meet the 
nation's safety and capacity needs for highway and transit will 
require significant increase in resources. We urge the Senate 
to take a close look at the financing proposal AASHTO has made, 
which outlines a way of making it possible to fund a highway 
program which increases from 34 billion to 41 billion from 
fiscal year 2004 through 2009, and a transit program which 
increases from seven and a half billion to ten billion in that 
same period.
    That concludes the remarks on behalf of Mr. Horsley. I'd 
refer to my own testimony now.
    By many he shall measures, Vermont is the most rural State 
in the Nation, a collection of 251 cities, towns and 
unorganized gores that dot the hillsides and valleys of this 
mountainous State. We occupy an area larger than New Jersey 
with a population that is smaller than many mid-sized cities, 
about 608,000.
    We have 15,262 miles of public roads, 57 percent of which 
are unpaved. And I mention these facts, because transportation 
management in rural States is different than in urban areas, 
and while we have a strong interest in all modes of 
transportation, our topography and population distribution 
often limit our opportunities.
    Vermont and other rural areas across the northeast are 
heavily dependent on travel and tourism, and because Vermont is 
located within a few hours' drive of 50 million people, the 
region's highway system is an important conduit for what 
amounts to about 25 percent of the State's overall economy.
    During the past few years, new information has emerged from 
several studies describing travel patterns and freight-flows to 
and from rural New England. These studies, and I will provide 
copies of them, Mr. Chairman----
    Senator Jeffords. They'll be made part of the record, thank 
you.
    Mr. Searles [continuing]. Show heavy flows of traffic 
between rural areas and adjacent metro areas and have provided 
us with a new understanding of the interdependence of rural and 
metropolitan areas in the northeast.
    We know that rural travelers are much more dependent on 
highways than other modes of transportation, and as a result, 
transportation management is different. Where urban 
transportation issues generally relate to congestion 
management, short trips to work, shopping or amenities, in 
rural areas the percentage of long distance trips is higher, 
congestion is spotty, and providing accurate and timely 
traveler information is often more important than congestion 
management.
    While it is true that we are a very rural State and much of 
our travel is by single-occupancy vehicle, we also have 
continuing needs for effective public transit. Admittedly, our 
public transit delivery systems look very different than those 
in more urban areas. We do have traditional fixed-route bus 
systems in our urban areas and even a commuter rail system in 
Chittenden County. However, our much of our public transit 
service is provided by less traditional means, such as deviated 
routes and demand-responsive operations. Indeed, a significant 
need for rural mobility is served in Vermont by a network of 
volunteer drivers providing these essential services to members 
of the community. The need for these services will likely 
explode in all areas as the baby boom generation ages. In my 
judgment, attention needs to be focused on the administrative 
operations surrounding the delivery of these programs, as well.
    Safety considerations are different in rural areas than 
urban areas. You've heard this referenced in earlier testimony, 
and as Mr. Horsley noted, 60 percent of all fatal crashes occur 
in rural areas, where it is much more difficult to get crash 
victims emergency care within the golden hour due to sparse 
communication infrastructure and more dispersed emergency 
responders. A new source of funding is needed across the board 
to help address safety issues on rural roads. Weather sometimes 
has an increased significance in rural areas, because severe 
weather can close down rural routes or cause significant 
delays. Rural agencies must keep many miles of transportation 
infrastructure functioning with comparatively thin-spread 
resources.
    Here in Vermont, the environment is an important aspect of 
the quality of our life. We must continue to work together--the 
States, the USDOT, and the Congress--to improve the stewardship 
of our environment. We must also look at ways to continue to 
speed up project work. I believe the environmental process can 
be made better with better results for our environment and for 
project schedules.
    I mention these points because of the fact that the 
majority of land area in Vermont and in the northeast is rural. 
72 percent of the land area in the northeast has no 
metropolitan population areas of more than 250,000 people. Yet 
28 percent of the population in the northeast lives in rural 
areas.
    As I said, Vermont is a small State with limited resources. 
The State owns and operates 10 small regional airports, and 
owns about half of the 740 miles of railroad that crisscrosses 
the State. We believe rail will play an increasing role in or 
transportation future, both in the movement of passengers and 
freight.
    If we are to grow our rail program, we must deal with the 
problem of rail highway crossings. Grade separation is key in 
order to achieve higher-speed rail and safety. However, grade 
separation is costly, and here in Vermont, beyond our reach 
without Federal assistance.
    Our ability to raise revenues for transportation projects 
is limited by our population and commercial base, and 
consequently we rely heavily on Federal funding sources.
    Our total transportation budget for fiscal year 2003 is 
$332.2 million, of which is $156.3 million is Federal dollars. 
Consequently, flexibility is important to us, because it allows 
us to move funds to match our transportation needs.
    Our mission is to maintain a transportation system that 
allows for the safe movement of people and goods in a cost-
efficient, environmentally sensitive, and timely manner. Our 
ability to fulfill that mission is being impacted by several 
large projects. These large projects are necessary, but they 
are draining our resources, and in the process, forcing us to 
delay projects that are essential to that mission. The result 
is that we have $109 million worth of projects that are 
permitted, ready for construction, but sitting on the shelf, 
because we have not been able to identify a source of funds. 
Now, while $109 million may not seem like a lot of money at the 
national level, remember that our total transportation budget 
is just over $330 million, and I might add that in Vermont, the 
definition of ``large'' or ``mega'' is not the Big Dig and it's 
not the Woodrow Wilson Bridge. We're talking about $42 million 
for our largest bridge project between Alburg and Swanton, over 
the Missisquoi Bay, $100 million for the Bennington bypass, and 
$80 million for the next two phases of the Chittenden County 
Circumferential Highway.
    Moving to our interstate system, parts of our interstate 
system are 40 years old and need repair. A recent needs 
assessment of Vermont's 320 miles of Eisenhower Interstate 
System showed that an investment of $74 million was needed just 
to bring the system up to Federal standards. Simply put, we 
cannot afford that kind of investment and meet our other 
commitments/needs on our national highway systems and State 
highway systems.
    And Vermont is not alone. Other States have similar 
interstate problems and needs. In my judgment, the time has 
come for the Congress to make another significant investment to 
repair and upgrade the interstate system, similar to the 
investment that was made in the 1950's, 1960's, and 1970's, to 
build those interstates.
    As Congress works toward reauthorization of TEA-21, I hope 
you maintain the course set by ISTEA and sustained in TEA-21 by 
continuing to recognize that all States are different, that it 
is the diversity of the States viewed as a whole that makes our 
country great.
    I urge you to retain the existing structure of TEA-21. 
Although improvements can be made, the fundamental structure is 
sound and should be preserved. Flexibility is important to us. 
As I said, Vermont's smallness provides us with some unique 
opportunities to do things that larger States might not be able 
to accomplish. Funding is still the key, and I would urge you 
to authorize the maximum level of Federal investment possible. 
Funding mechanisms should be continued to achieve congressional 
intent that all available funds be invested in transportation 
improvements.
    Just as ISTEA and TEA-21 have made significant strides in 
growing this program, the next surface transportation bill must 
provide new sources of revenue, so that we can jointly meet the 
challenges facing the State and the Nation. Thank you again for 
the opportunity to address you.
    Senator Jeffords. Well, thank you for very, very helpful 
testimony. I now turn to Mr. Burton from New Hampshire. I just 
want to thank you for coming, and we have a great advantage in 
this situation right now, with Bob Smith being the ranking 
member and myself, so we look forward to working together, as 
we always do, in New Hampshire, and I'd appreciate hearing your 
views on the situation with respect to our sister State and how 
we can work together.

STATEMENT OF RAYMOND S. BURTON, EXECUTIVE COUNCILOR, WOODVILLE, 
                         NEW HAMPSHIRE

    Mr. Burton. Thank you, Senator Jeffords, and pleasure to 
appear here this morning on behalf of my elected office in the 
State of New Hampshire. I represent the State of New Hampshire. 
And at the end of this term I will have been there 24 years, 
and hopefully a few more terms down the road, representing a 
whole wide variety of interests and concerns, and most of them 
are hitched to transportation.
    The interstate literally opened up, if you will, northern 
New Hampshire and northern Vermont and New England, and has 
brought growth to places like Littleton, along with Plymouth, 
and again, our I-93 corridor. The Executive Council is five in 
number. The council has been developing what we call the 10-
year highway plan, and I brought along a copy which I'd like to 
submit for the record.
    Senator Jeffords. It will be made a part of the record.
    Mr. Burton. If you would be so kind, Senator. The Executive 
Council is very much like a Board of Directors. Governors come 
and go, but some of us stick around for a while. The 
Commissioner of Transportation, Carol Murray, also is aware of 
my appearance here today, although I'm speaking for myself. She 
obviously wanted to be noted, and appreciates the fine 
cooperation that she's had over the years with the State of 
Vermont, particularly Brian and the Secretary of Transportation 
in the State of Maine. Megan Stanley and Jeff Rogues are here 
from Senator Smith's office.
    Senator Jeffords. Please stand and be acknowledged.
    Mr. Burton. Yes, I wish they would. They've helped me a 
lot, and both of them have worked very closely with Carol 
Murray and her staff in making sure that we address those needs 
in air, rail, highway and public transportation. Second point 
I'd make is that I would hope that the U.S. Congress would make 
sure that we keep the level of funding at the full level of 
$31.8 billion. Our 10-year highway program cannot move forward 
unless that Federal--Senator Jeffords. If you got more, would 
that be all right? Mr. Burton. We always enjoy more. Speaking 
as an elected official, and an elected Republican official, 
I've never been embarrassed to put the Federal money at the 
local level for the people that some of us represent out there, 
and flexibility--got to have some wiggle room for this Federal 
money as it comes along--and would register that point.
    We've got another situation developing, and that is keeping 
too many historic bridges. On Route 302, between Woodville and 
Shelburne, New Hampshire, which is of course right across the 
top, we've got about five bridges. Two of them don't go 
anywhere anymore. They're not even on the snowmobile or ATV 
trail or even a foot path. Somehow or another, I would like to 
urge you and your committee to allow each State, after a 
hearing process, to determine which ones they want to keep for 
historic preservation, tourist attractions, future engineers to 
come look at and study. We're required to still keep them, keep 
them in repair.
    Recently Carol Murray, Commissioner of Transportation, had 
to spend about $30,000 on an abutment of a bridge in the town 
of Landaff on Route 302. The bridge does nothing. It just sits 
there. I would hope that that would be a part of your 
consideration, that you work with Senator Smith and others on 
your committee.
    Demonstration projects have been extremely valuable, 
particularly to the rural areas. Sometimes for all kinds of 
reasons, those projects that are wanted by the local officials 
just never get into the State budget or the 10-year practice 
plan for all kinds of reasons, and I would hope that you and 
your committee members would never be embarrassed to, if the 
people want something back home, put it in as a demonstration 
project. Those are needed. Over the years, it's been my 
pleasure to work with Senator Rob Ide, where I work part-time 
at Springfield College, and working on river projects up and 
down the Connecticut River.
    The final point I'd make is in support of the Northeast 
Border Corridor Comprehensive Study, and Secretary Mineta was 
sent a letter signed by Olympia Snowe, Hillary Clinton, and Mr. 
Schumer from New York, and Senator Bob Smith wrote last year in 
support of this same Northeast Corridor Study with our 
neighbors to the North, Canadian Provinces, and we encourage 
that study to move forward, particularly as we look at Route 2 
and also Route 26.
    That concludes my testimony, Mr. Senator, and would thank 
you again for the courtesy of being here to represent my State 
of New Hampshire, and as an American I'm very proud to do that.
    Senator Jeffords. Well, thank you very much for very 
helpful testimony. I now turn to my good friends who I've 
worked with over the years and who I deeply respect for the 
contribution they've made to this state and this area, and I 
start first with Representative Richard Pembroke.

  STATEMENT OF HON. RICHARD PEMBROKE, CHAIRMAN, VERMONT HOUSE 
        COMMITTEE ON TRANSPORTATION, BENNINGTON, VERMONT

    Mr. Pembroke. Thank you, Senator, for the opportunity to 
testify before your committee today, and especially you, 
Secretary Jackson, for traveling to Vermont to hear about the 
challenges that we face. My name is Dick Pembroke, and I am the 
Corporate Founder of Pembroke Landscaping Company in 
Bennington, Vermont.
    For the past 16 years, I have also represented Bennington 
in the Vermont legislature from a district that comprises a 
constituency of two incorporated villages within the town of 
Bennington who have the same infrastructure needs. I have been 
a member of the House Transportation Committee through that 
time, serving as chairman since 1993, and at the request the 
leadership from both sides of the aisle.
    The toughest part of my job as chairman is distributing 
dollars among the many competing transportation needs in 
Vermont. Looking back, I think that we have been able to do 
that in a fair and a productive way, and we have used the 
planning provisions of the Federal law to get the job done. The 
direction of the law to emphasize planning from the bottom up 
has definitely been the right decision.
    Of course, there has never been enough money. Recognizing 
this, we set out early in my tenure to eliminate low-priority 
projects. This was a painful process. Every project has a 
champion. But we were able to these choices by working through 
Vermont's network of regional planning commissions and advisory 
committees. They were the key then, and they continue to be 
central to our efforts today.
    Even with this pruning of low-priority projects, our needs 
still far exceed our available funding. As a result of the 
success of the project manager system which we directed the 
agency to institute, and taking advantage of the advanced 
construction provisions of the Federal law, I leave my 
chairmanship with enough shelf projects to consume a year's 
worth of Vermont Federal appropriation.
    Each year we must decide on the allocation of 
transportation dollars, both Federal and State, among the 
various modes, and between maintenance operations, system 
preservation and expansion. I have used the agency's long-range 
transportation plan to guide this effort.
    In my part of the State, the Bennington area in 
southwestern Vermont, we have nearly completed the first phase 
of what will become the Bennington bypass, rerouting two 
national highway system roads out of our city center, improving 
traffic flow, and relieving unbearable congestion from the 
downtown.
    After many years of planning and design, we have also begun 
critical safety improvements on the main east-west highway 
through southern Vermont. This project will save lives and 
improve commerce. We have improved a key segment of rail line, 
linking the area to the highly active rail corridor serving 
Albany, New York, and the nation's rail network. We are now 
working with Amtrak and our New York neighbors to secure 
service to the Bennington and the Manchester area. Our long-
term goal is to improve both the freight and the passenger rail 
up and down the western side of the State.
    We have also used the generous provisions of the Federal 
highway bills to expand public transportation. In my tenure, we 
have established a seamless interconnecting route that goes 
from the Massachusetts line in Pownal to Rutland and points 
north. Several other routes statewide have been established or 
are about to be.
    I would encourage you, as you prepare to put together the 
reauthorization bill, that you garner every possible dollar 
that is entitled to transportation in order that Vermont and 
its fellow States have the opportunity to attempt to bring our 
infrastructure up to par.
    I do not have to tell you that our interstate system, as 
well as nationwide, is forty-plus years old and needs major 
attention. I ask you to refrain from ancillary programs and 
concentrate on making it affordable and less restrictive as 
possible. Our local communities are in the same predicament and 
look for State help. More Federal authorization would 
accommodate our ability to offer them some assistance.
    Ultimately, our goal in the legislature, and the agency's 
goal, is to get things done for Vermont, delivering projects 
that respect neighboring property owners, businesses, local 
communities and the environment. This has been a challenge. 
We've had success by bringing all of the players together and 
focusing on what's good for Vermont.
    A few weeks ago, I announced my intent to retire from the 
Vermont legislature. I do so with a sense of accomplishment and 
in the knowledge that many important transportation 
improvements are under way. And I thank you, Senator Jeffords, 
for those kind words you entered into the congressional record 
on my behalf at the announcement.
    New commuter air routes have been established not only at 
the Burlington International, but Rutland, as well, the State's 
second largest city, and major improvements in various other 
State airports that contribute to much-needed economic 
development.
    My work on transportation has been among the most 
satisfying experiences I have ever had. Without the Federal 
partnership, we could not have made the progress that I have 
described.
    I'm going to now, with your permission, Mr. Chairman, 
deviate from my prepared remarks to delve on a subject that I 
was elbow-to-elbow with Mr. Frankel in Buffalo, New York, a 
couple of weekends ago, and along with the Honorable Jack 
Quinn, who chairs the Subcommittee on Railroads in the house, 
and I was afforded testimony by a Dr. Anthony Pearl, visiting 
from CUNY Institute for Urban Systems in New York. I'd like at 
this time to just quote from his testimony. It's an item that 
is dear to my heart, rail.
    A few States due to vote some plannings and efforts to 
inner-city passenger trains, but they get almost no credit for 
this in the funding formulas that drive Washington's 
transportation spending. No wonder that Amtrak is regarded as a 
charity case by many of the policy. Changing the funding 
arrangement for rail was long overdue.
    He further goes on to say that back in 1970, America's 
freight railroads were provided with the option of acquiring 
stock in Amtrak in return for their startup contribution to the 
fledgling passenger operator. Four railroads actually did 
obtain stock and three took up seats on Amtrak's Board of 
Directors during its early years. The seeds of an innovative 
joint venture, public/private partnership in today's parlance, 
were thus sown in Amtrak's creation, but this potential for a 
new relationship was never realized. It was frustrated, at 
least in part, because Amtrak turned out to have little to 
offer these shareholders, or indeed any other partners 
interested in making money.
    The conference that Mr. Frankel and I were at in Buffalo 
was the New England Conference of State Legislators, and I was 
on a panel with him, and I was encouraged to hear from his 
remarks that we need to consider our friends in the freight 
business on the rail.
    So I believe all of the above might be the missing link. 
Mr. Senator, I am glad that you have been able to hear from 
Vermonters today about the challenges we face, and I do not 
envy your challenge as you fight for scarce dollars. In 
closing, I would emphasize that if you feel I can be of 
assistance at any time, do not hesitate to call me. 
Paraphrasing General MacArthur's comments, ``Old soldiers never 
die, they just fade away''--I do not intend to die, and I 
surely am not going to fade away. Thank you again for giving me 
this opportunity.
    Senator Jeffords. I have no fear. I am sure of that, and 
the time that we have spent together, both of you--perhaps 
Representative Mazza, as well--I know that you will continue to 
let us know, and we shall pay careful attention to them, 
because you've been right every time. Well, as far as I know. 
As far as I know.

   STATEMENT OF HON. RICHARD MAZZA, CHAIRMAN, VERMONT SENATE 
        COMMITTEE ON TRANSPORTATION, COLCHESTER, VERMONT

    Mr. Mazza. Thank you, Senator Jeffords, for inviting me to 
testify here today. And welcome to Vermont, Secretary Jackson. 
You have given us a wonderful opportunity to describe the 
challenge of providing transportation in a rural State.
    My name is Dick Mazza. I own and operate Mazza's General 
Store, a market that has been in business in Colchester, 
Vermont, for 48 years. Since 1984, I have also represented 
Chittenden and Grand Isle County in the Vermont State Senate. I 
have been a member of the Senate Transportation Committee 
throughout that time, serving as chairman for the last 12 
years.
    As you know, Senator Jeffords, the State of Vermont has 
entered a difficult financial period. We are facing a budget 
deficit of some $39 million. This is a significant amount for a 
State of our size. And I know that other States, and the Nation 
as a whole, are experiencing similar problems.
    I raise this because it places our transportation issues in 
an important context. Vermont's revenues are directly tied to 
the strength of its economy. And our economy--our businesses, 
my business--is directly reliant on our transportation system. 
But when times are tough, and when human needs are greatest, it 
is tempting to cut back on transportation spending.
    This year in the legislature, we reduced our paving program 
by half from last year's. Just this week, a joint legislative 
fiscal committee considered additional transportation cuts. 
Interstate rest areas, public transportation routes and town 
highway grants are all on the chopping block.
    We all know that transportation investments create jobs. We 
can see the paving crews on our highways and the driver on the 
bus. But beyond these direct benefits, improved transportation 
moves the people and goods that power our economy. The State's 
leading private employer is IBM. Access to their facility in 
Chittenden County today leaves much to be desired. We have both 
highway and rail improvements programmed to improve the 
situation, but at great cost. Yet, this investment in our 
economic future is vital to our State.
    Our economy relies heavily on interstate trade and travel. 
Interstate 89 and 91 are the lifeline for much of the State. We 
face enormous reconstruction and repair costs on our 
interstate. Vermont's northern border with Canada has felt the 
effects of NAFTA and its attendant growth in freight movement. 
International freight also moves through Vermont from 
neighboring New York. Replacement of the Missisquoi Bridge, at 
a staggering cost by Vermont standards, is essential to support 
our international trade.
    Perhaps the most difficult investment challenge in these 
tight times is a renewal of Vermont's railroads. I like to 
think of the nation's great achievement, the Interstate Highway 
System, as our model for rail development. We built the 
Interstate in segments, but with a fully developed system as 
our ultimate goal. In Vermont, we have taken a similar approach 
with rail. And Senator Jeffords, you have been very helpful in 
our rail programs throughout the State.
    But we need a Federal partner in this major undertaking. We 
need to see continued support for a national passenger rail 
network. Vermont will do its part, and we need the freedom to 
use our Federal transportation dollars to revitalize rail.
    To Secretary Jackson, and through you to Secretary Norman 
Mineta, I appreciate your efforts to manage our nation's 
transportation program in the face of the financial and 
security problems that confront us all.
    And finally, Senator Jeffords, let me thank you again for 
your years of service to our State. It gives me great 
confidence to know that you are at the helm in Washington.
    Senator Jeffords. Well, thank you all. I appreciate those 
remarks. I'd like to give a little history of Vermont and New 
Hampshire. We're working together very well right now, but 
there was a period in time in ancient history where we wanted 
very much to give away part of our State to the State of New 
Hampshire, and we went to the United States Supreme Court to do 
that. And you might wonder why. Well, the question was, who's 
going to pay for the bridges? And by successfully giving away 
the river down to the low water mark--the other way around--but 
successfully giving away up to the high water mark, the State 
didn't have to build the bridges, and so from that point on, 
we've had somewhat of an unusual situation, but New Hampshire 
has accepted it over the years. I just wanted to publicly thank 
you for not raising the issue again.
    All right, let us proceed with some questions, then. The 
theme of our hearing on authorization this year have been 
lessons learned from 10 years of ISTEA and the TEA-21 program. 
This panel has extensive experience. I wonder what lessons you 
think should guide us to in reviewing the program.
    Mr. Searles. I'd be happy to offer one, Mr. Chairman, and 
that's the lesson that comes from the emphasis on local 
planning. Chairman Pembroke mentioned it. It is, in fact, the 
success we've had in Vermont in planning projects that has 
really done the most, I think, to get us where we are now, 
which is so many millions of dollars worth of projects on the 
shelf. So really one has led--one issue has led to what I 
hesitate to call a problem--it's really a success--of the local 
planning effort that we have so many very popular projects 
ready to go and the need for resources.
    Senator Jeffords. Ray?
    Mr. Burton. All comes down to money. You know, in the 
executive branch, we've got to see how much does it cost, who 
does the voting, and can you get the votes? We on the executive 
branch in New Hampshire State government, we carry out the 
wishes of the lawmaking branch, the House and the Senate, and 
I'd say flexibility and more money.
    Senator Jeffords. Dick?
    Mr. Pembroke. I would echo that, Senator. I know it's 
nationwide, the increase on mobilization on the highways is 
just--I mean you see it every time you hit the road yourself, 
and the traffic is just getting unbelievable, so it's you've 
got to be able to maintain what we've got and we don't have the 
resources now to do that, even. And so this is--it all boils 
down to money. And I know it's an easy way out, but we have--in 
Vermont, we have the infrastructure, we have the strategy 
within the agency to get the projects out and get them done, 
but like Senator Mazza referred to with the budget-cutting that 
we're going through now, I get letters from these communities 
that have received letters from the agency saying we've had to 
postpone your project. Projects that have been on the drawing 
board for several, several years, and ones that the legislature 
has worked hard to get there.
    A good example, Senator, is Route 2/302 out here. We just 
got notification that that one has been put back on hold again, 
and we really struggled hard, when we were deciding our pruning 
process, to keep that alive, because you know the traffic that 
that highway consumes out there, so it sounds like an easy 
solution, but all we need to do is to find the money, but the 
money isn't flowing.
    Senator Jeffords. Dick?
    Mr. Mazza. Just a couple of quick things. One is the 
secretary mentioned something about our interstate system, and 
I think we need that shot of cash up front, because they're 
getting old and tired, and I think we need to put some major 
investment that we're trying to do now, but we had some extra 
finances for that, and the other thing I think is flexibility. 

    I think we know best where we can spend our money wisely, 
and it's also helpful. We've made a lot of progress on that 
issue, but I think there's a ways to go. Any time that we can 
redirect our funds, I think we can do it in a wise manner. So 
those are the two issues I would speak of. Thank you.
    Senator Jeffords. Brian, you have a tough job, there's no 
question about that. Are there aspects of the program where 
greater flexibility would help you get more done for Vermont? 
Can you delineate some of those for us?
    Mr. Searles. Well, there certainly are; particularly the 
flexibility of forged partnerships. And I would point to our 
programmatic agreement on historic preservation as an example 
of the sorts of things that ISTEA and TEA-21 have allowed us to 
do, and I know that you will hear phrases like environmental 
streamlining and environmental stewardship, and stewardship is 
the word that I prefer, and I think that if the--if the next 
reauthorization bill can emphasize the opportunity and perhaps 
provide, on both Federal and State level, an opportunity to 
partner around the environmental issues, we can, in fact, have 
a better result for the environment. And the second piece of 
the environmental equation is transit. We are going to need 
more emphasis on public transportation if we're going to 
protect the environment.
    Senator Jeffords. Dick, I wanted--yes, go ahead, please.
    Mr. Pembroke. I'd like to ask Mike Jackson, Mike, how much 
would one cent in the Federal gas tax, an increase in one cent 
Federal gas tax, yield to satisfy some of these needs? In New 
Hampshire, if we--and I have always advocated user fees, if we 
would raise one cent on the gas tax in New Hampshire, brings 
about five to six million dollars every month. Is there 
anything on a national basis?
    Mr. Jackson. If I give it to you, it's going to be wrong. 
I'll send it to you.
    Mr. Pembroke. It would be in the billions.
    Mr. Jackson. It's a large number, yes, sir.
    Mr. Pembroke. Well, I'd like to be on the record as 
suggesting, Senator Jeffords, that the committee think about 
it.
    Senator Jeffords. Don't worry, we will. And I know you and 
Bob will make sure we do, anyway. But no, and I enjoy working 
with New Hampshire. That's one of the benefits we have in the 
present situation is being able to work together.
    Well, I want to thank all of you for your help and 
testimony. I think I may have a--if I have any other questions, 
I should--I think that pretty much does it. I just want to 
thank you again. I can't tell you how important an issue it's--
--
    Mr. Pembroke. I'm not going anywhere.
    Senator Jeffords. It's been a wonderful time, and I know 
you'll be there anyway, whether or not you're there in the 
present capacity and it's been an opportunity to--and also for 
you, Senator Mazza--we've got some things to do, and I can 
assure you we're going to be working very closely with you.
    Well, thank you very much. I want to thank our next panel, 
and I'll introduce each of them. Dr. Thomas Adler, Northeast 
Transportation Institute and Museum; Deborah Ricker, Associated 
General Contractors of Vermont; and Paul Bruhn, Preservation 
Trust of Vermont. Good to see you here. I missed you in 
Shrewsbury I think, whenever it was, yesterday.
    Mr. Bruhn. Were you there Sunday for the event?
    Senator Jeffords. I had to miss it. My wife was there, 
though. And Matthew Sternberg, Executive Director of the 
Rutland Redevelopment Authority. Nice to have you all here. And 
we will start with Dr. Adler.

 STATEMENT OF THOMAS ADLER, NORTHEAST TRANSPORTATION INSTITUTE 
           AND MUSEUM, WHITE RIVER JUNCTION, VERMONT

    Mr. Adler. Thank you very much. Good morning, and thank you 
for the opportunity to testify about rural transportation 
issues. My name is Thomas Adler. I've lived in Norwich, 
Vermont, for 25 years, and am currently President of Resource 
Systems Group, a transportation and environmental consulting 
firm with a national practice headquartered in White River 
Junction, Vermont. For 10 years I was a professor at Dartmouth 
College, director of its graduate program in transportation and 
its research program, which included projects addressing the 
transportation needs of rural areas.
    I am testifying today as a board member of the New England 
Transportation Institute and Museum and as acting director of 
the institute's programs, which include the Rural 
Transportation Learning Center. This morning I would like to 
describe why, from a national perspective, rural transportation 
issues and priorities are, in many important ways, different 
from the transportation issues that face major metropolitan 
areas.
    As a Nation, we simply haven't examined the needs of our 
rural citizens as extensively as we have the needs of the 
citizens of the major metropolitan areas. But we do know some 
basic facts about transportation problems in the rural areas of 
this country. In the 13 northeastern States, we see that our 
rural citizens have significantly lower levels of household 
income than in those in the more urbanized regions. But, at the 
same time, we observe that the rate of auto ownership is 
significantly higher in the rural areas.
    We know also that our rural citizens have to make longer 
trips, and in fact, travel about 30 percent more miles than 
their urban counterparts. This translates into the fact that 
our rural citizens spend a far greater proportion of their 
total income on basic transportation, and it means they have 
less money to spend on other necessities such as housing, food, 
or education. On the other hand, we also know that work-
commuting distances are shorter than the national average among 
residents of the small towns within rural regions, and that 
focusing rural development around those traditional town 
centers reduces dependence on automobile travel.
    And there's so much we don't know. We haven't properly 
examined the problems of limited mobility among important 
segments of the rural population, particularly as experienced 
by older citizens, and those who do not have access to a car. 
As the population ages, this will become an even more pressing 
issue for the rural regions. Just as railroads and automobiles 
have had profound impacts on the shape of rural communities, 
new information and communication technologies will also 
significantly affect the ways in which these communities 
develop in the future. We have already seen new types of 
economic clusters forming in rural New England around 
information-oriented businesses. These businesses in turn have 
new and very different transportation needs. Our region is 
fortunate to have intercity rail, bus and air services that 
connect our rural areas to the major metropolitan areas. But 
planning a trip by a combination of bus, rail and even air 
simply cannot be accomplished at any one location.
    One important strategy to deal with rural mobility is to 
help travelers understand just what combinations of services 
are currently available. Every major nation in Europe has a 
program to help its citizens plan rural trips by modes other 
than the private auto. From a technical point of view, it would 
be easy to apply this technology to our rural areas. In 
general, complementary investments in a multimodal 
transportation network and in technologies to provide 
information to the users of that network will greatly 
facilitate new economic activities as well as tourism and the 
other traditional parts of northern New England's rural 
economy. These are just a few of the issues that affect rural 
areas to a greater degree than metropolitan areas.
    The primary goal of the Rural Transportation Learning 
Center is to heighten the level of policy, technical, and 
cultural learning relating to these and other transportation 
issues and their impact on communities. This center is a 
program for the New England Transportation Institute and 
Museum, which is located in historic downtown White River 
Junction, Vermont. Our focus is both regional and national, as 
we aim to explore our region's past, present, and future as a 
means to inform the national understanding on rural 
transportation and its relationship to the nation's economic, 
social and environmental goals.
    Our organization has grown rapidly into a bi-State project 
that has involved the unusually large population of 
transportation professionals from New Hampshire and Vermont. 
With the interest and commitment of nationally known 
professionals, such as Thomas Horan and Matthew Coogan who 
participated in the preparation of this testimony, it is now 
growing into a national resource. We have attached to our 
written testimony a more detailed description of the Learning 
Center and its research agenda.
    I'll close by thanking you for holding this hearing in 
Vermont and for focusing attention on the Federal Government's 
policy opportunity to address the unique needs of the country's 
rural regions. The coming surface transportation 
reauthorization represents a unique opportunity to ensure that 
transportation policy enhances rural communities, and the 
committee's interest in this topic is most appreciated. We look 
forward to working with you, the others here today, and the 
community of national transportation professionals to ensure 
that transportation issues in rural areas are more fully 
understood and addressed.
    Senator Jeffords. Thank you.
    Deborah?

 STATEMENT OF DEBRA RICKER, ASSOCIATED GENERAL CONTRACTORS OF 
                    VERMONT, BARRE, VERMONT

    Ms. Ricker. My name's Debbie Ricker, and I'd like to start 
by thanking you, Senator, for inviting us to participate. I am 
one of the owners and founders of L & D Safety Marking and 
Worksafe Traffic Control Industries. Our company provides 
pavement markings and highway sign services. We employ 35-45 
people. Our corporate office is located here in Berlin, Vermont 
and we have divisions in Berlin, Vermont; Bow, New Hampshire; 
and Augusta, Maine. We are a small, family owned business, and 
some of us are in our second and third generation, so we have a 
very strong commitment and deep roots in this beautiful State.
    While accounting practices for private corporations may be 
the topic of concern in Congress today, the accounting 
practices for State and local governments will inevitably be 
the focus in the future as governmental accounting standards 
require more accountability in the condition of, and the 
maintenance of, roads, bridges, and other public assets that 
taxpayers have invested billions of dollars in over the years.
    I specifically refer to the Government Accounting Standards 
Board, Rule 34, that defines generally accepted accounting 
principles for State and local governments. GASB 34 requires 
governments to include long-lived infrastructure assets in 
their annual financial statements starting with fiscal year 
2002.
    To properly account for infrastructure assets, governments 
must develop an asset management plan which at a minimum should 
identify the condition of pavements, structures, and 
facilities. That plan should include deterioration rates for 
those assets so that a determination can be made for the annual 
funds necessary to maintain those assets at a recommended level 
of performance. This whole issue of asset management is 
important to getting the optimum level of results from our 
expenditures while maintaining our infrastructure. In short, 
getting the biggest bang for the buck.
    This has been a critical issue in government, more so than 
business, because of the tendency to balance the budget by 
deferring essential maintenance, since State and local 
governments are very infrastructure-intensive. Here in Vermont, 
because we are a small State with limited resources, we have 
relied very heavily on Federal funds to meet our needs. 
However, because we are a State with an aging infrastructure in 
a cold climate, our needs are greater than both existing 
Federal and State resources are available, so asset management 
is really critical to us in getting the dollars applied 
properly to our infrastructure. But more dollars, both State 
and Federal, are needed to keep up with this.
    As for our aging infrastructure, former Governor Madeline 
Kunin initiated Bridge 2000 in 1988 to repair and replace 454 
structurally deficient bridges. We have approximately 2,700 
bridges in Vermont. In 1988 the Vermont Agency of 
Transportation estimated that it would cost 1.6 billion dollars 
over a 10-year period to repair those 454 bridges.
    Today, we have more than 550 structurally deficient bridges 
in Vermont. The cost, including inflation, will more than 
double in that area alone.
    In addition, the Interstate Highway System in Vermont which 
is well over 30 years old is now in need of rebuilding in many 
sections. Bridge replacements need to be constructed and over 
$100 million in culvert repairs necessary on the Interstate 
alone. That's not including the estimated eight to ten thousand 
or more culverts on the State and local systems that will 
eventually need replacement.
    A report authored by the FHWA and VT AOT recently cited the 
need to spend $74 million annually on the interstate in 
Vermont. Vermont is only funding $20 million on those repairs, 
clearly one fourth of what is required. It has gotten so bad on 
the Interstate that one of our AGC member companies doing a 
basic culvert repair recently discovered a seven-cubic-yard 
void directly under the travel pavement of Interstate 89 in 
Williston. This area of the interstate is a heavily traveled 
thoroughfare, and a pavement collapse would have caused serious 
injury and perhaps even death, which brings me to the issue of 
safety on our roadways.
    Tragically, more than 41,000 Americans die and 3.5 million 
are injured in motor vehicle accidents on our highways each 
year. If the average U.S. crash rate remains unchanged, one 
child out of every 84 born today will die violently in a motor 
vehicle crash. As more people travel more miles on the highways 
and as the aging demographics of our driving populations 
change, significant improvements in safe roads are essential to 
continue our progress in reducing highway fatality rates and 
injuries.
    In July of this year, the GAO released a report that showed 
that although 40 percent of all vehicle miles are traveled on 
rural roads, about 60 percent of the accidents occur on those 
rural roads. When adjusted for vehicle miles traveled, the 
fatalities from accidents on rural roads is nearly 2.5 times 
greater than the fatalities from accidents on urban roads.
    Vermont faces a major decision: Invest in repairs and 
rehabilitation of the existing infrastructure on an annual 
basis or replace major parts of the system at a much greater 
cost in years to come. So a properly planned asset management 
program will help set priorities. Adequate funding of Vermont 
infrastructure will do much to improve safety for our traveling 
public and will have a positive effect on Vermont's economy as 
well.
    Senator Jeffords. Thank you very much.

    STATEMENT OF PAUL BRUHN, PRESERVATION TRUST OF VERMONT, 
                      BURLINGTON, VERMONT

    Mr. Bruhn. It's a great privilege and pleasure to be here 
today, especially because Federal and State transportation 
policy has made great progress in terms of its recognition of 
the impact our transportation dollars have on the vitality of 
our communities. This new approach has meant that many new 
voices are included in the decisionmaking process.
    Before discussing some specific thoughts, I'd like to 
emphasize how important the enactment of ISTEA has been in 
encouraging a real transformation within State agencies of 
transportation nationwide. There's been a broadening of their 
admission from the important one of building roads for safe and 
efficient movement of cars and trucks to acknowledging the 
significant impact that transportation projects have on people 
and communities. This culture shift was due in no small part to 
the enhancements program. It is important that the enhancements 
program be continued and strengthened in Vermont and can still 
remain one of the primary focuses of the agency, but it is now 
balanced with the knowledge of the critical role transportation 
projects play in defining where we live and work and what the 
Vermont landscape looks like.
    I'm going to chat about several specific subjects. The 
first is the new design standards which were enabled by this 
new policy within the new Federal policy that allowed the 
States to develop new design standards. We've done that here in 
Vermont; it's been very successful. It hasn't solved all of our 
problems or all of the concerns, but it's provided a vehicle 
for a flexible system for providing transportation, meeting 
community needs, and not overwhelming some of our communities.
    The enhancements program I mentioned earlier. It's been one 
of ISTEA's truly outstanding success stores. To make use of the 
program's 12 activities to improve the esthetics and amenities 
associated with travel on the highways and also to build new 
and better partnerships with State transportation agencies.
    Vermont and several other States have excelled in taking 
advantage of these 12 activities, especially the ones that 
relate to historic preservation and the revitalization of 
streetscapes and downtowns. Traffic and big trucks on the 
national highway system are a big problem here in Vermont, and 
we've had very tough debates, sometimes pitting one community 
against another community. I think that there's an 
understanding that we need truck transportation in this State 
to maintain our commerce and vitality. On the other hand, we do 
need a balance. One thing I think we probably will agree on is 
that we don't need bigger trucks, and would encourage the 
committee to think about supporting H.R. 3122, the Safe 
Highways and Infrastructure Preservation Act, which would limit 
the size of truck length and weight on the national highway 
system with the same standards that exist on the interstate 
system.
    We are struggling with sprawl in this State, as you know. 
It's been a big interest of yours, and lots of our people. The 
enhancements program could be a real asset in this process of 
protecting development around interstate interchanges. There 
are some glitches and difficulties within the enhancement 
program that make it a little bit difficult to use the 
enhancement program for land acquisition and easement 
acquisition. It has to do with the timing of appraisals and 
making firm offers on the property, and my testimony written 
testimony includes some information about that, and would 
respectfully ask that you have a look at that.
    Senator Jeffords. It will be made a part of the record and 
we'll read it.
    Mr. Bruhn. Yes, great. We are dead set against removing the 
protection process, because we think that it's worked. We think 
the values that the 46789F are used in the process are 
important ones, and important ones to take into consideration 
as transportation projects move forward. There's a section here 
on highway bridges which I'll leave for the written testimony. 
I also want to say that I realize I'm going over my minute, I'm 
sorry.
    Senator Jeffords. Go right ahead.
    Mr. Bruhn. I'm serve on the Vermont transportation 
authority and we have some responsibility for overseeing 
working with passenger rail, developing passenger rail in the 
State, and we believe that 25 to 50 years from now we're going 
to really need a strong passenger rail system in this State and 
we're not going to build our roads to meet the demands of 
increased traffic, and both from a freight standpoint and from 
passengers' standpoint, having a strong rail system will be 
very important to us in the future, and we hope that the 
Federal Government will continue to be a real ally that 
process.
    One specific challenge that we have that we would love some 
help with is the insurance problem. We pay, as Chairman 
Pembroke knows, we pay a lot of money every year, about 
$700,000 this year for insurance on the Charlotte Commuter 
line. It's a big problem. It's over 25 percent of our budget. 
Crazy. And some help in the insurance area would be enormously 
useful to us as we go forward and try to provide increased 
passenger rail service here in this State. And I'll stop there.
    Senator Jeffords. Thank you.

  STATEMENT OF MATTHEW STERNBERG, EXECUTIVE DIRECTOR, RUTLAND 
           REDEVELOPMENT AUTHORITY, RUTLAND, VERMONT

    Mr. Sternberg. I want to thank Senator Jeffords and Senator 
Smith for coming to Vermont to hear about rural transportation 
issues. Particularly, I want to thank Senator Jeffords for his 
ongoing support of rail improvements that affect our economic 
development and quality of life.
    My name is Matthew Sternberg, and I am Executive Director 
of the Rutland Redevelopment Authority in Rutland, Vermont. 
Rutland is the second-largest incorporated city in Vermont and 
the commercial hub of the western side of the State. Our city 
has undertaken significant downtown revitalization, but now 
faces limits to economic growth, due, in part, to 
transportation access problems.
    Rutland City developed in the 19th Century around railroads 
that played a major role in regional freight and passenger 
service. As is the case in cities across the Nation, our rail 
infrastructure fell into disuse, being replaced by highways, 
except we didn't get the new highways. Truck traffic grew 
dramatically along U.S. Route 7, now a highway of the National 
Highway System, but in many places still a narrow, winding 
country road, complete with cattle crossings, ill-suited to the 
task of interstate commerce.
    We have a choice: Build new highways or redevelop the 
infrastructure we already have in place, including the rail 
line. A new interstate highway is not in the cards. If we don't 
improve rail, allowing the older industrial districts served by 
rail to be redeveloped, we only encourage greenfield 
development that must be served by Route 7. If we're going to 
apply Smart Growth principles in Vermont, we must acknowledge 
the role of rail.
    I would like to highlight three issues that have been 
central to our discussions of rail here in Vermont. First, the 
rail line and U.S Route 7 need a lot of work along the whole 
length of the State. This suggests a corridor strategy, what we 
would label a National Highway System/Railway Corridor, running 
from Bennington to Burlington. Looking at the highway and the 
rail as integral elements of a unified corridor, we better 
understand how to allocate resources.
    Rutland is working on a major plan to relocate our 
switching yard, a project that will have profound effects on 
the capacity of the entire State rail system. Looking at the 
Rutland yard as part of a corridor helps us understand this 
dynamic.
    Second, we must recognize that the corridor concept 
addresses both passenger and freight traffic. Historically we 
have been reluctant to invest public funds in railroads owned 
by private interests. The fact that the improvement would help 
the commercial concern was interpreted as a private benefit 
instead of a public benefit. In considering the objectives of 
smart growth, we must look beyond traditional definitions of 
benefit.
    A striking example is found along our corridor, where stone 
quarried in Middlebury is trucked to a processing plant in 
Florence. Because the trucks carrying the stone pass through 
downtown Brandon, the State has limited the number of trucks 
that can pass through that downtown each day. As a result, the 
company has an artificially imposed cap on its production 
capacity, and more than a hundred million dollars in capital 
investment that would have created jobs in Vermont has gone to 
plants in other States and Canada.
    An initiative is under way through a public/private 
partnership to build a siding from the quarry to the rail line, 
enabling the rock to be shipped by rail. This will reduce truck 
traffic in Brandon, while allowing the company to grow at its 
natural pace, creating jobs as it does so. Providing the 
transportation alternative for the company improves the quality 
of life in Brandon, and this constitutes a bona fide community 
benefit.
    In Rural areas, the NHS/Railway Corridor concept responds 
to the local needs of communities along the route. We need a 
model that will enable smaller scale, local improvements that, 
in the aggregate, will add up to a system that works. The NHS/
Railway Corridor will do this, defining the big picture for the 
region while allowing each community to pursue the individual 
projects that are right for their situation.
    In their position on Smart Growth adopted in 2000, the 
American Economic Development Council states, ``Although smart 
growth is a national movement, in practice its implementation 
occurs only in local communities and jurisdictions. Local 
communities not only consist of a single jurisdiction, but 
include regions, as well.''
    Our corridor concept for western Vermont demonstrates the 
wisdom of this view. Our region's needs are best addressed by 
strengthening the National Highway System and the Railway 
Corridor together. I thank you for inviting me to address these 
issues today, and thank you again for coming to Vermont.
    Senator Jeffords. Well, thank you, and that's an excellent 
ending statement. I agree with you, and I can assure you that 
that's one of my top priorities, is to work along the way you 
discussed, and I also want to thank the others for their 
excellent statements. I agree with all of you. Michael?
    Mr. Jackson. I have to say that I, too, very much am 
grateful to have a chance to hear on a detailed level, rather 
than the wholesale level that I usually get, what people really 
need out of the reauthorization, so I'm grateful for the 
opportunity to visit and hear these comments. Thanks very much.
    Senator Jeffords. Well, I thank all of you. It's been a 
wonderful morning, and it's always good to see you anyway. 
Thank you, and with that, the hearing is adjourned.
    [Whereupon, at 11:50 a.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]

Statement of Hon. Michael Jackson, Deputy Secretary, U.S. Department of 
                             Transportation

    Mr. Chairman and Senator Smith, thank you for the opportunity to 
appear before the Committee to address the renewal of the 
Transportation Equity Act for the 21st Century (TEA-21) and rural 
transportation issues. Your leadership in the reauthorization process 
has been and will continue to be crucial.
    Very few things have as great an impact on our economic 
development, growth patterns, and quality of life as transportation. 
Although the challenges are different, this is as true in rural areas 
as it is in urban areas. A safe and efficient transportation system is 
crucial to promoting community prosperity.
    With the enactment of TEA-21's predecessor, the Intermodal Surface 
Transportation Efficiency Act of 1991 (ISTEA), we established new 
principles in the implementation of the nation's surface transportation 
programs--building partnerships with local and State officials to 
advance the strategic goals for transportation capital investment.
    Those principles include: flexibility in the use of funds; a 
commitment to strengthening the intermodal connections of the nation's 
transportation system; expanded investment in, and deployment of, new 
information technologies for transportation services; and a heightened 
sensitivity to the impacts transportation has on our quality of life 
and on the shape and character of America's communities.
    TEA-21 built upon the programmatic initiatives of ISTEA and, 
through its financial provisions, provided State and local governments 
and other transportation providers with greater certainty and 
predictability in transportation funding. It achieved this by reforming 
the treatment of the Highway Trust Fund to ensure that, for the first 
time, spending from the Highway Trust Fund for infrastructure 
improvements would be linked to tax revenues.
    The programmatic and financial initiatives of these two historic 
surface transportation acts provide us with a solid and balanced 
structure around which we can shape this reauthorization legislation.
    In crafting a surface transportation reauthorization bill, we must 
maximize the safety and security of all Americans, even as we enhance 
their mobility, reduce congestion, and grow the economy. These are not 
incompatible goals; indeed, the lessons of TEA-21 demonstrate that 
these values reinforce each other: it is possible to have a 
transportation system that is safe and secure, efficient and 
productive.
    These are only a few of the issues that we must work together to 
address as we develop a successor to TEA-21. The Department of 
Transportation looks forward to working with both Houses of Congress, 
State and local officials, tribal governments, and stakeholders in 
shaping the surface transportation reauthorization legislation.
    In a hearing in front of this Committee in Washington earlier this 
year, Secretary Mineta set forth certain core principles and values 
that will inform the Department's reauthorization efforts:
    <bullet>  Assuring adequate and predictable funding for investment 
in the nation's transportation system.
    <bullet>  Preserving funding flexibility to allow the broadest 
application of funds to transportation solutions, as identified by 
State and local governments.
    <bullet>  Expanding and improving innovative financing programs to 
more effectively leverage Federal dollars and support intermodal 
investments.
    <bullet>  Increasing the accessibility of the transportation system 
so that all Americans can enjoy its benefits.
    <bullet>  Making substantial improvements in the safety of the 
Nation's surface transportation system.
    <bullet>  Ensuring an efficient infrastructure while retaining 
environmental protections that enhance our quality of life.
    My testimony today will focus on these core principles, all of 
which will benefit rural communities.

Adequate and Predictable Funding
    The financial mechanisms of TEA-21--firewalls, Revenue Aligned 
Budget Authority (RABA), and minimum guarantees--provided greater 
equity among States in Federal funding and record levels of 
transportation investment. Although we will be proposing technical 
fixes to smooth out the wide RABA fluctuations we saw in TEA-21, the 
linking of highway spending to tax receipts is a sound principle and 
should be maintained.

Funding Flexibility
    Equally important is funding flexibility, first allowed in ISTEA 
and continued in TEA-21. Flexible funding allows States and communities 
to tailor their transportation choices to meet their unique needs and 
has enabled State and local decisionmakers to consider all 
transportation options and their impacts on traffic congestion, air 
pollution, land use patterns, economic development, and quality of 
life. We will continue to support vigorously broad transferability of 
Federal funds within core program categories. As certain States and 
metropolitan areas have begun to focus more on the operations and 
management of their transportation systems, this flexibility has proven 
extremely valuable to them.

Innovative Finance and Intermodalism
    ISTEA and TEA-21 were both landmark accomplishments in the history 
of American transportation. We should not forget, however, that the 
explosive growth in revenues into the Highway Trust Fund over the last 
6 years that yielded overall program growth of approximately 40 percent 
was not only caused by a growing economy. Two early 1990's gasoline tax 
increases that were re-directed from the General Fund into the Highway 
Trust Fund contributed significantly, as well. In today's constrained 
budget environment, therefore, we must look to innovative financing 
programs to play a much larger role.
    We can and must make the Federal dollar go farther by expanding 
infrastructure financing options and engaging the private sector. The 
United States lags behind many of its international counterparts in the 
implementation of successful public-private partnerships, especially 
with respect to large-scale intermodal projects. This reauthorization 
is an excellent opportunity to change that. We envision more projects 
like the recently completed Alameda Corridor in California that 
dramatically improves access in and out of the busy ports of Long Beach 
and Los Angeles. Rapidly developing freight bottlenecks will impact the 
entire country and must be addressed in reauthorization. A more 
efficient system of goods movement will benefit rural consumers and 
business as well as urban ones.
    One success story in the innovative finance arena is the 
Transportation Infrastructure Finance and Innovation Act (TIFIA) 
program created under TEA-21. TIFIA has already served an important 
role in the development of intermodal facilities, border crossing 
infrastructure, highway trade corridors, and transit and passenger 
rail. To date, 11 projects have been selected for TIFIA assistance. The 
Federal Government has provided $3.7 billion in credit assistance 
supporting transportation investments worth $15.7 billion. Expanding 
the eligibility of the TIFIA program to cover an even broader range of 
transportation infrastructure projects should increase its impact even 
more.
    Other financing tools such as State Infrastructure Banks (SIBs), 
GARVEE Bonds and traditional tax exempt financing will hopefully 
continue to grow in importance. We need to begin knocking down some of 
the barriers that currently diminish the willingness of States and the 
private sector to heavily invest in our country's infrastructure.

Accessibility
    One of the great legacies of ISTEA that was continued in TEA-21 was 
to provide for an open, transparent and inclusive transportation 
planning process at both the State and metropolitan levels. Here in 
Vermont, State and metropolitan planners have done an excellent job in 
addressing the diverse transportation needs of its citizens, including 
rural residents.
    In the Hartford, Vermont, Hanover/Lebanon New Hampshire area, where 
the local economy is one of the most robust in New England, and growing 
traffic congestion and parking shortages are threatening to slow 
economic growth, the Advance Transit program has partnered with local 
communities and employers to provide free bus service on all of its 
routes and park and ride shuttles to encourage alternatives to single 
occupant vehicle use. The program has been a tremendous success. 
Ridership for 2002 is expected to exceed a half million passenger 
trips, nearly double what it was just 3 years ago. The benefits to low 
income riders have been recognized as well.
    TEA-21 also helped improve transportation for the rural elderly 
population. The Central Vermont Council on Aging (CVCOA) receives 
funding through a grant agreement with the Vermont Agency of 
Transportation. Funds were used to purchase three lift-equipped 
vehicles. Despite serving a geographically dispersed population, CVCOA 
experienced a 15 percent increase in unduplicated clients between State 
fiscal years 2001 and 2002, and is expecting a 34 percent increase 
between fiscal years 2002 and 2003.
    Initiatives such as these will prove increasingly important as our 
population ages and its health care needs increase. Today, the number 
of people age 85 and older is growing nearly four times faster than the 
general population. The disabled population is also growing at a rate 
nearly double that of the population as a whole. Without adequate 
transportation services, more and more rural elderly and disabled will 
be forced to lead restricted lives, without access to needed medical, 
work or recreational opportunities.
    To encourage States to address rural needs, the Department created 
the Rural Capacity Building Initiative (RCBI) as part of its three-
pronged Institutional Capacity Building Program. The other elements are 
Metropolitan Capacity Building and statewide Capacity Building. The 
Initiative is providing training, technical assistance and outreach for 
rural transportation planners. In 1998 and 1999, the Federal Highway 
Administration (FHWA) initiated a series of 10 rural planning 
workshops, including one here in Vermont. The workshops gave State 
transportation officials the opportunity to swap success stories and 
lessons with their counterparts from other States, as well as borrow 
from the vast experience of our FHWA staff.
    Over the past year, the Department has significantly its increased 
focus on rural planning, with FTA and FHWA jointly sponsoring and 
distributing the July 2001 publication, ``Planning for Transportation 
in Rural Areas.'' In addition, in May 2002, FTA joined FHWA in holding 
a workshop focused on rural transportation issues and the benefits of 
participating in statewide planning processes. Today, I am proud to say 
that FTA and FHWA are engaging in a stronger partnership in advancing 
other statewide and Rural Capacity-Building initiatives, building upon 
successes achieved in the metropolitan arena.

Technology
    Other rural initiatives include the Rural Intelligent 
Transportation Systems (ITS) Program established by the Department. 
This program focused on rural crash prevention, emergency services, 
tourism/traveler information, rural transit, rural traffic management, 
weather and operations and maintenance. For example, efforts underway 
have yielded significant benefits from the use of ITS for rural transit 
such as reductions in pickup times; reductions in passenger wait times; 
improved contractor monitoring and improved driver and passenger 
security.
    A coalition of eight States--including New Hampshire, Vermont and 
Maine--plan to have a 511 Traveler Information Telephone Number in 
operation by the end of 2002. The 511 number will allow the public to 
have easy access to information about travel conditions and options. In 
rural areas, this information will include weather-related roadway 
conditions, as well as major travel disruptions from work zones and 
traffic incidents.
    Weather and road information is critical to surface transportation 
operations, especially in northern States and rural areas. Technologies 
such as collision warning systems, sensors, GIS mapping, 360-degree 
radar obstacle detection devices, auditory warnings, and external light 
warning systems can significantly benefit drivers in low-visibility 
situations.

Safety
    More than a quarter of a million people have been killed on 
America's roadways in the past 6 years, 41,000 deaths each year. There 
are also more than 3 million police-reported injuries annually. Fifty-
eight percent of traffic fatalities occur on rural roads. The fatality 
rate per 100 million vehicles miles of travel in rural areas is more 
than twice that of urban areas. Adding to the rural safety problem, 
emergency response times in rural areas are 1.5 times those in urban 
areas.
    TEA-21 introduced new programs, greater flexibility and increased 
funding to meet these challenges. States were able to make badly needed 
safety improvements to their infrastructure using their Surface 
Transportation Program (STP), Interstate Maintenance, and National 
Highway System (NHS) funds. Safety concerns are now built into every 
interchange upgrade, intersection redesign, signing project and 
pavement improvement.
    In addition, since TEA-21's enactment, the Department has awarded a 
total of $729 million in State and community formula highway safety 
grants to encourage proper use of occupant protection devices; reduce 
alcohol and drug-impaired driving; reduce crashes between motorcycles 
and other vehicles; reduce school bus crashes; improve police traffic 
services; improve emergency medical services and trauma care systems; 
increase pedestrian and bicyclist safety; improve traffic record 
systems; and improve roadway safety.

Quality of Life
    TEA-21 has given States and communities across America additional 
tools and opportunities to enhance the environment and quality of life 
for their residents. The Congestion Mitigation and Air Quality 
Improvement Program focuses on improving air quality. Under TEA-21, it 
provided more than $8 billion in funding for use by State and local 
partners to support traffic flow projects, cleaner fuels, improved 
transit services, and bicycle and pedestrian programs that reduce 
congestion and emissions and improve the quality of life.
    The National Park Service has purchased buses to reduce congestion 
in several major National Parks. The Federal Lands Highway Divisions 
are using context sensitive design techniques and new technology to 
reconstruct or improve roads through environmentally sensitive areas 
within National Parks, National Forests, and wildlife refuges.
    The National Scenic Byways program and the Transportation 
Enhancements program have helped States and communities improve the 
environment. Since the enactment of TEA-21, more than $1.4 billion in 
Transportation Enhancement funds have been obligated to local 
communities to implement community-focused, non-motorized activities 
that enhance transportation. Many more activities have been programmed 
and are awaiting implementation.
    TEA-21 directed the Department to streamline environmental reviews. 
It is a major priority for the Department to assist States and 
communities build infrastructure more efficiently, while retaining 
critical environmental protections. Successful environmental 
streamlining requires fostering good working relationships across a 
number of organizational lines. These relationships allow for the 
development and establishment of reasonable and realistic schedules for 
advancing major projects. Working together in partnerships, combining a 
full range of Federal, State, and local officials and interest groups, 
will lead to reasonable ways to meet the Nation's transportation needs, 
while being good stewards of the environment.
    Exemplary streamlining initiatives are well underway here in New 
England. Vermont has led the Nation in demonstrating the hallmark of 
flexibility in historic preservation compliance without compromising 
safeguards. Senator Smith's efforts initiated a successful partnering 
model in New Hampshire that has fostered the examination and 
exploration of improved and more efficient approaches to mitigation 
while adhering to deadlines.

Conclusion
    This is a moment of great opportunity. As was true when Congress 
considered the landmark ISTEA and TEA-21 legislation, we have an 
opportunity to create our own legacy and to serve the needs of the 
American people in all regions. I am confident that, working together, 
the Department and Congress can preserve, enhance and establish surface 
transportation programs that will provide not only for a safer and more 
secure system, but one that is more efficient and productive and 
enhances the quality of life for every American.
    One other thing that I am pleased to announce is that we have 
launched a website to take public comments about the reauthorization 
bill at www.dot.gov. We encourage private citizens to share their 
thoughts about this important legislation with us.
    Again, thank you both for the opportunity to testify before you 
today. I look forward to responding to any questions you may have.

                               __________

  Testimony of Brian R. Searles, Secretary of Transportation State of 
                                Vermont

    Good morning and welcome to Vermont.
    My name is Brian R. Searles and I am the Secretary of the Agency of 
Transportation for the State of Vermont. Let me begin by thanking; Sen. 
Jeffords for holding this committee hearing in Vermont and for the 
chance to talk about the challenges and opportunities that are unique 
to rural transportation.
    Let me also welcome Sen. Bob Smith, our neighbor from New 
Hampshire, and U.S. Department of Transportation Deputy Secretary 
Michael Jackson to our fine State, and thank them for their willingness 
to come to Vermont.
    I would like to personally thank both Sen. Jeffords and Sen. Smith 
for their efforts restoring BABA funding in the current budget process.
    I would also like to welcome Mr. Ray Burton, a member of the 
Governor's Executive Council, who will testify on behalf of the State 
of New Hampshire.
    Mr. John Horsley, the Executive Director of the American 
Association of State Highway and Transportation Officials (AASHTO), was 
unable to attend today's hearing, and asked me to make a few brief 
comments on behalf of AASHTO and its member States across the country.
    Were he able to be here Mr. Horsley would say that rural two-lane 
safety is a concern for AASHTO members. The General Accounting Office 
recently reported that although 40 percent of all vehicle miles are 
traveled on rural roads, 60 per cent of traffic fatalities in 1999 
occurred on rural roads. Funding should be increased to improve safety 
of rural roads for both State and local roads. AASHTO urges that the 
highway program be increased over 6 years to $41 billion annually. From 
this an additional $1 billion annually should be dedicated to safety.
    Rural transit. AASHTO's Bottom Line Report documents the need to 
double the current investment in rural transit, especially to meet the 
needs of the growing number of elderly residents, who can no longer 
drive, but still need access to health care and other services.
    Transportation Enhancements. AASHTO supports the continued 
dedication of a 10 percent setaside of STP funds to support 
transportation enhancements, which so far have benefited over 14,000 
communities nationwide. We urge further simplification of the program 
to make it easier for local governments to apply and advance payment 
rather than cost reimbursement as the basis for conveying funds to 
local governments.
    Diversity. The needs of Vermont are important and special, but 
different from those in New Hampshire and those in other States. AASHTO 
believes the national program should be crafted in a way that respects 
the diversity of the various States and allows them to define 
approaches which best meet their needs.
    And last, AASHTO believes we must grow the program. To meet the 
nation's safety, security, preservation and capacity needs for highway 
and transit will require a significant increase in resources. We urge 
the Senate to take a close look at the financing proposal of AASHTO, 
which outlines a way making; it possible to fund a highway program 
which increases from $34 billion to $41 billion from fiscal year 2004 
to fiscal year 2009, and a transit program which increases from $7.5 
billion to $10 billion.
    That concludes the remarks on behalf of Mr. Horsley.
    Let me return to my own testimony.
    By many measures Vermont is the most rural State in the Nation, a 
collection of 251 cities, towns and unorganized gores that dot the 
hillsides and valleys of this mountainous State. We occupy an area 
larger than New Jersey with a population (608,827) that is smaller than 
many mid-sized cities across the Nation. We have about 15,262 miles of 
public roads, 57-percent of which are unpaved. I mention these facts 
because transportation management is different in rural areas than 
urban areas, and while we have a strong interest in all modes of 
transportation, our topography and population distribution often limit 
our opportunities.
    Vermont and other rural areas across the Northeast are heavily 
dependent on travel and tourism. Because Vermont is located within a 
few hours drive of about 50 million people, the regions highway system 
is an important conduit for what amounts to about 25 percent of the 
State's overall economy.
    During the past few years new information has emerged from several 
studies describing travel patterns and freight flow to and from rural 
New England. (These studies include the Vermont statewide Freight Study 
prepared by VTrans; Passenger Travel in the I-95 Corridor Coalition 
Region prepared by the Intermodal Program Track Committee of the I-95 
Coalition; Rural Mobility Issues--Understanding the 1-95 Coalition 
Region by Matt Coogan; and Truck Freight Crossing the Canada-U.S. 
Border, prepared by the Eastern Border Transportation Coalition.) The 
studies show heavy flows of traffic between rural areas and adjacent 
metro areas, and have provided us with a new understanding of the 
interdependence of rural and metropolitan areas in the northeast.
    We know that rural travelers are much more dependent on highways 
than other modes of transportation and as a result transportation 
management is different in rural areas than in urban areas. Where urban 
transportation issues generally relate to congestion management, short 
trips to work, shopping or amenities, in rural areas the percentage of 
long distance trips is higher, congestion is spotty, and providing 
accurate and timely traveler information is more important than 
congestion management.
    While it is true we are a very rural State and much of our travel 
is by single occupancy vehicle, we also have continuing needs for 
effective public transit. Admittedly, our public transit delivery 
systems look very different than those in more urban areas. We do have 
traditional fixed route bus systems in our ``urban'' areas and even a 
commuter rail system in Chittenden County. However, much of our public 
transit service is provided by less traditional means such as deviated 
route and demand responsive operations. Indeed, a significant need for 
rural mobility is served in Vermont by a network of volunteer drivers 
providing these essential services to members of the community. The 
need for these services will likely explode in all areas as the baby 
boom generation ages. In my judgment, attention needs to be focused on 
the administrative operations surrounding the delivery of these 
programs.
    Safety considerations are different in rural areas than urban 
areas. As John Horsley noted, about 60 percent of all fatal crashes 
occur in rural areas, where it is much more difficult to get crash 
victims to emergency care within the ``golden hour'' due to sparse 
communication infrastructure and a more dispersed emergency responders. 
A new source of funding is needed across the board to help address 
safety issues on rural roads. Weather sometimes has an increased 
significance in rural areas because severe weather can close down rural 
routes or cause significant delays. Rural agencies must keep many miles 
of transportation infrastructure functioning with comparatively thin-
spread resources.
    Here in Vermont the environment is an important aspect of our 
quality of life. We must continue to work together--the States, the 
U.S. DOT, and the Congress--to improve the stewardship of our 
environment. We must continue to look at ways to continue to speed up 
projects. I believe the environmental process can be made better with 
better results for our environment and project schedules.
    I mention these points because the majority of the land area in 
Vermont and the northeast is rural--72 percent of the land area in the 
northeast has no metropolitan population areas of 250,000 or above. Yet 
28 percent of the population in the northeast live in rural areas.
    As I said earlier, Vermont is a small State with limited resources. 
The State owns and operates 10 small, regional airports, and owns about 
half of the 740 miles of railroad tracks that crisscross the State. We 
believe rail will play an increasing role in our transportation future, 
both in the movement of passengers and freight. If we are to grow our 
rail program we must deal with rail-highway crossings. Grade separation 
is key in order to achieve higher speed rail and safety. However, grade 
separation is costly and here in Vermont beyond our reach without 
Federal assistance.
    Our ability to raise revenues for transportation projects is 
limited by our population and commercial base, and consequently we rely 
heavily on Federal funding sources. Our total transportation budget for 
fiscal 2003 is $332.2 million, of which $156.3 million is in Federal 
dollars. Consequently, flexibility is important to us because it allows 
us to move funds to match our transportation needs.
    Our mission is: to maintain a transportation system that allows for 
the safe ' movement of people and goods in a cost-efficient, 
environmentally sensitive, and timely manner. Our ability to fulfill 
that mission is being impacted by several large projects. These 
``large'' projects are necessary, but they are draining our resources 
and in the process forcing us to delay projects essential to our 
mission. As a result, we have about $109 million worth of projects that 
are permitted and ready for construction but are sitting on the 
``shelf'' because we have not been able to identify a source of funds. 
While $109 million may not seem like a lot of money at the national 
level, remember our total transportation budget for fiscal 2003 is 
$332.3 million. And I might add that here in Vermont a large or 
``mega'' project is NOT the Big Dig in Boston or the Woodrow Wilson 
Bridge. We are talking about $42 million for the Alburg-Swanton Bridge 
over Mississquoi Bay; $100 million for the Bennington by-pass; or $80 
million for the next two phases of the Chittenden County 
Circumferential Highway (Route 289).
    Parts of our Interstate system are over 40 years old and in need of 
repair. A recent needs assessment of Vermont's 320 miles of the 
Eisenhower Interstate System showed an investment of $74 million was 
needed just to bring the system up to Federal standards. Simply put, we 
cannot afford that kind of investment and meet our other commitments/
needs on our.NHS and State highway, systems. Vermont is not alone. 
Other States have similar interstate problems and needs. In my 
judgment, the time has come for the Congress to make another 
significant investment; to repair and upgrade the Interstate system, 
similar to the investment that was made in the 50's, 60's, and 70's to 
build the Interstates.
    As the Congress works toward reauthorizatiion of TEA-21, I hope you 
will maintain the course set by ISTEA and sustained in TEA-21 by 
continuing to recognize that all States are different, that it is the 
diversity of the States viewed as a whole that makes our country so 
great. I urge you to retain the existing structure of TEA-2 1. 
Improvements can be made, but the fundamental structure is sound and 
should be preserved. Flexibility is important to us. Vermont's 
smallness provides us with some unique opportunities to do things that 
larger States might not be able to accomplish. Funding is still the 
key, and I would urge you to authorize the maximum level of Federal 
investment possible. Funding mechanisms, including guaranteed funding 
levels and annual adjustments to those levels, should be continued to 
achieve congressional intent that all available funds be invested in 
transportation improvements. Just as ISTEA and T'EA-21 made significant 
strides in growing the program, the next surface transportation bill 
must provide new sources of revenues so we can jointly meet the 
challenges facing the States and the Nation as a whole.

                               __________
 Statement of Richard Pembroke, Chairman, Committee on Transportation, 
                          Vermont Legislature

    Thank you, Senator Jeffords, for this opportunity to testify before 
your committee. And thank you, Secretary Jackson, for traveling to 
Vermont to hear about the challenges we face.
    My name is Dick Pembroke and I am the corporate founder of the 
Pembroke Landscaping Company in Bennington, Vermont. For the past 16 
years, I have also represented Bennington in the Vermont Legislature, 
from a district that comprises a constituency of two incorporated 
villages within the Town of Bennington who have the same infrastructure 
needs. I have been a member of the House Transportation Committee 
throughout that time, serving as chairman since 1993, and at the 
request of leadership from both sides of the aisle.
    The toughest part of my job as chairman is distributing dollars 
among the many competing transportation needs in Vermont. Looking back, 
I think that we have been able to do that in a fair and productive way, 
and we have used the planning provisions of the Federal law to get the 
job done. The direction of that law--to emphasizing planning from the 
bottom up--was definitely the right decision.
    Of course, there was never enough money. Recognizing this, we set 
out early in my tenure to eliminate low priority projects. This was a 
painful process. Every project has a champion. But we were able to make 
these choices by working through Vermont's network of regional planning 
commissions and advisory committees. They were the key then and they 
continue to be central to our efforts today.
    Even with this ``pruning'' of low priority projects our needs' 
still far exceed our available funding. As a result of this success of 
the project manager system which we directed the agency to institute, 
and taking advantage of the advanced construction provisions of the 
Federal law, I leave my chairmanship with enough ``shelf projects'' to 
consume a year's worth of Vermont Federal appropriation. Each year, we 
must decide on the allocation of transportation dollars--both Federal 
and State--among the various modes. Between maintenance operations, 
system preservation and expansion, I have used the agency's long-range 
Transportation Plan to guide this effort.
    In my part of the State, the Bennington area in Southwestern 
Vermont, we have nearly completed the first phase of what will become 
the Bennington Bypass. Re-routing two national highway system roads out 
of our City Center, improving traffic flow and relieving unbearable 
congestion from the downtown.
    After many years of planning and design, we have also begun 
critical safety improvements on the main east-west highway through 
Southern Vermont. This project will save lives and improve commerce.
    We have improved a key segment of rail line, linking the area to 
the highly active rail corridor serving Albany, New York and the 
nation's rail network. We are now working with Amtrack and our New York 
neighbors to secure service to the Bennington and Manchester area. Our 
long-term goal is to improve both freight and passenger rail up and 
down the west side of the State.
    We have also used the generous provisions of the Federal Highway 
bills to expand public transportation. In my tenure we have established 
seamless interconnecting routes that go from the Massachusetts Line in 
Pownal to Rutland and points north. Several other routes statewide have 
been established or are about to be.
    I would encourage you as you prepare to put together the re-
authorization bill that you garner every possible dollar that is 
entitled to transportation in order that Vermont and its fellow States 
have the opportunity to attempt to bring our infrastructure up to par. 
I do not have to tell you that our interstate system as well as 
nationwide is 40-plus years old and needs major attention. I ask you to 
refrain from ancillary programs and concentrate on making it affordable 
and less restrictive as possible. Our local communities are in the same 
predicament and look for State help. More Federal authorization would 
accommodate our ability to offer them assistance.
    Ultimately, our goal in the Legislature, and the agency's goal, is 
to get things done for Vermont, delivering projects that respect 
neighboring property owners, businesses, local communities and the 
environment. This has been a challenge. We have had success by bringing 
all of the players together and focusing on what's good for Vermont.
    A few weeks ago, I announced my intent to retire from the Vermont 
Legislature. I do so with a sense of accomplishment and in the 
knowledge that many important transportation improvements are under 
way. I thank you Senator Jeffords for those kind words you entered into 
the congressional Record on my behalf on my announcement.
    New commuter air routes have been established not only at the 
Burlington International, but Rutland as well, the State's second 
largest city, and major improvements in various other State airports 
that contribute to much-needed economic development.
    My work on transportation has been among the most satisfying 
experiences I have ever had. Without the Federal partnership, we could 
not have made the progress that I have described. As for the future, we 
will need an increase in resources, from all sources, if we are able to 
meet our responsibilities to the traveling public.
    Senator Jeffords, you have been a great friend of transportation in 
this State. I am very encouraged to have you chairing the Environment 
and Public Works Committee for the reauthorization process. I know that 
you will advance Vermont's interests.
    Mr. Secretary, I am glad that you have been able to hear from 
Vermonters today about the challenges we face, and I do not envy your 
challenge as you fight for scarce dollars.
    In closing, I would emphasize that if you feel I can be of 
assistance at any time as you seek the prize, please do not hesitate to 
call. Paraphrasing General MacArthur's comments, ``Old soldiers never 
die; they just fade away,'' I do not intend to die and I surely am not 
going to fade away.
    Thank you for this opportunity to testify.

                               __________

           Statement of Richard Mazza, Vermont State Senator

    Thank you, Senator Jeffords, for inviting me to testify here today.
    And, welcome to Vermont, Senator Smith and Secretary Jackson. You 
have given us a wonderful opportunity to describe the challenge of 
providing transportation services in a rural State.
    My name is Dick Mazza. I own and operate Mazza's General Store, a 
market that has been in business in Colchester, Vermont for 48 years.
    Since 1984, I have also represented Chittenden and Grand Isle 
County in the Vermont State Senate. I have been a member of the Senate 
Transportation Committee throughout that time, serving as Chairman for 
the last 12 years.
    As you know, Senator Jeffords, the State of Vermont has entered a 
difficult financial period. We are facing a budget deficit of some $39 
Million. This is a significant amount for a State of our size. And I 
know that other States, and the Nation as a whole, are experiencing 
similar problems.
    I raise this because it places our transportation issues in an 
important context. Vermont's revenues are directly tied to the strength 
of its economy. And our economy--our businesses, my business--is 
directly reliant on our transportation system.
    But when times are tough, and when human needs are greatest, it is 
tempting to cut back on transportation spending.
    This year in the legislature, we reduced our paving program by half 
from last year's. Just this week, a joint legislative fiscal committee 
considered additional transportation cuts. Interstate rest areas, 
public transit routes and town highway grants are all on the chopping 
block.
    We all know that a transportation investments create jobs. We can 
see the paving crews on our highways and the driver on the bus. But 
beyond these direct benefits, improved transportation moves the people 
and goods that power our economy.
    The State's leading private employer is IBM. Access to their 
facility in Chittenden County today leaves much to be desired. We have 
both highway and rail improvements programmed to improve the situation, 
but at great cost. Yet, this investment in our economic future is vital 
to our State.
    Our economy relies heavily on interstate trade and travel. 
Interstate 89 and 91 are the lifeline for much of the State. We face 
enormous reconstruction and repair costs on the Interstate.
    Vermont's northern border with Canada has felt the effects of NAFTA 
and its attendant growth in freight movement. International freight 
also moves through Vermont from neighboring New York. Replacement of 
the Mississquoi Bay Bridge, at a staggering cost by Vermont standards, 
is essential to support our international trade.
    Perhaps the most difficult investment challenge in these tight 
times is our renewal of Vermont's railroads.
    I like to think of the nation's great achievement--the Interstate 
Highway System--as our model for rail redevelopment. We built the 
Interstate in segments, but with a fully developed system as our 
ultimate goal. In Vermont, we have taken a similar approach with rail.
    But we need a Federal partner in this major undertaking. We need to 
see continued support for a national passenger rail network. Vermont 
will do its part. And we need the freedom to use our Federal 
transportation dollars to revitalize rail.
    Let me close by again thanking you, Senator Smith for taking time 
out of your campaign to join us here today. Vermont and New Hampshire 
really do have much in common.
    To Secretary Jackson, and through you to Secretary Norman Mineta, I 
appreciate your efforts to manage our nation's transportation program 
in the face of the financial and security problems that confront us 
all.
    And finally, Senator Jeffords, let me thank you again for your 
years of service to our State. It gives me great confidence to know 
that you are at the helm in Washington.

                               __________

Statement of Thomas Adler, Matthew Coogan, and Thomas Horan, on Behalf 
      of New England Transportation Institute and Museum's Rural 
                     Transportation Learning Center

Background
    Beginning around 1850, rail transportation emerged as a dominant 
mode for both personal and freight transportation in rural New England. 
Railroads shaped rural centers such as White River Junction, Vermont, 
Lebanon, New Hampshire and many other communities throughout the 
region. Just as the railroads affected the development of rural 
communities, so too have automobiles and trucks. Trails and paths were 
widened and resurfaced to accommodate these new vehicles and a 
tremendous investment was made to construct new highways. As a result 
of that investment, Vermont and nine other rural States now comprise 
the top ten in paved roadway miles per capita. For many residents of 
these rural States, the roadways have provided increased mobility and 
that increased mobility has in turn caused profound changes in the 
physical and economic structure of rural communities.
    While this mobility created new economic opportunities for rural 
regions, it also resulted in growth and development spreading away from 
the compact town centers that had grown up around rail stations and, 
instead, along highways into the rural lands. And, our investment in 
highways and resulting shifts in development patterns has indirectly 
resulted in a significant reduction in the amount of public 
transportation service provided within rural regions and between those 
regions and the major metropolitan centers. For example, passenger rail 
service is now available to only a small fraction of the many train 
stations that once served rural communities.
    The landmark ISTEA and TEA-21 transportation authorizations 
recognized the need to develop and maintain transportation alternatives 
to the private automobile and rural regions have actively pursued these 
alternatives. Vermont has both maintained AMTRAK service in the State 
and has initiated a regional rail service in the Burlington area. New 
Hampshire and Maine have successfully restored Boston to Portland rail 
service. And, there are numerous rural transit services that provide 
both safety-net and general public transportation. ISTEA and TEA-21 
both funded the development of Intelligent Transportation Systems and 
rural areas have benefited from these technologies.

Current Rural Transportation Issues
    While ISTEA and TEA-21 have brought benefits to many rural areas, 
it is fair to say that the majority of national research and policy-
discussion about transportation and community development has focused 
on metropolitan areas. At one level, this is understandable given the 
high concentration of the nation's population in urban areas. At 
another level, however, it is an unfortunate oversight as rural areas 
play an important role in the overall economic, cultural, and 
environmental value of regions and our Nation. As a Nation, we simply 
have not examined the needs of our rural citizens as extensively as we 
have the needs of the citizens of the major metropolitan areas.
    But we do know some basic facts about transportation problems in 
the rural areas of this country. In the 13 Northeastern States, we see 
that our rural citizens have significantly lower levels of household 
income than in those in the more urbanized regions. But, at the same 
time we observe that the rate of auto ownership is significantly higher 
in the rural areas. We know also that our rural citizens have to make 
longer trips and in fact travel about 30 percent more miles than their 
urban counterparts. This translates into the fact that our rural 
citizens spend a far greater proportion of their total income on basic 
transportation and it means that they have less money to spend on other 
necessities such as housing, food, or education. On the other hand, we 
also know that work commuting distances are shorter than the national 
average among residents of the small towns within rural regions and 
that focusing rural development around these traditional town centers 
reduces dependence on automobile travel.
    And, there so much we do not know. We have not properly examined 
the problems of limited mobility among important segments of the rural 
population, particularly as experienced by older citizens, and those 
who do not have access to a car. As the population ages, this will 
become an even more pressing issue for the rural regions.
    Just as railroads and automobiles have had profound impacts on the 
shape of rural communities, new information and communication 
technologies will also significantly affect the ways in which these 
communities develop in the future. We have already seen new types of 
economic clusters forming in rural New England around information-
oriented businesses. These businesses in turn have new and very 
different transportation needs.
    Our region is fortunate to have intercity rail, bus and air 
services that connect our rural areas to the major metropolitan areas. 
But, planning a trip by combinations of bus, rail, and even air simply 
cannot be accomplished at any one location. One important strategy to 
deal with rural mobility is to help travelers understand just what 
combinations of services are available. Every major Nation in Europe 
has a program to help its citizens plan rural trips by modes other than 
the private auto; from a technical point of view, it would be easy to 
apply this technology to our rural areas. In general, complementary 
investments in a multimodal transportation network and in technologies 
to provide information to the users of that network will greatly 
facilitate new economic activities as well as tourism and the other 
traditional parts of northern New England's rural economy.

The Rural Transportation Learning Center
    The primary goal of the Rural Transportation Learning Center is 
heighten the level of policy, technical, and cultural learning relating 
to rural transportation and its impact on communities and regions. Its 
focus is both regional and national, aiming to explore our regional, 
past, present and future as a means to inform the national 
understanding on rural transportation and its relationship to national 
economic, social and environmental goals.
    The Center is achieving this vision through three spheres of 
activities that are organized around programs of the New England 
Transportation Institute and Museum (NETIM): first, the Museum, uses 
historical resources and scholarly study to understand how 
transportation has affected rural regions; second, the Institute 
conducts research to identify emerging trends and technologies and to 
explore ways of using transportation to facilitate the economic, 
cultural and environmental quality of rural communities, and, finally, 
the larger public is brought into the learning process through the 
Museum's many outreach programs and by its excursion railroad.
    Woven throughout these activities is the philosophy that history 
and research can inform our future. We can go ``back to the future'', 
by exploiting the best of our contemporary knowledge, technologies, and 
processes to create a rural transportation system that embodies the 
best of rural community history and character. As an example, the 
Center is especially interested in researching ways of using the new 
information infrastructure to enhance the use of our intermodal 
facilities as well as help grow local economies. In this research 
program, it will be working with several prominent researchers 
(including Thomas Horan, Lee Munnich and Mathew Coogan) to develop a 
national model for how information technologies can assist in making 
regional intermodal travel to and from our towns and recreational areas 
a seamless and safe experience. Moreover, it will be looking at 
extending this use of technology to encourage ``rural knowledge 
clusters'' of workers in rural areas through teleworking and other 
``smart travel'' means. The Center will complement this research with 
reviews of how demographic and economic trends may affect future rural 
transportation programs.
    While the Center's research extends into the future, it continues 
down an aggressive path to preserve the past through plans to purchase 
historic transportation facilities in White River Junction. Our 
objective is to preserve the historical character of these facilities 
and environs, so that visitors can have a grounded experience on the 
vital role that transportation plays in communities. We expect NETIM to 
be visited by Vermonters, New Englanders, and national and 
international research guests. Our program encompasses exhibitions, 
seminar series and, in the future, summer institutes. This program is 
detailed in Attachment A.

                              CONCLUSIONS

    The transportation needs of rural areas are different from those of 
urban areas and, in general, have not been studied to the same extent. 
The coming surface transportation re-authorization represents a unique 
opportunity to ensure that rural transportation needs are analyzed and 
addressed in ways that enhance the economic vitality, environmental 
quality and quality of life in rural communities.

                          SELECTED REFERENCES

    Matthew A. Coogan, ``Rural Mobility Issues: Dealing with Isolation 
through Passenger Information,'' ITS America Annual Meeting, Long Beach 
California, April 2002.
    Matthew A. Coogan ``Rural Mobility Issues, Understanding the 
Coalition Region'' Keynote Presentation at the Rural Exchange Forum, 
sponsored by the University of Massachusetts and the I-95 Corridor 
Coalition, Amherst, MA, March 2002.
    Lee Munnich and Greg Schrock, ``Rural Knowledge Clusters: The 
Challenge of Rural Economic Prosperity.'' SLPP Staff Working Paper 
(March 2002), forthcoming in Norman Walzer (editor), Managing Change 
During Transition: Issues Facing the Rural Midwest. University of 
Minnesota Press, 2002.
    Matthew A. Coogan, ``statewide Mobility Issues,'' Keynote 
Presentation, Vermont Mobility Summit, Vermont Commission on 
Rehabilitation, Montpelier, Vermont, December 2001.
    Matthew A. Coogan, ``Passenger Travel in the I-95 Corridor 
Coalition Region: Where do we travel? How do we travel? and Why?'' 
Published on the Web by the I-95 Corridor Coalition, Intermodal Program 
Track Committee, October 2001.
    Thomas Horan, ``Rural Telematics: Opportunities and Challenges'', 
Presentation at 2001 Rural Advanced Technology and Transportation 
Systems Conference, Burlington, Vermont, August 25, 2001.
    Matthew A. Coogan, ``Beyond the MPO, Looking for Models of 
Collaboration'' Keynote Presentation at the Rural Advanced Technology 
and Transportation Systems Conference, Burlington, Vermont, August 
2001.
    Thomas Horan, Hank Dittmar, and Daniel Jordan, D. `` ISTEA and the 
New Era of Transportation Policy `` in D. Mazmanian and M. Kraft (EDS). 
Toward Sustainable Communities: Transitions and Transformations in 
Environmental Policy. Cambridge: MIT Press, 1999.
    Thomas J. Adler and Craig Leiner, ``Traffic Effects of Creating a 
City Center in a Suburban Community,'' in Proceedings of the Institute 
of Transportation Engineers Annual Meeting, ITE, Washington D. C., 
1991.
    Thomas J. Adler, S. Tahmosh and M. Burton, ``Low Density Transit 
Planning Package,'' distributed by U.S. DOT, February 1984.
    Thomas J. Adler and Yorgos Stephanedes, ``Forecasting Experiments 
for Rural Transit Policymakers,'' Transportation Research Record #718, 
Transportation Research Board, Washington, DC, 1979.

                              ATTACHMENT A

Summary
    The Rural Transportation Learning Center (RTLC) provides a 
comprehensive set of regional and national programs to examine past, 
current, and future trends in rural transportation especially as 
relates to improving community economic vitality. The demonstration 
component of the learning center includes establishment of an 
interactive and excursion center in White River Junction and 
surrounding Vermont and New Hampshire communities. The learning program 
includes seminars, summer institutes and outreach activities about 
rural transportation and community needs to learners of all ages. The 
research program examines demographic, economic and technological 
dimensions to rural travel and strategies for community development. 
RTLC is managed by the New England Transportation Institute and Museum 
(NETIM), a non-profit corporation.

Mission
    The mission of the Rural Transportation Learning Center (RTLC) is 
to enhance regional and national understanding of the role of 
transportation in creating economically vibrant rural communities. RTLC 
aims to fill a critical void in national transportation policy by 
identifying major demographic, economic, and technology influences on 
transportation and rural communities. The center informs students, 
citizens, scholars, and policymakers through a range of learning 
programs, seminars, excursions, and research initiatives.

Themes
    The mission of RTLC's is pursued through three programmatic themes: 
Learning From the Past, Understanding the Present, and Contributing to 
the Future.
    Learning from the Past: Befitting RTLC's location at the NETIM 
museum, a key feature of the learning center is to enhance the museum 
to provide a comprehensive, interactive set of exhibits, excursions and 
seminars on the historic role of transportation in the development or 
rural regions. A range of historical essays and multimedia projects 
will document historical elements for use in educational settings, from 
k-12 through universities.
    Understanding the Present: The changing economic and demographic 
landscape of rural regions has profound implications on the nature, 
form, possibility for rural transportation system to improve community 
and economic vitality. Recent U.S. Census (2000) and National Household 
Travel Survey (2002) data provide a timely opportunity to develop a 
comprehensive understanding of changes in rural-interregional travel, 
lifestyle trends, and economic developments. Changing demands and 
financing of various modal options (rail, transit, freight) provide a 
concurrent opportunity to analyze new forms of rural and interregional 
travel, including environmentally responsive developments. Community 
surveys provide telling insight to isolation concerns in rural areas 
and the importance of transportation services (e.g. for employment, 
health-care) in reducing a sense of isolation, especially among elderly 
residents.

Contributing to the Future
    Recent small business and knowledge worker migrations provide new 
opportunities for ``rural economic clusters'' of firms and workers who 
want to engage in knowledge work while enjoying the quality of life in 
rural regions. Technologies such as wireless communication systems and 
intelligent transportation systems can enhance mobility and safety 
services if properly implemented and supported through community 
outreach. Research is needed to create innovative technological and 
community systems that can support rural access and viability within 
the unique fiscal constraints of rural regions. Similarly, new Advanced 
Traveler Information System technology, now commonly applied to urban 
areas, can be adapted to and applied to the needs of citizens of rural 
areas.

Program Organization
    The mission and themes of RTLC will be accomplished through a 
series of high priority programs. These programs encompass new 
demonstrations, learning experiences, and research programs.
    <bullet>  Demonstration Program: The demonstrationsite will be 
located in the historic railroad and commercial properties in the towns 
of White River Junction, Vermont and neighboring New Hampshire 
communities in the Upper Connecticut River Valley. This 
demonstrationsite will be restored to host a museum and excursion 
program that will promote community development in these historic towns 
in a way that: 1) preserves the historic integrity and character of 
these adjacent towns that have served together as a transportation and 
commercial center since the construction of the railroad in 1848, 2) 
takes advantage of the Upper Valley's rich educational environment and 
outstanding local museums and transportation experts, 3) provides an 
impetus for community and economic development by both using and 
learning about rural transportation and community challenges.
    <bullet>  Learning Program: The learning program will examine the 
history, contemporary and future trends of rural transportation using a 
variety of educational approaches targeted at a range of learners. 
Interactive exhibits will be established both at the demonstration 
project and online to support education on regional and natural 
transportation issues. A key element of the learning program will be 
seminars and summer institutes to bring together educators, 
policymakers and practitioners to discuss major transportation issues 
related to issues such as the environment, economics, and community 
development.
    <bullet>  Research Program: Underlying the demonstration and 
learning activities will by a dynamic research program. This national 
research program will investigate how community, economic, and 
technology trends are affecting rural communities. Research priorities 
will include a comprehensive assessment of how various transportation 
users (e.g. inter-regional traveler, transit-dependent worker, aging 
traveler) are creating new demands on the rural transportation systems; 
a integrative analysis of ``rural economic clusters'' and the role of 
transportation and telecommunications systems in encouraging this 
economic development; a comparative analysis of how innovative 
intermodal systems could provide seamless linkages between rail, bus 
and auto travel especially for inter-regional travel (including pre-
trip planning capability), and a infrastructure analysis on the digital 
wireless and wireline infrastructure needed to support ubiquitous 
telework and mobile safety mayday services to residents in rural 
regions. The research program will include an early analysis of the 
results of the USDOT's new National Household Survey (2002) to provide 
a ``first cut'' review of differences between rural, and non-rural 
transportation behavior, emphasizing information newly available from 
the national survey, such as the interrelationship between walking 
patterns and household VMT consumption, particularly in small towns and 
rural areas. A web resource will be established to provide the research 
and policy community with data on rural transportation and related 
economic trends. Research seminar and summer institutes will be 
conducted to share findings of the center with other researchers from 
rural regions in the United States and abroad.

Management
    RTLC is managed by the New England Transportation Institute and 
Museum (NETIM). NETIM is the successor to the Vermont Railroad Museum, 
which was founded in White River Junction in 1980 for the purpose of 
identifying, collecting, and archiving regional railroading artifacts 
and memorabilia. The Museum obtained and has preserved an historic 
steam engine and organized the annual Glory Days of the Railroad 
festival that draws over 12,000 visitors to White River Junction. Three 
years ago, several professionals in the Upper Valley region of Vermont 
and New Hampshire developed a new vision for the Museum and it was re-
incorporated as the New England Transportation Institute and Museum 
(NETIM). NETIM's vision includes three components: a transportation 
museum, a transportation institute and a scenic excursion railroad.
    The Museum. The Museum celebrates the region's rich storehouse of 
river, rail, and road history. Its programs include exhibits 
illustrating more than 400 years of transportation history and 
perspectives on the importance of transportation to the region's 
future; displays of transportation memorabilia, artifacts art and 
restored equipment; and educational activities.
    The Institute. The Institute complements the museum's retrospective 
focus with an equally important prospective one, serving as a center to 
bring together the region's many nationally and internationally known 
experts on transportation policy and planning to promote awareness and 
discussion of contemporary transportation issues and influence public 
policy and debate through conferences, exhibits, publications, 
collaborative research and workshops.
    Excursion: The Scenic Excursion Railroad is an opportunity for 
educational experiences as well as a powerful tourist attraction-with 
views of New England's most beautiful river valley opened up to rail 
passengers again after nearly half a century. Its operations will give 
a vital impetus to, and enable public educational programs about, the 
restoration and maintenance of historic railroad engines and rolling 
stock.
    With support from a Fairchild Foundation grant, the Museum was 
opened about a year ago in the historic White River Junction train 
station, between the new Vermont Welcome Center and the AMTRAK 
terminal. Under the leadership of Dr. Norman Miller, an internationally 
renowned anthropologist, the museum has rapidly built its collection, 
has attracted over several thousand visitors and has conducted scores 
of educational programs.
    The Institute sponsors a series of seminars featuring nationally 
known transportation planning professionals. The seminars are attended 
by many of the 70 transportation consultants in this region as well as 
other professionals from throughout New Hampshire and Vermont. One of 
the first seminars was given by Prof. Thomas Horan from Claremont, 
California, a national expert on the effects of transportation and 
telecommunications on rural travel and development. In the roundtable 
discussion following his seminar, the unique transportation issues 
facing rural areas were discussed and the Rural Transportation Learning 
Center was launched as a formal program to address some of those 
issues.

                               __________

  Statement of Debbie Ricker, L&D Safety Marking and Worksafe Traffic 
                           Control Industries

    I'm Debbie Ricker and I am one of the owners and founders of L&D 
Safety Marking and Worksafe Traffic Control Industries with my sister 
and husband. We have been in the highway safety business since 1985. 
Our companies provide pavement markings and highway sign installation 
services as well as manufacture and sell signs, traffic safety 
equipment and supplies. We employ 35-45 people and pay livable wages 
with an extensive benefit package. Our corporate office in located in 
Berlin, Vermont and we have divisions in Bow, NH and Hallowell Maine. 
Our company like many other AGC member companies are small family owned 
business some in second and third generation so we have a very stong 
interest and roots in the wonderful State. I would like to start by 
thanking you Chairman Jeffords and the Committee for bringing their 
hearing to Vermont.
    While accounting practices for private corporations may be the 
topic of concern in Congress today, the accounting practices for State 
and local governments will inevitably be the focus in the future as 
Governmental Accounting Standards require more accountability for the 
condition of, and the maintenance of roads, bridges and other public 
assets that taxpayers have invested billions of dollars in over the 
years. I specifically refer to the Government Accounting Standards 
Board, Rule 34 that defines ``generally accepted accounting 
principles'' for State and local governments. GASB 34 requires 
governments to include long-lived infrastructure assets in their annual 
financial statements starting with fiscal year 2002.
    To properly account for infrastructure assets, governments must 
develop an asset management plan which at a minimum should identify the 
condition of pavements, structures, and facilities. That plan should 
include deterioration rates for those assets so that a determination 
can be made for the annual funds necessary to maintain those assets at 
a recommended level of performance.
    This whole issue of asset management is important to getting the 
optimum level of results from the expenditures we make in maintaining 
our infrastructure. In short ``Getting the Biggest Bang For The Buck''. 
This has been a critical issue in government, more so than business, 
because of the tendency to balance the budget by deferring essential 
maintenance since State and local governments are very infrastructure-
intensive.
    Here in Vermont, because we are a small State with limited 
resources we have relied heavily on Federal funds to meet our 
infrastructure needs. However, because we are a State with an aging 
infrastructure in a cold climate our needs are greater than both 
existing Federal and State resources can satisfy, so asset management 
is all the more critical to us in getting the dollars applied properly 
to our infrastructure. But more dollars both State and Federal are 
needed to catch up to basic needs.
    As for our aging infrastructure: Former Governor Madeline Kunin 
initiated ``Bridge 2000'' in 1988 to repair and replace 454 
structurally deficient bridges identified at that time. We have 
approximately 2,700 bridge structures in Vermont. In 1988 The Vermont 
Agency of Transportation estimated that it would cost 1.6 billion 
dollars over a 10-year period to repair those 454 structurally 
deficient bridges. Today with more than 550 structurally deficient 
bridges in Vermont the cost (including inflation) will more than double 
in that area alone. In addition the Interstate Highway System in 
Vermont which is well over 30 years old is now in need of rebuilding in 
many sections. Bridge replacements need to be constructed and over 100 
million dollars in culvert work is required on the Interstate alone. 
That's not including the estimated eight to ten thousand or more 
culverts on the State and local systems that will eventually need 
replacement. A report jointly authored by the FHWA and VT AOT recently 
sited the need to spend 74 million dollars annually on maintenance and 
repair of the 320 mile interstate in VT. Vermont is only funding 20 
million dollars on those repairs, clearly one fourth of what is 
required. It has gotten so bad on the Interstate that one of our AGC 
member companies doing a basic culvert repair recently discovered a 7 
cubic yard void directly under the under the travel pavement of 
Interstate 89 in Williston. This area of the Interstate is a heavily 
traveled thoroughfare and a pavement collapse would have caused serious 
injury and perhaps death, which brings me to the issue of safety on our 
roadways.
    Tragically more than 41,000 Americans die and 3.5 million are 
injured in motor vehicle accidents on our highways each year. If the 
average U.S.-crash rate remains unchanged, one child out of every 84 
born today will die violently in a motor vehicle crash. 6 out of very 
10 children will be injured in a highway crash over a lifetime, many of 
them more than once.
    As more people travel more miles on the highways and as the aging 
demographics of our driving population change, significant improvements 
in safe roads are essential to continue our progress in reducing 
highway fatalities and injuries.
    In July of this year the GAO released a report that showed that 
although 40 percent of all vehicle miles are traveled on rural roads, 
about 60 percent of the traffic accident fatalities that occurred from 
1999-2001 took place on rural roads.
    When adjusted for vehicles miles traveled, the fatality form 
accidents on rural roads is nearly 2.5 times greater that the 
fatalities from accidents on urban roads.
    Some of the factors contributing to these statistics are driver 
impaired issues such as drivers under the influence, tourists or 
drivers not familiar with the area, parents with active children in the 
car, drivers on medication, fatigued drivers, emotionally stressed 
drivers, and the growing number of older drivers. In addition to these 
hazards Vermont has additional issues. Being a rural State Vermont has 
winding and narrow roadways with many seasonal and weather related 
hazards. In the winter we travel more night hours with reduced 
visibility from fog, rain, snow, and ice. These elements are very hard 
on our infrastructure and require higher cost maintenance.
    While national statistics show that the overall number of traffic 
fatalities has dropped by 9 percent overall due to safer cars, air bags 
and various other devices there are two areas showing increased 
fatalities. Those increases occurred in the over 65 aged population and 
in work zones. The number of fatalities in people over 70 has increased 
by 39 percent over the last 10 years. Nearly one in five drivers by 
2020 will be age 65 or older.
    In Vermont, The Road Informationsites the following statistics:



        TRIP Shows Vermont                 1989              19991

Drivers 70 and above killed in                      6                  8
 traffic accidents................
Drivers 70 and above involved in                    8                 11
 traffic accidents................


Work zone Fatalities Statistics

           Total of 21 Vermont fatalities in the last 8 years



2001...............................................  3
2000...............................................  2
1999...............................................  3
1998...............................................  1
1997...............................................  6
1996...............................................  1
1995...............................................  4
1994...............................................  1


    As our nations population continues to age in the years ahead it 
will be increasingly important that we make the kind of roadway safety 
improvements that can help reduce accidents and save lives. While 
improved transit service has a role to play, it is important to focus 
on roadway safety improvements because 92 percent of all surface travel 
by older citizens takes place in motor vehicles. Highway travel by 
persons 70 and over is increasing at a faster rate than travel by other 
Americans.
    Other important points to note include:

    <bullet>  Fatalities in workzones have increased over 50 percent in 
recent years to reach an all time high of 1093 deaths in year 2000.
    <bullet>  77 percent of all fatalities occur on 2 lane roads. Poor 
roadway infrastructure is a factor in 30 percent of these fatalities.

    Which gets me back to the issue of funding and asset management.
    In a State with limited resources Vermont must make some tough 
decision when it comes to capital spending. The need to fix or repair 
what already exists in Vermont's infrastructure inventory is mind-
boggling. With 1,000 dams statewide, over 324 public school buildings, 
15 technical centers, 2700 long bridges, 14,000 miles of roadway, 320 
miles of Interstate, 2,370 miles of State highway, 11,210 miles of 
municipal roads and 16 public use airports, it is easy to understand 
the extent of maintenance and repair required. Add to that list new 
initiatives of recent years in public transportation, recreation paths, 
rail freight and commuter rail and the enormity of the up-keep problem 
is compounded.
    Vermont faces a major decision: invest in repairs and 
rehabilitation of the existing infrastructure on an annual basis or 
replace major parts of the system at a much greater cost in the years 
to come. A properly planned ``Asset Management Program'' will help set 
priorities.
    Adequate annual funding of Vermont infrastructure will do much to 
improve safety for our traveling public and will have a positive effect 
on Vermont's economy as well.
    Transportation represents 11 percent of the American economy. As a 
share of the Gross Domestic Product, transportation has held study at 
just under 11 percent since 1989. Transportation construction is a $160 
billion a year industry that employs more than 1.6 million people. 
Every $1 billion invested in the nation's transportation infrastructure 
creates approximately 35,000 jobs. Public investment spurs private 
investment and in Vermont where we've lost over 8,000 jobs in the last 
year we will need all the help we can get.
    The U.S. Dept of Labor contends for every dollar spent on 
construction activity there will be a $2.75 return to the economy. The 
Council of State Governments states that every dollar invested in the 
highway system yields $2.60 in economic benefits with every billion 
invested producing 42,000 jobs. In short this means we can maintain 
what we have and fuel the economy so that resources are available for 
other non-construction related programs to benefit the society. 
Franklin Roosevelt recognized this economic reality when in the depth 
of the depression he created the WPA (Works Project Administration) and 
the CCC (Civilian Conservation Corp.) putting millions of unemployed 
Americans to work on public projects nationwide. He knew that 
construction drives the economy. And whether it is new construction in 
the fastest growing States of America or reconstruction and 
rehabilitation in less populated States like Vermont the result is the 
same. People are put to work, construction businesses are able to stay 
in business and both are able to pay their taxes necessary for 
government to provide for other needs in society. Jobs, safety, 
economic development are all a by-product of funding infrastructure 
improvements. Its an investment we need to continue .

                               __________

  Statement of Paul Bruhn, Executive Director, Preservation Trust of 
                                Vermont

    It's a great privilege and pleasure to be here today, especially 
because Federal and State transportation policy has made great progress 
in terms of its recognition of the impact our transportation dollars 
have on the vitality of our communities. This new approach has meant 
that new voices are included in the decisionmaking process.
    I represent the Preservation Trust of Vermont, one of those new 
voices. Let me explain a bit about who we are and what we do.
    At the beginning of 2000, National Geographic's Traveler Magazine 
published a special Millennium issue . . . The World's 50 Greatest 
Destinations. It recognized the Grand Canyon, the Great Wall in China, 
Venice, and the Lake District in England as places of a lifetime . . . 
special places you wouldn't want to miss if you had the choice. In 
North America just nine places were designated . . . and Vermont was 
one of them.
    Living and working in one of the world's 50 best places is a great 
thing. We now have the challenge of making sure Vermont is still on the 
list 50 and 100 years from now. In sum, that's the work of the 
Preservation Trust. It's not about pickling the State. It is about 
growing and changing in ways that do not undermine the essential 
character of Vermont, our communities, and our landscape. We're 
passionate about building strong downtowns and community centers, and 
putting our rich collection of historic resources to good use. We 
appreciate the small-scale nature of Vermont, and understand that mega-
sized solutions are often like fingernails scratching a chalkboard. We 
work collaboratively with community groups, local officials, other 
statewide organizations, State government, and national organizations 
like the National Trust for Historic Preservation.
    Before discussing some specific thoughts and suggestions, let me go 
back to my initial comments.
    The enactment of ISTEA in 1991 and TEA-21 in 1998 has encouraged an 
important transformation within State agencies of transportation 
nationwide. There has been a broadening of their mission from the 
important one of building roads for safe and efficient movement of cars 
and trucks to acknowledging the significant impact that transportation 
projects have on people and communities. This culture shift was due in 
no small part to the enhancements program and it is important that the 
enhancements program be continued and strengthened.
    In Vermont, building efficient and safe roads and highways still 
rightly remains the primary focus of the Vermont Agency of 
Transportation, but that is now balanced with an acknowledgement of the 
critical role transportation projects play in defining where we live 
and work and what the Vermont landscape looks like. Historically 
communities were built where the roads, navigable rivers or railroads 
went. And they have declined just as quickly when circumstances changed 
and that transportation mode or route was bypassed or discontinued. The 
link between how we build or modify our transportation infrastructure 
and the economic and social viability of our village centers and 
downtowns is just as strong today. ISTEA provided the opportunity for 
us to develop design standards that more closely relate to Vermont 's 
needs and scale. The Enhancement Program has supported community-
created projects that have improved our special places for residents 
and visitors alike. Continued progress in transportation policy and 
implementation will help us ensure that Vermont is still on the 50 
Greatest Destinations list 50 years from now. And, it will help rural 
places and small communities in every State continue to be the special 
places they are.

New Design Standards
    New transportation policy made it possible for us to develop our 
own design standards which help ensure that highway projects are 
compatible with their surroundings. The ``Vermont State Standards for 
the Design of Transportation Construction, Reconstruction, and 
Rehabilitation of Freeways, Roads, and Streets'' were developed in a 
partnership process by a committee of government transportation, 
environmental, and economic representatives and private design 
professionals. The Standards were adopted and made effective in 
November 1997.
    These State Standards encourage engineers to take more into 
consideration than just mobility and safety (which are the sole 
considerations in the AASHTO standards). There is substantial guidance 
in the Standards on what environmental, historic, and community factors 
to take into consideration in designing roads and improvements.
    The Standards make significant departures from the AASHTO Standards 
in the recommended design characteristics for all classes of highway 
without need of a design exception from FHWA. This has freed designers 
to deal more sensitively with historic buildings and environmentally 
sensitive areas. The Design Speed for a road may be the Posted Speed so 
that a road is not required to be designed much ``faster'' than the 
legal speed (AASHTO roads are regularly designed 10-20 miles per hour 
faster than posted speeds, encouraging traffic to greatly exceed posted 
speeds). Recommended roadway and bridge typicals are reduced for all 
roadway classes except freeways and principal arterials, allowing 
roads, shoulders, and clear zones to be smaller on all but the most 
traveled roads. Roads through Vermont's rural villages are allowed to 
be treated with ``Urban'' treatments, so that rather than dividing a 
village in two, a highway can be ``slower,'' more pedestrian friendly, 
and less disruptive of community life. On the least traveled roads 
(Collectors and Local Roads) historic bridges can be retained and 
rehabilitated or similarly scaled replacements built without 
substantial rebuilding and widening of the roadway and approaches.
    Although the new Standards have not eliminated all controversy 
about highway design, the majority of controversies now are about 
taking a tree rather than filling a wetland or demolishing a historic 
building, or are about new demands for environmental protection made 
since the Standards were adopted, such as increasing buffers near 
streams from 50' to 100'.

Enhancements
    The transportation enhancements program has been one of ISTEA's 
truly outstanding success stories--one that has encouraged communities 
throughout America to make use of the program's 12 activities to 
improve the aesthetics and amenities associated with travel and with 
highways, and also to build new and better partnerships with State 
transportation agencies.
    We're eager to have the program reauthorized, essentially in its 
present form and strengthened. Vermont is one of those States that has 
done a truly outstanding job of making the most of its transportation 
enhancements dollars. Vermont has won accolades from the National Trust 
for Historic Preservation and a coveted award of excellence from the 
American Association of State Highway and Transportation Officials.
    Vermont and several other States have particularly excelled in 
taking advantage of the 12 activities, especially the ones that relate 
to historic preservation and the revitalization of streetscapes and 
other transportation aspects of towns and villages. Unfortunately, many 
States still do not seem to appreciate the enormous good that it is 
possible to do for historic resources that are related to travel and 
transportation. I hope that the Environment and Public Works Committee 
can find ways to encourage these reluctant States to do more 
preservation work with their enhancement funds and to task the Federal 
Highway Administration to take steps to bring this about.
    Here's some specific information about the program's impact in 
Vermont. First and foremost, you should the fact that enhancements have 
been VERY popular in VT, both under ISTEA and now TEA-21. Initially all 
Enhancement funding was used for Bicycle Paths, but beginning in 1995 a 
selection process of applications from Municipalities and Non-Profits 
for all eligible categories was instituted. Since then over $23,000,000 
has been allocated to 172 local Enhancement projects. Included in this 
amount, the Vermont Legislature in 1999 mandated that an additional 
$2,000,000 in Federal funds (beyond the federally mandated 10 percent 
set aside for Enhancements) be awarded to projects, and in 2000 the 
Legislature mandated that an additional $1,000,000 in wholly State 
funds be dedicated to such projects.
    In Vermont Enhancement funds have been used to construct bike paths 
and new sidewalks, rehabilitate sidewalks and add pedestrian amenities 
in historic downtowns, purchase scenic farm easements, rehabilitate 
historic railroad stations, establish a historic bridge adaptive re-use 
program, rehabilitate covered bridges, conduct archeological studies, 
build visitors centers in small villages and at historic sites, plant 
street trees, erect roadside historic markers, and many other projects.
    The program also leverages greater investment by communities and 
organizations in these types of projects. Enhancement funds require a 
20 percent local match, but match rates overall are about 27 percent, 
and this figure does not include other Federal contributions to many of 
these projects.

Big Trucks
    Traffic and Trucks on the National Highway system are a big issue 
for many of our communities that are working hard to revitalize their 
downtowns and town centers. Expanding truck traffic often adds to the 
difficult challenges they already face. This is not to say that we do 
not understand the need to move goods and services about. It's really 
about balance. We can't pit community against community in this debate. 
One key step Congress can take is to pass H.R. 3132, the Safe Highways 
and Infrastructure Preservation Act.
    This legislation will freeze truck length and weight on the 
National Highway System, and close loopholes in the law that allow 
overweight trucks. This is a safety issue, and it's about maintaining 
our highway system in a sound fiscal way. In rural places like Vermont, 
we can't afford to rebuild our existing system to accommodate larger 
and larger, and heavier and heavier trucks.

Interstate Interchanges
    Vermont, like the rest of this country, has been struggling to 
minimize sprawl development that undermines the strength and vitality 
of our downtowns and community centers. Where sprawl has occurred, we 
need to address the impacts of sprawl development attracted to 
interstate exits. We have classic examples occurring outside the 
Burlington area; Williston and Colchester are two examples, where 
traffic regularly backs up on the interstate at those exits. In order 
to protect the integrity of the interstate transportation corridor, 
Vermont has been implementing a unique interstate interchange program 
and policy to both assist towns with resources to manage the growth 
attracted there (such as through access permits, design guidelines and 
local zoning techniques) but also to gain scenic or conservation 
easements on key parcels where development will be problematic.
    The Enhancements Programs need to be an important source of funding 
to achieve the goals of this interchange program, but there are 
impediments in applying the funds for the acquisition of easements 
which make it virtually unworkable. For example: Prior to making 
application to the program, we are permitted only to negotiate an 
option to purchase at a value contingent on a State transportation 
agency-approved appraisal. We cannot negotiate a purchase price or 
conduct the appraisal prior to making application, but must wait until 
being awarded the Enhancements grant. This creates an awkward ``Catch 
22'' in the middle of high stakes real estate negotiation, with high 
values and highly experienced land investors. I hope you will consider 
providing a new approach in the reauthorization bill.
    I wish to close by urging you to strongly oppose any proposal to 
weaken the invaluable protections that section 4(f) of the Department 
of Transportation Act of 1966 provides. Section 4(f) protects historic 
sites from harmful road projects unless there is no prudent and 
feasible way to avoid the harm. Despite what you might hear from 
opponents of section 4(f), it works well in many States and has plenty 
of flexibility. The notion that historic preservation reviews of 
proposed road projects are major causes of delay is ludicrous. The 
Federal Highway Administration can take responsibility for a fair, 
unbiased and thorough review of the workings of historic preservation 
reviews, and all of the other environmental reviews as well. in an open 
and inclusive forum with a view toward discovering a consensus 
approach. Historic preservationists are dead set against going back to 
the days before section 4(f) when the twin terrors of unbridled urban 
renewal and road construction combined to destroy so much of the 
country's historic resources, especially in America's cities.

Historic Bridges
    The Federal Highway Administration's Historic Bridge Program 
(Section 144(o)) has been on the books since 1987 and is greatly in 
need of revision and strengthening. First, the provision requiring 
States to do inventories of their historic bridges should also require 
that workable management plans for saving those bridges be adopted as 
well. The National Trust for Historic Preservation is estimating that 
half, perhaps more, of the inventoried historic bridges in America have 
already been destroyed. Regular maintenance can extend the useful life 
of many historic bridges and continue them in vehicular service, and 
flexibility with respect to weight, width and other geometric features 
can help as well, without any compromises with safety.
    I'd like to suggest two other specific ideas for the Historic 
Bridge Program. One, make retired historic bridges more readily 
available for pedestrians, hikers and bicyclists by doubling the 
estimated demolition costs that States can now contribute to new owners 
of these bridges and make it clear that the new owners may always be 
able to apply for transportation enhancements support. Two, I suggest 
that the Environment and Public Works Committee build on the popularity 
and success of the Jeffords' Historic Covered Bridge Program by 
creating a well-funded research and demonstration effort to find ways 
to save more of the nation's historic metal truss bridges that are 
being lost at an alarming rate.

Passenger Rail
    One final subject I would like to mention is the development of 
passenger rail in Vermont. I serve on the Vermont Transportation 
Authority which increasing has a role in building a passenger rail 
system. We believe that 25 to 50 years from now, Vermonters are going 
to need and want a cost-efficient and usable passenger rail system. 
Without such a system, we will be faced with too much highway 
congestion from the driver's perspective, and communities that are 
overwhelmed by too many trucks and cars. Building passenger rail will 
be a long process with many small steps, and we will need your support 
as we go along. We hope it will be a good partnership.
    Thanks very much for providing me with this opportunity to be with 
you today.

                               __________

    Statement of Matthew T. Sternberg, Executive Director, Rutland 
               Redevelopment Authority, Rutland, Vermont

I. Introduction
    Tucked in the mountainous terrain of northern New England, Vermont 
has traditionally been home to rugged family farms, quarrying and 
manufacturing. And railroads. A principal corridor connecting Boston, 
Montreal and Chicago, the western side of Vermont saw significant 
freight and passenger service from the mid-19th to mid-20th century. 
This traffic was channeled through major switching yards in the cities 
of Rutland and Burlington.
    Vermont has seen its manufacturing base gradually replaced by 
service businesses, notably in tourism. This is logical but risky; 
tourism can fall prey to economic shifts, changes in customer 
preferences and, in the case of ski resorts, even the weather. The 
regional economy is healthier and more stable if it is not overly 
dependent on any single business sector, especially one as volatile as 
tourism. It is good policy to balance tourism jobs with industrial and 
commercial jobs.
    Industrial development requires good transportation infrastructure. 
As is the case in many rural States, Vermont faces the challenges of 
access and mobility. A key issue for western Vermont is lack of an 
interstate highway. Truck traffic is forced to use small State and NHS 
highways, which in Vermont still have cattle crossings. Small towns 
along the way--the very towns so important to tourism--suffer the 
congestion. Travel times and permit restrictions discourage many 
shippers from serving the State. As these problems grow, the State is 
rethinking the role of rail in the transportation mix.
    Western Vermont will never have an interstate highway. Instead, the 
economic future of the region depends on the creative enhancement of 
two existing transportation modes: the National Highway System (U.S. 
Route 7) and rail. The two run parallel for 150 miles from Bennington 
in the south to the Canadian border in the north. The rights-of-way for 
both rail and highway have existed for many generations. Towns and 
cities along the routes have developed in response to this 
infrastructure, so enhancement of the corridor for redevelopment 
purposes will naturally focus economic activity in these traditional 
business centers. This forms the basis for an effective smart growth 
strategy.

II. Statement of Objective
    This testimony considers designation of National Highway System 
(NHS)/Railway Corridors as a tool to address transportation access and 
smart growth in rural areas not served by interstate highways.
    NHS/Railway Corridors are a cost effective, environmentally and 
socially responsible alternative to new highway construction in areas 
where such construction is not feasible.

III. Rationale
    In rural areas, the NHS/Railway Corridor concept provides a model 
that accommodates smaller scale, local improvements that, in the 
aggregate, will add up to a system that works. The NHS/Railway Corridor 
helps define the big picture for a region while allowing each community 
to pursue the individual projects that are right for their situation.
    In their position on smart growth adopted in 2000\1\, the American 
Economic Development Council states:
---------------------------------------------------------------------------
     \1\``Economic Development and ``Smart'' Growth; The AEDC 
Perspective on Smart Growth and Economic Development'', by the American 
Economic Development Council; Economic Development Review, Vol. 17, 
Issue 4, Fall 2001.
---------------------------------------------------------------------------
    ``Although Smart Growth is a national movement, in practice its 
implementation occurs only in local communities and jurisdictions. 
Local communities not only consist of a single jurisdiction, but 
include regions as well.''
    The transportation needs in western Vermont demonstrate the wisdom 
of this view.
IV. The Western Vermont Corridor
    The U.S. Route 7 highway/ rail corridor in western Vermont 
traverses Bennington, Rutland, Addison, Chittenden, Franklin and Grand 
Isle Counties, serving 334,257 Vermonters, 55 percent of the State's 
population\2\. Both of the State's largest incorporated cities--
Burlington and Rutland--are situated along the route.
---------------------------------------------------------------------------
     \2\U.S. Census 2000 figures reported on FedStats' online 
statistics clearinghouse, MapStats; www.fedstats.gov
---------------------------------------------------------------------------
    Initially, the Western Corridor is configured around several key 
projects:

    <bullet>  Amtrak service from Albany, NY to Burlington via 
Bennington and Rutland.
    <bullet>  Relocation of the Rutland and Burlington switching yards 
to allow expanded downtown development.
    <bullet>  A series of highway improvements along U.S. Rt. 7, 
including major projects in Brandon and Pittsford, and in Rutland City 
and Rutland Town.
    <bullet>  Construction of a rail siding in Middlebury to serve the 
calcium carbonate quarry and reduce truck traffic in Brandon and 
Pittsford.

    While these were initially pursued as individual projects, all 
share common themes and serve each other's purposes. Specifically, all 
are located along the corridor defined by U.S. Rt. 7 and the Vermont 
Railway line. All seek to improve existing infrastructure to offset the 
lack of interstate highway access. All seek to maximize creative 
redevelopment of traditional town centers and established industrial 
districts, serving the objectives of smart growth.
    By treating these projects as part of an integrated corridor 
instead of as competing ``stand alone'' improvements, we can better 
understand the contributions of each to the whole and more efficiently 
allocate resources.

IV. Transportation Goals: Access and Mobility
    The corridor strategy encompasses two transportation modes with 
different but overlapping issues.
Highways
    <bullet>  Roadway alignments that do not support the volume of 
traffic.
    <bullet>  Heavy traffic in pedestrian-oriented downtowns.
    <bullet>  Commercial access that is not competitive with other 
markets in the region.
Railways
    <bullet>  Haz-mats shipped through and switched near population 
centers.
    <bullet>  Grade crossings.
    <bullet>  Old bridges with insufficient weight capacity and 
underpasses with insufficient clearance.
    <bullet>  Difficulty in limiting pedestrian and vehicular flow near 
switching operations located in population centers.
    <bullet>  Difficulty in guaranteeing speedy, reliable delivery 
times because of poor track conditions and inefficient switching.
    The following sections discuss how a corridor strategy could 
improve these conditions.

Highways
    The course followed by U.S. Rt. 7 has been the main north-south 
highway corridor for the west side of the State since the area was 
first settled in the 18th century. Running along the valley floor west 
of the Green Mountains, the highway was the natural site for towns 
where mills could be established or east-west highways could cross 
through mountain passes.
    These towns remain the heart of Vermont's communities, and they are 
at risk from the increased use of the highway. The size of trucks 
passing through has become a contentious subject for smaller towns 
whose stock in trade is selling tourists a piece of Old Vermont.
    Local trucking is not the only concern. Interstate and 
international trucking from New York and Quebec place a heavy burden on 
Vermont highways while contributing little to the region's economy. As 
crossing the border has become more time consuming since the September 
11 terrorist attacks, Canadian trucks are detouring through Vermont's 
smaller border crossings and traveling south on U.S. Rts. 7 and 22. 
These interstate trucks are damaging foundations of historic buildings 
along the route and putting more wear on the highways that the State 
can afford to repair.
    Highway issues addressed by NHS/Railway Corridors include:

    <bullet>  Decreasing volumes of freight traffic through small towns 
and villages by transferring capacity to rail.
    <bullet>  Establishing convenient, cost effective opportunities to 
transfer freight from truck to rail by developing localized intermodal 
facilities.
    <bullet>  Improving safety by reducing congestion.
    <bullet>  Reducing the levels of nitrogen oxide, carbon monoxide, 
volatile organic compounds and diesel particulates emitted during the 
transport of commercial goods.

Railways
    The railways of western Vermont operate on rights-of-way 
established in the mid-19th century and have been used continuously 
since. While the routes exist, maintenance was deferred for decades as 
society debated whether or not it was worth investing in the future of 
rail. Today, concerns ranging from the cost of construction to 
containing sprawl lend new credence to the use of rail.
    Vermont showed an early commitment to this potential by purchasing 
the main rail line when the original private operator went out of 
business. With both the NHS highway and the rail line under State 
ownership, there is a clear channel for an integrated transportation 
plan.
    Rail issues addressed by the NHS/Railway Corridor include:

    <bullet>  Deteriorated rail beds and substandard rail will be 
upgraded.
    <bullet>  Bridges, some more than 100 years old, will be improved 
to bear the weight of modern freight cars.
    <bullet>  Low clearances on a handful of bridges and tunnels will 
be raised to accommodate double-stacked rail cars.
    <bullet>  Commercial and industrial customers along the line will 
build sidings.
    <bullet>  Obsolete switching facilities such as the Burlington and 
Rutland railyards will be moved and expanded to increase capacity and 
operating efficiencies.
    <bullet>  Inferior rail to truck intermodal facilities must be 
improved.

V. Environmental Benefits and Energy Conservation
    The preceding sections have described the commercial benefits of 
nimbleness in the transportation system. However, there are also 
significant environmental and energy benefits to be drawn from 
increased use of rail. A report by Worldwatch Institute of Washington, 
DC cites two advantages of particular interest:\3\
---------------------------------------------------------------------------
     \3\``Back on Track: The Global Rail Revival'', by Marcia D. Lowe; 
Worldwatch Paper 118, April 1994; Worldwatch Institute, Washington, DC.

    <bullet>  An intercity passenger train is three times as energy-
efficient as commercial air and six times as efficient as a car with 
one occupant.
    <bullet>  For every ton of goods moved one kilometer, freight rail 
emits one-third the nitrogen oxide and carbon monoxide, and one-tenth 
the volatile organic compounds and diesel particulates emitted by heavy 
trucks.

    This proposal does not suggest that all freight can or should be 
moved to rail; that is not a realistic proposition. However, we do have 
multiple instances--individual localized needs--that point to an 
enhanced role for rail.
    In the near-term there will be no big multimodal facilities in this 
rural area of Vermont, just individual businesses and groups of 
businesses making localized use of the system. However, with the 
infrastructure available, the potential exists for future intermodal 
development. Improved switching yards in Burlington and Rutland will 
ensure that the corridor has sufficient capacity for growth.
    As a practical matter, policymakers must recognize that investing 
in rail infrastructure complements investments made in highways. Where 
no interstate highway exists, the combined improvement of both railways 
and highways in NHS/Railway Corridors is required to serve many rural 
areas with a competitive transportation system. This policy also 
emphasizes maximum use of the existing infrastructure in a way that 
generates significant environmental and energy conservation benefits.

VI. Economic Development Goals
    A central mission of the transportation system is to facilitate 
trade. Tourism will certainly benefit from better accessibility by 
passenger rail, but the greatest potential for rail is in manufacturing 
and distribution. Many of Vermont's towns and cities grew up along rail 
lines, and their traditional commercial districts are oriented toward 
the tracks. Many of these parcels went fallow when rail declined in the 
mid 20th century, and are prime candidates for redevelopment as the 
NHS/Railway Corridors improve their access.
    Rail improvements serve two important statewide economic 
development objectives: industrial clustering and downtown 
revitalization. The rail lines provide an opportunity to tie together 
businesses located in traditional business districts while moderating 
the growth of traffic on the highway system. Since many of the region's 
commodities move by rail, it is practical to cluster related businesses 
along the same rail corridor. This is not intended to replace trucks 
but rather to reduce their impact by balancing the load between 
multiple modes.
    In the case of the quarry operation discussed above, purchasers of 
their product--crushed calcium carbonate--will be able to locate close 
to the source of the raw material, reducing shipping costs and highway 
congestion. Without proper transportation infrastructure, the value 
added benefit of the resource will be lost when the product leaves the 
State for further processing.
    In order to succeed in capturing the inherent value of native 
resources, economic developers must revitalize an infrastructure that 
has become materially obsolete. But it is not functionally obsolete. 
With proper upgrades and enhancements it can continue to serve the 
districts it was originally designed to serve.
Public Benefit
    We must recognize that the corridor concept addresses both 
passenger and freight traffic. Historically we have been reluctant to 
invest public funds in freight railroads owned by private interests. 
The fact that the improvement would help the commercial concern was 
interpreted as a private benefit and not a public benefit. In 
considering the objectives of smart growth, we must look beyond 
traditional definitions of benefit.
    A striking example is found along our corridor, where stone 
quarried in Middlebury is trucked to a processing plant in Florence. 
Because trucks carrying the stone pass through downtown Brandon, the 
State has limited the number of trucks that can pass through that 
downtown each day. As a result, the company has an artificially imposed 
cap on its production capacity, and more than a hundred million dollars 
in capital investment that would have created jobs in Vermont has gone 
to plants in other States and Canada.
    An initiative is under way through a public/private partnership to 
build a siding from the quarry to the rail line, enabling the rock to 
be shipped by rail. This will reduce truck traffic in Brandon while 
allowing the company to grow at its natural pace, creating jobs as it 
does so. Providing the transportation alternative for the company 
improves the quality of life in Brandon. This constitutes a bona fide 
community benefit.

VIII. Cost Benefits of NHS/Railway Corridors
    Transportation is expensive. Drawing exact comparisons between 
projects is difficult because unit costs vary greatly according to 
engineering requirements, acquisition and relocation costs, and a host 
of other factors.
    In Western Vermont figures do exist for two projects in the 
Bennington to Rutland NHS/Railway Corridor that indicate a significant 
cost benefit to upgrading the existing NHS and rail lines. A 1997 DEIS 
(Draft Environmental Impact Statement) evaluating the cost of building 
a bypass around Rutland City studied several alternate routes\4\. These 
ranged in cost from $49 million to $183.5 million. The alternative 
preferred by the City cost $61.5 million to construct 8.1 miles of 
highway for an average cost of $7.59 million per mile, exclusive of 
right-of-way acquisition and relocation costs.
---------------------------------------------------------------------------
     \4\See ``Rutland DEIS Summary'' FHWA-VT-EIS-97-01-D, Rutland FEGC 
419-3(44)-EIS, Vermont Agency of Transportation, December 1997.
---------------------------------------------------------------------------
    The recent Amtrak analysis of upgrading the rail line from 
Glenville Jct., NY to Winooski, VT estimated the cost at $76.5 million 
dollars for approximately 166 miles of track, an average cost of 
$460,000 per mile\5\. As the rail right-of-way is already assembled, 
the cost estimates may be compared with the bypass estimates that do 
not include right-of-way acquisition.
---------------------------------------------------------------------------
     \5\``Vermont Western Corridor Study, Final Report'' National 
Railroad Passenger Corporation, December 1, 2001
---------------------------------------------------------------------------
    Additional corridor costs will be incurred for the Rutland railyard 
relocation and Middlebury spur (estimated $120 million) and other 
upgrades to U.S. Rt. 7 (say $50 million over time). Even with these 
added to the Amtrak estimate the corridor improvements would average 
$1.49 million per mile, compared with $7.59 million per mile to bypass 
a single community.
    While the DEIS indicated a high number of automobiles to be served 
by the bypass, it says nothing of how that traffic would get to the 
bypass--i.e. using the existing NHS highways. The improvement would 
reduce travel times in one segment of the corridor but would not serve 
to balance traffic between locations along the length of the corridor. 
It would not improve intermodal connectivity.

IX. Examples of Corridor Projects in Action
Rutland Railyard Relocation
    A 1999 study by the Vermont Agency of Transportation assessed 
possible relocationsites for both the Burlington and Rutland switching 
yards. In both cities, prime downtown properties are occupied by 
tracks, impeding development in the traditional growth centers. Also, 
the projected growth in freight traffic will soon surpass the capacity 
of the existing yards. A suitable site was identified in Rutland.
    Since 2000, conceptual design work and environmental assessments 
have been under way in Rutland. The new site promises many benefits: 
switching capacity will increase, the switching function will be 
removed from an older mixed use neighborhood near downtown, a new 
access road will reduce congestion on U.S. Route 7, a major gateway 
corridor into downtown Rutland will be improved, and multiple 
redevelopment sites will become available in the traditional business 
districts adjacent to downtown. Relocating the railyard will eliminate 
a major grade crossing that would limit Amtrak service. All in all, 
this is smart growth at its best.

Passenger Rail Service
    While the interstate highways serve the eastern side of Vermont, 
most of the population centers are located in the west. Amtrak recently 
completed a study of the western corridor\6\ and recommended a route 
from Schenectady, NY serving Bennington, Manchester, Rutland, 
Middlebury and Burlington.
---------------------------------------------------------------------------
     \6\See ``Vermont Western Corridor Study, Final Report'' prepared 
by National Railroad Passenger Corporation (AMTRAK), December 1, 2001.
---------------------------------------------------------------------------
    The population centers and tourist destinations in Western Vermont 
are particularly vulnerable to competitive challenges from areas served 
by interstate highways. As the State's economy becomes increasingly 
dependent on tourism, ease of access becomes even more important. A 
skier in New York City can board an airplane and be in Utah in 5 hours. 
Unless that customer can reach Vermont resorts in a comparable 
timeframe, the business will go to Utah. As the State works to attract 
high tech, communication-driven businesses, travel time to the major 
regional markets becomes a key competitive issue.
    Amtrak service to New York will serve both purposes. With its 
potential for further connections into Canada, Vermont is, in 
actuality, a logical northern anchor for the northeast rail corridor.

Highway Improvements
    The increased flow of interstate truck traffic is exacerbating 
already congested conditions in several smaller towns along the Rt. 7 
corridor, most notably Brandon, Pittsford and Middlebury. Accident--and 
fatality--rates are high in this area. A coalition of citizens, local 
elected officials, State legislators and the State transportation 
agency has proposed a program to upgrade selected sections of the 
highway and study the feasibility of local bypasses.
    Further south, Rutland City and Rutland Town have teamed up with 
the State to propose a series of upgrades to the Route 4 and 7 
corridors in the Rutland area. This project was undertaken when the 
State canceled a bypass proposal for cost and environmental 
considerations.
    In both projects the emphasis is on improving the existing highway 
in an area not served by an interstate. In Rutland the proposal 
highlights the relationship between the highway project and the rail 
improvement: the access road proposed to serve the new railyard will 
also divert significant truck traffic from the most congested segment 
of U.S. Rt. 7.

Middlebury Spur
    This project clearly illustrates the intermodal potential of the 
corridor. In Middlebury, a major commercial shipper is stymied in 
achieving full production capacity because stone quarried at a site 
north of Brandon must be moved through the town by truck to reach the 
plant that processes it into calcium carbonate slurry. Citing 
aesthetics, State permits limit the shipper to 116 trucks per day on 
U.S. Rt. 7 through the town; the company's capacity is 175 trucks. Thus 
a significant amount of production--and the investment and jobs that go 
along with it--are lost to the community because of the condition of 
the highway.
    As a condition of the land use permit the parties formed a task 
force to work out a solution. Vermont Railway, the Vermont Agencies of 
Transportation and Natural Resources, the private corporation, and the 
Conservation Law Foundation, a leading environmental assess a proposed 
rail siding to be built by Vermont Railway (VTR) from the quarry to the 
main rail line that runs parallel to Rt. 7. This will allow VTR to 
accept shipments of stone for transfer to the processing plant while 
reducing the need to move 25,000 to 30,000 trucks per year through 
Brandon. Intermodal facilities installed at the processing plant will 
complete the connection. The private company has pledged to pay for 
intermodal facilities required to handle their project by rail. This is 
estimated at about one third of the total project cost.
    The success of this interdisciplinary planning effort illustrates 
the caliber of problem solving possible if the transportation system is 
viewed as a unified corridor.

                               __________
                               MEMORANDUM

    To: Senator James Jeffords, Chairman, Committee on Environment & 
Public Works, U.S. Senate

    From: Patricia Crocker, Executive Director, Vermont Public 
Transportation Association

    Date: August 19, 2002

    Subject: Testimony on Transportation Funding

    Attached is testimony that I would like to present on Wednesday, 
August 21, 2002 at the hearing in Vermont. Unfortunately, I received a 
copy of a letter to Rep. Pembroke third hand late on Thursday and did 
not receive any direct notice of the meeting; therefore, my testimony 
is of necessity brief.
    Thanks for the opportunity to present this information.
    We are very grateful for the interest and the other members of your 
committee have taken in rural public transportation.
    Across the Nation, the low level of Federal budgetary support for 
rural public transportation is an ongoing problem. Population-based 
Federal 5311 formula funds are minimal in Vermont. The lack of 
financial support is particularly acute in its impact on the disabled, 
low-wage workers (often single parents) who must not only seek job 
related transportation, but also work out the logistics of getting 
children to and from childcare, and our elder population who can no 
longer drive their own vehicles. Many of our citizens most in need of 
services and economic opportunities are dispersed into communities 
where housing costs are more affordable. Thus, the need for adequate 
transportation that provides mobility and access to goods and services 
is more acute in our rural areas yet this need is overlooked in favor 
of a strategy that is focused primary on alleviating congestion.
    In Vermont, the Job Access and Reverse Commute funding has provided 
the first opportunity for expansion of services in nearly 4 years. The 
funding that you have provided in an annual earmark has been central to 
providing community bus service to areas previously underserved and in 
some cases forms the locus of service for an entire community, i.e. 
Middlebury. Although this initiative has targeted a need for 
transportation for low wageworkers, it has provided additional and 
expanded service that has been of benefit to the entire community, 
including disabled and the independent elderly who choose not to be 
involved in ``programmatic services.'' The program has been successful 
in meeting these broad community needs.
    Vermont's Federal formula appropriation 5310 funding for 
transportation for the disabled and elderly persons is also minimal. 
The program, essentially a capital program is used in Vermont for both 
vehicle purchases and for the purchase of services through public 
transportation operations. Although the State Agency of Transportation 
has flexed a significant amount of funds to enhance the 5310 program, 
many needs continue to be unmet. And the opportunity to use funds for 
vehicle purchases is often passed over because neither human service 
nor non-profit transit organization can meet the requirement for 10 
percent match.
    Because the Federal formula provides so little funding, much of our 
additional revenue is obtained through the use of Federal STP funds. 
This puts all public transportation services in direct competition for 
the same funds that are used for roadway projects. The State public bus 
transportation budget for fiscal year 2003 is about $13 MM dollars. 
This represents just 4 percent of the entire State transportation 
budget.
    Solving the problem of inadequate public transportation in rural 
areas will require new funding and new rules that will enhance 
coordination of services to benefit the entire community and that will 
eliminate rules that arbitrarily restrict services by groups such as 
the elderly, the disabled or welfare-to-work clients, and school 
children. A funding program that offered the opportunity to serve a 
variety of community needs rather than discrete groups has the greatest 
potential for efficiently and effectively meeting the broad demand and 
to further the public policy objective of maximizing public investments 
in transportation systems.
    We understand that Senator Baucus has or will introduce a bill to 
provide a $5 million dollar State minimum for all 5311 programs, a $5 
million dollar minimum for small urban systems (50,000--200,000 
population) and a $1 million dollar minimum for the 5310 program and 
provisions that would allow the 5310 program funds to be used for 
operating expenses. This initiative holds the promise of some much 
needed Federal support for the initiates in rural States like Vermont 
and will greatly improve our situation as long as they are not used to 
supplant the limited State funding already committed to this activity.
    Finally, I want to thank you and the members of your committee for 
this opportunity and look forward to working with you as you proceed in 
the reauthorization process.
            Respectfully submitted,
                                       Patricia C. Crocker.

                               __________

   Statement of Stephanie Carter, Acting Commissioner of the Vermont 
                  Department of Tourism and Marketing

    Mr. Chairman, Members of the Committee, thank you for holding this 
hearing in Vermont, especially with regard to the unique transportation 
needs of small towns and rural America.
    My name is Stephanie Carter and I am the Acting Commissioner of 
Tourism and Marketing for the State of Vermont.
    Vermont's rural landscape, steeped in history, rich with scenic 
beauty and alive with recreational activities, is also challenged in 
its ability to parlay information to the traveling public in a way that 
does not compromise these characteristics. Domestic visitors to Vermont 
spent $2.6 million in Vermont in 2000 and left an impact of $4.2 
billion on the Vermont economy. Tourist expenditures annually 
contribute 75,241 jobs and generate $1.4 billion in personal income for 
Vermonters.
    Vermont led the Nation in 1968 to address the proliferation of 
roadside billboards with the passage of a comprehensive travel 
information program, the twin goals of which were to preserve scenic 
beauty and to provide meaningful information to the traveling public. 
Many aspects of this program relied upon the construction of travel 
plazas and upon the erection of official business directory signs.
    As the end of the century approached, aspects of this program began 
to show signs of a need to renew the 30-year-old program. With the 
assistance of the Federal Highway Administration, we embarked on a 
comprehensive study of solutions. In the end, we largely concluded the 
solutions to effective travel information lie in new technology rather 
than the continued proliferation of road signs and travel plazas.
    It was by this process that Vermont entered the Rural ITS Program. 
With funding provided by the Federal Government, matched with State and 
local funding, the State of Vermont has implemented a comprehensive 
business registry data base consisting of the products and services 
offered by Vermont businesses; developed a website known as the Vermont 
Travel Planner; has developed electronic kiosks at a number of Vermont 
Welcome Centers; and has developed technology for en-route navigation. 
Within the development process, we have worked with transportation and 
tourism partners from New Hampshire and Maine to develop a regional 
tri-State system known as TRIO and have worked within Vermont to 
integrate the needs of our statewide and regional marketing partners. 
In other words, we have had much experience with the Rural ITS Program 
and we have been very happy with what we have been able to accomplish 
for the people of Vermont as well as our visitors, to date.
    I am here to today to suggest changes, based on our experience, to 
enhance the Rural ITS Program.

    1. Reconsider the 50/50 match requirement. In our experience as a 
small rural State with a relatively small budget, the 50/50 match 
requirement is becoming increasingly prohibitive as State budgetary 
pressures intensify. Progress on ITS will slow if the ratio is not 
brought in line with other federally funded projects. Frankly, this 
project competes within a budget against projects that receive 80/20 
funding and 90/10 funding, with predictable results. ITS can also 
represent significant cost savings through collaboration and sharing of 
best practices. We recommend that Federal funding of ITS projects be 
100 percent (based upon the cost saving potentials) or at least 90/10 
to enhance their competitive advantage with other programs.

    2. Continue and encourage regional control of ITS. Rural ITS is a 
regional solution, uniquely designed for the landscape in which it is 
to operate. We have a complex but excellently functioning regional 
project among three States that is working very well. Local Federal 
Highway Administrative support has been excellent, but it has often 
been hampered with delays and misunderstandings when headquarters 
becomes involved at the detail level. We recommend that project 
oversight remain with the District Offices and that there be less 
hands-on control by headquarters.

    3. Maintain the autonomy of the ITS program within FHWA. Civil 
engineering principles do not always translate to technology projects. 
ITS projects are, by definition, information technology rather than 
traditional technology used for transportation project construction. 
Due to the speed of technological change, with an average generation 
lifespan of 18 months, change, fast response, and agility are the rule. 
The ITS program needs to enhance its pool of technology experts within 
FHWA and to encourage training of ITS staff to insure that the program 
can remain contemporary.

    4. Remove the barrier to Metropolitan Planning Organization (MPO) 
integration into a Rural ITS Project. When planning, designing and 
implementing comprehensive regional ITS solutions, the current rule 
that disallows Rural ITS implementation in an MPO jurisdiction leads to 
inefficiency. The MPO boundaries, particularly in rural States such as 
northern New England, are sometimes arbitrary and in fact include large 
amounts of essentially rural landscape. Rural ITS projects must often 
interrupt corridor-long deployment because of intervening MPOs, even 
when the lowest-cost option would be to pursue the deployment through 
the MPO region. Relief from this programmatic encumbrance would 
streamline project implementation and avoid artificial gaps that 
``leapfrog'' MPO geography in primarily rural regions. We recommend, 
with appropriate review and approval, Rural ITS project deployment in 
an MPO when it can be demonstrated that a truly regional rural approach 
will suffer from MPO ``blackout''.
    Thank you for your consideration.

                               __________

Statement of Mary Tracy, Executive Director, Society Created to Reduce 
                              Urban Blight

    Mr. Chairman, I am Mary Tracy, executive director of SCRUB, Society 
Created to Reduce Urban Blight, a Philadelphia based non-profit 
organization dedicated to preserving Philadelphia's scenic environment. 
On behalf of our Board and members we appreciate the opportunity to 
present written testimony on the re-authorization of TEA-21. We thank 
Congress for having the foresight to establish TEA-21, which has 
benefited travelers, residents of communities large and small, and 
local businesses and ask that you re-authorize TEA 21.
    We urge Congress to preserve all categories of enhancement funding 
including funding of billboard removal and acquisition of scenic 
easements. SCRUB has worked with civic associations throughout the 
Philadelphia region and we know that municipalities are interested in 
improving important gateway areas in an effort to attract new business 
and residents to the region. Unfortunately, many of these areas lack a 
pleasing visual appearance sometimes as a result of the intrusion of 
billboards. This category of enhancement funding provides important 
resources for communities to visually enhance these gateway areas. We 
ask that you continue to provide funding for this need. We also ask 
that you resist any efforts by the billboard industry in TEA-21 re-
authorization to further tamper with the Highway Beautification Act of 
1965 or the Bonus Act. These laws badly need to be overhauled, but they 
require a level of attention not possible or desirable in such a 
complex bill as TEA-21. We recommend a thorough congressional inquiry 
in 2004.
    ISTEA and TEA-21 have led to stronger communities; transportation 
systems that work with the land and a reawakening of a sense of place 
throughout both rural and urban America. As the chair of the Overbrook 
Train Station's Restoration Committee, I saw first-hand the positive 
effect of ISTEA enhancement funding. Residents welcomed the opportunity 
provided by the 1991 ISTEA to restore an important neighborhood 
landmark, which, though well used by commuters, had become an eyesore 
and a dismal reminder of the once glorious days of the railroad. ISTEA 
funding provided the seed money to launch the station's restoration and 
at the same time restored our community's pride in place.
    ISTEA and its successor, TEA-21 have enabled citizens to 
participate in local and regional transportation priorities on an 
important level and has improved the quality of life in communities 
throughout the country. We urge Congress to take steps to improve TEA-
21 for the future and to continue to fully fund this vital, pro-citizen 
program.
    Thank you for your consideration,

                               __________

          Statement of Meg Maguire, President, Scenic America

    Mr. Chairman, I am Meg Maguire, President of Scenic America. On 
behalf of our Board and members we appreciate the opportunity to 
present written testimony on the re-authorization of TEA-21. We are 
proud to have been associated with this legislation for the past 13 
years. Scenic America is a founding member of the Surface 
Transportation Policy Project, the coalition that helped gain new 
transportation solutions to benefit communities including the National 
Scenic Byways Program; Transportation Enhancements; and programs 
affecting air quality, land use planning, and much more. We thank 
Congress for these far-reaching programs which have benefited 
travelers, residents of communities large and small, and local 
businesses.
    Scenic America is a national, nonprofit organization that helps 
communities nationwide protect their scenic beauty and distinctive 
community character. We have 10 State affiliates and 15 associate 
organizations throughout the country. We are dedicated to the 
proposition that change is inevitable; ugliness is not.
    In re-authorization of TEA-21, Scenic America urges Congress to 
take the following steps:
    <bullet>  Increase and make entirely merit-based the funding for 
the National Scenic Byways Program; and continue eligibility for State 
scenic byways programs.
    <bullet>  Mandate that all federally funded highway projects be 
planned according to the simple and well-established principles of 
context-sensitive highway design (CSD) and that they promote physically 
active communities;
    <bullet>  Preserve all categories of enhancements funding including 
funding for billboard removal and acquisition of scenic easements;
    <bullet>  Approach environmental streamlining as an administrative 
issue rather than a legislative issue that would weaken the key 
environmental laws that now ensure citizen participation and expert 
study of proposed transportation projects; and
    <bullet>  Resist any efforts by the billboard industry in TEA-21 
re-authorization to further tamper with the Highway Beautification Act 
of 1965 or the Bonus Act. These laws badly need to be overhauled, but 
they require a level of attention not possible or desirable in such a 
complex bill as TEA-21. We recommend a thorough congressional inquiry 
in 2004.

Scenic Byways
    The National Scenic Byways program works. The Program now boasts 75 
National Scenic Byways and 20 All American Roads. Communities come 
together to develop a corridor management plan to protect outstanding 
natural, historic, cultural and scenic resources; and to strengthen 
local businesses by promoting tourism. The Byways program is highly 
popular with the 46 participating States plus the District of 
Columbia--an ideal partnership between Federal, State and local 
governments, non-profit organizations, and the business community.
    Last December, at the10th Anniversary Celebration of the National 
Scenic Byways Program the byways community, primarily but not 
exclusively people from small towns and rural America, came together to 
share successes and plan for the future. The meeting affirmed the high 
performance we have witnessed in the program:

    1. Byways produce profits. Many small businesses have begun and 
flourished along scenic byways. In rural Arkansas along Crowley's 
Ridge, there are 17 new tourist-oriented businesses plus a new 
Hemingway-Pfeiffer Museum. In Vermont, the proprietor of the Strong 
House Inn testified to her direct profit from working with other 
business owners in New York and Vermont to promote the full length of 
the Lake Champlain Byway.

    2. Byway grants leverage significant funds from other sources. The 
San Juan Skyway in Colorado received a $6,800 scenic byways grant and 
additional funding to complete a $39,000 plan. To implement the plan, 
the participating counties, a college, several nonprofit organizations, 
the U.S. Forest Service, and the State of Colorado raised over $6 
million to preserve mining and railroad sites. And in Wisconsin, along 
the Great River Road, byways grants are helping leverage funds for 33 
interpretive kiosks and the Great River Road Scenic Byway Learning 
Center.

    3. Byways protect, market, and interpret six irreplaceable 
resources--scenic, historic, cultural, archaeological, natural, and 
recreational. Scenic easements and billboard removal funding has helped 
maintain beautiful views along a number of corridors. Byways 
communities are recognizing and restoring natural resources along byway 
corridors; and interpreting local history and culture along these 
regional corridors. Cyclists and hikers are finding new opportunities 
to enjoy recreation along the byways too.

    4. The National Scenic Byways Program is a bottom-up program in 
which designated roads are recognized and put forward by the States. 
The foundation of the national program is at the State level. All 
national scenic byways must first be part of a State scenic byways 
system (46 States participate including those represented by most 
members of this committee). That means that in States like Alaska, 
Wisconsin, Minnesota, and West Virginia significant resource protection 
and economic development are occurring as a direct result of the State 
initiated scenic byways. Therefore, in TEA-21 re-authorization, it is 
important that States continue to be eligible for grant support to 
build the programs within their States.
    I also want to commend the FHWA and America's Scenic Byways 
Resource Center in Duluth, MN for providing strong technical support 
and a fair process in running this program. We believe that the current 
administrative and assistance arrangement should continue and be 
strengthened in the years ahead. If all Federal programs could show 
beneficial results comparable to the National Scenic Byways Program, 
the American people would have much greater confidence in the use of 
their tax dollars.
    The National Scenic Byways Program merits substantially increased 
funding as it grows and continues to yield community benefits. Scenic 
America fully recognizes the tight financial constraints Congress faces 
in funding this bill. Our research included information from FHWA and 
several States to develop what we believe to be a conservative and 
defensible estimate of the increases in program re-authorization.
    Under ISTEA the program received a total authorization of $80 
million over 6 years. Under TEA-21, funding has been approximately $25 
million/year for a total $148 million over 6 years. Each year the FHWA 
rejects an average of 60 percent of total funding requests. According 
to officials in the FHWA and several States, there is an extensive 
screening program at the State level, so FHWA is truly picking the best 
of the best. Virtually all of the proposals should and would receive 
grants if funds were available. Our recommendations on funding levels 
take into account the following:

    <bullet>  current unmet demand;
    <bullet>  the recent addition of Mississippi to the prog;
    <bullet>  the increase of nationally designated byways to 95 in 
June 2002; and
    <bullet>  growing political pressure for State byways programs in 
Texas and Pennsylvania.

    Based on our research we believe that there is ample justification 
for an increase in funding beginning at $57 million in fiscal year 
2004, increasing by $2 million each year to account for inflation and 
modest new additions to the system up to $67 million in fiscal year 
2009. Over the 6 years of the bill the total authorization level would 
be $372 million.
    Finally, we must comment on an effort last year to transform the 
National Scenic Byways grant program from a purely merit-based program 
to an earmarked program, with all the funds going to congressionally 
selected projects in particular States. Cries of distress went up from 
many grant applicants who have played by the rules and were under 
consideration for funding. Was all of their painstaking work on 
corridor plans, leveraging of resources, and grant applications for 
naught? How was it possible for Congress to snatch away a merit-based 
program with such a fine record of achievement? Scenic America, the 
American Recreation Coalition and the National Trust for Historic 
Preservation vigorously opposed that effort. In the end, with $8.5 
million of the approximately $25 million in byways funding falling to 
earmarking, about $16.5 million was awarded to merit-based programs.
    We urge Congress to ensure that grants under the program, at 
whatever level of funding, remain based entirely on merit.
Context-Sensitive Highway Design
    Context Sensitive Highway Design (CSD) should be required in 
planning all federally funded projects. CSD is a significant 
breakthrough in transportation policy and we thank Congress for its 
past wisdom in recognizing that roads need not destroy vital resources.
    Section 1016 (a) of ISTEA permitted the Secretary of DOT to approve 
projects designed to standards that allowed for the preservation of 
historic or scenic values. The National Highway System (NHS) Act of 
1995 strengthened this emphasis on context-sensitive highway design 
with a provision in Section 304 that states:
    A design for new construction, reconstruction, resurfacing . . . 
restoration or rehabilitation of a highway on the National Highway 
System (other than a highway also on the Interstate System) may take 
into account . . . (A) the constructed and natural environment of the 
area; (B) the environmental, scenic, aesthetic, historic, community, 
and preservation impacts of the activity; and (C) access for other 
modes of transportation.
    To take advantage of this progressive and visionary Federal 
language, five pilot States--Connecticut, Maryland, Kentucky, Minnesota 
and Utah--have adopted context-sensitive design, retrained their 
project managers and engineers, and sponsored region-wide training for 
other States. Vermont and New Jersey have legislation that sets new 
standards and criteria; California has issued administrative guidelines 
and several other States are seriously considering doing so. Some 
highway engineers are getting the message that people have a deep love 
of the places where they live and want road building to respect the 
assets of their communities. Federal legislation has helped 
immeasurably to bridge this understanding.
    The results are exciting. For example, in Maryland, local public 
officials report that the State Highway Administration is working with 
communities as never before to achieve new solutions that respect both 
needs for sound community transportation and resource conservation.
    In addition, CSD promotes active communities. The Centers for 
Disease Control have identified obesity as one of the greatest threats 
to public health. Conventional transportation design, with its emphasis 
on the automobile and diminished regard for bicycle and pedestrian 
safety, promotes a lack of physical activity and thereby contributes to 
obesity, while designing transportation systems to promote physical 
activity does the opposite. For example, surveys have shown that more 
than 60 percent of all adults say they would start walking or walk more 
often if they had access to safe and secure pedestrian pathways. CSD 
would provide that access.
    Today we request that you make two small changes to the language in 
the NHS:

    1. Change the words``. . . may take into account . . . '' to``. . . 
shall take into account.'' In drafting the National Highway System Act, 
the original context-sensitive design language under consideration by 
former Congressman Bud Shuster and this committee used the word 
``shall,'' but this was changed at the last minute to ``may.'' Based on 
the evidence of the last 10 years showing greatly improved project 
results using context-sensitive design, we are convinced that no road 
should be built with Federal funding that does not incorporate context-
sensitive design principles and standards. In TEA-21 re-authorization, 
we strongly urge Congress to go with its original instinct and require 
States to incorporate context-sensitive highway design into all 
federally funded projects.
    2. Amend Section (C) to read ``access for other modes of 
transportation including those that promote physically active 
communities.'' We also strongly urge Congress to respond to the intense 
national concerns voiced by the Centers for Disease Control on the need 
to create active communities to fight obesity and heart disease by 
requiring federally funded transportation projects to promote ``access 
for other modes of transportation, including those that promote 
physically active communities.'' We believe that this addition will 
encourage the integration of national public health objectives into 
transportation planning without being prescriptive about how that is 
done.

Transportation Enhancements
    TEA-21's enormously popular Transportation Enhancements program has 
yielded benefits for thousands of communities, from small towns and 
rural counties to our nation's largest cities. Scenic America works 
with the Rails to Trails Conservancy, the American Recreation 
Coalition, and dozens of other groups to monitor and promote the 
program. Let me reinforce several recommendations from our coalition. 
We believe that Congress should:
    Protect the current funding level and allocation formula:

    I. Improve obligation rates in the States so that there is more 
timely expenditure of funds;

    II. Keep the current time-tested funding eligibility categories, 
including billboard removal and control and acquisition of scenic 
easements; and

    III. Do not open up this program to a variety of other uses not in 
line with the original intent of the program.

Environmental Streamlining
    Recently there has been much blame for project delay placed on our 
environmental laws--the National Environmental Policy Act of 1969; the 
National Historic Preservation Act, particularly Section 106; and the 
Department of Transportation Act of 1966, particularly Section 4(f). 
These laws have ensured citizen participation and thorough study of 
projects before they take place. Further, independent study of project 
delay finds many other factors that contribute including lack of funds 
for personnel to conduct reviews and to build projects. We urge you in 
the strongest terms to approach the issue of environmental streamlining 
as an administrative and appropriations issue, not as a legislative 
issue in TEA-21. We offer to work with you to examine the kinds of 
projects now subject to intensive environmental review that might 
receive less intensive review; and to make funding available to the 
States so that they have adequate personnel to review complex projects. 
Through this process, we can achieve economies for the taxpayer, timely 
benefits for communities, opportunities for all stakeholders to 
participate in the planning and design process, and insurance that the 
study process preceding public investment is thorough and based on 
expert evaluation. Let's achieve all we can through administrative 
streamlining before we consider amending laws that have served our 
country well.

Billboard Control
    Finally, we urge you to resist any efforts by the billboard 
industry or others to tamper with any aspects of current Federal 
billboard laws within TEA-21 re-authorization.
    This is not because we support current Federal law and 
administration of billboard control through the misnamed Highway 
Beautification Act (HBA) or the unfunded Bonus Act. The HBA is so bad 
and so distorted from Lady Bird Johnson's original intent that it needs 
its own studies, hearings, congressional review and new legislation. 
The billboard industry has made a joke of this law by thwarting 
communities from cleaning up their visual environment, eroding rural 
visual quality on our Federal highways, permitting cutting of public 
trees on public lands for private billboard visibility, and much more. 
I will submit for the record our 1997 report, The Highway 
Beautification Act: A Broken Law that documents the problems to which I 
have referred.
    Senator Jeffords introduced the last effort to reform the HBA in 
1997 and we are grateful for his interest in this issue. Vermont, one 
of four billboard free States, has been well-served by not having to 
deal with the billboard industry since 1978. We believe that the TEA-21 
re-authorization process is not the venue for making any changes to 
current billboard law. Instead, we hope that Congress will consider 
undertaking a thorough, fair, and open reexamination of Federal 
billboard control measures after TEA-21 re-authorization.

Conclusion
    ISTEA and TEA-21 have led to stronger communities; transportation 
systems that work with the land, not against it; and a reawakening of a 
sense of place throughout both rural and urban America. We urge 
Congress to take those steps outlined at the beginning of this 
testimony as you improve TEA-21 for the future.
    I thank you for the opportunity to share Scenic America's views.

                               __________
 
         Statement of Debbie Rohe, President, Scenic Michigan

    Mr. Chairman, I am Debbie Rohe, President of Scenic Michigan. On 
behalf of our Board and members we appreciate the opportunity to 
present written testimony on the re-authorization of TEA-21 Scenic 
Michigan is a nonprofit organization that helps communities in the 
State of Michigan protect their scenic beauty and distinctive community 
character. We have 700 members statewide. We are dedicated to the 
proposition from Scenic America that change is inevitable; ugliness is 
not.
    I want to share with you a story from one of our members, and one 
that we often hear.
    An elderly couple moves into a condominium complex in St. Clair 
Shores, Michigan and enjoy a view of the golf course and the night sky 
over their community. The couple lives in a seven-story condominium 
building. Over the next 3 years, 3 large billboards with high intensity 
lights are constructed facing their building. ``Who knows how many more 
are planned. Now we have to pull our drapes at night because the 
billboard lights are so intense. This is no way to live.''
    Communities don't have the deep pockets to fight the billboard 
companies in court, which leaves the community and it's residents with 
little power to fight this kind of blight. We know that property values 
go down when billboards go up.
    Help communities, counties and cities control the blight and the 
stray lighting that comes from billboards, with some tough legislation 
that we can use.
    Thank you.


</pre></body></html>
